<html>
<title> - HOMELAND SECURITY JURISIDICTION: THE PERSPECTIVES OF COMMITTEE LEADERS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
 HOMELAND SECURITY JURISIDICTION: THE PERSPECTIVES OF COMMITTEE LEADERS

=======================================================================

                                HEARING

                               before the

                         SUBCOMMITTEE ON RULES

                                 of the

                          SELECT COMMITTEE ON
                           HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 24, 2004

                               __________

                           Serial No. 108-42

                               __________

    Printed for the use of the Select Committee on Homeland Security


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house






                 U.S. GOVERNMENT PRINTING OFFICE

95-980                 WASHINGTON : 2004
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866)512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001


                               __________



                 SELECT COMMITTEE ON HOMELAND SECURITY



                 Christopher Cox, California, Chairman

Jennifer Dunn, Washington            Jim Turner, Texas, Ranking Member
C.W. Bill Young, Florida             Bennie G. Thompson, MississPpi
Don Young, Alaska                    Loretta Sanchez, California
F. James Sensenbrenner, Jr.,         Edward J. Markey, Massachusetts
Wisconsin                            Norman D. Dicks, Washington
W.J. (Billy) Tauzin, Louisiana       Barney Frank, Massachusetts
David Dreier, California             Jane Harman, California
Duncan Hunter, California            Benjamin L. Cardin, Maryland
Harold Rogers, Kentucky              Louise McIntosh Slaughter, New 
Sherwood Boehlert, New York          York
Lamar S. Smith, Texas                Peter A. DeFazio, Oregon
Curt Weldon, Pennsylvania            Nita M. Lowey, New York
Christopher Shays, Connecticut       Robert E. Andrews, New Jersey
Porter J. Goss, Florida              Eleanor Holmes Norton, District of 
Dave Camp, Michigan                  Columbia
Lincoln Diaz-Balart, Florida         Zoe Lofgren, California
Bob Goodlatte, Virginia              Karen McCarthy, Missouri
Ernest J. Istook, Jr., Oklahoma      Sheila Jackson-Lee, Texas
Peter T. King, New York              Bill Pascrell, Jr., North Carolina
John Linder, Georgia                 Donna M. Christensen, U.S. Virgin 
John B. Shadegg, Arizona             Islands
Mark E. Souder, Indiana              Bob Etheridge, North Carolina
Mac Thornberry, Texas                Ken Lucas, Kentucky
Jim Gibbons, Nevada                  James R. Langevin, Rhode Island
Kay Granger, Texas                   Kendrick B. Meek, Florida
Pete Sessions, Texas                 Ben Chandler, Kentucky
John E. Sweeney, New York

                      John Gannon, Chief of Staff

       Stephen DeVine, Deputy Staff Director and General Counsel

           Thomas Dilenge, Chief Counsel and Policy Director

              David H. Schanzer, Democrat, Staff Director

             Mark T. Magee, Democrat, Deputy Staff Director

                    Michael S. Twinchek, Chief Clerk

                                 ______

                         Subcommittee on Rules

                 Lincoln Diaz-Balart, Florida, Chairman

Jennifer Dunn, Washington            Louise McIntosh Slaughter, New 
F. James Sensenbrenner, Wisconsin    York
David Dreier, California             Bennie G. Thompson, Mississippi
Curt Weldon, Pennsylvania            Loretta Sanchez, California
Porter Goss, Florida                 Zoe Lofgren, California
John Linder, Georgia                 Karen McCarthy, Missouri
Pete Sessions, Texas                 Ben Chandler, Kentucky
Christopher Cox, California, ex      Jim Turner, Texas, ex officio
officio

                                  (II)
                                CONTENTS

                              ----------                              

                           MEMBER STATEMENTS

The Honorable Christopher Cox, Chairman
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
The Honorable Diaz-Balart, a Representative in Congress, From the 
  State of Florida, and Chairman of the Subcommittee on Rules
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Louise M. Slaughter, a Representative in Congress, 
  From the States of New York....................................    20
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi..................................    10
The Honorable Jim Turner, a Representative in Congress, From the 
  State of Texas.................................................     9
The Honorable Curt Weldon, a Representative in Congress, From the 
  State of Pennsylvania..........................................     7

                               WITNESSES

Committee on Agriculture
The Honorable Bob Goodlatte, a Representative in Congress From 
  the State of Virginia, and Chairman
  Oral Statement.................................................    29
  Prepared Statement.............................................    32
The Honorable Charles W. Stenholm, a Representative in Congress 
  From the State of Texas, and Ranking Member
  Oral Statement.................................................    34
  Prepared Statement.............................................    36

Committee on Appropriations
The Honorable C.W. Bill Young, a Representative in Congress From 
  the State of Florida, and Chairman
  Oral Statement.................................................   133

Committee on Energy and Commerce
The Honorable Joe Barton, a Representative in Congress From the 
  State of Texas, and Chairman
  Oral Statement.................................................    44
The Honorable John D. Dingell, a Representative in Congress From 
  the State of Michigan, and Ranking Member
  Oral Statement.................................................    48
  Prepared Statement.............................................    50

Committee on Financial Services
The Honorable Michael G. Oxley, a Representative in Congress From 
  the State of Ohio, and Chairman
  Prepared Statement.............................................   123
The Honorable Barney Frank, a Representative in Congress From the 
  State of Massachusetts, and Ranking Member
  Prepared Statement.............................................   123
Committee on Government Reform
The Honorable Tom Davis, a Representative in Congress From the 
  State of Virginia, and Chairman
  Oral Statement.................................................    64
  Prepared Statement.............................................    66
The Honorable Henry A. Waxman, a Representative in Congress From 
  the State of California, and Ranking Member
  Oral Statement.................................................    68

Committee on International Relations
The Honorable Henry J. Hyde, a Representative in Congress From 
  the State of Illinois, and Chairman
  Prepared Statement.............................................   121
The Honorable Tom Lantos, a Representative in Congress From the 
  State of California, and Ranking Member
  Prepared Statement.............................................   121

Committee on the Judiciary
The Honorable F. James Sensenbrenner, Jr., A Representative in 
  Congress From the State of Wisconsin, and Chairman
  Oral Statement.................................................    92
  Prepared Statement.............................................    95

Committee on Science
The Honorable Sherwood Boehlert, a Representative in Congress 
  From the State of New York, and Chairman
  Prepared Statement.............................................   118
The Honorable Bart Gordon, a Representative in Congress From the 
  State of Texas, and Ranking Member
  Prepared Statement.............................................   119

Committee on Transportation and Infrastructure
The Honorable Don Young, a Representative in Congress From the 
  State of Alaska, and Chairman
  Prepared Statement.............................................    77
The Honorable James L. Oberstar, a Representative in Congress 
  From the State of Minnesota, and Ranking Member
  Oral Statement.................................................    80
  Prepared Statement.............................................    81
The Honorable John Mica, a Representative in Congress From the 
  State of Florida, and Chairman of the Subcommittee on Aviation
  Oral Statement.................................................    76

Committee on Ways and Means
The Honorable William M. Thomas, a Representative in Congress 
  From the State of California, and Chairman
  Oral Statement.................................................   114
  Prepared Statement.............................................   115
The Honorable Charles B. Rangel, a Representative in Congress 
  From the State of New York, and Ranking Member
  Prepared Statement.............................................   131

Permanent Select Committee on Intelligence
The Honorable Porter Goss, a Representative in Congress From the 
  State of Florida, and Chairman
  Oral Statement.................................................    12
  Prepared Statement.............................................    14
The Honorables Jane Harman, a Representative in Congress From the 
  State of California, and Ranking Member
  Oral Statement.................................................    15
  Prepared Statement.............................................    17


 HOMELAND SECURITY JURISDICTION: THE PERSPECTIVES OF COMMITTEE LEADERS

                              ----------                              


                       Wednesday, March 24, 2004

                  House of Representatives,
                             Subcommittee on Rules,
                     Select Committee on Homeland Security,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 12:59 p.m., in 
Room 2237, Rayburn House Office Building, Hon. Lincoln Diaz-
Balart, the chairman of the subcommittee presiding.
    Present: Representatives Dunn, Weldon, Goss, Cox (ex 
officio), Sensenbrenner, Slaughter, Lofgren, McCarthy and 
Turner (ex officio).
    Mr. Diaz-Balart. We would like to welcome Members of the 
subcommittee and the Chairman of the Intelligence Committee as 
well as Chairman Cox who is here from the full committee today 
with us.
    While this is our first hearing of this year, our staff has 
been working very hard to continue the important work of this 
subcommittee. As you all know, we have been authorized and 
directed to conduct a thorough and complete study of the 
operation and implementation of the Rules of the House, 
including Rule X, with respect to the issue of Homeland 
Security. And we will submit our recommendations to the House 
Rules Committee by September 30th.
    Today's hearing will serve as an additional step in that 
process. In the summer and fall of 2003, we heard testimony 
from some the foremost experts on Congress. These witnesses 
included five academics from various institutions, two former 
committee chairmen with superior knowledge of the House rules, 
two former Speakers of the House, and the very first Secretary 
of Energy. This was a very distinguished bipartisan group of 
witnesses.
    These witnesses have very different experiences to qualify 
them as experts on the Congress, yet they all share a common 
belief. And that belief is that the Select Committee on 
Homeland Security should be made permanent. Speakers Gingrich 
and Foley have both endorsed a permanent standing committee 
with primary legislative jurisdiction, and both have called for 
a joint statement from Speaker Hastert and Minority Leader 
Pelosi announcing their intent to make the committee permanent 
as soon as possible.
    Speaker Gingrich explained, in part, his rationale for a 
permanent committee with the following words, ``Congress cannot 
meet its Constitutional responsibilities unless it shows the 
same courage as the President in forcing through a real 
reorganization that does not entangle the Department of 
Homeland Security in a web five times more complex than the 
Department of Energy deals with. It is urgent that Congress 
also reorganizes its own structure now.''
    Former Speaker Gingrich went on to say, ``In fact, being 
effective at homeland security could prove to be, literally, a 
matter of life and death in terms of the security and freedom 
we have grown accustomed to as Americans. Life and death is not 
a rhetorical term. It is conceivable some of the threats of the 
21st century could kill many times the 3,000 who were killed on 
September 11, 2001.''
    Both former members, Lee Hamilton and Bob Walker also 
supported the creation of a permanent standing committee. Mr. 
Hamilton explained his rationale with the following statement, 
``The issue of Homeland Security is not temporary. The threat 
of terrorism is long term, as are the related challenges that 
will confront our government. Thus, necessary oversight cannot 
be supplied on an interim basis nor can it be effectively and 
efficiently disbursed among the current 13 full committees and 
60 subcommittees in the House.''
    While some may give less weight to the opinions of 
academics as not practical, these four men served in this 
institution with distinction and honor. They have a unique 
perspective having served in Congress but are no longer caught 
up in the day-to-day struggles of committee jurisdictions.
    Secretary Schlesinger also gave a very poignant testimony 
before our committee. As the Director of Central Intelligence, 
Secretary of Defense and the first Secretary of Energy, 
Secretary Schlesinger has a very clear understanding of what a 
department or agency needs from Congress in the form of 
oversight and resources to be successful, especially a newly 
created department.
    Here are just a few of Secretary Schlesinger's words from 
when he testified, ``A new Government department does not 
spring like Athena from the brow of Zeus, full blown and ready 
for action. Organizing the department is not instantaneous. It 
takes time. There are many organizational challenges and 
organizational gaps, especially in the early days of a new 
department. The Department of Homeland Security is in a sense a 
start-up organization. Contrary to the expectations of too 
many, there will be unavoidable growing pains as the overall 
organization gradually comes together. Anything that the House 
can do to help the new Department rather than promote 
additional perches from which the Department can be criticized 
would serve the national interest.''
    These five men, all of whom were very clear, and all of our 
other witnesses made compelling cases for the permanency of the 
Committee on Homeland Security.
    However, our study, obviously, is not complete. Today, we 
will hear testimony from committee leaders, each with a very 
unique understanding of their committee jurisdictions.
    I am open--and, I am sure, all Members of this committee--
to any option as long as it will help the fledgling Department 
of Homeland Security succeed in its mission of protecting 
American lives.
    I am open to any suggestion, as long as it will help the 
House of Representatives to be as prepared as possible to act 
in the case of a future terrorist event. The effectiveness of 
this House and the Department of Homeland Security must be our 
primary goal.
    I would like to thank you, Chairman Goss, Ranking Member 
Harman, as well as all of the witnesses who will honor us with 
their testimony today.
    When Ms. Slaughter arrives I will ask if, at the 
appropriate time, if she has an opening statement. And I would, 
at this point, yield to any members who may wish to make an 
opening statement.

   PREPARED STATEMENT OF THE HONORABLE LINCOLN DIAZ-BALART, CHAIRMAN

    I would like to welcome the members of the Subcommittee and the 
Chairmen and Ranking Members that will be testifying before us today. 
While this is our first hearing of the year, our staff has been working 
behind the scenes to continue the important work of our subcommittee.
    As you all know, we have been ``authorized and directed to conduct 
a thorough and complete study of the operation and implementation of 
the rules of the House, including rule X, with respect to the issue of 
homeland security,'' and we will submit our recommendations to the 
House Rules Committee by September 30, 2004. Today's hearing will serve 
as an additional step in that process.
    In the Summer and Fall of 2003, we heard testimony from some of the 
foremost experts on Congress. These witnesses included five academics 
from various institutions, two former committee chairmen with superior 
knowledge of the House Rules, two former Speakers of the House, and the 
very first Secretary of Energy. This was a very distinguished 
bipartisan group of witnesses.
    These witnesses have very different experiences that qualify them 
as experts on the Congress, yet they all share a common belief. They 
all believe that the Select Committee on Homeland Security should be 
made permanent.Speakers Gingrich and Foley have both endorsed a 
permanent standing committee with primary legislative jurisdiction, and 
both have called for a joint statement from Speaker Hastert and 
Minority Leader Pelosi announcing their intent to make the committee 
permanent as soon as possible.
    Speaker Gingrich explained, in part, his rational for a permanent 
committee with the following words:
    ``Congress cannot meet its constitutional responsibilities unless 
it shows the same courage as the President in forcing through a real 
reorganization that does not entangle the Department of Homeland 
Security in a web five times more complex than the Department of Energy 
deals with. It is urgent that Congress also reorganizes its own 
structure now.''
    Speaker Gingrich went on to say:
    ``In fact being effective at Homeland Security could prove to be 
literally a matter of life and death in terms of the security and 
freedom we have grown accustomed to as Americans. Life and death is not 
a rhetorical term. It is conceivable some of the threats of the 21st 
century could kill many times the 3,000 who were killed on September 
11, 2001.''
    Both former Members Lee Hamilton and Bob Walker supported the 
creation of a permanent standing committee.
    Mr. Hamilton explained his rational with the following 
statement:``The issue of homeland security is not temporary. The threat 
of terrorism is long-term, as are the related challenges that will 
confront our government. Thus necessary oversight cannot be supplied on 
an interim basis, nor can it be effectively and efficiently disbursed 
among the current 13 full committees and 60 subcommittees in the 
House.''
    While some may give less weight to the opinions of academics as not 
practical, these four men served in this institution with distinction 
and honor. They have a unique prospective of having served in Congress, 
but are no longer caught up in the day to day struggles of committee 
jurisdictions.
    Secretary Schlesinger also gave very poignant testimony before our 
Subcommittee. As the Director of Central Intelligence, Secretary of 
Defense, and the first Secretary of Energy, Secretary Schlesinger has a 
very clear understanding of what a department or agency needs from 
Congress, in the form of oversight and resources, to be successful, 
especially a newly created department. Here are a few of Secretary 
Schlesinger's words from when he testified before us:
    ``A new government department does not spring, like Athena from the 
brow of Zeus, full blown and ready for action. Organizing the 
department is not instantaneous; it takes time. There are many 
organizational challenges and organizational gaps, especially in the 
early days of a new department. The Department of Homeland Security is, 
in a sense, a start-up organization. Contrary to the expectations of 
too many, there will be unavoidable growing pains--as the overall 
organization gradually comes together.''
    He went on to say that,
    ``Anything that the House can do to help the new department, rather 
than provide additional perches from which the department can be 
criticized would serve the national interest.''
    These five men, and all of our other witnesses, have made 
compelling cases for the permanency of Select Committee on Homeland 
Security. However, our study is not complete. Today we will hear 
testimony from Committee Leaders, each with a very unique understanding 
of their committees' jurisdictions.
    I am open to any option as long as it will help the fledgling 
Department of Homeland Security succeed in its mission of protecting 
American lives. I am open to any suggestion as long as it will help the 
House of Representatives to be as prepared as possible to act in the 
case of a future terrorist event. The effectiveness of this House and 
of the Department of Homeland Security must be our primary goal.
    I would like to thank all of our witnesses for testifying today, 
but before we begin, I would ask Ms. Slaughter, my distinguished 
Ranking Member if she would like to make an opening statement.

    Mr. Cox. Thank you, Mr. Chairman, first, for holding this 
hearing today and, second, for your sustained work in this 
area, which is an important portion of the charter of the 
Select Committee on Homeland Security.
    We are to report to the Rules Committee and to the House 
this September on our recommendations for going forward with 
both authorization and oversight of the Department of Homeland 
Security and the House of Representatives.
    I agree with you that we need to hear directly from the 
other chairmen of House committees as to how they think the 
issue of Homeland Security should be handled from a 
congressional, legislative and oversight perspective. And I 
thank all the chairmen and ranking members who have agreed to 
testify today, beginning with Porter Goss and Jane Harman, who 
will be our first witnesses. And I thank those who have 
submitted written testimony as well.
    This is our fourth hearing on this topic. Previously, we 
have received testimony from former House leaders, as you point 
out Mr. Chairman, including speakers from both parties, as well 
as outside experts on congressional accountability, on the 
subject of how Congress should best organize itself, and on the 
subject of the terrific barriers to sensible oversight and 
authorization of the new Department because of turf jealousy in 
the Congress.
    And we have heard from Executive Branch officials, such as 
James Schlesinger, the first Secretary of Energy and a former 
CIA Director and Secretary of Defense, about the difficulties 
of creating a new cabinet department with national security 
responsibility and the risks to the country of balkanized and 
diffused authorization and oversight in Congress. All of these 
witnesses--without exception, Republicans and Democrats--
supported reforming the current House rules to create a 
permanent Committee on Homeland Security with primary 
legislative and oversight responsibility for the new Department 
of Homeland Security.
    Today, I am certain we will hear some on the other side. It 
is important to strike the right balance between the 
jurisdictional responsibility of a new Homeland Security 
Committee and the very legitimate jurisdictional interests of 
more than a dozen committees that have historically had 
jurisdiction over the 22 legacy agencies transferred to 
Homeland Security.
    There is in place a good congressionally-created road map 
to jurisdictional reform. It is the Homeland Security Act. That 
act, focused as it is on the structure, organization, 
capabilities and mission of the Department, itself offers a 
blueprint. Just as important as ensuring accountability by 
having one committee responsible for authorization and 
oversight of Homeland Security is ensuring that both the 
Department and the committee overseeing it are strictly limited 
in their mission to prevent terrorist attacks, reduce our 
vulnerability to terrorist attacks, and prepare for and respond 
effectively to such attacks.
    By reconsidering the jurisdiction and responsibility of the 
Department, we can best rationalize the jurisdiction and 
responsibility of committees in the Congress. For example, we 
don't need a Homeland Security Committee looking at how FEMA 
responds to floods and tornados.
    We don't need a Homeland Security Committee looking at how 
the Coast Guard clears ice from waterways or supports 
recreational boating. And we don't need a Homeland Security Act 
looking at immigration quotas or citizenship rules.
    This is true despite the fact that all of these functions 
were transferred into the Department of Homeland Security. 
Considerable expertise with respect to those issues resides in 
the current standing committees of the Congress, and there is 
no reason to recreate it elsewhere.
    But we do need a Homeland Security Committee looking at the 
fusion of foreign intelligence, domestic intelligence, domestic 
and foreign watch lists and the Federal and State and local law 
enforcement response to this information.
    We do need a Homeland Security looking at the integration 
of several border security entities that were transferred into 
the Department last year from multiple Federal departments. We 
do need a Homeland Security Committee looking at the 
effectiveness of information-sharing on infrastructure threats 
and vulnerabilities both within the Department and between the 
Department of Homeland Security and other Federal, local and 
State governmental entities, as well as within the private 
sector.
    We do need a Homeland Security Committee looking at the 
integration of the myriad of terrorist and other law 
enforcement and intelligence databases within DHS and across 
the Federal Government. We do need a Homeland Security 
Committee looking at how best to fund, prepare, train and re-
equip our first responders in the battle against terrorism, and 
we do need a Homeland Security committee to ensure that the sum 
of the various parts of the Department of Homeland Security 
adds up to something much greater, much more focused than a 
collection of legacy agencies, doing what they have always 
done.
    Most important, we need a Homeland Security Committee 
looking at the development of a comprehensive and dynamic 
threat and vulnerability analysis to guide strategic Homeland 
Security planning, resource allocation and infrastructure 
protection. The Congress must look at the Department as a 
unified whole in order to set congressional priorities and give 
congressional direction through a regular annual appropriations 
process and authorization process.
    But currently, in each of these areas, jurisdiction is 
scattered among many House committees, and in some cases, it is 
nonexistent.
    Imagine if the Department of Defense did not have a primary 
authorization and oversight committee?
    If we are talking about the security of the United States 
of America, the most essential function of our national 
Government, to give Homeland Security the attention it demands 
from us as a separate Department in the Executive Branch of 
Government and an entirely new discipline, Congress, too, must 
be restructured.
    Chairman Bill Young of the Appropriations Committee noted 
in his written testimony today that when he created a single 
Homeland Security Appropriation Subcommittee, quote, ``The 
imperative for the committee and the Department presumably from 
the outset was to provide a structure for the legacy agencies 
to coalesce into a single department with a coordinated unified 
mission.''
    He also states that his committee, quote, ``Would find it 
equally difficult to provide consistent oversight and 
appropriate funding levels if the myriad of the departments, 
programs and activities were scattered across seven 
subcommittees.''
    It was obvious to me early that we needed to reorganize to 
provide structure to ourselves and for the new Department that 
we were to oversee and fund. If this makes eminent sense, Mr. 
Chairman, for the appropriations side, which I believe it does, 
then it makes equally good sense for the authorization and 
oversight side.
    I look forward to exploring these issues today with our 
witnesses and to working with them as this year progresses. 
Thank you Mr. Chairman.

          PREPARED STATEMENT OF THE HONORABLE CHRISTOPHER COX

    Thank you, Mr. Chairman, for holding this hearing today. I, too, 
think that we need to hear directly from the other chairmen of House 
committees as to how they think the issue of homeland security should 
be handled from a congressional legislative and oversight perspective. 
And I thank all of the chairmen that have agreed to testify today and 
those that have submitted written testimony as well.
    This is our 4th hearing on this topic. Previously, we have received 
testimony from former House leaders, including Speakers from both 
parties, as well as outside experts in Congressional accountability, on 
the subject of how Congress should best organize itself. . .and the 
terrific BARRIERS to sensible oversight and authorization of the new 
department because of turf jealousy. And, we heard from Executive 
Branch officials, such as James Schlesinger, the first Secretary of 
Energy, and a former CIA, Sec. Def. about the difficulties of creating 
a new cabinet department with national security responsibility, and the 
risks to country of Balkanized and diffused authorization and oversight 
in Congress. All of these witnesses, without exception, Republicans and 
Democrats, supported reforming the current House rules to create a 
permanent Committee on Homeland Security with primary legislative and 
oversight responsibility for the new Department of Homeland Security. 
Today, we will hear from the other side.
    Crafting the right balance between the jurisdictional 
responsibility of a new Homeland Security Committee and the very 
legitimate interests of the > dozen committees that have historically 
had jurisdiction over the 22 LEGACY agencies transferred to Homeland 
Security. But, the congressionally created road map to jurisdictional 
reform--the Homeland Security Act--that focuses on the structure, 
organization, capabilities, and mission of the Department itself, 
offers a blueprint.
    Just as IMPORTANT as insuring accountability by having ONE 
committee responsible for AUTHORIZATION AND OVERSIGHT of Homeland 
Security, is insuring that BOTH the department and the Committee 
overseeing it, are STRICTLY LIMITED in their mission to prevent 
terrorist attacks, reduce our vulnerability to terrorist attacks, and 
prepare for and respond effectively to such attacks.
    By reconsidering the jurisdiction and responsibility of the 
Department, we can best rationalize the jurisdiction and responsibility 
of Committees in the Congress. For example, we don't need a homeland 
security committee looking at how FEMA responds to floods or tornados 
We don't need a homeland security committee looking at how the Coast 
Guard clears ice from waterways or supports recreational boating. And 
we don't need a homeland security committee looking at immigration 
QUOTAS or citizenship procedures. at backlogs in the processing of 
legal immigrants or other immigration services. This is true, despite 
the fact that all of these functions were transferred into DHS. 
Considerable expertise with respect to those issues resides in the 
current standing committees of the Congress, and there is NO REASON to 
re-create it ELSEWHERE.
    But we do need a homeland security committee looking at the fusion 
of foreign intelligence, domestic intelligence, domestic and foreign 
watch lists, and Federal, state and local law enforcement response to 
this information. Integration of the several border security entities 
that were transferred into the Department last year from multiple 
Federal departments. We do need a homeland security committee looking 
at the effectiveness of information sharing on infrastructure threats 
and vulnerabilities, both within the Department and between DHS and 
other Federal, state, and local government entities, as well as with 
the private sector. We do need a homeland security committee looking at 
the integration of the myriad terrorist and other law enforcement and 
intelligence databases within DHS and across the Federal Government. We 
do need a homeland security committee looking at how best to fund, 
prepare, train and equip our first responders in the battle against 
terrorism. And, we need a homeland security committee to ensure that 
the sum of the various parts of DHS adds up to something much greater, 
much more focused, than a collection of legacy agencies, doing what 
they always have done.
    Most important, we need a homeland security committee looking at 
the development of a (comprehensive and dynamic) threat and 
vulnerability analysis to guide 1. strategic homeland security 
planning, 2. resource allocation, and 3. infrastructure protection. The 
Congress must look at the Department as a unified whole, in order to 
set congressional priorities, and give congressional direction through 
a regular ANNUAL authorization process.
    Currently, in each of these areas, jurisdiction is scattered among 
MANY House committees, and in some cases it is non-existent. Imagine if 
the Department of Defense did not have a primary authorization and 
oversight committee. Yet we are talking about the security of the USA, 
the most essential function of our National Government. To give 
homeland security the attention it demands from us as a separate 
DEPARTMENT in the Executive branch of Government, and an ENTIRELY NEW 
DISCIPLINE, Congress must be structured so as to give it sustained and 
expert attention.
    Chairman Bill Young of the Appropriations Committee noted in his 
written testimony today that, when he created a single homeland 
security appropriations subcommittee:
    ``The imperative for the Committee (and the Department presumably) 
from the outset was to provide a structure for the legacy agencies to 
coalesce into a single department with a coordinated, unified mission. 
. .''
    He also states that his committee: ``would find it equally 
difficult to provide consistent oversight and appropriate funding 
levels if the myriad of the department's programs and activities were 
scattered across seven subcommittees. It was obvious to me early that 
we needed to reorganize--to provide structure to ourselves and for the 
new agency that we were to oversee and fund.''
    If this makes eminent sense for the appropriations side--which I 
believe it does--then it must also make good sense for the 
authorization side.
    I look forward to exploring these issues today with our witnesses 
and to working with them as this year progresses to rationalize and 
improve this House's homeland security oversight and legislative 
activity.
    Thank you, Mr. Chairman.

    Mr. Diaz-Balart. Thank you, Mr. Chairman.
    Mr. Weldon?
    Mr. Weldon. Thank you Mr. Chairman. I don't have a prepared 
statement, but I would like to make a few comments.
    I think this is the most important task that we will 
undertake this year. And I am overwhelmingly in favor of 
creating a full permanent committee, as I said before the Rules 
Committee last year when I testified or, actually, last session 
when I testified before the Rules Committee on the House 
Republican Policy Committee on the need to have an individual 
authorization and appropriation committee in both the House and 
the Senate. We have taken the first step with the select 
committee, but it hasn't solved the problem.
    As my colleagues and as you have pointed out Mr. Chairman, 
it is impossible, it is unthinkable to have one agency report 
to--and if my staff will put the chart up on the easel--88 
committees and subcommittees in the House and the Senate.
    If you add up all of the membership of these 88 committees 
and subcommittees, you will find out that there are 505 Members 
of Congress who can claim jurisdiction over Homeland Security.
    How in the world can one agency answer the phone calls, the 
staff inquiries and the other efforts to inquire with 505 
Members of Congress claiming they have jurisdiction over this 
or that issue in Homeland Security?
    It is absolutely unthinkable we would have this kind of 
arrangement, and we wonder why the Homeland Security Department 
spends the bulk of their time answering questions for the 
Congress as opposed to doing their number one problem and 
priority, which is protecting the homeland.
    And there are some very specific things that have happened 
over the past 2 years, Mr. Chairman, I would like to focus on 
as examples of what we are talking about. We had the Homeland 
Security Technology Transfer Bill. When it was introduced, it 
was referred to four to six committees and the Select Committee 
with expertise on the matter.
    Four to six of the five different House committees that 
this bill was referred to, each one of them refused to act on 
it because they know collectively that none of them will be 
able to--or all of them won't be able to act on it before the 
end of the session, so therefore, none of them act on it.
    Meanwhile, the Senate, with one committee, has already 
passed the bill. We will not act on that bill this year. We 
look at the Select Committee not being given important 
jurisdiction.
    And I see my good friend Jane Harman is here. And a good 
example is the bill that she and I introduced on Homeland 
Emergency Response and Operations or the HERO bill. She knows 
full well that one of our distinguished authorizing committees 
will not allow this committee to have any say on that very 
important subject, which is the number one priority for our 
first responders and that is public safety frequency spectrum 
allocation. Another example of where we will not act this year, 
yet we have this jurisdiction.
    A third is the first-responder bill, which the Chairman has 
done a fantastic job on in a bipartisan way with Congressman 
Turner, we have marked up the bill. It is referred to three 
other committees, and there will probably not be enough time to 
pass the bill this year.
    So we have to be very careful not to offend other 
committees when we draft it, and some of the provisions still 
will be removed before the bill finally moves to the House 
floor.
    Mr. Chairman, I can tell you that I have worked closely for 
the past 18 years with the first-responder community. I have 
been to all 50 states. I have spoken to all of their groups. 
They consider me one of them because I used to be one of them.
    Every first-responder group in America, every one, supports 
one committee for authorization. Now, I would think the people 
who we task to protect the homeland know best. The 
International Association of Fire Chiefs, the International 
Association of Fire Fighters, the National Volunteer Fire 
Council, the State Fire Marshals, International Arson 
Investigators, the National Fire Service Instructors, all of 
the other myriad of groups who represent the 1.2 million men 
and women who respond to our homeland security situations, all 
have gone on record and have said we need one authorization 
committee.
    Well, then why then can't we move it? Perhaps, we will hear 
in this hearing today the reasons. But I would argue and I 
would make the point, Mr. Chairman, that I am going to be 
listening to the people who want the Homeland Security 
Department to respond to their needs. And they unequivocally 
and overwhelmingly say we should do on the authorization side 
what Bill did on the appropriations side and have one committee 
of jurisdiction. And I hope that our hearings will, in the end, 
be able to allow us to make that recommendation. Thank you.
    Mr. Diaz-Balart. Thank you, Mr. Weldon.
    I ask unanimous consent that all written statements of our 
witnesses today as well as those chairmen and ranking members 
who could not be here to testify, be included as part of the 
hearing record.
    Being no objection, so ordered.

             PREPARED STATEMENT OF THE HONORABLE JIM TURNER

    I have said previously and will repeat again today: If you take 
homeland security seriously, you must reach the conclusion that there 
needs to be one Committee in the House of Representatives with 
oversight and legislative jurisdiction over the functions of the 
Department of Homeland Security.There are a number of reasons I have 
reached this conclusion.
    First, we need to do whatever we can in the Congress to help the 
Department of Homeland Security to be successful. Right now, we have 
dozens of full committees and scores of subcommittees overseeing the 
Department. We call senior Department officials to duplicative 
hearings. And we push the Department in multiple, sometimes conflicting 
policy directions.
    Congress is making the Department's substantial challenges more 
difficult.
    Secretary Ridge agrees. At a hearing before our Committee he said, 
``I think it goes without saying that a streamlined process of 
oversight and accountability, in my judgment, would do both the 
executive branch and the legislative branch a world of good.
    Let me provide one example. The Department launched an initiative 
called ``One Face At the Border,'' which attempts to merge the 
functions of the former customs and former immigration inspectors at 
our ports of entry. Without a Homeland Security Committee, the Ways and 
Means Committee and Judiciary Committee would both have jurisdiction 
over that small program, as would the Appropriations Committee and 
possibly the Government Reform Committee as well. The people who run 
``One Face At the Border'' have to deal with many faces here in 
Congress.
    My second main reason for advocating for a permanent Homeland 
Security Committee is that I do not believe effective oversight over 
the Department can be accomplished with multiple Committees having 
responsibility for different sections of the Department. To illuminate 
this, let me describe the effort of the Select Committee, under 
Chairman Coxs leadership, to do a thorough review and authorization of 
the Department of Homeland Security's budget. This is a very important 
task, especially for a new Department.
    Who would do this if we don't have a single homeland security 
committee? Who would look at the tradeoffs that every Department must 
make when developing a budget? Who would look at the cross-cutting 
issues that affect the Department at large rather than individual 
components--issues such as developing a comprehensive threat and 
vulnerability assessment? Who would focus on the serious management 
challenges facing the Department, such as those pointed out by the 
Department's Inspector General today? The answer is, frankly, no one.
    It appears to me that the witnesses today who argue that a new 
Committee is not necessary are disregarding the decision made by 
Congress and the President to create a Department of Homeland Security. 
This decision reflected a determination that it was critically 
important to bring diverse agencies under the direction of a Secretary 
whose focus--24/7--would be on security. Even though the Attorney 
General had tremendous expertise in immigration, and the Treasury 
Department had tremendous experience with customs, and the 
Transportation Department had tremendous knowledge of aviation 
security--these functions were placed in the Department of Homeland 
Security. For Congress to approve this reorganization, and the 
philosophy behind it, but fail to reorganize itself to deal effectively 
with the new reality, would be, to put it bluntly, the height of 
hypocrisy.
    Does this mean that committees with years of experience and 
expertise in areas such as bioterrorism or aviation security should be 
stripped of any influence over these subjects? No. There are ways to 
have shared jurisdiction over issues where more than one committee has 
something to contribute. This is accomplished in many other areas. 
Jurisdictional arrangements can also be made for how Congress should 
handle non-homeland security responsibilities of the new Department.
    Finally, I would like to deal head on with the idea that has been 
put forward that homeland security could be handled through a 
subcommittee on the Government Reform Committee. I served on the 
Government Reform Committee so I am familiar with the tremendous work 
it does on oversight and issues that affect government operations 
across the board. But I see no reason why we should consolidate 
jurisdiction over homeland security in the Government Reform Committee 
any more than we should provide it jurisdiction over health care, 
highway construction, or education.
    Such a consolidation has not occurred in the Governmental Affairs 
Committee in the Senate and we have no way to predict whether it will. 
Rather than trying to mimic an illogical approach that may or may not 
happen in the Senate, I believe it would be far better to lead the way 
with the right approach. I also believe that if we create a strong 
Committee on Homeland Security in the House, the Senate will have no 
choice but to follow suit. This is exactly what happened with respect 
to the Appropriations Committee. The House took the right step of 
creating a separate appropriations subcommittee for the Department of 
Homeland Security. The Senate soon did the same thing.
    I also want to express some skepticism about another idea--
continuing the Select Committee in its current form for another 
Congress. While I believe we have made a positive contribution this 
year in a number of ways, this structure is not a permanent solution. 
In some ways, by creating yet another committee to which the new 
Department must report, we are part of the problem this year rather 
than the cure. And without meaningful authority and jurisdiction, the 
Select Committee is hamstrung in its efforts to legislate and conduct 
oversight.
    I am certain that the right thing to do for the national security 
of our country is to create a permanent Homeland Security Committee. 
That Committee should have oversight with respect to all homeland 
security activities of the Federal Government. It should also have 
legislative jurisdiction over the full range of the Department of 
Homeland Security's operations. While I will not be serving in the next 
Congress, I do fear that if the Congress fails to take decisive action 
on this topic, and we suffer additional terrorist attacks in the United 
States, Congress will be held accountable for this failure.

          PREPARED STATEMENT OF THE HONORABLE BENNIE THOMPSON

    I greatly appreciate the opportunity to express my views on the 
future of the Select Committee on Homeland Security. It has been said 
time and time again that we now live a new age. . .an age of 
uncertainty. We have come face-to-face with terrorism and must prepare 
our homeland for future engagements. There is no doubt that this is a 
challenge of the greatest magnitude. In fact, the argument can be made 
that this is one of the greatest and most unique challenges that faces 
our great nation. We face an enemy that is unquestionably dedicated to 
the destruction of this free nation. Given this fact, we continue to be 
unquestionably dedicated to protecting freedoms and principles on which 
this nation was founded.
    On September 11, 2001, people around the world wept and grieved 
deeply over the lives lost on that tragic day. On that same day our 
nation and many of our allies vowed to go the distance in bringing 
those who carried out the horrible attacks on September 11th. As our 
military continues to carry out our nation's campaign against terrorism 
it is incumbent upon the house to do its part to ensure that such 
ferocious attacks never again take place.
    After the attacks of September 11, and after considerable pressure, 
President Bush finally understood the need for a unified national 
homeland security effort. After understanding the wisdom of this course 
of action, the president approved the consolidation of 22 domestic 
agencies into the Department of Homeland Security. The idea behind the 
consolidation of nearly two dozen domestic agencies would breath life 
into the national goal of fighting terrorism, foreign and domestic, 
create a greater harmony between the agencies, and reduce the chances 
of future attacks. The decision to create the Select Committee on 
Homeland Security was a solid first step towards better preparing the 
country to defend against terrorism.
    We, as a deliberative body, must resist the temptation to continue 
in a ``pre-9/ll'' mind set that creates unfathomable scenarios that 
could severely limit our effectiveness to combat terrorism in the 
legislative arena. As representatives of the people, it is our 
responsibility to contribute to the war on terrorism through effective 
legislation and oversight. Unfortunately, some in this body and on this 
panel have failed to see the benefits to consolidating the legislative 
and oversight responsibilities into one committee. A number of 
congressman and congresswomen have voiced strong concerns stating that 
the Select Committee on Homeland Security has done its job and should 
be dissolved. Some have even suggested that the committee be allowed to 
continue its existence without the needed legislative and oversight 
authority. They contend that myriad committees would be better suited 
to deal with the special needs of Homeland Security. They site 
legislative and institutional experience as the reason other committees 
would be more effective in the realm of homeland security oversight and 
legislation. Given these claims, one must ask the question, ``Where 
were the legislative and institutional experience and the preventative 
accomplishments on and leading up to 9/11''
    It is possible to make the argument that the many committees and 
subcommittees that have legislative and oversight jurisdiction over the 
Department of Homeland Security lacked the vision and foresight to 
effectively legislate against a terrorist attack.
    The same committees that claim that they should be gifted with this 
incredible responsibility have not produced for the American people. 
How can so many different committees and subcommittees promise the 
American people that they will commit effective resources and time to 
the issues of homeland security when their committees have other 
important responsibilities. It is irresponsible to allow this 
decentralized legislative and oversight responsibility. Anything less 
than a centralized legislative and oversight body with authority has 
the potential to indirectly assist terrorist and make preventing 
terrorist attacks more difficult. A single legislative committee must 
exist, not only to provide effective oversight and legislative action, 
but also to ensure accountability. The authority must not ebb and flow 
between committees and subcommittees with the changing of the political 
wind. The American people deserve better than that. They deserve 
greater protection from terrorists, political opportunism, and turf 
battles. Responsibility and accountability must come from concrete, not 
liquid, authority. Decentralized authority means decentralized 
accountability.
    It is crucial that Members of Congress understand what the nation 
already understands and that is how real and how imminent these threats 
are. In the eyes of the terrorist, September 11th was just an example 
of their hatred.
    Creating a single legislative body to deal with horrible events is 
consistent with congressional responses. I strongly endorse making the 
current Select Committee on Homeland Security a permanent committee 
with clear legislative and oversight jurisdiction over the Department 
of Homeland Security. The ability of the House to engineer 
comprehensive legislation in advance and in response to crisis, over 
see the administration of laws and carry out our constitutional 
responsibility to represent the people of the United States people 
depends a great deal upon the organization and management of the 
committee system. The only way to ensure that the Department of 
Homeland Security is effectively addressing the nation's needs with 
respect to terrorist threats is to make the committee permanent and 
give it all of the legislative and oversight authority as traditional 
standing committees.

        PREPARED STATEMENT OF THE HONORABLE LOUISE M. SLAUGHTER

    I thank the many Members who are taking the time out of their full 
schedules to speak with us today. There are many demands on everyone's 
time, not the least of which this week is the Federal budget for FY05. 
Your time and insights are greatly appreciated.
    The creation of the Department of Homeland Security has raised many 
issues. Congress has a responsibility over the new department itself, 
and Congress has a heightened responsibility to respond to the threat 
of terrorism. The question that this subcommittee continues to consider 
today is what structure is best for the House and best for the nascent 
department.
    Some structural changes have already been made. The Appropriations 
Committee created a homeland security appropriations subcommittee. The 
Senate has incorporated its homeland security duties into its 
Government Affairs Committee, instead of creating a separate homeland 
security committee.
    Last year this subcommittee heard from a series of distinguished 
scholars, former Members, former Speakers, and others. consensus seemed 
to emerge from those hearings that the House should have a A committee 
on homeland security. These recommendations are helpful, but not 
conclusive. Parliamentary and practical issues, such as committee 
jurisdiction, referral, oversight, legislative authority, and subject-
matter expertise, are important parts of the equation in determining 
the utility, necessity, and desirability of a homeland security. This 
is where your experience and expertise is invaluable to the 
subcommittee's deliberations.
    The big questions continue to be debated. Should the House have a 
homeland security committee? Should it be permanent, select, or 
permanent select? Should it have oversight jurisdiction over the 
Department of Homeland Security? Should it also have legislative 
authority for the Department? Should the committee have jurisdiction 
over homeland security programs or jurisdiction over all of the 
entities that have been moved into the Department?
    I look forward to hearing from the distinguished panelists today. 
The Chairmen and Ranking Members of the committees with jurisdiction 
over programs and entities within the Department of Homeland Security 
will be able to provide special insight into the daily workings of the 
House and our collective response to terrorism and the creation of the 
Department of Homeland Security.

    Mr. Diaz-Balart. Chairman Goss and Ms. Harman, thank you so 
much for being here today. I would ask that you proceed with a 
summary of your written statements, and we will stick to the 5-
minute rule.
    Mr. Diaz-Balart. We will begin with Chairman Goss. Welcome.

STATEMENT OF THE HONORABLE PORTER GOSS, AND CHAIRMAN PERMANENT 
                SELECT COMMITTEE ON INTELLIGENCE

    Mr. Goss. Thank you very much Mr. Chairman. I have A formal 
statement for the record which I would ask be included, and I 
would summarize very briefly.
    Mr. Diaz-Balart. Without objection.
    Mr. Goss. First of all, the issue before us: Is the House 
organized efficiently to handle Homeland Security oversight 
including the department of Homeland Security? Should there be 
a Homeland Security committee?
    I believe the answer is, of course, yes. We are going to 
have Homeland Security, and we have to have oversight and 
authorization, and we have to have knowledgeable people doing 
the advocacy for that. So there is no question that in my view 
that decision has been made.
    What it is going to look like is really what the issue is 
about, I believe. And I can argue that, under Rule 10, there 
are advantages to proceeding to set up a regular standing 
committee or I could say a permanent select committee patterned 
on the template that we use in our Intelligence Committee might 
work as well. I think there are pluses and minuses to both. I 
am not going to dwell on the how to. It is just that it needs 
to be done.
    With regard to some observations I would make and coming at 
it from the perspective of the intelligence aspect, which is, 
as you noted in your opening remarks, Mr. Chairman, a small 
part of the Homeland Security but, in my view, a necessary 
part. I believe intelligence is the nerve center. I believe it 
is the trigger. I believe it is the thing without which the 
rest becomes basically a huge burden on the people that Mr. 
Weldon has just spoken to, the responders.
    I would like to put the responders out of business. I want 
them all to become Maytag people. I love them. I just don't 
want to use them. I would like to have good information so we 
stop the bomb before it goes off. We stop the incident before 
it goes off. And that is where intelligence comes into Homeland 
Security, goes into some type of a process, gets turned around 
and goes out to action, agents who are properly authorized to 
go out and forestall, preempt, prevent any kind of mischief 
happening. That, to me, would be a successful Department of 
Homeland Security.
    I do believe that the present committee, the acting 
committee that we have is too large a committee. I say that 
because there are many interests that need to be considered and 
it is entirely appropriate to have a large committee at this 
point. I would hope that it could be more focused when the 
organizational aspects are refined down.
    With regard to jurisdiction and overlapping areas, I know 
there has been a lot of discussion about that, and everybody 
wants to guard their turf. And it will come as no surprise to 
you that I believe that intelligence, the way we have it set up 
in our oversight, both in the Senate and the House, under the 
present conditions has gone through an evolutionary process 
that has finally brought us a result that is actually working 
quite well.
    There are some who suggest that, perhaps, we should combine 
the Senate and the House, and there are some other sort of 
proposals on the table. But I can assure you that we now have a 
system that is working and providing both the advocacy and the 
oversight of our intelligence communities.
    We act as the 1-800-number for keeping the intelligence 
community in all its aspects in, bounds and we act also as the 
advocacy by doing the authorization for all activities by 
statute. We may not indulge in intelligence activities in this 
country, even with appropriated funds, unless they are 
authorized by the oversight committee. That is a special and 
unique role for the Permanent Select Committee on Intelligence 
and for a good cause.
    I believe that nevertheless HPSI takes on--Intelligence 
Committee takes on the understood responsibility we do have to 
reach out to the other chairmen where there are combined 
interests. And we have 15 agencies that are in other Cabinet 
areas and secretary areas that fall under other oversight 
areas. And we do reach out to Chairman Sensenbrenner, Chairman 
Hyde, Chairman Duncan Hunter of the Armed Services, the 
appropriate committee.
    We also try and have membership on our committees through 
the leadership appointment process where we bridge to some of 
those committees so that we are efficient. So these things are 
resolvable, I believe, without having open turf wars. And I 
would suggest that there is plenty of history on the books of 
how we can proceed on that.
    I do believe that the relationship we have with the 
intelligence community is built on a clear understanding of how 
we handle classified information for the intelligence community 
and our portfolio. And I would not like to change that because 
I do believe it does work well and serve our objectives 
extremely well.
    I would also point out, we work with different 
appropriations people and will have no trouble working with the 
different appropriations committees as authorizers whether it 
is the defense appropriations committee or some other one in 
the various manifestations that might come through Homeland 
Security that nevertheless have an intelligence component, 
which we would expect to be in our portfolio.
    And finally, the last thing I was going to say, goes back 
to Pearl Harbor. Interestingly enough, as horrible as Pearl 
Harbor was, that 6 years after Pearl Harbor when we set up a 
national intelligence program in our country--it was a national 
foreign intelligence program. We do not have a domestic 
intelligence agency. Americans do not spy on Americans.
    That gets us to the question of how do we integrate or fuse 
information that comes from our local law enforcement people in 
a way that does not confound that objective of free and fair 
democratic open society, all the hallmarks of being an American 
in a way that we do not impose a domestic intelligence agency 
on the people of the United States of America.
    And I suggest that the way we are doing it now is working 
quite well, using the foreign intelligence program manifest 
through TTIC. Happy to answer any questions on TTIC.

           PREPARED STATEMENT OF THE HONORABLE PORTER J. GOSS

    In the year since the establishment of the Department of Homeland 
Security and the three and half years since September 11th, the Federal 
Government has moved substantial resources to break down stovepipes and 
better protect the nation. The House has undertaken, in this Committee, 
an exercise in reviewing our own capabilities to conduct oversight of 
the Department of Homeland Security and related areas.
    As Chairman of the House Permanent Select Committee on Intelligence 
(HPSCI), I have a unique perspective because the Committee is a unique 
Committee. HPSCI has been the only standing select Committee in 
Congress for many years now, and I would like to provide my insights 
into the authorization and oversight process we undertake to fulfill 
Congress' responsibility to provide vigorous oversight of the 
Intelligence Community in the most responsible manner possible. HPSCI's 
creation was intended to provide Congress with the ability to oversee 
disparate departments and organizations throughout the Federal 
Government.
    As you are aware, HPSCI has sole jurisdiction over US intelligence 
and intelligence related activities. This means that we oversee the 
national intelligence agencies and the military intelligence entities--
yet we also oversee the intelligence components of many other agencies, 
such as the State Department, Treasury, and the FBI. We are very 
focused on intelligence and we are able to do our oversight in a 
thorough and constructive manner without redundancy or the interference 
of other House oversight committees.
    HPSCI's exclusive jurisdiction over the intelligence and 
intelligence-related activities is a critical element of our ability to 
conduct complete, across-the-board, non-partisan oversight. The unique 
nature of HPSCI protects sensitive intelligence sources and methods 
associated with intelligence collection and analysis. Congress, as a 
whole, can review and benefit from finished analytic product, but the 
discussion of where and how that information was acquired is reserved 
for the closed-door sessions with HPSCI. This is the balance that was 
struck with the Executive Branch when the committee was created, and I 
believe it continues to serve us well today.
    HPSCI has conducted vigorous oversight of the Intelligence 
Community including the intelligence elements of counterterrorism and 
homeland security. In fact, prior to the events of September 11th, the 
HPSCI in January 2001 created a working group to examine the terrorist 
threat and the US homeland. After September 11th, 2001 this working 
group was elevated to a subcommittee. Today, that subcommittee 
continues to examine many of the issues that the newly established 
Select Homeland Security Committee has sought to clarify with respect 
to intelligence.
    HPSCI will continue to advocate for its proper jurisdiction to 
oversee and authorize intelligence community elements including the 
Terrorist Threat Integration Center (TTIC) and the Department of 
Homeland Security's Information Analysis (IA) Division in the same way 
it oversees and authorizes other Intelligence Community elements such 
as the FBI's Office of Intelligence and the Counterintelligence 
Division, the Department of State's Bureau of Intelligence and Research 
(INR), the Department of Treasury's Office of Intelligence, and the 
Department of Energy's Counterintelligence Office and Office of 
Intelligence.
    I believe the best defense is a good offense and that the role 
intelligence plays in protecting the nation is vital, but there is more 
to homeland security than intelligence. I would note that the Homeland 
Security Committee has spent considerable time examining the 
intelligence portion of homeland security and in questioning the 
intelligence community's ability to function and communicate with other 
governmental departments, specifically the Terrorist Threat Integration 
Center and the CIA. I welcome the questioning of the Intelligence 
Community and the dialogue between our Committees, and believe that 
collectively we can better protect and prepare the nation to defend 
itself from the terrorist threat.
    The greatest capability that the Select Committee on Homeland 
Security can and should provide to Congress is its focus on a single--
albeit enormous--Department within the Government and the integration 
of that Department's many, many functions. It can pass its findings on 
to the relevant Committee, or Committees that will be charged with the 
long-term task of DHS.
    The Select Committee also has the opportunity to define, for House 
purposes, the term ``homeland security,'' and I hope we will make the 
most of this opportunity. While there appears to be an ever-increasing 
number of ``intelligence experts'' these days, the definition of 
intelligence is generally understood. I think, however, Congress and 
the country as a whole, are still working on an answer to ``What is 
homeland security?''
    To conclude my remarks, I would highlight the important role 
intelligence plays in the protection of our nation and the strong 
relationship that must develop between the Intelligence Community and 
the Department of Homeland Security. We must work to bolster the 
resources of both, this is not an ``either or'' proposition.

    Mr. Diaz-Balart. Thank you. And we will have questions. 
Thank you so much for your testimony.
    Mr. Diaz-Balart. Mrs. Harman?

    STATEMENT OF THE HONORABLE JANE HARMAN, RANKING MEMBER, 
           PERMANENT SELECT COMMITTEE ON INTELLIGENCE

    Ms. Harman. Thank you Mr. Chairman.
    It is good to see you and to see several members of the 
select--Permanent Select Committee on Homeland Security here as 
well. And I do agree with my colleague, Congressman Weldon, 
that it has been enormously frustrating trying to get one 
interoperable communications system adopted for our country, 
which is a critical building block to an effective Homeland 
Security system. And a problem is the way Congress is 
organized. Let me submit my comments for the record, too, and 
just hit a few high points.
    Mr. Diaz-Balart. Without objection.
    Ms. Harman. I do agree with much that chairman Goss has 
said. I would only add that the intelligence committees in 
Congress, our jurisdiction and our focus could use A little 
tune up, too. We should be more mission-based.
    The mission is, at this point, counter-terrorism and more 
effective efforts to stop the proliferation of weapons of mass 
destruction. Those are the big threats, and I hope that our 
committee will tackle them on a mission-based program, rather 
than the kind of analog way we have dealt with them in the 
past. But that is something he and I have discussed.
    Turning to this subject, in 2000, I was a member of the 
National Commission on Terrorism, chaired by Ambassador L. Paul 
Bremer, also known as Jerry Bremer, now the civil administrator 
in Iraq. Our charter was international terrorism, not 
specifically homeland security. But we did recommend that 
Congress develop mechanisms for coordinated review of the 
President's terrorism policies and budgets.
    Similarly, I supported the establishment. In fact, I called 
myself one of its godmothers, of the Department of Homeland 
Security, to bring greater focus to the Government's efforts to 
protect the homeland. As I have often said, this effort was not 
to rearrange the deck chairs, but to build one deck.
    If we were serious about the Department of Homeland 
Security and if we are serious about Congress developing better 
mechanisms for coordinated review of terrorism, then we need to 
establish an effective committee of homeland security. I think 
it should be permanent. I don't know what its size should be. 
But it should be certainly a streamlined version of what we 
presently have. And it should have some clear jurisdiction to 
act.
    I can see at least three reasons why doing this makes 
sense. First, having at least two sets of eyes can strengthen 
congressional oversight. I agree with Chairman Goss that there 
are areas where the intelligence committees should have primary 
and possibly exclusive jurisdiction. Nonetheless, the eyes that 
this committee can put on things, like the integration of watch 
lists and the intelligence function, inside the Department of 
Homeland Security, help augment the role of the House and 
Senate intelligence committees.
    Second of all, this committee can ease the burden on the 
Department of Homeland Security, which already is having some 
organizational--early organizational struggles in terms of 
testifying before Congress and dealing with Congress. It is 
unreasonable to expect Secretary Ridge and his top folks to 
testify before 88 committees and subcommittees. It makes a lot 
more sense to have the focal point be here.
    Third, this committee, as reorganized and streamlined, can, 
I think, best deliver some important messages to the Department 
of Homeland Security. One of them that Chairman Cox and I 
strongly agree on is that we urgently need one nationally-
integrated threat and vulnerability assessment to drive our 
resources. We have to harden the right targets, put the 
resources against those targets and stop the squeaky wheel 
theory of homeland security funding. And if we have one 
effective streamlined committee, we can deliver that message 
better.
    In conclusion, Mr. Chairman, since I have 48 seconds left, 
I would just like to say that many people in Congress have 
worked very hard on this problem and care very much about it. 
That is the message we want to send to Curt Weldon's first 
responders. We care very much. We do hear them. We want to do 
better.
    But that chart, that congressional organization chart is a 
nightmare. And in order to do better for the people we 
represent, we have to overcome our own internal turf battles, 
organize ourselves more efficiently and then really add value 
to dealing with the toughest targets in the world, terrorism 
and proliferation of weapons of mass destruction.
    Thank you, Mr. Chairman.

            PREPARED STATEMENT OF THE HONORABLE JANE HARMAN

    Thank you, Mr. Chairman, Ranking Member Slaughter, and my 
colleagues on the Select Committee on Homeland Security, for the 
invitation to appear before you today.
    I am a Member of the full Committee on Homeland Security, so am 
speaking both from the Intelligence Committee perspective, but also as 
someone who has paid close attention to the way this committee has 
worked. I understand that Chairman Goss is not only a member of this 
full committee as well, but is even a Member of the Subcommittee that 
he is now testifying before. I'm not sure if that constitutes a 
conflict of interest, but we can be sure that at least one member of 
this Subcommittee will agree with his testimony.
    We have been asked to speak about how the House should conduct 
oversight over the Department of Homeland Security and handle 
legislation concerning homeland security in future Congresses. My 
recommendation is that the House create a permanent committee with 
primary oversight and legislative authorities over the homeland 
security activities of the Department of Homeland Security.
    The intelligence reports that I receive tell me the same thing that 
your witnesses in past hearings have told you: the threat of terrorism 
will be with us for the foreseeable future, and Congress needs to make 
permanent structural changes to account for it. Homeland security is 
not only a hot button issue in the aftermath of September 11, 2001, and 
something on the nation's mind following terrorist attacks overseas, 
like the recent tragic bombings in Spain. Homeland security is a new 
way for our government, our private sector, and our citizenry to live.
    I believe, and the past year's experience has shown, that a dozen 
House committees cannot effectively oversee or legislate on homeland 
security. Like every other witness that will appear before you today, I 
believe that my committee, the House Intelligence Committee, has done 
excellent work this Congress and in the last, to address homeland 
security challenges.
    The Intelligence Committee Members and staff have held hearings and 
authorized activities of the Department of Homeland Security's 
Directorate for Information Analysis and Infrastructure Protection, 
which is a statutory member of the National Intelligence Community. We 
have worked closely with DCI Tenet, Secretary Ridge, Director Mueller, 
Attorney General Ashcroft, and others on the Terrorist Threat 
Integration Center and the Terrorist Screening Center.
    Moreover, the Intelligence Committee will continue to include part 
of DHS' budget in our annual intelligence authorization bill, and will 
oversee the intelligence products and processes of IAIP.
    However, the excellent work of the Intelligence Committee, even if 
matched by every other committee, does not translate to effective, 
comprehensive Congressional action over homeland security. For example, 
a Homeland Security Committee has an important role to play to 
determine how intelligence from IAIP is used by the rest of DHS. That, 
while potentially within the purview of the Intelligence Committee, 
could not be adequately studied in the absence of a dedicated 
committee.
    The work of the Select Committee on overseeing the functions of the 
Department also demonstrate the Committee's value. Reports produced by 
the Democratic Members and staff on smallpox preparedness, terrorist 
watch lists, and the anniversary report of the Department, all of which 
I have been proud to sign, are valuable contributions.
    Mr. Chairman, your subcommittee is clearly facing the ugliest four 
letter word--turf. I'd like to speak briefly about the interactions 
that we, at least on the Democratic side, have had between Intelligence 
and Homeland Security.
    As mentioned before, the Intelligence Committee has jurisdiction 
over all intelligence programs in the federal government, including 
those within DHS. We have been able to work with the Homeland Security 
Committee to claim single jurisdiction over certain issues, for 
example, the inner workings of the Terrorist Threat Integration Center 
within the Intelligence Committee. We have collaborated closely in 
other areas, such as information sharing, the quality and access of 
intelligence sent to the IAIP Directorate, and the integration and use 
of terrorist watch lists.
    This interaction among committees is standard practice for Intel 
Committee members. By House Rules, we have formal ties and shared 
membership with the Committees on Appropriations, Armed Services, 
International Relations and Judiciary. This practice is longstanding 
and effective, and I would hope to have a similar relationship in 
future Congresses with the Homeland Security Committee.
    Finally, I know this Subcommittee has heard views on whether a 
permanent Homeland Security Committee should be a Standing or a Select 
Committee. As Chairman Goss and I have some distinct experience with 
this issue, I have a few comments on this.
    I thank the Subcommittee and will be happy to answer any questions 
you have.

    Mr. Diaz-Balart. Thank you Ms. Harman.
    Thank you both.
    Chairman Goss, in your written testimony, you pointed out, 
in your opinion, the greatest capability that the select 
committee, that this committee can and should provide to 
Congress is its focus on a single Department and the 
integration of the Department's many functions. Why is that so 
important in your opinion?
    Mr. Goss. Well, I think we have had testimony on that 
already. I think Ms. Harman just said it, and Mr. Weldon hit it 
with his chart very brilliantly. The issue of keeping the 
coordination of the various agencies properly working is 
clearly one of the main threads of our 9/11 review--the 
coordination, the horizontal coordination of the various 
Federal agencies--and we only do the intelligence community.
    The Kean Commission is now doing the rest of them. And 
clearly there was a problem. And the President of the United 
States has spoken to that problem between the working 
relationship between the FBI as a law enforcement people in our 
country versus the overseas intelligence people. There is 
actually an interpretation of the statutes that there was a 
wall that forbid them from talking to each other, which we have 
done our best to make sure is a broken-down wall.
    So I believe that we have learned by the mistakes of the 
past. We are able to--using our focus on the intelligence of 
over 15 agencies and reaching out to chairmen of other areas 
where we have jurisdictions to share, where we have similar 
matters, classified and unclassified, we have found good 
working arrangements that have prospered, I think, because we 
do have a focus on the national security of what we are trying 
to protect and what we are trying to do.
    I think also the saving of time and so forth is very 
critical. The one area that I perhaps would also say with 
regard to Ms. Harman's point, I certainly agree there are some 
targets we should harden. And there are some very obvious 
vulnerabilities that we need to focus on.
    But I think the President has also made it abundantly clear 
that defense alone does not work. You have to have the offense. 
You have to have a progressive, forward-leaning, how do we get 
the information to prevent, to preempt. That means getting 
information. And I want to make darn sure there are a bunch of 
overseers who are totally focused on that balance between 
getting necessary information and not intruding on Americans.
    And it seems to me a lot of that is going to land in the 
Department of Homeland Security and the overseers, which I 
would assume would be some carry-on of this committee.
    Mr. Diaz-Balart. In your testimony, which we so much 
appreciate, we appreciate so very much, you support permanence 
for this.
    Mr. Goss. Yes, I do.
    Mr. Diaz-Balart. As you pointed out, the intelligence 
committee is a permanent select committee which is a little bit 
different--
    Mr. Goss. Yes.
    Mr. Diaz-Balart. Than, obviously, the standing committees, 
which are more numerous.
    The select committee, the permanent select committee, 
obviously, has U.S. Government-wide jurisdiction over 
intelligence and intelligence-related activities. In your 
experience, can you point to any pros and cons of a permanent 
select in dealing with such broad subject matters, such a broad 
subject matter?
    Mr. Goss. Yes. I certainly can Mr. Chairman. I would say it 
is broad, but it is not so far as to bridge the separation of 
powers between the branches of government. There in no case has 
been, that I am aware of in our intelligence committee, a 
situation where the national security advisor would come and 
testify under oath before Congress or in fact even bring 
written documents.
    But there has been a behind-the-scenes, comfortable working 
relationship with every Administration of being able to work 
things out that are of critical national security. And that is 
part of the beauty of the permanent select committee, which 
leads me to what the distinction between a Rule 10 committee, a 
standing committee and a select committee.
    The advantage of the select committee is that the 
leadership of the minority and majority leadership select the 
people to be on a select committee. That, therefore, means that 
there is a closer wiring to the leadership, and the leadership 
put the people on those committees that are ready to go to do 
that work, to make the obligation, to make the commitments, to 
do the hard and very focused work of the select committee.
    It is different than getting on the committee through the 
seniority and voting process of the regular standing 
committees. And I believe that that extra element of 
selectness, as it were, by leadership appointment very much 
aids and abets that close working relationship that you have to 
have to reach into the Executive Branch of Government to deal 
with the business that is necessary for our national security, 
even though we don't put it on the record, and we don't go 
under oath with each other. I think that is absolutely 
critically essential.
    Ms. Harman. If I could just add to that Mr. Chairman?
    Mr. Diaz-Balart. Yes, Ms. Harman.
    Ms. Harman. I agree, with respect to the Intelligence 
Committee. I think that element of selectness and the small 
size of the committee and the fact that most of our hearings 
and meetings are in closed session because we are dealing with 
classified information makes it different.
    But I would not carry that over to the new version, the 
sleek, slimmed-down, more permanent version of that committee. 
I think this should be a regular standing committee of the 
House. I am not sure whether Mr. Goss was saying that or not.
    Mr. Goss. I was only answering the Chairman's question. Not 
making a preference.
    Mr. Diaz-Balart. Right. Ms. Harman certainly made a 
preference.
    And Ms. Harman, obviously, are you supportive of 
permanency? And we have had the opportunity to read, and we 
will certainly hear later on today testimony from other 
committee leaders who have a different point-of-view.
    Why do you think that your viewpoint is so different than 
the committee leaders who are going to basically support the 
status quo today in their testimony? Is it--do you think it is 
your intelligence experience or, perhaps, your exposure to the 
select committee?
    Ms. Harman. I think it is my exposure to the issues that 
are involved here. Homeland Security is our number one priority 
as far as I am concerned. It is our number one vulnerability as 
well.
    And if we don't think anew in this Congress, we are not 
going to protect the people we represent. You know, the 
dirtiest four-letter word in government is spelled T-U-R-F.
    And I worry, and I am guilty of this as well, that if all 
we do up here is resist, build barricades and insist on doing 
business the old way, we keep America vulnerable.
    So just as we insisted that the Executive Branch, by 
forming the Department of Homeland Security and breaking a lot 
of china to get there, I think we have to insist that Congress 
change to match the threats and help add value to defeating the 
threats of the 21st century.
    Mr. Diaz-Balart. Well, I want to welcome, at this point, 
Mrs. Slaughter, our distinguished ranking member who was tied 
up. Do you have any comments at this point?
    Ms. Slaughter. Yes. Thank you, Mr. Chairman.
    First, I want to apologize. The Rules Committee, as the 
Members here know, is now working on the budget. And my staff 
told me that I was urgently needed there. So the word urgent 
drew me right to the committee. Only I realized that my urgency 
is needed here.
    I am sorry I did not hear your testimony. Both of you are 
people I highly respect and highly regard on all issues and 
certainly including this one.
    I have been told that you have both supported a permanent 
committee. And I think I would agree with you. If that agency 
is going to be out there working, I think it is going to 
require a great deal of oversight. The committee, I think, has 
worked well together, and I appreciate what we are doing.
    It is very difficult, again, without the threat assessment. 
I know I met just last week with a group of my first 
responders, and I keep trying to explain to them that they are 
not going to get the money until everything gets straightened 
out and we know where we need to go. But that is wearing really 
thin on them. Their overtime and the money they have spent is 
really extraordinary.
    Ms. Slaughter. But tell me, if they do decide to do a 
permanent committee, how do you think it ought to be done? 
Would it remain a select committee--and can't be if its 
permanent--but would we keep the same members? What are your 
recommendations?
    Mr. Goss. I suggested that there are pluses and minuses to 
either using Rule 10 and going with the standing committee.
    My concern on the standing committee, obviously, is that 
you have people going on the committee more on the basis of 
seniority rather than on the basis--or the voting system of the 
way we put people on standing committees that may not get 
exactly the people who are exactly the right, most qualified 
people to go to the committee.
    I worry a little bit about the size of the committee, and I 
certainly worry about the turf wars that would go on between 
standing committees. I think those are all problems.
    On the other hand, the cache of having a standing committee 
does help. If it becomes just another authorizing committee and 
doesn't have the proper linkage with the Appropriations 
Committee, however, then it runs the risk of becoming somewhat 
irrelevant, as the authorizing committees sometimes do, it 
seems, on the strong appropriations process we have here now.
    Those are considerations. They don't lead to you one 
conclusion or the other. On the select committee, I tend to 
believe the smallness, the focus of the select committee, 
allowing the leadership to appoint the members is a very 
critical factor. It gives the flexibility and a certain 
responsiveness to the top leadership and keeps the top 
leadership of the House, minority and majority, involved in the 
process. I think that is a very important benefit.
    So I am not prepared to say which is the best. But I do 
believe it ought to be one or the other.
    Ms. Slaughter. One or the other.
    Ms. Harman?
    Ms. Harman. Well, I think it should be smaller. Looking at 
all of these Floridians, I would recommend the South Beach Diet 
for this committee. And I think it should be designed in a way 
that it becomes a desirable place to serve, a destination for 
many of the ambitious and smart Members of the House.
    And so I think, as we do this, we might reconsider some of 
the--I know how hard this is--but some of the jurisdiction of 
some of the older committees. And we should make our House look 
like the landscape of the 21st century.
    And when we think about this, the large--second largest 
department in the Government is the Department of Homeland 
Security. The largest is the Department of Defense. And the 
largest set of threats against our country are ones that this 
Department has major jurisdiction to deal with.
    So I think this should be a major committee, a major focus 
of a redesigned committee structure in the Congress.
    Ms. Slaughter. Well, I know that, in putting this together, 
they put most of the committee chairs on so that we could try 
to control any unruliness there. But given the fact that many 
of them have jurisdiction already over parts of this, are you 
both recommending that that be taken away from them and put 
into Homeland Security?
    Mr. Goss. Well, speaking for the Rules Committee, I don't 
think there is much jurisdictional quarrel.
    Ms. Slaughter. No. We don't have much of a dog in that 
fight, do we?
    Mr. Goss. And I don't think we need to worry about that.
    Speaking for the Intelligence Committee I did testify that 
I felt we have a very unique working arrangement worked out 
with the intelligence community about how we manage classified 
information which has evolved over a great number of decades 
since we put the National Security Act together in 1947.
    I think it is working extremely well, and I would not want 
to change that. You may call that guarding turf. I think it is 
just common sense. If you have something that is, working why 
break it?
    Ms. Slaughter. You wouldn't care to comment on the 
Committees of Appropriations and Transportation, Ways and 
Means, any of the rest of them?
    Mr. Goss. On the turf?
    Ms. Slaughter. Yes.
    Mr. Goss. Actually, I did comment, in my opening comments 
and in my aside remarks as well. We have reached out. I mean, 
we do business with 15 separate agencies that are in various 
cabinet secretary agencies around. So I am dealing with 
secretaries of this or that, the Secretary of Defense, 
Secretary of State, Treasury, Attorney General, so forth, all 
these people on a regular basis.
    We don't have any problem reaching out either into the 
Executive Branch on our business. We don't get into other 
people's business. We just do the classified intelligence piece 
of that.
    And we also don't have any trouble reaching out to the 
various chairmen and ranking members of those authorizing 
committees, and we do work very closely with the appropriators. 
We have to.
    Ms. Slaughter. And that is fine. But do you see that this 
could be translated over to a select committee on homeland 
security?
    Mr. Goss. To a select committee on homeland Security?
    Ms. Slaughter. Or a permanent committee. One or the other. 
How do you think it will work?
    Mr. Goss. I think it will work. I think it will work better 
with a select committee because we have been able to make it 
work that way, and I notice it hasn't worked quite that way 
with some of the standing committees.
    But it also has worked with some standing committees, so 
you can take that either way. It depends a little bit on the 
relationships and leadership of the various committees and 
where the chemistry is.
    But my view is, it is easier with a permanent select 
committee specifically. That is not a preference, it is just a 
view that that aspect is easier with the select committee.
    Ms. Harman. I would just add that the goal is to make 
Congress more effective in overseeing the Department of 
Homeland Security and to make our homeland security effort more 
effective. And that is what we should focus on, not how do I 
keep as much turf as I already had, wherever it is that I may 
be.
    I do agree with Chairman Goss that there are some unique 
aspects to the House Intelligence Committee that couldn't 
easily be transferred, but I don't want to be heard to say 
every ounce of turf as is has to be protected. I really think 
as we have organized, reorganized the Executive Branch, we have 
to be prepared to consider seriously reorganizing Congress.
    Ms. Slaughter. Thank you.
    Mr. Diaz-Balart. Chairman Cox?
    Mr. Cox. Thank you. And I want to thank you as much for 
your response to the questions as for your formal prepared 
testimony and your opening because it is really helpful, to us 
and the intersection between your responsibilities as Members 
of the Homeland Security Committee and your permanent jobs on 
the Permanent Select Committee on Intelligence couldn't be 
closer and more important.
    I just want to begin by recognizing the complete agreement 
that I have with Chairman Goss, and his testimony concerning 
the importance of defining homeland security. It is a work in 
progress, as you know. It is still under definition. And I 
think that if we are to succeed in protecting the country, we 
have to get away from that notion that Homeland Security is in 
the eye of the beholder, that it is meaning is as meaning does 
and that we can morph it into anything convenient particularly 
for the purposes of funding programs.
    That is one of the reasons I think there needs to be 
rigorous congressional focus, not just from an oversight 
standpoint, but from a legislative standpoint and authorization 
standpoint on what this Department does. And particularly, I 
say that because, while the Department can be and we intended 
it to be when we just wrote the Homeland Security Act a short 
while ago, a bulwark against a parade of horrible things that 
might happen to us, it also has a dystopian future if we let it 
become what it might in our worst imaginings, a Department of 
Homeland Security that is bound to grow.
    Long after we are gone, the Department will still be there. 
Several decades from now it will still be growing. It will be 
much bigger, and it is going to grow into something. The 
importance of our job right now is that we are going to orient 
it and maybe a few degrees this way, a few degrees that way, 
and it will have profound consequences 10, 20 years down the 
road.
    So this definition is just absolutely essential. But here 
is part of the dystopian vision of what Homeland Security 
Department run amuck would look like. First, it would be a 
threat on all of our civil liberties. Second, it would be a 
regulator of every corner of American life and every aspect of 
American commerce. Third, it would be the excuse for 
federalizing virtually every State function and every private 
sector function. And fourth, it would be the ruin of the 
Federal budget.
    It can be all of these things if we let it stray from its 
mission as stated clearly, which is threefold: First, to 
protect; second, to prevent; and, third, to respond. Those 
three must, it seems to me, define the Department and thus the 
jurisdiction of any committee that oversees it to the exclusion 
of all else.
    If you let other things--it is just as important to keep 
things out, not only of congressional jurisdiction but also the 
Department's own jurisdiction, as it is to put all these 22 
agencies together and to make them work together.
    So I think we have to recognize the importance of the job 
we are doing here in Congress, because it isn't just about our 
turf. It isn't just about how we organized ourselves. How we 
make these choices will have immediate and long-lasting 
consequences for real life over the Department of Homeland 
Security and us there for the rest of the country.
    The first mission, which is the most important of the 
three, preventing terrorism relies heavily on an intelligence 
component. Rather clearly in the charter that we wrote for the 
Homeland Security Department there isn't a foreign intelligence 
collection responsibility at all.
    So for starters, one of the things that is squarely within 
your jurisdiction should be not only squarely outside the 
jurisdiction of any future homeland security committee, but 
also outside the jurisdiction of, now or in the future, the 
Department of Homeland Security. We don't want them in that 
business.
    Second, the Department of Homeland Security really doesn't 
collect much in the way of domestic intelligence. I suppose if 
we have an asterisk or a footnote, we should acknowledge that 
the Coast Guard probably collects some foreign intelligence, 
and certainly, the Secret Service receives foreign 
intelligence.
    But, you know, in the collection area, the responsibilities 
of the Department are very slim and for the most part, we have 
chartered it to focus on the fusion of intelligence from all 
sources and the analysis of that intelligence. And just as 
importantly, although it is not expressed in precisely these 
terms in the act, the Department has the authority and the 
responsibility to place requirements on the intelligence 
community.
    So the intersection, from a jurisdiction standpoint, occurs 
at this fusion place. And the reason that we have the 
Department of Homeland Security with an IA directorate is that 
we thought, as a Congress, the House and the Senate, the 
Democrats and Republicans, about leaving this in the 
intelligence community as presently comprised.
    And it frightened us, as we looked over that precipice, to 
think about what would happen to the walls that we have built 
so carefully about the collection of, particularly, foreign 
intelligence as we define in the intelligence community and 
what we expect Homeland Security to be all about, back to this 
definition, which is our own back yard.
    And we are talking about getting in touch with our mayors, 
with our law enforcement. We are talking about, you know, 
placing requirements to collection, not just overseas, but with 
the FBI, all of the FISA concerns that you have already with 
the Judiciary Committee, all of those things are going to go on 
at the same time that foreign intelligence is being analyzed 
and in the same place.
    Better to put that in a Department of Homeland Security 
with a strong civil liberties protection component than to 
expand the notion of intelligence collection based on the old 
model, given all of that history and the fact that the Homeland 
Security Act, which I have in front of me, amends the National 
Security Act, by definition, including within the intelligence 
community, the foreign intelligence analysis component of DHS, 
not the domestic analysis and not any collection.
    I just want to place before you both the question about 
where you think the Department belongs in this picture, first, 
and whether you agree with my assumption that, at a maximum, 
the jurisdiction of this committee should not extend beyond the 
Department itself.
    You know, obviously, there are major aspects of Homeland 
Security that fall outside the Department, and I don't know 
whether anybody has in mind suggesting that the Department's 
jurisdiction be only the minimum and not the maximum of what 
the committee would look at. So I would ask you both to opine 
on both of those questions.
    Mr. Goss. I think it is the hardest question. The debate is 
going on in our country about--most Americans, on a given day, 
count on the United States Government as a certain amount of 
protection depending on what the threat is of the day, whether 
there is a sniper loose or something else. Mood swings on that. 
And equally, most Americans are in distress over the thought 
that somebody might be checking their library records.
    So you have this balance problem which is why the oversight 
is so important. Now, I believe the essence of Homeland 
Security and national security is preemptive. It is 
preventative. I think that if we are very good at cleaning up 
after the bomb goes off, that's terrific. And Thank God we have 
the men and women who do that and have done it so well.
    But honestly, the mission should be to stop the bomb from 
going off. That means having the information. Okay. The foreign 
intelligence pattern is pretty clear. It works. We have the 
template. It is set up.
    The problem is, where do you plug it in to Homeland 
Security, since we don't have a domestic intelligence agency? 
That has always been the point where we have not found a plug 
that fits the receptacle.
    Some of us thought when we put together the Department of 
Homeland Security, we would do it all in Homeland Security. We 
would create a fire hose that came in from domestic 
intelligence and foreign intelligence. It would go into a room 
where there were analysts, and they would be able to task 
either local or foreign assets, and they would be able to 
preempt doing that.
    For whatever reasons, we didn't set it up that way. We set 
it up differently. The bill that came out, the bill that was 
signed by the President came out and the--what I call the nerve 
center is now dependent on outside forces, TTIC, which are 
basically now the foreign intelligence program led by a CIA 
person.
    Now that is very helpful to preserve the myth that 
Americans don't spy on Americans. But it is also--the camel's 
nose is well into the tent on the subject. So let's forget that 
and stop kidding ourselves and just get to the point and say, 
how are we going to get domestic information so that we can 
provide American security and, at the same time, provide them 
the safeguards that that is not being abused, that their 
liberties and freedoms are not being preempted by the Federal 
Government under the guise of giving them protection?
    I don't think that is as much an organizational question as 
a question of efficiency, is, how can you get that job done? I 
think, down the road, we may change our mind on that, on how we 
are doing it right now.
    I was skeptical that the way the TTIC was set up would work 
very well. Actually, it seems to be pulling itself together 
fairly well because we have such a huge difference between the 
size of fire hoses coming in to the fusion center. I believe 
that will change in time, after we get a better definition of 
what Homeland Security is and what we are allowed to do under 
the PATRIOT Act and other type things.
    Because if we are going to have preemptive law enforcement, 
I am not quite sure, just from a practical point of view, 
forget the legal problems, how I explain this in my town 
meeting when I go home.
    What is preemptive law enforcement? How do I know you are 
about to break the law until you have broken the law? And if it 
is setting off a bomb, it is a big breaking of the law.
    Those are the issues. I don't think they solve 
organizationally. I don't think your answer lies in the 
organization. But there has to be resolve.
    And I will go on to answer your question specifically and 
say, yes, I think it is the Department of Homeland Security's 
responsibility to respond to the issue of how you handle 
domestic information that is preemptive to a bad action, how 
you task to get more of that information and how you have an 
action element all in Homeland Security that can actually go 
arrest those people before they pull the trigger.
    I think that is what I see is the future of Homeland 
Security. But I still see the major component of the 
intelligence processing component being in the foreign 
intelligence program because it is the dominant, hugely 
dominant, partner of the information and probably always will 
be, given our sensitivity to our civil liberties.
    Mr. Cox. Mr. Chairman I don't want to ask any additional 
questions. But if you would permit, I would just ask for 
further clarification on that one point.
    TTIC, right now, is essentially funded out of the foreign 
intelligence budget, all be it getting funded.
    Mr. Goss. Yes.
    Mr. Cox. But are you suggesting that TTIC actually belongs 
within the foreign intelligence construct even though it is 
supposed to be--
    Mr. Goss. I think that we have actually come up--
    Mr. Cox. Domestic and foreign.
    Mr. Goss. I think it is meant to bridge the gap. I think 
that is the purpose of TTIC. The Terrorist Threat Intelligence 
Center, the Terrorist Threat Information Center, when does 
information become intelligence, and is that where the line 
gets crossed and it is a no go?
    I mean, we have been very cute about how we have handled 
this. I think, actually, we have stumbled into something that 
is working fairly well and can work for a while. I think it is 
the least of our problems right now. I am not prepared to 
answer your question for all times. For where it is now, I 
think it is working right, and I think we have it set up about 
right.
    Ms. Harman. If I could just add for 30 seconds to that 
comment?
    I think TTIC is one of the success stories of the moment. 
We didn't intend that it exist. The President took the 
initiative in his State of the Union message in 2003, and I 
give him great credit for coming up with something that would 
work in this moment.
    So I think that TTIC actually can inform our efforts to 
reform the intelligence community. Fusion and integration are 
the way we have to go in the intelligence community. That is 
not the subject for today.
    All I wanted to say to Chairman Cox was that your notion of 
simplifying the jurisdiction, limiting the jurisdiction here 
and, perhaps, limiting the focus of the Department of Homeland 
Security over time so that they are congruent is, I think, an 
excellent idea.
    If this committee has a more limited jurisdiction it will 
fit better in the organization of Congress, and I think it then 
will have a better shot at becoming a destination committee for 
Congress, which we want. We want the most talented people in 
Congress to want to serve on this committee.
    But I also think that limiting the jurisdiction of this 
behemoth Department of Homeland Security that we are trying to 
cobble together will help it succeed and perform its critical 
missions and you have defined them very well.
    Mr. Diaz-Balart. I have been informed about your meeting at 
2:00. I would like to recognize Mr. Weldon, who has been here 
patiently, and I know he will be brief.
    Mr. Weldon. Two questions. First of all, on the 
jurisdictional areas. I have spent the past 5 years with a very 
frustrating challenge that resulted from a 1999 trip that 11 
Members of Congress took to Vienna with me, five Democrats and 
five Republicans, to try to work out with the Russians a 
compromise that would end Milosevic's reign. The Russians 
brought with them a Serbian who they claimed could assist them. 
I called George Tenet up and asked for a profile of this family 
and this man, and he called me back and said, well, 
Congressman, we don't have much on him. We can give you a 
couple of lines. And they did.
    I later got a memo, which I still have, from a CIA employee 
who told me he checked the internal files of the agency, and 
they didn't have anything at all except for this one person in 
the family, which wasn't the person we were meeting with.
    I was then the chairman of the Research and Development 
Committee for the military and supporting the Army's 
Information Dominance Center known as LIWA down at Fort 
Belvoir, and asked them to unofficially run a profile for me of 
this person, and they gave me five pages of information. Now, 
granted the process wasn't very sophisticated, it wasn't a full 
vetting process, which was a problem. But here, they gave me 
five pages of information about this family because they had 
data mining and data fusion capability. I came back, and the 
CIA and the FBI both called me and asked me to brief them on 
the family I had met with, and I told them everything they 
asked to know, four agents in 2 hours. And when I finished, I 
said, you know where I got my data from? Well, yeah, you got it 
from the Russians. No. You got it from the family. No. I said, 
before I left I went to the Army's Information Dominance Center 
where they have a prototype with Raytheon and other companies, 
and they gave me five pages of information. And the CIA and FBI 
people said, what is the Army's Information Dominance Center?
    From that point, working with intelligence people we put 
together what was then called the NOAH, National Operations 
Analysis Hub, a nine-page brief to create what is now called 
the TTIC. But this was back in 1999. We put language in two 
successive defense bills that called for DOD to support with 
money the creation of this entity, the 2000, 2001 defense 
bills.
    John Hamre, then Deputy Secretary of Defense, told me, 
Congressman, I will pay for it, but you have got to get the 
other agencies to agree. He suggested I have a meeting in my 
office with his counterparts, the CIA and the FBI, which I did 
1 year before 9/11. I have the date and I have the people who 
attended. And for 1 hour, four of us, John Hamre, Deputy 
Director of CIA, Deputy Director of FBI, talked about creating 
a NOAH. And the response by the agencies--other agencies were, 
we don't need it.
    So my question is, from the standpoint of data fusion and 
data--I am glad we have the TTIC and I was glad the President 
mentioned it in the State of the Union speech last year. We 
should have had that back in 1999 and 2000 when people from the 
Intelligence Community knew full well that there was a need to 
have this data fusion and data mining capability. And so the 
process then was to link together 33 classified systems that 
our various agencies have.
    I want to ask you both for the record or now, are you 
satisfied that TTIC in fact has done that? And are you 
satisfied that in your committee as it currently stands you 
have enough jurisdiction over those 33 systems?
    Mr. Goss. The answer is I am not satisfied with the system 
at all. It has a long way to go for secure coms and other 
matters. There is still some residual, what I will call 
cultural problems. It is much improved. I think there is 
clearly a mission objective now that is understood, there is a 
vision about it.
    Do I feel we have the jurisdiction to deal with it? I do. I 
have the same frustration that you do, because we have been 
banging on this particular thing for as long as you have. And 
we appreciate your assistance on it. I know the work you have 
done.
    Part of the problem, incidentally, with the Dominance 
Center was it scared the heck out of some people about the 
civil liberties question, which is still part of the debate and 
still going on. So, and that debate is going to go on. So that 
does create an extra obstacle?
    But, no, it is not as good as it needs to be. It is clear, 
we understand what we need to do. Now all we have to do is get 
it done. But we haven't got it done yet, and that is one of the 
things I believe DHS can do.
    Mr. Weldon. Perhaps I could ask my second question to Ms. 
Harman, if she would take it. And that is, are you satisfied 
that the Intel Committee is going to be able to deal with the 
integration of--vertical and horizontal integration of 
intelligence for the first responder, which is a big challenge? 
Are you satisfied that that is a role that you all can play?
    Ms. Harman. It is certainly a priority for us. Info sharing 
was one of the big problems leading up to 9/11. And I only wish 
your meeting had resulted in TTIC, standing up TTIC in the year 
1999 or 2000. It would have made a huge difference. But we do 
focus on it. I have paid certainly visits to TTIC; I recommend 
that to others. I know Chairman Cox has been there. Its focus 
is not just to fuse the data, but then to get it out vertically 
down to our hometowns, and not only to get it down but to get 
data from our hometowns up. And the methods of communication 
are impressive because they can strip out sources and methods, 
which means that the local cop on the beat without the security 
clearance can get the information he or she needs to know what 
to do.
    And I think we are a lot farther along in that effort now 
than we were a year ago. And I do think that the new 
streamlined, smaller, more effective, permanent in some form 
committee focusing on homeland security should keep a focus on 
information sharing, should make sure that first responders 
have tools in the event that we can't prevent the attack in the 
first place. In fact, let me amend that. They may be the ones 
who prevent the attack if they have the right information.
    Mr. Weldon. Thank you.
    Mr. Goss. May I add just to that, we have actually seen a 
successful example of that. It turned out we were wrong, but we 
had a person overheard a conversation in a restaurant in 
Georgia, phoned ahead to some police people in Florida; they 
got down to the local sheriff in my county down in Collier 
County, and they shut down I-75. They actually arrested a car 
full of people. Now, as it turned out, they were on a benign 
mission, but they had been saying some things to try and create 
a little story, more like a prank, and the system worked. 
Everybody played by the rules and the system worked. As I say, 
it turned out to be wrong. But if they had been real 
terrorists, it would have been a very easy takedown. As it 
turned out, they weren't, and it caused us the inconvenience of 
shutting down I-75.
    Mr. Weldon. Well, but you have also prototyped the JRIES 
system, which does that both in New York and California, and 
that is working extremely well from the standpoint of local 
responders.
    Mr. Goss. We have the solution. It is just a question of 
doing it.
    Mr. Diaz-Balart. Thank you, Chairman and Ranking Member. 
Thank you so much. You have been very helpful and you have been 
very kind.

    We are honored with the presence of the chairman and the 
ranking member of the Committee on Agriculture. We welcome both 
of our distinguished colleagues. Again, welcome to both of you. 
And, Chairman Goodlatte.

 STATEMENT OF THE HONORABLE BOB GOODLATTE, A REPRESENTATIVE IN 
       CONGRESS FROM THE STATE OF VIRGINIA, AND CHAIRMAN

    Mr. Goodlatte. Thank you very much Mr. Chairman. It is a 
pleasure to be with you and the other members of the 
subcommittee and Chairman Cox of the full committee.
    We appreciate the invitation to provide testimony on how 
existing House rules and procedures may affect appropriate 
consideration of homeland security matters. I often hear cited 
the difficulty that will be faced by the newly created 
Department of Homeland Security by having to be responsive to 
upwards of 88 committees and subcommittees of the Congress and 
the exercise of their legislative oversight and appropriations 
responsibilities.
    Some have said that this would be too daunting a task and 
have subsequently recommended that the new Department be 
relieved of the burden of so many prying eyes. I disagree. This 
is not an exercise in marking one's territory. Jurisdiction of 
the various committees and the subcommittees of the House of 
Representatives is divided not because of the cynic's view that 
Members of Congress seek to establish and hold onto bases of 
power. The jurisdiction of the various congressional committees 
and subcommittees have been established over time to mirror the 
complexity of the various issues with which the Congress has to 
deal. The fundamental responsibility of the committees and 
subcommittees of the House of Representatives is to ensure that 
the expertise exists to properly oversee the functioning of our 
Government. The process of dividing jurisdiction is dynamic, as 
it rightly should be. Changes, when they are made, are made to 
take into account the complexities of Federal programs we 
create and oversee. In most cases, this means that additional 
committees or subcommittees are created to provide additional 
perspective on issues. Seldom does this process engage to 
minimize the accountability of the Federal bureaucracy as would 
be the outcome if a new permanent standing Committee on 
Homeland Security were to be created.
    When the Congress authorized the creation of the Department 
of Homeland Security, we vested in this new Department numerous 
diverse and complex programmatic responsibilities. We provided 
for the transfer of up to 3,200 employees from the Department 
of Agriculture, whose job it is to conduct inspections of 
people and commercial goods coming into our country that may 
intentionally or unintentionally be carrying pests or diseases 
that could be detrimental to U.S. agriculture.
    Over the years, this function has involved the investment 
of billions of taxpayer dollars and had countless staff hours, 
education, and experience devoted to it.
    While some may believe that the first and only 
responsibility of the Department of Homeland Security is 
protection of our Nation against acts of terrorism, I would 
underscore the fact that in the Agriculture Committee we are, 
and rightly should be, at least as concerned about the 
unintentional incidents since they are a constant threat. At 
risk is a food production system which is truly priceless. 
Those with experience in this field understand the old adage: 
An ounce of prevention is worth a pound of cure. If an 
accidental introduction of foot and mouth disease were to 
occur, it would cost our economy tens of billions of dollars.
    In our zeal to focus attention on the intentional threat to 
America, we simply cannot neglect to protect ourselves from the 
historical threats that continue.
    Let me be clear. In the Agriculture Committee we are 
concerned about both intentional and unintentional threats. My 
fear is that a standing Committee on Homeland Security, whose 
purpose it is to focus on the mitigation of terrorist threats, 
might not pay attention to or recognize the damage that is 
caused by unintentional introductions of plant or animal pests 
or disease.
    In a hearing held to evaluate the proposed one-face-at-the-
border proposal I used these examples to illustrate the 
importance of having sufficient expertise not only at our 
border inspection points but also in our oversight function. 
And before I show you these examples, I want to introduce a 
couple of people who are on the Agriculture Committee staff.
    Now, when new Members of Congress become chairmen of 
committees, they have the discretion to change the entire 
committee staff or keep the committee staff. I must tell you 
that my approach, because of the nature of the Agriculture 
Committee, was to keep the, in some cases, decades of 
experience in very fine points on agriculture. Two of those 
folks are with me today. Elizabeth Parker, who is a 
veterinarian, and John Goldberg, who has a Ph.D. in animal and 
food science and is a microbiologist. These folks are involved 
on a day-to-day basis with the Department of Agriculture, with 
the agricultural community, and America's farmers and ranchers 
and food processors, to make absolutely certain that the fine-
tuning of how our Government responds to threats to American 
agriculture of a wide variety of kinds are understood by the 
Department. The committee oftentimes is pointing out things to 
the Department that they haven't taken into consideration 
themselves. We are talking about the Department of Agriculture, 
not even the Department of Homeland Security.
    So this is a very grave concern to us, that this kind of 
expertise will be lost if this jurisdiction is changed over to 
someplace else. I have a few examples of the kinds of things 
that come up.
    These seeds that appear to be a matchbook, this is an item 
that is prohibited in passenger luggage without a phytosanitary 
certificate. The product is designed to look like a matchbook 
and could easily be overlooked. The risk is to plant pests and 
diseases.
    This is a bonsai tree with silk flowers. The tree was 
declared as artificial, but is actually a live bonsai with the 
leaves removed and replaced with silk flowers. The risk is the 
live plants in the soil, and such importation can harbor 
diseases, insects, and nematodes.
    This is a phytosanitary certificate dealing with prohibited 
nursery stock. It prohibited plum tree cuttings imported with a 
valid phytosanitary certificate. A phytosanitary certificate 
only attests to the origin and apparent freedom from pests and 
diseases. It cannot be used to determine enter-ability. 
Detailed regulatory knowledge is essential when conducting even 
seemingly routine inspections.
    This is a prohibited melon seed from the Middle East 
misrepresented as pistachios, and the risk is a beetle that 
comes in these seeds.
    This is a decorative bird's nest made from rice straw, and 
this is one of many types of handcrafts made from prohibited 
rice and wheat straw. These are typically declared as 
souvenirs, and a number of fungal and bacterial diseases may be 
contained in the rice.
    This is a handicraft containing raw cotton, cotton litter, 
and cotton seed. Souvenirs such as stuffed toys and handicrafts 
contain prohibited agriculture materials. The risk is to pink 
bollworm, golden nematode, and flag smut.
    This is canned soup from England that could pass as a U.S. 
product. It is Heinz Big Soup. The item is a product of 
England. It is prohibited because the ingredients include lamb, 
a ruminant, which is at risk for transmitting mad cow disease, 
and the risk of BSE, as we all know for the last several 
months, is a serious problem. It is heat resistant and survives 
the canning process, and is listed as a select agent under the 
Agricultural Bioterrorism Protection Act.
    I don't want to bore you with too many of these, but let me 
show you one that is boneless duck from Taiwan, deceptively 
labeled as jerry fish. Packaging can sometimes be misleading. 
At a glance, this appears to be labeled as fish. Actually, this 
is boneless duck from Taiwan. Animal products must be carefully 
examined to ensure that they are what they appear to be. The 
risk here is exotic Newcastle's disease. It was a serious 
problem in southern California last year. END is listed as a 
selected agent under the Agricultural Bioterrorism Protection 
Act.
    Mr. Chairman, with nearly 170,000 employees and countless 
missions and responsibilities, the function of the Department 
of Homeland Security lends itself to a functionally diverse 
oversight mechanism. I cannot see how a single standing 
committee with a normal staff can ever amass the expertise 
necessary to completely properly oversee this new Department. 
The Congress has a constitutional responsibility to ensure that 
sufficient resources are provided to review and analyze each of 
our Federal programs. A single standing committee on Homeland 
Security would have great difficulty in fulfilling this 
responsibility, and as such I would be skeptical of any effort 
to establish such a permanent standing committee.
    I urge the subcommittee to be very cautious in considering 
changes to be made to the underlying jurisdictional structure 
of the House of Representatives. I would be pleased to answer 
any questions after you hear from my distinguished colleague.

           PREPARED STATEMENT OF THE HONORABLE BOB GOODLATTE

    Mr. Chairman, and Members of the Subcommittee, thank you for the 
invitation to provide testimony on how existing House rules and 
procedures may affect appropriate consideration of homeland security 
matters.
    I often hear cited the difficulty that will be faced by the newly 
created Department of Homeland Security by having to be responsive to 
upwards of 88 Committees and Subcommittees of the Congress in the 
exercise of their legislative, oversight and appropriations 
responsibilities. Some have said that this would be too daunting a task 
and have subsequently recommended that the new Department be relieved 
of the burden of so many prying eyes. I disagree!
    This is not an exercise in marking one's territory. Jurisdiction of 
the various Committees and Subcommittees of the House of 
Representatives is divided, not because of the cynic's view that 
Members of Congress seek to establish and hold onto bases of power. The 
jurisdiction of the various Congressional Committees and Subcommittees 
has been established over time to mirror the complexity of the various 
issues with which the Congress has to deal. The fundamental 
responsibility of the Committees and Subcommittees of the House of 
Representatives is to ensure that the expertise exists to properly 
oversee the functioning of our government.
    The process of dividing jurisdiction is dynamic, as it rightly 
should be. Changes, when they are made, are made to take into account 
the complexities of Federal programs we create and oversee. In most 
cases, this means that additional Committees or Subcommittees are 
created to provide additional perspective on issues. Seldom is this 
process engaged to minimize the accountability of the Federal 
Bureaucracy as would be the outcome if a new permanent standing 
Committee on Homeland Security were to be created.
    When the Congress authorized the creation of the Department of 
Homeland Security, we vested in this new department numerous diverse 
and complex programmatic responsibilities. From the Department of 
Agriculture, we provided for the transfer of up to 3,200 employees 
whose job it is to conduct inspections of people and commercial goods 
coming into our country that may intentionally or unintentionally be 
carrying pests or diseases that could be detrimental to US agriculture. 
Over the years, this function has involved the investment of billions 
of taxpayer dollars and had countless staff hours, education, and 
experience devoted to it.
    While some may believe that the first and only responsibility of 
the Department of Homeland Security is protection of our nation against 
acts of terrorism, I would underscore the fact that in the Agriculture 
Committee, we are, and rightly should be, at least as concerned about 
the unintentional incidents since they are a constant threat.
    At risk is a food production system which is truly priceless. Those 
with experience in this field understand the old adage: ``An ounce of 
prevention is worth a pound of cure.'' If an accidental introduction of 
Foot and Mouth Disease were to occur, it would cost our economy tens of 
billions of dollars. In our zeal to focus attention on the intentional 
threat to America, we simply cannot neglect to protect ourselves from 
the historical threats that continue.
    Let me be clear, in the Agriculture Committee we are concerned 
about both intentional and unintentional threats. My fear is that a 
standing Committee on Homeland Security, whose purpose it is to focus 
on the mitigation of terrorist threats, might not pay attention to or 
recognize the damage that is caused by unintentional introductions of 
plant or animal pests or disease.
    In a hearing held to evaluate the proposed ``One Face at the 
Border'' proposal, I used these examples to illustrate the importance 
of having sufficient expertise not only at our border inspection 
points, but also in our oversight function.
    PREPARED SLIDES: COPIES ARE MAINTAINED IN COMMITTEE FILES
    Nursery Stock
    Example 1--Seeds that Appear to be a Matchbook
    Seed for propagation--The item is prohibited in passenger luggage 
without a phytosanitary certificate. The product is designed to look 
like a matchbook and could easily be overlooked.
    RISK: Plant pests and diseases.
    Example 2--Bonsai tree with Silk Flowers
    The tree was declared as artificial, but is actually a live bonsai 
with the leaves removed and replaced with silk flowers.
    RISK: Live plant in soil. Such importations can harbor diseases, 
insects, and nematodes.
    Example 3--Nursery Stock and CITES
    This nut can be mistaken for a small coconut and released. 
Actually, this is a palm nut that is an endangered species (CITES II). 
The correct action is to authorize movement to a plant inspection 
station.
    RISK: Plant diseases and violation of CITES regulations.
    Example 4--Prohibited Nursery Stock Accompanied by a Phytosanitary 
Certificate
    Prohibited plum tree cuttings imported with a valid phytosanitary 
certificate. A phytosanitary certificate only attests to the origin and 
apparent freedom from pests and diseases. It can not be used to 
determine enterability. Detailed regulatory knowledge is essential when 
conducting even seemingly routine inspections.
    RISK: Plum pox virus (listed as a select agent under the 
Agricultural Bioterrorism Protection Act)
    Nonpropagative Plant Imports
    Example 1--Misrepresented Melon Seed.
    Prohibited melon seed from the Middle East misrepresented as 
pistachios.
    RISK: Khapra beetle.
    Example 2--Decorative Bird's Nest Made from Rice Straw
    This is one of many types of handicrafts made from prohibited rice 
and wheat straw. These are typically declared as souvenirs.
    RISK: A number of fungal and bacterial diseases of rice.
    Example 3--Handicrafts Containing Raw Cotton, Cotton Litter, and 
Cotton Seed
    Souvenirs such as stuffed toys and handicrafts can contain 
prohibited agricultural materials.
    RISK: Pink Bollworm, Golden Nematode, Flag Smut
    Animal Products
    Example 1--Canned Soup from England That Could Pass for a U.S. 
Product
    Heinz Big Soup. The item is a Product of England and is prohibited. 
Ingredients include lamb (a ruminant) which is a risk for transmitting 
BSE.
    RISK: Bovine Spongiform Encephalopathy (BSE). BSE is heat resistant 
and survives the canning process. BSE is listed as a select agent under 
the Agricultural Bioterrorism Protection Act.
    Example 2--Boneless Duck from Taiwan Deceptively Labeled as ``Jerry 
Fish''
    Packaging can sometimes be misleading. At a glance, this appears to 
be labeled as fish. Actually, this is boneless duck from Taiwan. Animal 
products must be carefully examined to ensure that they are what they 
appear to be.
    RISK: Exotic Newcastle's Disease (END). END is listed as a select 
agent under the Agricultural Bioterrorism Protection Act.
    Example 3--Cheese with Meat.
    Cheese with embedded salami originating in Europe is prohibited 
without a proper certificate of processing. Hard cheeses, which are 
normally enterable, may contain meat which changes the entry status. 
Knowledge of animal products and the associated risks is key to making 
correct regulatory decisions and preventing the entry of a foreign 
animal disease.
    RISK: Foot and Mouth Disease(FMD). FMD is listed as a select agent 
under the Agricultural Bioterrorism Protection Act.
    CLOSING COMMENTS:
    With nearly 170,000 employees and countless missions and 
responsibilities, the creation of the Department of Homeland Security 
lends itself to a functionally diverse oversight mechanism. I cannot 
see how a single standing Committee with a nominal staff can ever amass 
the expertise necessary to properly oversee this new Department. The 
Congress has a Constitutional responsibility to ensure that sufficient 
resources are provided to review and analyze each of our Federal 
programs. A single standing Committee on Homeland Security would have 
great difficulty in fulfilling this responsibility and as such, I would 
be skeptical of any effort to establish such a permanent Standing 
Committee. I urge this Subcommittee to be very cautious in considering 
changes be made to the underlying jurisdictional structure of the House 
of Representatives.
    I would be pleased to answer any questions you may have.

    Mr. Diaz-Balart. Thank you, Mr. Chairman, and we will hear 
from the distinguished ranking member and then open to 
questions.
    Mr. Stenholm.

       STATEMENT OF THE HONORABLE CHARLES W. STENHOLM, A 
REPRESENTATIVE IN CONGRESS FROM THE STATE OF TEXAS, AND RANKING 
                             MEMBER

    Mr. Stenholm. Thank you, Mr. Chairman. Thank you, Ranking 
Member Slaughter, members of the committee, thank you for 
allowing me to testify today. And let me first say I associate 
myself completely with the chairman's remarks.
    The Agriculture Committee has a longstanding tradition of 
bipartisanship, and today is no exception. So I associate 
myself with his remarks, and would add a couple of others.
    Mr. Chairman, last year testifying in favor of a Permanent 
Committee on Homeland Security, one of your outside witnesses 
justified his position by asking the question: Is the issue of 
homeland security important enough to warrant a separate 
committee focused exclusively on the policies, programs, and 
problems of homeland security?
    In point of fact, I believe the correct question should 
have been: Is the issue of homeland security important enough 
to warrant getting our policies right? The answer there is 
clearly yes.
    Mr. Chairman, creating the Department of Homeland Security 
was a major change in the organization of our government. The 
Department's success in every area is crucial to the security 
of our people. The Agriculture Committee has an interest in the 
transfer of functions of the Animal and Plant Health Inspection 
Service to the Department of Homeland Security. We understand 
the reason for the transfer. APHIS personnel have long 
performed a key border security role. The agency work is done 
under statutes developed over the years by the Agriculture 
Committee to address the many pests and diseases, as the 
chairman has shown you, that threaten our food and fiber 
production system. APHIS has done that job well. We feel that 
the Agriculture Committee oversight of the agency provides the 
stability needed to ensure the ongoing success of this mission.
    Mr. Chairman, you are more familiar than I with the various 
problems that have confronted the Department of Homeland 
Security in its infancy. However, I will provide an instance 
relating to the agriculture functions and how congressional 
oversight came into play.
    Agriculture inspectors are stationed at ports and airports 
throughout the U.S. These 3,000-plus inspectors formerly with 
APHIS are responsible for screening arriving passengers and 
cargo for materials that might produce plant or animal diseases 
or pests. This work has been going on for more than a century 
and is a complex task. While the agency work is not focused 
solely on terrorism, as some have noted, a catastrophic animal 
disease doesn't care if it is introduced by a malicious 
terrorist or by a careless tourist. The effect is pretty much 
the same. However, the Department of Homeland Security proposed 
to eliminate the agriculture inspectors altogether and to 
disburse their duties among the uniformed Customs and Border 
Patrol officers.
    This was a well-intended attempt at gaining efficiency for 
taxpayers. However, had that plan been implemented the impact 
on American agriculture and the subsequent cost to the 
taxpayers could have been astronomical. Our agricultural 
inspectors are highly trained professionals with years of 
science training. Many hold advanced degrees in disciplines 
like entomology or plant pathology. They undergo extensive 
training in disease identification, technical lab analysis, and 
interview methods. Under the DHS plan, the replacements would 
have had only 72 hours of training in agriculture disease and 
pest identification.
    When members of the House Ag Committee learned of this 
plan, we immediately began the process of educating the DHS 
about the implications of their proposal. They came to 
understand the unworkable nature, even the danger of their 
plan, and ultimately scrapped it altogether, opting instead to 
keep the agriculture inspectors. In fact, DHS now plans to 
increase their total numbers.
    This is a clear example of the critical need to keep the 
expertise of the committees of jurisdiction actively involved. 
Had the attention and oversight of our committee not been 
present in the case just mentioned, we might have left exposed 
to billions of dollars of damage the U.S. agricultural economy.
    One example would be if an illness such as foot and mouth 
disease had unintentionally slipped into the country under the 
proposed DHS inspection plan.
    Mr. Chairman, while I don't recommend the creation of a 
Permanent Homeland Security Committee, I do want to make clear 
that we need to increase our efforts to make sure the job of 
homeland security is done right. One thing history shows is 
this: While every proposal to realign jurisdiction sets out to 
solve the problem of jurisdictional overlaps, no plan can 
really get this job done.
    In the early 1990s, the Joint Committee on the Organization 
of Congress provided the idea of using ad hoc committees to 
deal with crucial cost-cutting matters. I supported this. As 
you consider proposed changes to House rules, I urge you to 
consider giving more life to the Speaker's little used rule 12 
authority to refer matters to ad hoc committees.
    Finally, Mr. Chairman, it was a good idea when House rules 
were amended to limit each Member to two committee assignments. 
Unfortunately, this rule has been thoroughly ignored. Today 125 
Members of the House serve on three or more committees. We 
should strive to achieve the goal of the two-committee limit. 
Establishing another permanent committee will only make 
reaching that goal more difficult.
    Mr. Chairman, thank you once again for this opportunity to 
testify.

        PREPARED STATEMENT OF THE HONORABLE CHARLES W. STENHOLM

    Mr. Chairman, Ranking Member Slaughter, and members of the 
Subcommittee, thank you for holding this hearing and giving us the 
opportunity to testify. The Select Committee has been directed to 
conduct a study of the operation and implementation of the rules of the 
House with respect to homeland security, and I commend you for seeking 
the testimony of interested committees.
    Mr. Chairman, let me say that I am in complete agreement with the 
testimony of Chairman Goodlatte. The Agriculture Committee has a long-
standing tradition of bipartisanship and takes very seriously its 
responsibility to work together to improve our nation's food and fiber 
production policies. Our colleagues believe this work is one of the 
most important jobs they have in this House.
    Clearly, the task of the Select Committee on Homeland Security is 
equally important. I am encouraged by the bipartisan manner in which 
you've undertaken your effort to explore possible needed changes to 
House Rules, and I know that you will give every consideration to the 
many issues that will be raised as you proceed.
    Mr. Chairman, testifying in favor of a permanent Committee on 
Homeland Security last year, one of your outside witnesses justified 
his position by asking the question: ``Is the issue of homeland 
security important enough to warrant a separate committee focused 
exclusively on the policies, programs, and problems of homeland 
security'' In point of fact, I believe the correct question to be: ``Is 
the issue of homeland security important enough to warrant getting our 
policies right?'' The answer there is clearly ``Yes.''
    Mr. Chairman, creating the Department of Homeland Security (DHS) 
was a major change in the organization of our government. The 
Department's success in every area is crucial to the security of our 
people. The Agriculture Committee has an interest in the transfer of 
functions of the Animal and Plant Health Inspection Service (APHIS) to 
the DHS. We understand the reason for the transfer; APHIS personnel 
have long performed a key border security role. The agency's work is 
done under statutes developed over the years by the Agriculture 
Committee to address the many pests and diseases that threaten our food 
and fiber production system; APHIS has done that job well. We feel that 
Agriculture Committee oversight of the agency provides the stability 
needed to ensure the ongoing success of this mission.
    Mr. Chairman, you are more familiar than I with the various 
problems that have confronted DHS in its infancy. However, I will 
provide an instance relating to its agriculture functions and how 
Congressional oversight came into play:
    Agricultural inspectors are stationed at ports and airports 
throughout the US. These 3000+ inspectors--formerly with APHIS--are 
responsible for screening arriving passengers and cargo for materials 
that might introduce plant or animal diseases or pests.Sec. his work 
has been going on for more than a century and is a complex task. While 
the agency's work is not focused solely on terrorism, as some have 
noted, a catastrophic animal disease doesn't care if it is introduced 
by a malicious terrorist or by a careless tourist; the effect is pretty 
much the same.
    However, DHS proposed to eliminate the agricultural inspectors 
altogether and to disperse their duties among the uniformed Customs 
Border Patrol officers. This was a well-intended attempt at gaining 
efficiency for the taxpayers. However, had that plan been implemented 
the impact on American agriculture, and the subsequent cost to the 
taxpayers, could have been astronomical. Our agricultural inspectors 
are highly trained professionals with years of science training. Many 
hold advanced degrees in disciplines like entomology or plant 
pathology. They undergo extensive training in disease identification, 
technical lab analysis and interview methods. Under the DHS plan, the 
replacements would have had only 72 hours of training in agricultural 
disease and pest identification.
    When members of the House Agriculture Committee learned of this 
plan, we immediately began the process of educating the DHS about the 
implications of their proposal.Sec. hey came to understand the 
unworkable nature, even the danger, of their plan and ultimately 
scrapped it altogether, opting instead to keep the agricultural 
inspectors. In fact, DHS now plans to increase their total numbers.
    This is a clear example of the critical need to keep the expertise 
of the committees of jurisdiction actively involved.Sec. ad the 
attention and oversight of our Committee not been present in the case 
just mentioned, we might have been left exposed to billions of dollars 
of damage to the US agricultural economy. One example would be if an 
illness such as foot and mouth disease had unintentionally slipped into 
the country under the proposed DHS inspection plan.
    Mr. Chairman, while I don't recommend the creation of a permanent 
Homeland Security Committee, I do want to make clear that we need to 
increase our efforts to make sure the job of homeland security is done 
right. One thing history shows is this: while every proposal to realign 
jurisdiction sets out to solve the problem of jurisdictional overlaps, 
no plan can really get this job done. In the early 1990's, the Joint 
Committee on the Organization of Congress revived the idea of using ad 
hoc committees to deal with crucial, cross-cutting matters; I supported 
this. As you consider proposed changes to House Rules, I urge you to 
consider giving more life to the Speaker's little-used Rule 12 
authority to refer matters to ad hoc committees.
    Finally, Mr. Chairman, it was a good idea when House Rules were 
amended to limit each Member to two committee assignments. 
Unfortunately, this rule has been thoroughly ignored. Today, 125 
Members of the House serve on three or more committees. We should 
strive to achieve the goal of the two-committee limit. Establishing 
another permanent committee will only make reaching that goal more 
difficult.
    Mr. Chairman, thank you once again for the opportunity to testify. 
I look forward to working with the Select Committee as it continues its 
process of reviewing House Rules.

    Mr. Diaz-Balart. Thank you, Mr. Stenholm, and thank you, 
Chairman Goodlatte.
    Following up on one of the points that you brought out, 
Chairman Goodlatte, let me say first for the record that I do 
not believe that any of this subcommittee's previous witnesses 
in prior hearings nor anyone on the dais today have supported 
creating a Permanent Committee on Homeland Security without the 
necessary member and staff expertise necessary to get the job 
done right.
    In Chairman Bill Young's submitted written statement, for 
example, he explains that when his committee reorganized they 
also shifted key members and staff to the new Subcommittee on 
Homeland Security Appropriations. Certainly, a shift of 
jurisdiction among standing committees would necessitate a 
similar shift in members and staff. I certainly would not 
support a proposal that does not account for the need to 
harness the expertise, some of which you have referred to with 
very brilliant members of your staff, of each of the current 
standing committees.
    If we remove that argument, thus, Mr. Chairman, are you 
still testifying today that a permanent committee with a 
primary focus on homeland security issues, including 
integration and coordination, would not be of benefit to the 
fledgling Department of Homeland Security and the American 
people?
    Mr. Goodlatte. Mr. Chairman, first of all, I don't think 
you can remove that argument because these folks--and there are 
many, many more on the committeess staff who have expertise in 
various areas for this one small segment from the Department of 
Homeland Security's perspective some 3,000 employees out of 
170,000. These commmittee staff are used not just for this 
area, but they are used for all of the different issues that 
the Department of Agriculture and the Agriculture Committee 
have to deal with related to animal and plant health science. 
There would be an enormous duplication of that, and, quite 
frankly, a waste of resources if these folks were duplicated on 
the Department of Homeland Security for the purpose of 
fulfilling that purpose.
    I believe that the Agriculture Committee, which spends 
every minute of every day living and breathing these issues, 
and looking at it from a comprehensive standpoint from the 
chairman of the committee and the ranking member right through 
the committee's staff to deal with these things could not be 
replicated in a new committee that has so many other 
responsibilities unrelated to this major concern for 
agriculture, but I believe not major concern for the Department 
of Homeland Security. I think the evidence of that is in the 
approach they took before we spoke out, as Congressman Stenholm 
said, toward designing the one-face-at-the-border program. They 
have made a number of improvements to it, and I applaud that. 
But that was not their perspective on how to proceed. The 
oversight capability of poking holes in that comes about 
through the expertise of the Agriculture Committee and is not 
likely to be duplicated in a segment of a new Homeland Security 
Committee.
    Mr. Diaz-Balart. Mr. Chairman, according to most homeland 
security experts, one of the most critical issues facing the 
Nation is the threat of agro-terrorism. Do you believe that it 
is important for Congress to focus on that threat?
    Mr. Goodlatte. Absolutely. And we focus on that, and as a 
member of the Homeland Security Committee I work to make sure 
that the committee focuses on that. We are certainly very much 
dedicated to the Department of Agriculture focusing on it, and 
they do focus on it. Frankly, agro-terrorism is not simply an 
issue that is going to be detected and stopped at our borders. 
It is something that can take place in the interior of our 
country, and we have to have every member of the Department of 
Agriculture's staff and America's farmers and ranchers all 
working in coordination to fight agro-terrorism, because it can 
happen on anybody's farm anywhere and then spread rapidly 
around the country.
    So, again, I think the focus needs to be where the large 
numbers of experts are that, again, can't be replicated by the 
Department of Homeland Security to contribute to that effort on 
agro-terrorism, which certainly the Department of Homeland 
Security has an interest in as well, and we support. But we 
think that the oversight of that effort with these agricultural 
agents at the border ought to be overseen by the Agriculture 
Committee.
    Mr. Diaz-Balart. Mr. Chairman, has the Agriculture 
Committee held any hearings in the area of agro-terrorism?
    Mr. Goodlatte. We meet on a daily basis met with the folks 
with the Department of Agriculture. But holding hearings on an 
issue where the public knowledge about what can and could 
happen here is not always desirable. We have had private 
briefings on this issue, but we have not had public hearings on 
it that I am aware of, at least not in the 1 year that I have 
been chairman. If we saw the necessity of holding public 
hearings on the issue in such a way that we did not feel that 
we were educating terrorists on how to carry out their attacks, 
we would certainly do so. But we think that most of this needs 
to be done in a different fashion.
    Mr. Diaz-Balart. I am glad you do see the importance of the 
issue to the safety of the Nation.
    Mr. Goodlatte. Absolutely.
    Mr. Diaz-Balart. And I would like to ask, I am thinking 
about, Ranking Member Stenholm, the thrust of your testimony, 
for which I thank you both for your kindness and your time.
    I guess what I was hearing through your testimony, Mr. 
Stenholm, is your concern that a new committee focused on 
homeland security would, or certainly might, lead to the 
ignoring of traditional missions of some of the agencies now 
within the Department of Homeland Security, and you were 
concerned. Certainly I think I heard that in your testimony.
    Mr. Stenholm. Yes, sir, Mr. Chairman. That was the concern. 
And as I pointed out, we have--animal and plant diseases can be 
introduced under agro-terrorism, or they can be introduced 
naturally, or they can be brought in innocently by humans. And, 
therefore, the overall function of our inspectors is, yes, to 
be helpful in providing, as Chairman Cox mentioned a moment 
ago, finding the bad guys before they do the bad deed. That is 
one function. But also it is also internal, as the chairman has 
pointed out, that it is an ongoing, everyday occurrence, an 
everyday responsibility that we have for purposes of protecting 
our Nation's food supply. And, therefore, the division of 
responsibilities in that area could be very detrimental.
    Mr. Diaz-Balart. I certainly sensed, as I say, the thrust 
of your argument. I guess the flip side is continuing the 
status quo perhaps could result in the opposite problem. In 
other words, you focused in on the danger that there might be 
some traditional missions ignored. The flip side is that the 
opposite could result.
    I guess, what do you think is the greater risk, Mr. 
Stenholm? That we focus too heavily on homeland security, or 
not enough on homeland security?
    Mr. Stenholm. The greatest risk would be not enough. That 
is something the House Agriculture Committee--we held a hearing 
on individual animal identification as part of our food safety 
concerns devoted on BSE, for example, just a couple of weeks 
ago. A lot of concern in this country in the beef industry 
about that, and making sure that we do everything humanly 
possible to continue to assure the American public consumer 
that our food supply is safe. That takes many different 
directions, as we do. But the danger to all of us is not doing 
enough and making sure that the resources we have are used 
efficiently.
    Mr. Diaz-Balart. Ms. Slaughter.
    Ms. Slaughter. Thank you very much.
    There was a meeting here sometime this week that one of 
my--a fellow in my office attended about BSE. And one of the 
questions she brought up, since they have come up with this 
freon technology, was could they be adapted as a terrorist tool 
to infect the agriculture in the United States? And the 
response from the expert was, yes, they could. I wonder if your 
committee has given any thought to anything like that?
    Mr. Goodlatte. Well, we have had hearings on BSE in 
addition to the hearing that Congressman Stenholm referred to. 
I wouldn't want to offer my personal expertise on whether it 
could be transmissible, but I think it could be a terrorist 
issue because the introduction of animals with BSE into the 
country could be deliberately done. The economic impact of 
doing so could be devastating, far worse than the one incident 
that we have had which brought about a 20 percent reduction in 
beef prices upon learning that the one cow had come here from 
Canada.
    Ms. Slaughter. This was not necessarily a cow. This was the 
agent that is associated with BSE which could be adapted itself 
to infect many kinds of animals. But anyway, I just wanted to 
bring that to your attention, is something that I would 
appreciate if you could kind of give a look at.
    Have you provided any oversight to the Animal and Plant 
Health Inspection Service?
    Mr. Goodlatte. We have indeed, and we have done that at the 
full committee level and at the subcommittee level. And I stand 
corrected by my staff. We did hold a hearing on this subject, 
my predecessor did, following September 11, and it was very 
much related to this issue of what is the best way to conduct 
oversight and to utilize the expertise both of the Department 
of Agriculture and the committee's expertise in overseeing what 
is being done to combat bioterrorism.
    Ms. Slaughter. How do they feel their integration is going 
into DHS?
    Mr. Goodlatte. Well, a hearing was held in this committee, 
at which I expressed very grave concerns about to the director 
of the one-face-at-the-border program about the initial plans. 
This was following several other discussions that had taken 
place at the member level and the staff level in order to 
impress upon them our grave concern that they were overlooking 
a number of things in the establishment of that program. And, 
as Congressman Stenholm notes, substantial changes were made to 
preserve the animal inspection system as an independent system, 
merged in with the one-face-at-the-border, but nonetheless have 
that distinct agricultural expertise preserved. But as has been 
noted, and you have noted, Congresswoman Slaughter, this is not 
just a problem at the border, it is a problem everywhere in the 
country. We have 100,000 Department of Agriculture employees 
who all play a role on a regular basis in educating farmers and 
making sure that they are aware of necessary precautions that 
need to be taken not only for the deliberate introduction of 
biological agents that could cause serious harm, but for the 
much more likely introduction inadvertently of these things. 
Because that happens on a regular basis, and finding it and 
rooting it out, destroying it and dealing with it is one of the 
principal jobs of many sectors of the Department of 
Agriculture.
    Ms. Slaughter. Absolutely. But one of the things I 
mentioned then is the border security inspections functions of 
APHIS from this initial thing. Do you think that there is a 
disadvantage to--as you pointed out, you have asked that that 
be kept separate? How does--they separate--this party is 
separated from the actual Department of Agriculture, is that 
correct?
    Mr. Goodlatte. Yes. APHIS was effectively split. I voted 
for the creation of that after the assurances were made that 
the policy regarding agricultural issues would remain with the 
Department of Agriculture and the policy setting jurisdiction 
would remain with the Agriculture Committee in the Congress. 
And I think that is a good arrangement.
    I can see that there are certain advantages to having a 
coordinated effort at the border, and we recognize that, as 
long as the expertise that is needed for agriculture is not 
lost in that coordination. We were concerned, but I think the 
process worked in that the Agriculture Committee, both the 
staff and the members, stepped up to the plate and complained 
about that, and that brought about a change that has improved 
that one-face-at-the-border program.
    Ms. Slaughter. You don't think that portends any problem 
with other committees if we were to make this a permanent 
select, select or permanent committee? Not being able to give 
up the jurisdiction?
    Mr. Goodlatte. I can't speak for the individual problems of 
other committees. I am aware of the specific concerns that we 
have. I can envision that there would be other concerns 
expressed by other committees, but as to whether those can be 
worked through or not, I wouldn't want to offer my testimony.
    Ms. Slaughter. Mr. Stenholm? Any comment?
    Mr. Stenholm. Yes. I have 25 years of experience dealing 
with the frustrations of the bureaucracy as it influences my 
decisions in what I recommend to you today. It has been 
extremely difficult getting the various agencies of the United 
States Department of Agriculture to cooperate together. There 
is this stovepiping, this constant turf battles that go on that 
is extremely frustrating.
    But in this case, for this committee, I too join and 
support it, as the chairman did, the movement, because it made 
sense to have the authority placed in Homeland Security, but 
provided you didn't lose the oversight and the expertise of the 
specific functions that did not necessarily deal with human 
terrorists but with the agro-terrorism. That made sense and 
still makes sense, provided you continue that type of an 
arrangement, and that is what we are here testifying today for.
    But you--this create--when we created the biggest 
bureaucracy in the history of our country, that bothered me a 
little bit, because the idea of how do you control that? How 
does any one committee maintain the knowledge base, both staff-
wise as well as member-wise, over that? And that is why I am a 
little bit reluctant. In fact, I join the chairman in saying, 
please think twice and sleep on this before you do it, because 
I think a dividing of the responsibilities with the proper 
focused committee is the best way to go, rather than the idea 
you can create a super committee that can in fact take care of 
all of the responsibilities. In the case of agriculture, I 
think it would be a colossal mistake.
    Ms. Slaughter. Thank you both.
    Mr. Diaz-Balart. Chairman Cox.
    Mr. Cox. Thank you.
    I want to take the opportunity to thank you for not only 
your prepared testimony but for your opening statements and 
your very helpful responses to questions. And I want to ask you 
right off the bat if there is any way that you would--since 
that is the jurisdiction currently of the select committee, if 
there is any way that you would rewrite the Homeland Security 
Act with respect to either topics that are within the 
jurisdiction of your committee or topics that are of concern to 
your committee.
    Mr. Goodlatte. Well, I don't know if I would have the 
opportunity, but I would want to go back and review the 
sections as they pertain to agriculture to see how much 
authority we would have to alter, for example, legislatively 
the kind of action that was originally proposed by the 
Department of Homeland Security with regard to agriculture 
inspection at borders. My understanding was, and still is, that 
we would be able to undertake that in the jurisdiction of our 
committee. If I found we could not, then I would want to change 
that to even further strengthen that committee authority.
    Mr. Cox. Mr. Stenholm?
    Mr. Stenholm. I would take my own advice on that one and 
sleep on it before I would give you an answer.
    Mr. Cox. But I think it would be helpful as a follow-up 
perhaps to your testimony here today if you could or have your 
staff think about that question. I say that in response to 
something that you both said in the last half hour that I 
strongly agree with, and that is that there is more than turf 
here. This is about policy. And, you know, to the extent that 
people are making arguments about how Congress should or 
shouldn't organize itself based on sound policy, it seems to me 
that the same would hold true for the Department itself. If it 
is not wise for the Congress to organize itself in a certain 
way because of loss of focus or expertise, then perhaps it is 
no more wise for the Department to be organized that way. We 
are making an argument in behalf of the Homeland Security 
Committee within the House on the basis that we have already 
created this Department and therefore we need something to 
track it. But if we have found flaws in that when we look at it 
from a policy standpoint and the Congress, maybe the same 
problem exists at the Department and we should revisit what we 
put in there. It is certainly very much what I think our 
committee responsibility here on the select committee is all 
about, looking at that statute, revisiting it constantly, and 
making sure that the decisions that we made in practice turn 
out to be sound.
    Mr. Stenholm. Mr. Cox, if I might, I would say I think you 
have asked a very pertinent question that all of us need to 
think of, both sides, whether the Department itself needs to be 
reconfigured before we permanentize it any more than it is, and 
the same way is the jurisdiction and the oversight of the 
Congress. I think that is a very good question.
    Mr. Cox. Mr. Chairman.
    Mr. Diaz-Balart. I have one final question I would like to 
ask Mr. Stenholm based on something that he referred to.
    Mr. Stenholm, you suggested in your testimony that the 
Speaker should utilize his authority to have the House create 
an ad hoc panel to deal with homeland security, I assume. What 
should be that panel's jurisdiction, in your opinion? Both 
legislative and oversight, or just oversight?
    Mr. Stenholm. I think it would be both. And therein, if 
this oversight committee should have a concern in the area of 
agriculture, that it would--they would then call on the 
agriculture appropriate people, staff, members, et cetera, to 
respond. If it is an ad hoc committee, it is at the Speaker's 
direction, and it is for a purpose similar to what Mr. Cox was 
asking just a moment ago. That is the way I would view that.
    Now, I think that could be what could be very helpful and 
something that we ask you to seriously consider.
    Mr. Diaz-Balart. I want to thank both of you for being here 
today, for your thoughtful testimony, and we are grateful. Mr. 
Goodlatte, Mr. Stenholm, thank you very much.
    I believe the next witnesses are Mr. Barton and Mr. 
Dingell. And we are informed that they are on their way. 
Hopefully, they will be here shortly.
    At this point we want to ask of the distinguished ranking 
member, since she was detained for a few minutes at the Rules 
Committee at the beginning of our hearing, if she would be so 
kind as to give her opening statement.
    Ms. Slaughter. Thank you, Mr. Chairman. I would be happy 
to.
    I thank the many members who are taking the time out of 
their full schedules to speak with us today. There are many 
demands on everyone's time, not the least of which this week is 
the Federal budget for fiscal year 2005. Your time and your 
insights are greatly appreciated.
    The creation of the Department of Homeland Security has 
raised many issues. Congress has the responsibility over the 
new Department itself, and Congress has the heightened 
responsibility to respond to the threat of terrorism. The 
question that this subcommittee continues to consider today is 
what structure is best for the House and best for the nascent 
Department.
    Some structural changes have already been made. The 
Appropriations Committee created a Homeland Security 
Appropriations Subcommittee. The Senate has incorporated its 
homeland security duties into its Government Affairs Committee, 
instead of creating a separate Homeland Security Committee.
    Last year, this subcommittee heard from a series of 
distinguished scholars, former Members, former Speakers, and 
others. A consistence seemed to emerge from those hearings that 
the House should have a Committee on Homeland Security. These 
recommendation are helpful but not conclusive. Parliamentary 
and practical, issues such as committee jurisdiction, referral, 
oversight, legislative authority, and subject matter expertise 
are important parts of the equation in determining the utility, 
necessity, and desirability of a Homeland Security Committee.
    This is where your experience and expertise is invaluable 
to the subcommittee's deliberations. The big questions continue 
to be debated: Should the House have a Homeland Security 
Committee? Should it be permanent? Select? Or permanent select? 
Should it have oversight jurisdiction over the Department of 
Homeland Security? Should it have legislative authority for the 
Department? Should the committee have jurisdiction over 
homeland security programs, or jurisdiction over all of the 
entities that have been moved into the Department?
    I look forward to hearing from the distinguished panelists 
today. The chairmen and ranking members of the committees with 
jurisdictions over programs and entities within the Department 
of Homeland Security will be able to provide special insight 
into the daily workings of the House and our collective 
response to terrorism and the creation of the Department of 
Homeland Security.
    Thank you, Mr. Chairman.
    Mr. Diaz-Balart. Thank you, Mrs. Slaughter.
    I will at this point, since we do expect them to be here 
shortly, let us recess the committee for just a few minutes, 
subject to my calling the committee back into order.
    [Recess.]
    Mr. Diaz-Balart. The hearing will reconvene. At this point 
I would ask the chairman and the ranking member, the Honorable 
Joe Barton and the Honorable John Dingell, of the Committee on 
Energy and Commerce to come up to the table, if you will be so 
kind, and testify.
    We are honored by your presence, Mr. Chairman and Mr. 
Ranking Member. This is the fourth hearing of this Subcommittee 
on Rules of the Select Committee on Homeland Security, and we 
are completing, as you know, a very important study required by 
law, and we will report to the Rules Committee our 
recommendation with regard to our study of rule 10 as it 
relates to the issue of homeland security.

    Welcome, both of you. Chairman Barton.

  STATEMENT OF THE HONORABLE JOE BARTON, A REPRESENTATIVE IN 
 CONGRESS FROM THE STATE OF TEXAS, AND CHAIRMAN, COMMITTEE ON 
                      ENERGY AND COMMERCE

    Mr. Barton. Thank you, Mr. Chairman, and thank you, 
Chairman Cox. Thank you, Congresswoman McCarthy. I am delighted 
to testify before this committee that I am actually a member 
of, also, although not this subcommittee.

    Thank you for the opportunity to testify today. I would ask 
that my formal statement be in the record.
    Mr. Diaz-Balart. Without objection.
    Mr. Barton. And I am going to briefly elaborate on it.
    I think you all know that I am a new chairman of the Energy 
and Commerce Committee. I have been on the job about a month. 
So I am an overnight success after 20 years in the Congress, 
and I am looking forward to being a chairman and taking the 
wisdom of Chairman Dingell to my right, who has served this 
same committee as chairman. I believe he served it for 14 
years.
    I believe that the work of this select committee has been 
good. You have got good staff, you have helped the focus of 
Congress on some of the most important issues facing America 
and the American democracy.
    With all respect, and I mean that respectfully, my opinion 
is that this select committee's work is either done or will be 
done by the end of this Congress.
    Because of the work of this subcommittee, I think the House 
has our house in order. I have attached to my testimony the 
work that the Energy and Commerce Committee has done both 
immediately before and immediately after and after 9/11 to 
protect our homeland security. The Energy and Commerce 
Committee has conducted over two dozen homeland security-
related hearings in the recent years, worked our will on over a 
half a dozen pieces of major legislation directly related to 
homeland security. We--and I mean we, being the Energy and 
Commerce Committee--on a bipartisan basis have demonstrated 
that the homeland matters in our jurisdiction will get the 
time, the attention, and the resources that they need. The 
select committee has brought the broader perspective together. 
It has done an excellent job. But it is my opinion that to make 
this a permanent committee would not further progress.
    And why do I say that? The problem, in my opinion, is that 
there is no way over time to discuss the jurisdiction of the 
Energy and Commerce Committee as on homeland security and the 
jurisdiction that this select committee, if it were to become a 
permanent committee, would have on homeland security issues.
    Let me give you a few examples. The Energy and Commerce 
Committee has jurisdiction for security at commercial nuclear 
power plants. Everybody, regardless of where your committee is, 
agrees that securing these facilities from a terrorist attack 
or any kind of attack is a very good idea. The conference 
report on H.R. 6, the comprehensive energy bill, contains very 
strong new requirements in that respect. These requirements 
were developed in our committee on a bipartisan basis. 
Congressman Markey of Massachusetts was a leading proponent of 
increased security for nuclear power plants.
    How do you distinguish the need to keep our nuclear plants 
secure from terrorism versus the need to secure them against 
sabotage or something done by a former disgruntled employee? 
And the answer is you really can't. The Energy and Commerce 
Committee's bill that is in the Senate right now legislates for 
both these contingencies.
    Let me give you another example. The Energy and Commerce 
Committee has jurisdiction over the public health, and we have 
the same issue there. When we look at how to deal with 
outbreaks of dangerous and contagious diseases, we certainly 
take terrorists using the ability through the airways, through 
the waterways, to spread some contagion that would create a 
contagious disease very seriously.
    But are those potential terrorist attacks any more 
different or any more dangerous that the spread of an 
infectious disease that is spread by normal means, such as the 
SARS virus last year? When it comes right down to it, Mr. 
Chairman, there is really no way to distinguish between the 
consequences. And if you have two committees doing the same 
thing, it may muddy the water, so to speak.
    I want to address one last issue. One of the primary 
reasons that has been raised as to why the Department of 
Homeland Security should have its own committee before the 
Congress is that the Department of Homeland Security shouldn't 
have to answer to numerous congressional committees and 
subcommittees, that its work will be compromised by having too 
many bosses in the Congress. Well, the answer to that concern 
is not to the formation of another committee. The answer is 
just the opposite: To get somebody to coordinate jurisdiction 
between the existing committees and consolidate, not to expand.
    A brand new committee, no matter how well formed and with 
the right people, with new members and new staff is not going 
to do a better job than the existing committees if we do our 
job. And I will submit for the record the hearings and the 
legislation that we have done in the Energy and Commerce 
Committee over the last several years.
    So with all due respect, I would hope that at the end of 
this Congress, the Speaker and the minority leader wish to make 
this a select committee for another Congress, that would be one 
thing. But to make this a permanent committee would be 
something that I would have to oppose.
    And I would now yield to back to the Chair.

             PREPARED STATEMENT OF THE HONORABLE JOE BARTON

    Mr. Chairman, Ranking Member Slaughter, and Members of the 
Subcommittee, thank you for this opportunity to testify before you on 
the future of the Select Committee.
    I'm new to this game, as you know. I've been a Committee Chairman, 
oh, about a month now. It's good. I recommend it to anyone who gets re-
elected ten times.
    I very strongly believe that the work of the Select Committee has 
been good. You've had some good staff. You've helped to focus the 
Congress on some of the most critical issues facing America and 
American Democracy.
    But, with all due respect, the Select Committee's work here is 
done. The fact of the matter is that the House has its house in order. 
I have attached to my testimony the incredible work that my Committee 
has done--pre 9/11 and after--to protect the homeland. We have 
conducted over two dozen Homeland-related hearings in recent years, and 
worked our will on half a dozen major pieces of Homeland-related 
legislation. We have demonstrated that the Homeland matters in our 
jurisdiction will get the time, attention, and resources they need. 
And, frankly, the Select Committee has become an impediment to further 
progress.
    The biggest part of the problem is that there really is no way to 
distinguish the jurisdiction that my Committee has - and others too, 
I'm sure - between homeland security-related issues and issues that we 
would otherwise act on. Let me give you a couple of examples. Take 
security at commercial nuclear plants. We all agree that securing these 
facilities from attack is a good idea - in fact, the conference report 
on H.R. 6, the comprehensive energy bill, contains very strong new 
requirements in that respect. But how do you distinguish the need to 
keep plants secure from terrorism versus the need to secure them 
against sabotage by a disgruntled former employee? Well, you really 
can't. We legislate for both those contingencies.
    My Committee's jurisdiction over public health is very much the 
same way. When we look at how to deal with outbreaks of dangerous and 
contagious diseases, we certainly take terrorist attacks seriously. But 
are those potential attacks any more different than the spread of the 
SARS virus last year? When it comes down to it, not really--both 
require the Congress's full attention.
    Mr. Chairman, I'd like to address one last issue. Many have said 
that the Department of Homeland Security shouldn't have to answer to 
dozens and dozens of Congressional Committees - that its work will be 
compromised by having too many bosses in Congress. Well, the answer to 
that concern is not the formation of a whole new committee. The answer, 
very simply, is to ensure that someone coordinates the needs of 
Congress with the Department. A new committee with 50 Members won't do 
any better job than a liaison staffer in the Speaker's office - and it 
would be a whole lot less expensive.
    We don't need a new Committee. We really need fewer Committees. 
What we need is to consolidate the wisdom, and competition, and 
experience, and excellence of the Members in the existing standing 
Committees that have the dedication to get the homeland security job 
done.
    Mr. Chairman, I hope that my views are clear. And I hope that view 
prevails in your deliberations.
    I am, of course, happy to answer any questions the Subcommittee may 
have.
    March 24, 2004
    HOUSE COMMITTEE ON ENERGY AND COMMERCE HOMELAND SECURITY 
ACCOMPLISHMENTS

                              LEGISLATION

    107TH Congress
    <bullet> USA PATRIOT Act (H.R. 3162/Pub. Law No. 107-56). Included 
an amendment to the Communications Act of 1934 clarifying the scope of 
permissible governmental access to the communications of certain cable 
subscribers.
    <bullet> Public Health Security and Bioterrorism Preparedness and 
Response Act (H.R. 3448/Pub. Law No. 107-188). Ensures that a 
sufficient number of drugs and vaccines are available to the public in 
the event of a terrorist attack. Also provides framework for greater 
protection of food and drinking water supplies. Includes provisions 
expediting the approval of life-saving drugs for all Americans.
    <bullet> Homeland Security Act (H.R. 5005/Pub. Law No. 107-188). 
Committee drafted provisions relating to Information Analysis and 
Infrastructure Protection (cybersecurity), Research Development and 
Technology Systems, and Emergency Preparedness and Response. Committee 
continues to exercise jurisdiction over critical homeland security 
aspects of the Department of Energy, the Department of Health and Human 
Services, and associated departments and agencies.
    <bullet> Price-Anderson Act Reauthorization Act (H.R. 2983/Became 
part of H.R. 4, the Securing America's Future Energy Act, which died in 
conference). Included rigorous new anti-terrorism requirements on 
commercial nuclear energy plants and nuclear material transporters.

    108th Congress
    <bullet> Project BioShield Act (H.R. 2122/Stalled in Senate). 
Provides HHS with broad new powers to prepare for and react to 
bioterrorist threats.
    <bullet> E-911 Implementation Act (H.R. 2898/Stalled in Senate). 
Grant program to ensure that wireless phones have the technology to 
provide location information to emergency call centers.
    <bullet> H.R. 6, the Energy Policy Act of 2003. Included rigorous 
new anti-terrorism requirements on commercial nuclear energy plants and 
nuclear material transporters. Pending in the Senate.

                                HEARINGS

    106th Congress
    <bullet> Internet Posting of Chemical ``Worst Case'' Scenarios: A 
Roadmap for Terrorists. (Joint hearing between the Subcommittee on 
Health and Environment and the Subcommittee on Oversight and 
Investigations) February 10, 1999
    <bullet> The Threat of Bioterrorism in America: Assessing the 
Adequacy of the Federal Law Relating to Dangerous Biological Agents. 
(Subcommittee on Oversight and Investigations) May 20, 1999
    <bullet> The Chemical Safety Information and Site Security Act of 
1999. H.R. 1790. (Subcommittee on Health and Environment) May 19, 1999 
and May 26, 1999
    <bullet> The Security and Freedom through Encryption (SAFE) Act. 
H.R. 850. (Subcommittee on Telecommunications, Trade, and Consumer 
Protection) May 25, 1999
    <bullet> The Rudman Report: Science at its Best, Security at its 
Worst. (Full Committee) June 22, 1999
    <bullet> Results of Security Inspections at the Department of 
Energy's Lawrence Livermore laboratory. (Subcommittee on Oversight and 
Investigations) July 20, 1999
    <bullet> The State of Security at the Department of energy's 
Nuclear Weapon Laboratories. (Subcommittee on Oversight and 
Investigations) October 26, 1999
    <bullet> Safety and Security Oversight of the New Nuclear Security 
Administration (Subcommittee on Oversight and Investigations) March 14, 
2000
    <bullet> Legislation to Improve Safety and Security in the 
Department of Energy. H.R. 3383, H.R. 3906, and H.R. 3907. 
(Subcommittee on Energy and Power) March 22, 2000
    <bullet> Computer Insecurities at DOE Headquarters: DOE's Failure 
to Get Its Own Cyber house in Order. (Subcommittee on Oversight and 
Investigations) June 13, 2000
    <bullet> Weaknesses in Classified Information Security Controls at 
DOE's Nuclear Weapon Laboratories. (Subcommittee on Oversight and 
Investigations) July 11, 2000
    107th Congress
    <bullet> Protecting America's Critical Infrastructure: How Secure 
Are Government Computer Systems? (Subcommittee on Oversight and 
Investigations) April 5, 2001
    <bullet> Ensuring Compatibility with Enhanced Calling Systems: A 
Progress Report. (Subcommittee on Telecommunications and the Internet) 
June 14, 2001
    <bullet> How Secure is Sensitive Commerce Dept. Data and 
Operations? A Review of the Dept's Computer Security Policies and 
Practices. (Subcommittee on Oversight and Investigations) August 3, 
2001
    <bullet> Reauthorizing of the Price-Anderson Act. (Subcommittee on 
Energy and Air Quality) September 6, 2001
    <bullet> A Review of Federal Bioterrorism Preparedness Programs 
From a Public Health Perspective. (Subcommittee on Oversight and 
Investigations) October 10, 2001
    <bullet> A Review of Federal Bioterrorism Preparedness Programs: 
Building an Early Warning Public Health Surveillance System. 
(Subcommittee on Oversight and Investigations) November 1, 2001
    <bullet> Bioterrorism and Proposals to Combat Bioterrorism. (Full 
Committee) November 15, 2001
    <bullet> Cyber Security: Private-Sector Efforts Addressing Cyber 
Threats. (Subcommittee on Commerce, Trade, and Consumer Protection) 
November 15, 2001
    <bullet> Electronic Communication Networks in the Wake of September 
11. (Subcommittee on Commerce, Trade, and Consumer Protection) December 
19, 2001
    <bullet> Creating the Department of Homeland Security. 
(Subcommittee on Oversight and Investigations) June 25, 2002 and July 
9, 2002
    <bullet> Securing America: The Federal Government's Response to 
Nuclear Terrorism at Our Nation's Ports and Borders. (Subcommittee on 
Oversight and Investigations) October 17, 2002
    108th Congress
    <bullet> A Review of NRC's Proposed Security Requirements for 
Nuclear Power Plants (Subcommittee on Oversight and Investigations) 
March 18, 2003
    <bullet> Furthering Public Health Security: Project BioShield 
(Subcommittee on Health joint hearing with the Subcommittee on 
Emergency Preparedness and Response of the Select Committee on Homeland 
Security) March 27, 2003
    <bullet> Nuclear Terrorism Prevention: A Review of the Federal 
Government's Progress toward Installing Radiation Detection Monitors at 
U.S. Ports and Borders (Subcommittee on Oversight and Investigations) 
September 30, 2003
    <bullet> Port Security: A Review of the Bureau of Customs and 
Border Protection's Targeting and Inspection Program for Sea Cargo 
(Subcommittee on Oversight and Investigations Field Hearing in Camden, 
New Jersey) December 16, 2003
    <bullet> Nuclear Security: A Review of the Security at DOE Nuclear 
Facilities and the Implementation of the Revised Design Basis Threat 
(Subcommittee on Oversight and Investigations) March 4, 2004

    Mr. Diaz-Balart. Well, thank you, Mr. Chairman. You have 
been very frank. We appreciate your frankness.
    Mr. Dingell.

STATEMENT OF THE HONORABLE JOHN D. DINGELL, A REPRESENTATIVE IN 
    CONGRESS FROM THE STATE OF MICHIGAN, AND RANKING MEMBER 
                COMMITTEE ON ENERGY AND COMMERCE

    Mr. Dingell. Mr. Chairman, thank you. It is a privilege to 
appear before you today. I would like to thank you and my 
colleagues and members of the committee for this opportunity.

    I would like to begin by asking unanimous consent to revise 
and extend my remarks in the record.
    Mr. Diaz-Balart. Without objection.
    Mr. Dingell. Second of all, I would like to endorse 
everything that our chairman has said to you. He has talked 
good sense. And I would point out this committee has done 
useful work during this session of Congress, and I commend you 
for it. It was necessary that we have an overview of the 
entirety of the business of the national security. I think you 
have accomplished that with the cooperation and the assistance 
of the standing committees which have their responsibilities.
    I would note that the standing committees have taken their 
responsibilities as seriously as have you ladies and gentlemen 
here, and we have moved cooperatively with you and with the 
others who are concerned with these matters and with each other 
to see to it that we have accomplished the legislative purposes 
that were needed. I do not believe that the Congress is well 
served by constantly multiplying the number of standing 
committees. It tends to increase the budget, it tends to 
increase the confusion, it tends to create additional workload 
for the Members, and it doesn't seem to result in any 
significant benefits in terms of either higher quality or 
greater and more important legislative production.
    I would note that our committee has dealt with all of the 
concerns which we have in this question of national security. I 
would point out that we have done the oversight which is 
needed, and that this is not a new thing that began to happen 
when Mr. Bliley or Mr. Tauzin or my good friend our current 
chairman took office as chair. I would note that these things 
were going on before, that we had very extensive hearings on 
safety at nuclear power plants, safety at other power plants, 
questions related to public health, matters that were 
associated with possible spread of disease or epidemics or 
problems of that sort, and addressing also the question of the 
safety at the nuclear facilities. And we have forced a number 
of clean-ups, including at the national laboratories and at the 
colleges and universities which address these questions, and 
have a long history going back to the days of my predecessors, 
Mr. Chairman, of this committee.
    Now, I would be happy to submit for the record additional 
information over and above that which our able chairman has 
submitted to you.
    We have addressed the problem of SARS, and anthrax and 
chicken flu. We have also talked about how these have come to 
be and how they should be addressed and whether they are dealt 
with by foreign terrorists, common criminals, or just normal 
natural events. We have a long history of having worked with 
the agencies under our jurisdiction, whether they are the 
Department of Homeland Security with the work that they are 
doing, or the Public Health Service or the Centers For Disease 
Control or whomever or whatever they might happen to be, as 
well as the former Atomic Energy Commission and now the Nuclear 
Regulatory Commission.
    And our work has been not only of high quality, but it has 
been done on the basis of much experience, long association 
with those agencies, and with a generally friendly 
relationship.
    I would say that, as our chairman indicated to you, that 
the idea of having a single committee to which the agencies 
would report on homeland security doesn't make very good sense 
to me. I went through the energy crisis, in the 1970s, and I 
have gone through a number of other problems of similar 
character, and I never found that there was anything other than 
benefit to be achieved by having a large number of committees 
viewing these questions from the standpoint of their own 
experience and expertise. And I would say that this happened 
very much during the time of the 1970s when the Energy 
Administrator or the chairmen of the regulatory bodies or later 
the head of the Department of Energy would come up to report to 
different committees about how they were conducting their 
business. When there was need to get together on a large single 
energy bill, it was always possible to work out the agreements 
amongst the different committees that had responsibilities, and 
it was always possible to work with the leadership of the 
Congress, the Speaker, the minority leader, the majority 
leaders, and the others so as to achieve a unified legislative 
consequence to this. And I see no reason why we should be 
apprehensive that that will not work again. And I would say 
this having written a number of large energy bills, clean air 
bills, and things of that kind that involve the jurisdiction of 
many committees having to work together under somewhat 
difficult, time-consuming but nevertheless successful problems 
they confronted.
    In any event, I think that the Committee on Homeland 
Security has served the Congress well. I think that they can, 
quite frankly, terminate their affairs with the thanks and the 
appreciation of the Congress, and the understanding that the 
standing committees that now having jurisdiction over these 
matters will continue to do their work well as they always have 
and that there is no great reason for setting up a single 
committee which would, quite frankly, achieve I think perhaps 
an excessively cozy relationship with the Department of 
Homeland Security, which very frankly seems to need some rather 
hard and questioning supervision. And I will be happy to talk 
about them and the dissatisfaction that people at the border 
region happen to feel, and I think my good friend the chairman 
is nodding affirmatively that he has had similar problems with 
them not doing the job they should, not having the budget that 
they should, and needing, quite frankly, a long period of 
patient, tolerant supervision from more than just one 
committee.
    And so I would suggest that you have my thanks for the good 
work which you have done, you have my good wishes for the 
future, you have my hope that you will succeed in your other 
undertakings within this body. But I am going to observe that 
we have capacity within the standing committees to address the 
problems that exist, and I would hope that we would thank you, 
I bid you farewell, and look forward to your continuing 
success, but understand that your presence has been helpful but 
is no longer required.

          PREPATED STATEMENT OF THE HONORABLE JOHN D. DINGELL

    Thank you, Mr. Chairman and members of the subcommittee, for this 
opportunity to testify before you on the subject of possible changes to 
the House Rules relating to jurisdiction over homeland security.
    I made no secret of my sense that a new Department of Homeland 
Security would create as many problems as it was intended to solve. 
Without going into all of my reasoning, I was particularly concerned 
that public health entities, such as the Centers for Disease Control 
and Prevention, could be damaged by moving all or part of their 
activities to the Department.
    Let's look at our recent health outbreaks--SARS, anthrax, chicken 
flu--you name it. Whether produced by foreign terrorists, common 
criminals, or more often, natural events, all can have devastating 
effects. Yet the role of public health officials is the same 
throughout. And they must be prepared to respond without first 
determining whether the initial cause was terrorist activity or natural 
occurrences.
    As a result, working on a bipartisan basis, the Committee on Energy 
and Commerce attempted to limit any harm that could be caused in the 
legislation establishing the Department of Homeland Security, and I 
think we did so. We must now be sure that we do no harm to our 
Committee's jurisdiction over ``health and health facilities'' and 
``public health and quarantine,'' which enables us to address threats 
to the public health regardless of the source.
    I would add that our Committee has always taken its 
responsibilities in this field very seriously. For example, we held 
hearings on the threat of bioterrorism in America in May 1999. This was 
followed by three more hearings in 2001, and we took the lead role in 
crafting the Public Health Security and Bioterrorism Preparedness and 
Response Act. We took the lead in this Congress on the Project 
Bioshield Act.
    The potential for overlap between our Committee and a Homeland 
Security Committee abounds in a variety of other areas, such as nuclear 
facilities, oil pipelines, chemical security, electricity transmission, 
and telecommunications security. In each of these areas, our Committee 
and its staff have developed expertise that predate the events of 9/11.
    This should come as no surprise. For example, the regulation of 
nuclear powerplants must take into account security issues, whether the 
threat is a disgruntled employee or a terrorist attack. And the 
regulation of electric transmission lines must take into account the 
effects of overhanging trees as well as a terrorist attack.
    Our Committee has been thorough and relentless in holding hearings, 
seeking GAO reports, and enacting legislation to make all of these 
facilities more secure. The actions we take in ensuring security at 
critical facilities must be broad-based, taking into account a variety 
of scenarios from acts of God, human error, or human malfeasance. We 
cannot and should not try to split these important security issues 
based upon their root cause.
    I would also like to briefly anticipate two arguments in support of 
revising Committee jurisdictions to recognize the new Department of 
Homeland Security. First I am sure that the Administration would prefer 
that it answer to just one Committee. My experience over many years 
suggests that such a cozy relationship rarely advances accountability. 
For example, many have cited intelligence lapses for September 11, but 
I note that the intelligence agencies report just to the Intelligence 
Committee and the FBI reports to the Judiciary Committee. It is hard to 
see how that scheme improved accountability.
    Second, some might suggest that a Homeland Security Committee would 
somehow place a greater emphasis on homeland security issues than other 
standing committees. Again, I would refer you to the record of this 
Committee and our lead role in investigating matters of bioterrorism, 
nuclear weapons security, and other matters to suggest that is not the 
case. On the other hand, while I commend all the efforts your Committee 
has made in this area, I strongly believe that the accumulated 
expertise of our Members and staff in these areas would be wasted if 
jurisdiction were changed to place these issues in a new committee.
    In summary, we are providing you with just a recent glimpse of our 
activities on homeland security issues. They show that we have looked 
at these matters for many years, and when we recognized the need for 
increased activity, we have been the first to act. I strongly urge you 
not to recommend either limiting our Rule X jurisdiction in any 
fashion, or establishing any new jurisdiction that will duplicate or 
overlap our actions.

    Mr. Diaz-Balart. Thank you Mr. Dingell. We also thank you 
for your frankness
    Mr. Barton. Mr. Chairman, we have Mr. Waxman, Mr. Hall and 
Mr. Upton, I think. If you would like for them, I don't know 
what the protocol is but they are willing to testify if you 
wish them to or be available for questions.
    Mr. Diaz-Balart. They are certainly welcome, certainly 
welcome. The objective here is to listen and to get input, so 
you are not foreclosed from bringing up your ideas. So if you 
would like to speak now, I mean, you are more than welcome.
    Mr. Upton. I am just sitting behind them for support.
    Mr. Diaz-Balart. Well, your support is noted and is most 
important.
    Mr. Chairman, Mr. Barton, you make a valid point about how 
critical infrastructure protection efforts cannot be focused 
solely on the terrorist threat. But your analysis does not seem 
to account for the interdependencies among critical 
infrastructure and key assets and the integrated threat and 
vulnerability assessment that the Department of Homeland 
Security is charged with performing. These cut across many 
committee jurisdictions, financial services, agriculture, 
energy and commerce, transportation and infrastructure, 
resources, et cetera. Do you not see that Congress seems to 
need some committee focusing on such interdependencies and the 
overall strategy? Who will do it otherwise?
    Mr. Barton. Well, Mr.Chairman, I think that is an excellent 
question. My answer is I think to the extent that the Energy 
and Commerce Committee has jurisdiction in these interagencies, 
in these interdependencies, we are doing that. I will not deny 
that a special committee that focuses just on one department 
can also do it. I mean, I don't think it is a question whether 
a select committee if it were to become a permanent committee 
couldn't do it. But I do think and I will put into the record 
all of the hearings and the laws and the testimony that we have 
done on the Energy and Commerce Committee in the last three 
Congresses, and it is fairly extensive. As Mr. Dingell pointed 
out in his prepared remarks, over time, if you have one 
committee that oversees one agency, it is human nature to 
develop, as he put it, a cozy relationship. By having several 
committees that each independently oversee that, the Homeland 
Security Department, you are much more likely to get all these 
interdependencies covered. I mean, just by--you are getting 
multiple views and multiple hearings and quite honestly 
multiple personalities.
    Mr. Diaz-Balart. Do you have a comment, Mr. Ranking Member, 
Mr. Dingell, on that question?
    Mr. Dingell. Mr. Chairman, I agree with our chairman here. 
In a nutshell, if there is a large problem which needs to be 
addressed, the committees now of jurisdiction have the capacity 
to do that, to address that problem, especially if they have 
the support and the assistance of the Speaker and the 
leadership. We have done this over the years, going back into 
the 1970s and the 1980s where the leadership would work with 
the different committee chairmen and the different ranking 
members to see to it that we all work together, and the end 
result was that sometimes as many as 27 different committees 
would be working together on legislation, working together very 
well. The end result was that we passed legislation, which had 
the unique advantage of having the special expertise and 
experience of each and every one of these committees working 
together with the Speaker occasionally facilitating and 
assisting them in seeing to it that a unifiable and 
satisfactory conclusion was achieved.
    Mr. Diaz-Balart. Thank you. Miss McCarthy.
    Ms. McCarthy. Thank you, Mr. Chairman. Thanks to my 
chairman and ranking member for being here to share their 
thoughts today, and I have read both of your testimonies and I 
can't take issue with anything that you share because at least 
70 Percent of all of the matters in the House come through the 
very committee you are chairman and ranking member of, and I am 
honored to serve there, so it has held me in good stead in this 
new role. But I want to toss out a--expand upon your idea, Mr. 
Chairman, Chairman Barton, and ask you, Mr. Dingell, to weigh 
in on it.
    In Mr. Barton's written testimony he spoke about the need 
not so much for this committee as a liaison that would work 
with all the committees, as you mentioned, that are--you know 
have some jurisdiction already on this matter. The committee 
that has the most jurisdiction, as you point out, Mr.Dingell, 
is the Commerce Committee, both from our work on weapons 
depositories and health. I think about all the joint 
jurisdiction we already have with Judiciary, with Ways and 
Means, but perhaps an expanded role on the Commerce Committee 
with the liaison, Mr. Barton, that you mentioned someone, from 
the Speaker's office that interfaces with the other committees 
could see to it that there be joint referrals to the Commerce 
Committee and expand the role of the Commerce Committee to 
tackle additional matters beyond what we already do. I just 
would love your thoughts on that kind of concept. I do think 
there--well, while there may not need to be a Homeland Security 
Committee, there needs to be one place that coordinates it all 
from the other committees that have jurisdiction, whether that 
be the Speaker's office, in conversation with the minority 
leader's office, so there is input, or whether a committee as 
vast already as Commerce whose jurisdiction covers almost all 
of these matters anyway. I would just love your thoughts on 
that as a possible solution to the matter.
    Mr. Barton. Well, Congresswoman, I think that is a very 
valid point. I am glad that you read the testimony. It is to 
your tribute. You always do that.
    Ms. McCarthy. I try.
    Mr. Barton. I would like to point out I think the obvious. 
The chairman of the committee, Mr. Cox, is also a member of 
this committee, the Energy and Commerce Committee. He was my 
vice chairman when I chaired the Oversight and Investigation 
Subcommittee, and the young man that is briefing him was one of 
the Oversight and Investigation Subcommittee staffers. So they 
were trained well on Energy and Commerce to be the chairman and 
the staffer on this committee, and if the Speaker wanted to, in 
addition to appointing a senior staff member of his personal 
staff and the Speaker's office to serve as the liaison with all 
the committees and wanted to appoint Mr. Cox and Mr.DiLenge to 
assist on that, Mr. Cox as the congressman and Mr. DiLenge as 
the staff assisting the Speaker's staff, I think that would be 
a great compromise, or Mr. Diaz-Balart, who is a distinguished 
member of the Rules Committee. I mean I am not going to sit 
here and tell you folks that you don't need to have some 
coordination. But to have a full blown committee, with all the 
staff and all of the jurisdictional issues that would arise 
from that, to my mind is self defeating.
    Mr. Dingell. I would like to echo what the chairman said, 
but I would like to go further. This issue of the committee 
having jurisdictional borders which cause difficulty is not a 
new thing around here. Our committee has jurisdictional borders 
with Ways and Means; Public Works has similar situation. We 
have it on Superfund and Medicare and Medicaid. They have it on 
highways and other things of that sort. We have a 
jurisdictional border with Agriculture, where we have to 
address together the questions of food safety. And these things 
are done regularly and although they are sometimes a little bit 
of difficult, they always are worked out and I think 
satisfactorily over time. And if you look you will find we have 
had a long and interesting relationship with our colleagues at 
the Science Committee, where questions there have been dealt 
with, I think, without too much difficulty simply because the 
chairmen understand how these things are done by working 
together. And if questions arise that require greater effort 
and a major piece of legislation, which I don't think is needed 
at this time, then the leadership of the House can pull this 
all together. The chairmen can get together and the committees 
can get together and the business that needs to be addressed 
can be done, and I think expeditiously as well.
    And I would point out that all of these committees have two 
things. One is a familiarity with the issues. And I would point 
out that in a major terrorist attempt involving health matters, 
such as some kind of bacterial agent or something of that kind, 
are not matters that could not be addressed in just about the 
same way whether it involves terrorism or just as a naturally 
unfortunate event. Similar situations with regards to a major 
problem such as a huge spill of hazardous substance or an 
emission, a massive emission of some kind of air pollutant or 
water pollutant or something of that type. And with all respect 
to this committee, you have done great work. But sitting 
committees have the capacity to address these things and have 
never been found wanting in their addressing of the problems.
    Mr. Barton. I might just--if I may, Mr. Chairman.
    Mr. Diaz-Balart. Yes, you may.
    Mr. Barton. And based on what Chairman Dingell said, just 
give you some examples. Health and Human services, whose 
Cabinet Secretary has already testified before my committee on 
budget priorities and policy issues, also is subject to the 
Budget Committee, the Ways and Means Committee, obviously the 
Appropriations Committee, the Government Reform Committee. So 
they are going to multiple committees. The Environmental 
Protection Agency, which is one of the major agencies that we 
have jurisdiction over, they also have to report to the 
Transportation Committee, again the Appropriations Committee, 
Ag Committee, the Government Reform Committee, and the Science 
Committee. Department of energy, in addition to being 
responsible to the Energy and Commerce Committee has issues 
for, Armed Services, Government Reform, Science Approps, 
Resources. So most of the Cabinet agencies do report to 
multiple congressional committees, and I don't see why Homeland 
Security should be any different, especially if we are doing 
our job. Now if we are not doing our job, that is a whole 
different ball game.
    Mr. Dingell. They can fire you then.
    Mr. Barton. Yeah. But I don't see, I don't sense on these 
issues, nobody has said the Energy and Commerce Committee has 
not done its job and again we are blessed because the chairman 
of this committee is also a member of our committee, as is the 
distinguished lady asking the questions.
    Mr. Diaz-Balart. Ms.Dunn.
    Ms. Dunn. Thank you very much, Mr. Chairman. Thank you 
gentlemen for coming to testify before us today. I think it is 
very useful to have you as a member of the committee and to get 
your honest appraisal of the direction in which we should be 
going, and that is why we wanted to have this hearing today. I 
have a concern with the number of committees that the Homeland 
Security Department has to report too. I think it might be 
useful to have a resolution outlining exactly whom they should 
report to. Maybe we could cut that 88 committees and 
subcommittees down to a point where they would have more time 
to do the job that they were put--that administration has put 
to them. That could be useful and it could be done in a 
separate motion.
    My support for making the responsibilities of the 
Department of Homeland Security Select Committee permanent has 
a lot to do with focus on the problem. Things are different 
since 9/11. And in every area of the administration there are 
pockets of responsibilities that really need focus. ``Focus'' 
is the word that always makes me realize how important it is to 
put together a committee that has a laser like approach to the 
responsibilities that this select committee has taken, and that 
is to oversee the department and to prevent terrorism, to 
reduce the vulnerability of the United States and then to 
respond to acts of terrorism if they were to occur. That is 
what I fear we lose when we spread these responsibilities out 
over 20 or so committees and additional subcommittees. I think 
it is very easy to say, and I remember being part of a 
wonderful bicameral group called the Organization of Congress 
when I first came here as a freshman. This committee looked at 
all the responsibilities of the different committees, and in 
fact in 1995 we did reduce the number of committees by two or 
three, and that was appropriate. But on the other side of that, 
if we are not able as a Congress to respond to the new issues 
as they come into being, the problems, as we did when we formed 
the Energy Committee a few decades ago, then I think that we 
are getting behind the ``8'' ball, behind the private sector, 
behind the sort of movement that we want in this country to 
preserve the safety of our citizens, which I believe is the 
first and primary responsibility of all of us who represent 
constituents. I think it is easy to say keep the jurisdiction 
as we have it now, and so we have to push ourselves to see if 
there is a way that we could bring focus to this new and 
disastrous responsibility of the Congress without ransacking 
all the other committees that have done a very fine job, 
certainly exemplary job on most of these responsibilities up to 
9/11.
    My problem is with the additional responsibilities. I don't 
know how much time percentage-wise can you spend on the 
prevention and the response of terrorism and the assessment of 
the vulnerabilities. Maybe you can do that by setting up an 
antiterrorism oversight subcommittee on each committee. Maybe 
that is possible.
    I just would really like to go into your thinking, both of 
you, and I would like to ask you if you see any responsibility 
within your jurisdiction that you think could be set aside. I 
think that is an important question for you to look at and 
answer.
    I am on Ways and Means. There may be some things we could 
do with Customs to bifurcate its responsibilities, maybe not. 
The Commissioner of the Customs doesn't want to separate the 
revenue raising, trade-related responsibilities of Customs away 
from the responsibilities they have. But on this committee, we 
have subcommittees that are looking every single day at the 
safety of ports and borders and cyber security and 
infrastructure, and that is our specific focus, and I think 
this committee does it very well with very responsible people 
in charge of the subcommittees, and so I would like to ask you, 
is there a responsibility that you currently have that you 
think could be set aside in a committee that would focus in a 
laser like way on the security of the people we represent? 
Would you see a subcommittee being the answer to that problem? 
Or do you think things are fine the way they are now and the 
percentage of your time you have that you could allocate to 
this new responsibility is adequate?
    Mr. Barton. Let me see if I can address that, 
Congresswoman. I would like to point out that the task force 
that you served on when the Republicans became the majority in 
1994 recommended, and it was enacted in the rules, the 
elimination of the District of Columbia Committee. We do that 
now at the--one of the subcommittees on appropriations. We 
eliminated the Merchant Marine and Fisheries Committee, put 
those jurisdictional issues I believe in the Resources 
Committee. Maybe some of them are in Transportation. There was 
some debate at the time about eliminating the Small Business 
Committee. We thought those issues were broad enough that we 
kept that committee. We also discussed briefly consolidation of 
the Veterans' Committee in the Armed Services Committee, and so 
we decided to keep Veterans' as a separate committee.
    So when the Republicans became the majority and initially 
in 1994, and became into power in 1995, we went both ways. We 
kept two committees to focus on specifics, Veterans' and Small 
Business, but in the District of Columbia and Merchant Marine 
and Fisheries we consolidated. So you can argue that issue on 
focus either way.
    In terms of jurisdictional issues, that we wanted to create 
a permanent Homeland Security, are there some jurisdictional--
is there some jurisdiction in the Energy and Commerce Committee 
that should automatically go to Homeland Security? My answer to 
that would be not unless it is proven that it would--that we, 
i.e. the Energy and Commerce Committee, have failed. Now if 
there is some issue that we have failed to act on, failed to 
give the focus that you alluded to, I have only been chairman 
for a month but you tell me what it is and, by golly, there 
will be some focus. In terms of general oversight, I still have 
to get things approved and cleared by the membership and the 
leadership, but I have outlined to my subcommittee chairmen 
that in the next Congress if the Republicans are still in the 
majority, I am thinking of asking every subcommittee chairman 
to be a member of the Oversight Subcommittee and I am going to 
do oversight not only at the Oversight Subcommittee, but also 
have every subcommittee chairman do oversight on their 
authorization subcommittees.
    So if your question is if we do not create a permanent 
Homeland Security Committee, should the Energy and Commerce 
Committee create a Homeland Security Subcommittee? I am very 
willing to do that, if we change the rules to allow more 
subcommittees than are currently allowed in the current House 
rules. It is my understanding that the current House rules only 
allow for five subcommittees at each standing committee. I 
would not want to give up one of the existing subcommittees and 
I certainly am not going to give up the Oversight Subcommittee, 
but if we would expand the House rules so that you could have 
six subcommittees, I would be very willing to create a Homeland 
Security Subcommittee on Energy and Commerce, if that is your 
question.
    Mr. Dingell. I think you have to ask yourself, and I say 
this with great respect, what would have been done differently 
in Congress than was done if there had been a different 
committee structure. First of all, when the committees, the 
standing committees were asked to work on legislation, they did 
so with all vigor and it was done. It came then to the 
Committee on Homeland Security, and I found very small changes 
made, if any, in the work that was done by the Commerce 
Committee. And I think you would find a similar situation 
obtained with regard to every other committee which submitted 
its process to the oversight of the Homeland Security 
Committee. The matter then went to the Rules Committee and the 
work product of all the committees was put together and 
accepted.
    Now, my question is, how do you sort out--let's say that 
you have got a question that relates to public health, SARS or 
anthrax or chicken flu or whatever it is or some kind of 
biological agent that is released. The Commerce Committee deals 
with these questions every day. We know all about it, and we 
know what has to be done and we know the agencies that do it. 
We know what existing law is and we have that expertise. And 
the question is, how much different would the approach that 
would be taken, for example, by the Homeland Security Committee 
be from that which the Commerce Committee would suggest because 
we deal with these things in a holistic way. We don't just deal 
with homeland security, but we deal with all the impacts to 
this. We would have the advice of the Federal agency that has 
responsibility over this, the Department of Homeland Security. 
And I don't see us departing significantly from their 
suggestions, but I do see us having a keen awareness of how an 
attempt to address a particular problem that might relate to 
homeland security or terrorist activity would impact on the 
broad overall policies we have with regard to health or 
dangerous biological agents that might be naturally introduced 
into the society or might be introduced by terrorists. I see a 
similar situation with regard to poisons or hazardous 
substances or toxic substances. I see things that would relate 
to other matters of jurisdiction of the Commerce Committee, and 
I don't see any of the sitting committees or standing 
committees that address these matters that would behave any 
differently working with the Department of Homeland Security 
and I don't see any difference between what they did or would 
do because of the presence of the Homeland Security Committee.
    Mr. Diaz-Balart. Chairman Cox.
    Mr. Cox. I want to thank you formally. I have already had a 
chance to thank you informally for appearing and for providing 
both formal testimony and your opening statements and 
illuminating answers to questions. And as you know, I am a very 
proud member of the Energy and Commerce Committee myself, as 
the chairman mentioned, that he and I used to be the chairman 
and vice chairman respectively of the Oversight and 
Investigation Subcommittee, and because of that long service on 
the Energy and Commerce Committee I am very familiar with the 
broad jurisdiction of the committee and also the intersection 
between the focus of the Energy and Commerce Committee and the 
mission of Homeland Security. At Energy and Commerce we are 
responsible for energy and air quality, one of the 
subcommittees on which I serve and which you used to chair, Mr. 
Chairman, EPA, which is, you know, virtually a Cabinet 
department, the Department of Energy, FERC, NRC. We have a 
separate Subcommittee on the Environment where we focus on 
things like Superfund and drinking water and RCRA, and we have 
a Subcommittee on Telecommunications and the Internet, which is 
very active and focused on the activities of the FCC and NTIA. 
We have a Subcommittee on Commerce, Trade, and Consumer 
Protection, which, among other things, includes jurisdiction 
over the Department of Commerce. We have a Subcommittee on 
Health, which is responsible for Medicare and Medicaid and HHS 
and FDA and CDC and NIH, and we have a Subcommittee on 
Oversight and Investigations, which as I mentioned I was vice 
chairman of under your chairmanship, which doubles down from an 
oversight perspective in all those areas.
    Having spent a year and a half, actually longer than that, 
because of the time we spent in Energy and Commerce with our 
referral on the Homeland Security Act, going through that act 
and understanding it fully and now watching the Department grow 
according to that blueprint, I am pleased to say that the 
Energy and Commerce Committee has almost the least amount of 
conflict of any major committee from a jurisdictional 
standpoint, and to the extent we do have overlap we have worked 
very closely together, most notably on the BioShield 
legislation. But even there, the statute makes it very clear 
that the Department of Homeland Security acquired no 
jurisdiction over the human health aspects countermeasure, and 
so the reason for the collaboration was essentially because the 
legislation itself was collaborative between the Department of 
Homeland Security and HHS. That is a dual function. There was 
no government agency within the jurisdiction of Energy and 
Commerce transferred to the Department of Homeland Security. 
There were some very small programs and a small number of them, 
but no government agency, you know, unlike other committees. 
The whole Coast Guard got transferred, the whole INS got 
transferred, and so on. That didn't happen with Energy and 
Commerce.
    And so we have, I think, two premises from which to work. 
First, there is already a very broad and important jurisdiction 
at Energy and Commerce which we want to maintain continued 
focus on. And second, there is a discrete and severable 
function of this new Department that at least heretofore has 
been largely without the jurisdiction of the Committee on 
Energy and Commerce. I appreciate the notional offer that was 
made to acquire the jurisdiction and as a proud member of the 
Energy and Commerce Committee, that is my committee, I 
recognize that and I am here to say that I am proud of--
    Mr. Barton. I can make it more than notional if there is 
any interest. We can have a proposal to this committee or the 
Speaker's office within 48 hours if there is interest in that.
    Mr. Cox. I recognize that Texas deal maker there. We are 
happy to do this acquisition. But I think what is really 
important, and I just mention in a side bar before we begin, is 
that the Congress, the House and the Senate, keep a focus on 
the Department of Homeland Security's mission, its purpose for 
being, because in the same way that we have jurisdictional 
concerns because of all the overlap here in the House, there is 
a potential at least for the Department of Homeland Security to 
grow into areas where it doesn't belong.
    The Department of Homeland Security has a very important 
mission, and I think it is vitally important that it keep 
focused on that mission. Number one in its mission statement is 
preventing terrorism. Number two is protecting us against 
potential terrorist acts so that if they occur we minimize 
their damage. And number three is, and last, it is the only 
missions they have, those three, is to respond, to be prepared 
to respond in the event terrorism does occur, which inevitably 
some time in our future history it will, and then help the 
country recover thereafter.
    If the Department of Homeland Security, however, morphs 
into the regulator of every aspect of American life in every 
corner of American enterprise, then it is going to encroach not 
only into missions which were not assigned it by the Homeland 
Security Act, but also into the jurisdiction of the Energy and 
Commerce Committee, where it doesn't belong. If it grows to 
federalize every State and local and private sector function 
because homeland security touches everything, then inevitably 
it will also encroach directly into the traditional 
jurisdiction of the Energy and Commerce Committee, and if it 
grows in that fashion it probably will be the ruin of the 
Federal budget and also encroach in the jurisdiction of the 
Budget Committee in a big way, where we hope that it does not.
    So I would just ask you, if not at this moment as a follow-
up, ask the professional staff of the Energy and Commerce 
Committee to focus on this question. Given that the Congress 
and at least for this Congress, this select committee has 
jurisdiction over the Homeland Security Act itself, what 
recommendations would you make, given the experience that we 
now have with a real department, based on the blueprint we 
wrote not that long ago, to change the Homeland Security Act 
with respect to things that went in that perhaps should come 
out or, if you are so inclined, things that didn't go in that 
ought to have in the first place, perhaps instead of some 
things that did? And if you want to respond off the cuff to 
that, I would accept anything you have to offer by way of 
wisdom right now. But you know, recognizing that that is the 
sort of thing that would also require some study and some 
professional staff work, I would welcome it as a follow-up.
    Mr. Barton. I think you make a valid point, Chairman Cox. I 
would reserve the right to staff it appropriately and respond 
officially instead of commenting off the cuff. But the ability 
of any department to grow is limited only by its ability to get 
resources from the Congress in which to do that growth. And I 
think on an issue like homeland security, since it covers 
everything in a technical sense, there is a tremendous impetus 
to become larger and larger, so I don't--if I understand your 
theory correctly. I don't dispute the theory. But I would like 
to allow--be given the time to respond in writing to the 
specifics of the question.
    Mr. Cox. I make the kind of question because I am so 
convinced that if the Department does grow like Topsy that it 
will lose its focus and we will be less safe. So we have got to 
keep it focused on this mission.
    Mr. Barton. I agree with that.
    Mr. Cox. I also make the comment because in your prepared 
remarks you mentioned that it might be difficult to distinguish 
between what is homeland security and what is everything else, 
and I think we have got to get past that. We have got to come 
up with a definition.
    Chairman Goss was here earlier and made the point in his 
formal testimony, you know, one of the things that Congress 
needs to do and the Department needs to do increasingly a 
better job of is defining what is homeland security. It can't 
be in the eye of the beholder. It can't be whatever we say it 
is and change our mind constantly. It has to be focused.
    Mr. Barton. I can tell you in my congressional district, 
everybody--almost every municipality and their subdivisions 
thereof now have a grant asking me to support for some effort 
that they classify as homeland security. And I don't think my 
district is unique. You know, I am besieged. I won't say 
overwhelmed, but I am--I have probably hundreds of requests for 
specific grants that are categorized as homeland security 
because we have funded that and it has been a high priority, as 
it should be, to focus on it.
    Mr. Dingell. I would like to make a couple of observations. 
One, if that is a deep concern and you feel the committee must 
be kept, there is nothing to say that this committee could not 
continue to be a select committee and that it could serve in 
that fashion. But if there is a need to have that be focused on 
by the standing committees, that could be inserted into the 
rules and the Speaker can see to it then that the rules are 
carried forward by the committees which have the jurisdiction.
    I don't see anything which has transpired during this 
session of Congress or the prior one which was any different 
really because of the presence of this committee. It was a 
response by the Congress, and I of course have some concern 
about the fact that the Congress keeps getting bigger and 
bigger. We keep getting castigated more and more for the 
multiplication of efforts and the amount of work and friction 
in bureaucracy and wasted time, money and energy that goes into 
this body. And a major part of that is by the fact that the 
committees keep getting larger and larger and we keep getting 
more and more of them.
    And I want just to give you some history, and I apologize 
for this, but when I came here, the Committee on Energy and 
Commerce was smaller than most of its subcommittees. A 
subcommittee had three to five members. Five members was a big 
subcommittee. When we got done with the hearings, which went 
expeditiously because we didn't have, what is it 44 or 46 
members--
    Mr. Barton. We have 57 members of the Energy and Commerce 
Committee.
    Mr. Dingell. Making opening statements at 5Sec. nutes a 
head. We could dispose of the hearings on a piece of 
legislation in a day and have time for proper inquiry of the 
witnesses. And the end result was that we would then close the 
doors, take off our coats, roll up our sleeves and have a huge 
Donnybrook, and sharp words were used and everything else. But 
the result was that we came forward with legislation upon which 
we were in agreement. And that legislation then went through 
the Congress without any real difficulty because it wasn't so 
complicated and we hadn't made ourselves so muscle bound that 
we really had problems in legislating.
    And you can keep on increasing the number of committees. 
The Peter principle says every time you have a problem you set 
up a committee or you set up a study group or you do something 
else like that. But that doesn't address or focus upon the 
problem that you confront.
    So my statement to you, and my prayer to you would be let 
us not increase the complexity of the Congress. Let us not 
increase the number of committees. Let us not increase the 
amount, the number of units of work that must be done to a unit 
of accomplishment because that is simply to invite more delay 
and more disaster and more problems for the Congress. And with 
all due respect, and I say this sincerely, the members of this 
committee have tried hard and I believe you have served well 
and you have served honorably. But we are going to get so big 
around here in terms of the number of committees and number of 
responsibilities the Members have that we are going to have to 
have one of these searing, tearing reorganizations that takes 
place, causes no end of trouble, and leaves a lot of Members 
adrift without things to do, that distorts the function of the 
Congress for years.
    That happens every time we have a reorganization, and it 
also happens every time you reorganize the executive, because I 
find no real benefit that has been accomplished by setting up a 
Department of Homeland Security. They simply moved a lot of 
agencies over there. They don't get along with each other. We 
had a similar situation when we set up the Department of 
Energy. Everybody hated each other inside the Department of 
Energy. It was 20 years before we got them to work together. A 
similar situation with regard to the Department of Education. 
And I would just say that the simpler we can make this business 
of ours the more successful we will be, and more committees are 
not going to contribute to that.
    Mr. Diaz-Balart. You have both been very patient and 
helpful--
    Mr. Cox. Mr. Chairman, if I might just--
    Mr. Diaz-Balart. Yes.
    Mr. Cox. Just as a member of both committees, I observe 
that first with respect to your comment, Mr. Dingell, that you 
are not sure what difference has followed from the Select 
Committee's work. As a result of over 35 hearings of the Select 
Committee, we put forward a dramatic restructuring of first 
responder grants already, and the Department has changed very 
much the way that it is focusing its first responder grant 
money. We are putting in a very strong emphasis on intelligence 
threat and vulnerability. We have focused a great deal of 
attention on the threat advisory system and that has become 
much more refined as a result. We have, after the Senate 
committee of jurisdiction, without question gone forward with 
BioShield as an entitlement program. We drew to the attention 
of the Energy and Commerce Committee the importance of stopping 
that as an entitlement program, and as you know, we have now 
passed in the House collaboratively between Energy and Commerce 
and our committee not as an entitlement program because we so 
strongly believe, and Energy and Commerce was in agreement on 
this point, that this not be unsustainable. And I think very 
importantly, we put a very strong focus on the Infrastructure 
Protection and Information Analysis Directorate. There is a 
different person running that now following the hearings that 
we have had, over 35, as I mentioned, on these subjects alone.
    In contrast with that, the list that the committee provided 
the Energy and Commerce Committee to this hearing of all of the 
entirety of the work that has been done during the 108th 
Congress lists not a single full committee hearing, and one of 
the five hearings that was conducted was a joint hearing with 
our committee. There is just not time nor the jurisdiction with 
Energy and Commerce to reach all the things that the Department 
of Homeland Security is doing, and I would just tell you that I 
have made it my priority to attend all of my subcommittee 
meetings and hearings not to mention markups and full committee 
hearings and markups in Energy and Commerce, and I see very 
little overlap with the work that--the very important and 
substantial work we do in Energy and Commerce as what we are 
doing in the select committee. I just think they are as 
different as night and day. But that is my observation.
    I would also, with respect to the growth of Congress point, 
just add that historically whenever we have created a 
significant new department we have also assigned authorization 
and oversight responsibility to a committee in the Congress. It 
is true for the Department of Defense, true for the Department 
of Education, true for the Department of Energy, and it is not 
clear why with a national security mission as important as 
protecting the country it should be different for the third 
largest Cabinet department, the Department of Homeland 
Security.
    Mr. Diaz-Balart. You both have been very patient, but I 
would like to ask one last question, based on something that 
you both stressed. You both testified that the jurisdictional 
overlap is inherent in the committee system and that a new 
committee would not reduce the overlap, but would rather create 
many new and untested overlaps. Also, you have both testified 
that in your opinion a new committee is not needed.
    Former Speakers Gingrich and Foley testified before us that 
there should be a standing permanent committee with 
authorization jurisdiction to provide simple, focused, 
centralized and efficient oversight of the Department of 
Homeland Security. Both Speakers, as I am sure you recognize, 
have an intimate understanding of the House committees and 
jurisdiction. They both rejected the notion that a new standing 
committee would increase overlap if it were done right. They 
both also said that while overlapping jurisdiction may be 
acceptable or even desirable on some issues, as you both, I 
believe, pointed out, it is not for such a critical mission as 
homeland security.
    Why do you believe Speakers Foley and Gingrich are wrong? 
They both suggested that opposition is based on turf issues. 
How do you respond?
    Mr. Barton. Well, I would respond, Mr. Chairman, that if 
you had asked them whether there should be reorganization of 
the entire House or a consolidation, they would have also 
responded in the affirmative to that, because they are both 
former Speakers and they know that over time things grow and, 
as they grow, they develop some of the discontinuities that 
Chairman Cox alluded to. My recollection, and I didn't read 
their testimony, but I did watch snippets of it that was 
presented through the media, at least with regard to the Energy 
and Commerce Committee, I don't remember any specific failures 
that they alluded to in our mission statement. So I think, you 
know, I wouldn't say they were wrong. I think they were just 
responding kind of in a natural fashion that here is a specific 
issue that is a hot issue right now. We ought to focus on it. I 
think we are focusing on it through the select committee, but I 
think it is an open question whether it should be made a 
permanent committee.
    I also, before I yield to Mr. Dingell, want to respond to 
something that Congresswoman Dunn said because I misresponded. 
I thought the rules of the House allowed five subcommittees on 
each committee. The rules of the House allow five subcommittees 
plus an oversight subcommittee if you choose to have it, which 
is what the Energy and Commerce Committee has chosen. So her 
suggestion that we create a Homeland Security Subcommittee I 
would support either for my committee or for all committees 
that have jurisdiction over homeland security if we could go to 
six authorization subcommittees plus an oversight subcommittee. 
I think that would be a good idea.
    Ms. Dunn. May I comment, please? That was not my 
suggestion. That was my question to you if you felt that that 
would adequately--I am a supporter of a standing committee.
    Mr. Barton. Yeah. But I mean I would certainly, you know, 
one way to focus, in my committee on the homeland security 
issues, and Mr. Cox alluded to it, would be to have a specific 
Subcommittee on Homeland Security and I am fine with that if I 
can maintain the ones that I already have. I wouldn't want to 
give one up to get that one.
    Mr. Cox. Will the gentleman yield?
    Mr. Diaz-Balart. Yes, and I am trying wrap up this panel.
    Mr. Cox. I would just note doing the arithmetic that if 
there is a concern about Congress growing, then if we were to 
add a Homeland Security Subcommittee to each of the standing 
committees that have jurisdiction we would quickly move from 88 
committees and subcommittees to over a hundred.
    Mr. Barton. Well, but if want to focus, you know, that is 
the way to do it and you are going to get--I guarantee you if 
y'all put that before the conference, the Republican 
Conference, I will let Mr. Dingell speak for the Democratic 
Caucus, but if you put it before the Republican Conference the 
creation of an additional subcommittee on each committee is 
going to pass overwhelmingly because that means there is an 
additional subcommittee chairman or chairwoman.
    Mr. Cox. But if you have over a hundred committees and 
subcommittees with jurisdiction over something then I think the 
analog to socialism is perfect. If something is owned by 
everyone, it is the responsibility of no one.
    Mr. Barton. You give us that and I guarantee you we will 
take ownership.
    Mr. Diaz-Balart. We are going to--you have been very 
patient. We are going to wrap this up. Ms. McCarthy had a final 
point she wanted to make briefly.
    Ms. McCarthy. It was just on this point that is being 
discussed now, that the Commerce Committee, having vast 
jurisdiction already over the homeland security issues expand 
the Oversight Subcommittee, Mr. Chairman, to include homeland 
security. Because so much of it goes, comes to our committee 
anyway it would make a lot of sense.
    Mr. Barton. I agree with that.
    Mr. Diaz-Balart. Thank you both very much. You have been 
very patient. Appreciate your testimony.
    Mr. Dingell. Thank you, Mr. Chairman.
    Mr. Diaz-Balart. Mr. Davis and Mr. Waxman. We welcome the 
chairman and the ranking member of the Committee on Government 
Reform, Mr. Davis, Mr. Waxman, and you are free to proceed with 
your testimony. Mr.Davis.

   STATEMENT OF THE HONORABLE TOM DAVIS, A REPRESENTATIVE IN 
CONGRESS FROM THE STATE OF VIRGINIA, AND CHAIRMAN, COMMITTEE ON 
                       GOVERNMENT REFORM

    Mr. Davis. Thank you, Mr. Chairman and Ranking Member 
Slaughter, and on behalf of the Government Reform Committee I 
want to thank you for holding these important hearings on 
whether the House is appropriately organized to consider 
homeland security matters or do we need to add another 
appendage, which in my opinion is kind of a backsliding from 
where we were with the Contract with America, where we came in 
and we abolished committees, we didn't add committees to the 
House, trying to streamline the procedures.
    My friend and the ranking member, Mr. Waxman, and I are 
here to testify that with positive changes the House will be 
organized to ensure that Homeland Security receives the 
resources and scrutiny it deserves. Because the success of the 
Department is vital to the continuing economic recovery and 
winning the war on terrorism, we all want it to succeed. 
Congress must provide the Department with the proper resources 
while at the same time maintaining aggressive oversight to 
ensure that this massive reorganization and commitment of 
resources succeeds.
    We must ask if the House, as currently organized, has and 
will continue to aggressively oversee this new Department. More 
importantly, I believe a major congressional reorganization 
will only hinder oversight and legislative priorities. In the 
past others have testified that without a permanent committee 
exclusively devoted to DHS Congress would drop the ball. The 
past year and a half has shown that this is I think wrong. 
There has been no lack of oversight or legislative activity to 
make sure that we get homeland security right.
    Our committee maintains an aggressive posture when it comes 
to overseeing DHS. Whether through legislation or oversight 
hearings the Government Reform Committee is fulfilling its role 
as the primary oversight and investigation committee of the 
House. With the cooperation of all of our members, our 
subcommittees and the full committee, we have held numerous 
oversight hearings, field visits and markup actions pertaining 
to the Department.
    For example, the committee held oversight hearings on 
topics related to FEMA, TSA, first responders, critical 
infrastructure, visa policy, preparedness standards, DHS 
financial accountability, border management, port security and 
product litigation management, to name just a few. We held 
markups on Project BioShield, the Presidential Vacancy Act and 
the DHS Financial Accountability Ability Act. We are fulfilling 
our role and no one should question whether DHS would escape 
scrutiny if there weren't a committee in Congress under the 
same name.
    The existing committee structure has been criticized for 
the number of committees with jurisdiction over agencies and 
programs that contribute to homeland security, but the creation 
of a permanent homeland security panel would only exacerbate 
the program of jurisdictional overlap. Jurisdictional overlap 
is inherent in the committee system. The new committee won't 
reduce the overlap. It only creates many new and untested 
overlaps. It will not reduce jurisdiction overlap if we 
increase the number of committees responsible for 
transportation, emergency management, law enforcement, public 
health, immigration and the many other matters involved in 
ensuring homeland security.
    As I know too well, jurisdictional conflicts happen. It is 
the responsibility of committee chairman to manage these 
conflicts. When the overlap is well understood and tested 
through precedent, committees can focus on solutions, not turf. 
New and undefined overlaps too often result in turf battles 
that delay and even prevent positive outcomes.
    A new full Committee on Homeland Security would generate 
many new jurisdictional overlaps and conflicts. Each of the 
conflicts would be untested and unsettled. It is my experience 
that these gray areas are the source of unproductive 
jurisdictional squabbles among committees, not overlap which 
exists under any committee's structure.
    Ensuring that DHS remains strong and that Congress is 
appropriately organized to oversee this Department requires 
only minor adjustments. With a few tweaks the current committee 
structure would be well prepared to support and oversee DHS in 
its critical mission. I suggest that the House agree upon an 
organizational map. You could do it similar to the Senate 
model. As in the Senate, current committees would continue to 
oversee their legacy agencies, while Government Reform, like 
Governmental Affairs in the Senate, would oversee the 
administration of the Department's headquarters and 
departmentwide policies as well as White House efforts to 
coordinate homeland security policy.
    The Government Reform Committee already has jurisdiction 
over these matters through its authority over agency 
organization, human capital, IT security, Federal-State 
relations, procurement and the management and efficiency of 
government organizations. Reenforcement of this authority along 
with any clarifications between the other committees where the 
combination of agencies or functions may have muddied the 
existing jurisdictions would preserve our present strength and 
let the House focus on DHS and its mission, not turf battles.
    The committee I chair was at the center of the last major 
reorganization in the House when Government Reform absorbed the 
D.C. Committee and the Post Office and Civil Service Committee. 
These moves had their doubters who most of the time thought 
they would result in the neglect of those issues. I am pleased 
to report that neither has been forgotten. In fact, since the 
reorganization the Government Reform Committee has passed 
landmark legislation affecting the District of Columbia, more 
so than when it existed as a committee by itself. The Federal 
Civil Service legislation we passed, the major civil service 
reform this last year for the Department of Defense, which is 
over half of civil service, and hopefully with the help of many 
here today we are going to pass major postal reform this year 
even though we don't have a dedicated committee just for that.
    Our committee is living proof you don't need a marquis 
committee name to make sure your agency is highlighted in the 
halls of Congress. I know this existing structure works because 
this is how the House oversees and coordinates our Nation's 
drug policy, which is also--our committee has jurisdiction. The 
Office of National Drug Policy, ONDCP, created by Congress in 
1988 partly through leadership of then Government Reform 
Subcommittee Ranking Member Danny Hastert, established 
policies, priorities and objectives for the Nation's Drug 
Control Program. The Committee on Government Reform holds 
jurisdiction over ONDCP, but the Committees on Judiciary and 
Energy and Commerce oversee the major components of national 
drug policy, including law enforcement and public health.
    As I have worked this Congress on reauthorizing ONDCP, we 
have been pleased with the working relationship among the 
committees involved. This model can work for homeland security 
as well. This proposal would maintain existing areas of 
expertise and relationships with executive branch agencies. The 
proposal strengthens the parallel structures of House-Senate 
relations.
    And, finally, by designating Government Reform as the lead 
committee on cross-agency proposals when no other committee 
could naturally receive the primary referral ensures that 
homeland security efforts will be coordinated. I believe that 
framework will work and that the issue of whether homeland 
security is adequately addressed will be protected.
    In closing, I want to stress how important the issue of 
homeland security is to me in my congressional district across 
the river from here and to members of my committee. I am 
confident that if organized correctly no one will question our 
ability to oversee and contribute to the security of our great 
Nation.

  PREPARED STATEMENT OF THE HONORABLE TOM DAVIS, A REPRESENTATIVE IN 
                  CONGRESS, FROM THE STATE OF VIRGINIA

    Mr. Chairman, and Ranking Member Slaughter, on behalf of the 
Government Reform Committee, I would like to thank you for holding 
these important hearings on whether the House is appropriately 
organized to consider homeland security matters.
    My friend and Government Reform's ranking member, Mr. Waxman, and I 
are here to testify that with positive changes the House will be 
organized to ensure that homeland security receives the resources and 
scrutiny it deserves. Because the success of the Department is vital to 
the continuing economic recovery and winning the war on terrorism, we 
all want to see it succeed.
    Congress must provide the department with the proper resources 
while at the same time maintaining aggressive oversight to ensure that 
this massive reorganization and commitment of resources succeeds.
    We must ask if the House, as currently organized, has and will 
continue to aggressively and effectively oversee this new department. 
More importantly, I believe a major congressional reorganization will 
only hinder oversight and legislative priorities.
    In the past others have testified that without a permanent 
committee, exclusively devoted to DHS, Congress would drop the ball. 
The past year and a half has shown that this is, quite simply, wrong. 
There has been no lack of oversight or legislative activity to make 
sure that we get homeland security right.
    My committee maintains an aggressive posture when it comes to 
overseeing DHS. Whether through legislation or oversight hearings, the 
Government Reform Committee is fulfilling its role as the primary 
oversight and investigation committee of the House. With the 
cooperation of all our Members, our subcommittees and the full 
committee have held numerous oversight hearings, field visits and 
markup actions pertaining to the Department.
    For example the committee held oversight hearings on topics 
relating to FEMA, TSA, first responders, critical infrastructure, visa 
policy, preparedness standards, DHS financial accountability, border 
management, port security and product litigation management to name 
just a few. We held markups on Project Bioshield, the Presidential 
Vacancy Act, and the DHS Financial Accountability Act. We are 
fulfilling our role and no one should question whether DHS would escape 
scrutiny if there weren't a Committee in Congress under the same name.
    The existing committee structure has been criticized for the number 
of committees with jurisdiction over agencies and programs that 
contribute to homeland security. The creation of a permanent Homeland 
Security panel, however, would only exacerbate the problem of 
jurisdictional overlap.
    Jurisdictional overlap is inherent in the committee system. A new 
committee wouldn't reduce that overlap--it would only create many new 
and untested overlaps. We will not reduce jurisdictional overlap if we 
increase the number of committees responsible for transportation, 
emergency management, law enforcement, public health, immigration, and 
the many other matters involved in ensuring homeland security.
    As I know only too well, jurisdictional conflicts happen. It is the 
responsibility of committee chairmen to manage these conflicts. When 
the overlap is well understood and tested through precedent, committees 
can focus on solutions--not turf. New and undefined overlaps too often 
result in turf battles that delay and even prevent positive outcomes. A 
new full committee on homeland security would generate many new 
jurisdictional overlaps and conflicts. Each of the conflicts would be 
untested and unsettled. It is my experience that these gray areas are 
the source of unproductive jurisdictional squabbles among committees--
not overlap, which exists under any committee structure.
    Ensuring that DHS remains strong and that Congress is appropriately 
organized to oversee this department requires only minor adjustments. 
With a few tweaks, the current committee structure would be well 
prepared to support and oversee DHS and its critical mission. I suggest 
that the House agree upon a organizational map that resembles the 
Senate model. As in the Senate, current committees should continue to 
oversee their legacy agencies--while Government Reform, like Government 
Affairs, would oversee the administration of the department's 
headquarters and department wide policies as well as White House 
efforts to coordinate homeland security policy.
    The Government Reform Committee already has jurisdiction over these 
matters through its authority over agency organization, human capital, 
IT security, Federal-state relations, procurement and the management 
and efficiency of government operations. Reinforcement of this 
authority along with any clarifications between the other committees, 
where the combination of agencies or functions may have muddied the 
existing jurisdictions, will preserve our present strengths and let the 
House focus on DHS and its mission, not turf battles.
    The Committee I chair was at the center of the last major 
reorganization in the House when Government Reform absorbed the DC 
Committee and the Post Office and Civil Service Committee. These moves 
had their doubters and most at the time thought they would result in 
the neglect of those issues. I am pleased to report that neither has 
been forgotten. In fact, since the reorganization, the Government 
Reform Committee has passed landmark legislation affecting the District 
of Columbia, the Federal civil service and hopefully with the help of 
many here today, major postal reform. My committee is living proof that 
you don't need a marquee committee name to make sure your agency is 
highlighted in the halls of Congress.
    I know this existing structure works because this is how the House 
oversees and coordinates our nation's drug policy.
    The Office of the National Drug Control Policy (ONDCP), created by 
Congress in 1988 partly through leadership of then Government Reform 
subcommittee ranking member Denny Hastert, establishes policies, 
priorities, and objectives for the Nation's drug control program. The 
Committee on Government Reform holds jurisdiction over ONDCP; however, 
the Committees on the Judiciary and Energy and Commerce oversee the 
major components of national drug policy including law enforcement and 
public health. As I have worked this Congress on reauthorizing ONDCP, I 
have been very pleased with the working relationship among the 
committees. This model will work for homeland security as well.
    This proposal would maintain existing areas of expertise and 
relationships with executive branch agencies. The proposal strengthens 
the parallel structure of House-Senate relations. Finally, by 
designating Government Reform as the lead committee on cross-agency 
proposals when no other committee would naturally receive the primary 
referral, ensures that homeland security efforts will be coordinated. I 
believe this framework will work and that the issue of whether homeland 
security is adequately addressed will be protected.
     In closing, I want to stress how important the issue of homeland 
security is to me and to the members of my committee. I am confident 
that if organized correctly no one will question our ability to oversee 
and contribute to the security of our great nation.

    Mr. Diaz-Balart. Thank you, Mr. Davis.
    Mr. Waxman.

STATEMENT OF THE HONORABLE HENRY A. WAXMAN, A REPRESENTATIVE IN 
  CONGRESS FROM THE STATE OF CALIFORNIA, AND RANKING MEMBER, 
                 COMMITTEE ON GOVERNMENT REFORM

    Mr. Waxman. Thank you, Mr. Chairman. I am pleased to have 
this opportunity to come before this Subcommittee on Rules and 
give you my thoughts about whether we ought to have a 
continuation of a Select Committee of Homeland Security or a 
new standing Committee on Homeland Security. All of us share 
the goal of ensuring that the Department of Homeland Security 
operates as effectively as possible on security matters. The 
question is how can the Congress promote that end in the most 
efficient way possible?
    One of the key contributions Congress can make is 
conducting oversight, and there is no question that good 
congressional oversight helps agencies do the job, the best job 
they can. The problem we face now is that there are too many 
committees reviewing homeland security matters. The 
Transportation and Infrastructure Committee, the Ways and Means 
Committee, the Energy and Commerce Committee, the Agriculture 
Committee, Judiciary Committee, the Government Reform 
Committee, and others all conduct oversight of homeland 
security activities. Sometimes from different perspectives, but 
nevertheless all these committees are potentially involved in 
one way or another.
    The continuation of a select or standing Committee on 
Homeland Security compounds the problem. It adds another 
committee and another layer of oversight. We literally have a 
situation where three committees have authorities regarding 
every program in the Department. One is the traditional 
authorizing committee, one is Government Reform, which has 
governmentwide oversight responsibilities, and one is the 
present select committee, and that is simply too many.
    Now there is a better model. The better model is what the 
Senate is doing with this very same issue. There the existing 
committees with relevant jurisdiction conduct oversight over 
the agencies in their jurisdiction and the Governmental Affairs 
Committee oversees issues such as coordination of homeland 
security activities. They were wise enough to figure out how to 
do the job of oversight in the Senate without creating another 
layer of bureaucracy, setting up more committees is another 
layer of bureaucracy.
    I was amused to hear Chairman Barton say that the 
Republican Conference, that members there would like to create 
more subcommittees so there could be more subcommittee chairmen 
and women. Well, to me that doesn't sound like what I thought 
the Republicans were all about. I thought we were supposed to 
be shrinking government, not expanding the number of committees 
and subcommittee just so members could be chairmen of 
committees. That is not what our job is all about. Our job is 
to make sure the government functions appropriately.
    Now we had a special committee create the Homeland Security 
agency, and that was done in the past when legislation brought 
together all the different committees of jurisdiction to 
develop the energy policy in the 1970s. But I don't recall ever 
a committee being created solely for the purpose of responding 
to a new Cabinet level. The Department of Energy was created in 
the late 1970s. There are five standing committees in the House 
that have some aspect of jurisdiction over Energy.
    Mr. Waxman. There wasn't an energy committee created. There 
was already the Energy and Commerce Committee that had its 
primary jurisdiction on energy issues. The other cabinet level 
agency that was created was the Department of Education. Well, 
we didn't create a new Committee on Education in the House, we 
already had a Committee on Education in the House, and that 
committee does it job. We have a Department of Health and Human 
Services. Well, we have ways and means with jurisdiction over 
Health and Human Services, we have the Energy and Commerce 
Committee with jurisdiction over some of those issues, we have 
the Infrastructure Subcommittee, which has jurisdiction, and 
the committee we used to call Education and Labor, whatever it 
is called now, they have some jurisdiction over these matters. 
Should we create a new Committee on Health and Human Services 
to do the job that is already being done by these other 
committees? It seems to me the question answers itself.
    My remarks should not be interpreted as questioning the 
commitment and effort of current members of the select 
committee on Homeland Security. Rather, my point is that it is 
not in the long-term interests of the Department of Homeland 
Security and the taxpayers to have duplicative congressional 
oversight. The continuation of a select committee or a standing 
committee on Homeland Security would result in spending more 
money, devoting more resources to activities that other 
committees, other standing committees already are doing, and 
they are certainly competent to continue to do that work.
    I urge my colleagues to consider terminating the committee 
on Homeland Security and to let the committees of jurisdiction 
that are the standing committees do the job of oversight to 
help make sure this agency performs appropriately.
    Mr. Diaz-Balart. Thank you both.
    I would point out, Mr. Waxman, we were informed by some of 
the experts that testified earlier before us that, after the 
creation of the Department of Defense, the Armed Services 
Committee was created. I think you pointed out, never has it 
been done.
    Mr. Waxman. I don't know that any of us were here, but I am 
certain there was maybe a committee on the war policy. So they 
changed the name to the Committee on Armed Services in the 
House. But I am not sure, and none of us were here at the time.
    Mr. Diaz-Balart. We weren't here, but we received testimony 
on that.
    Mr. Waxman. But that is certainly an important area of 
expertise. And I think the history of where the committees have 
conducted that responsibility is clear. But to point out the 
other examples that we have had with energy and education, 
which are the two most recent cabinet level positions.
    Mr. Diaz-Balart. Those are more recent. But I didn't want 
the record not to reflect the creation of the Armed Services 
Committee after the--
    Mr. Davis. Could we supplement our testimony on that point? 
Because I think when you go back, you are going to find there 
was a committee that dealt with this, as Mr. Waxman said. I 
didn't bring any documentation, but--
    Mr. Diaz-Balart. No, but we went through World War II 
without one.
    Mr. Davis. That is our whole point.
    Mr. Diaz-Balart. What Mr. Waxman said was it had never been 
done.
    Mr. Waxman. I would like to research and put an addendum in 
the record, which may be an apology, because you may be right 
and we are wrong.
    Mr. Diaz-Balart. You are more than welcome to submit any 
supplementary.
    Mr. Cox. Would the chairman yield?
    Mr. Diaz-Balart. Yes.
    Mr. Cox. I would just point out, I think we are confusing 
two different concepts. One is whether or not there was a 
responsibility in the Congress antedating the of a cabinet 
department. And the other is whether or not our House rules 
have ever been changed to give a committee of Congress primary 
jurisdiction over a cabinet department.
    And that has happened not only repeatedly, but it has 
happened each of the last three times we have created a new 
cabinet department, so that the House rules specifically 
recognize the cabinet department in Rule 10 with respect to the 
Department of Energy where primary jurisdiction is within the 
Energy and Commerce Committee; with respect to the Department 
of Education where primary jurisdiction is within the Committee 
on Education and the Workforce; and with the Department of 
Defense where primary jurisdiction is within the Committee on 
Armed Services.
    Mr. Waxman. So I think in those cases, they designated a 
committee that was already in existence to be the primary 
committee. And what we are suggesting is we don't need another 
one.
    Mr. Cox. It is not my time, but that would be a useful 
point.
    Mr. Diaz-Balart. We certainly heard what you are 
suggesting, and we appreciate your testimony.
    Given the Government Reform Committee's responsibilities 
for all of the various elements of its existing Rule 10 
jurisdiction, I guess the key question or the most important 
question would be, how can we best ensure that sufficient 
attention is being devoted to oversight of the Department of 
Homeland Security and the critical task of overseeing and 
authorizing the functions of the third largest department of 
the Federal Government charged with the security of our 
population from the domestic terrorism? That is the key, and 
that is what we try to focus on in this and other hearings.
    Mr. Davis. We have held over 35 hearings on matters 
pertaining to this department this year in our committee, just 
for the record. We have been active in legislative markups that 
affected it, on bioshield and other areas that also affect the 
committee. I don't think there is any problem that they are 
doing it. The Senate committee has stepped up to the same 
thing, I might add, without additional staff.
    Our concern is simply this: Some of the biggest issues that 
face a new department that is put together with different 
cultures from different agencies and the like go to human 
capital functions, procurement functions, bringing those 
together. That is what our committee deals with. That is at the 
core of what the government committee does. To write us out of 
this thing and move it over to another committee I think would 
be a huge error at this point. And that is basically where the 
committee needs most of its oversight, immigration.
    I think the Judiciary Committee has the expertise in this. 
They have been guarding law in that area for a long time. 
Bioterrorism, the CDC, NIH are under the jurisdiction of 
Commerce. We don't have to lose those jurisdictions by moving 
for a new committee where I think we are going to have 
jurisdictional fights up and down.
    And, also just to go to the tendency sometimes where the 
committees get very cozy with the departments. Mr. Waxman and I 
simply went through this with mad cow disease where dealing 
with one of the local committees with oversight, very cozy with 
the leadership and not wanting to hold a hearing. And it turns 
out the cow--I mean, we got some concessions that some of the 
investigation we had done turned out to be correct.
    So that is my observation, if you really want us to be 
proactive in terms of the oversight on that. I don't think you 
lose a thing by using the Senate model in this case.
    Mr. Diaz-Balart. Ms. Slaughter.
    Ms. Slaughter. Thank you, Mr. Chairman.
    Given your wide jurisdiction over other parts of the 
government, how would you handle the authorization process for 
DHS?
    Mr. Davis. Well, you have different authorization process. 
I don't know that you would have a DHS authorization bill. We 
don't have authorization bills for a lot of departments. You 
potentially could do that. I would think immigration would 
probably stay over where it is at this point.
    But in terms of focusing on the core mission, which is what 
Mr. Cox addressed, that is the thing our committee does through 
GPRA, the Government Performance and Results Act, an Act passed 
by this Congress where we had agencies define their mission and 
what were they doing to carry out that versus what were they 
doing extra to that. Those are the kinds of things our 
committee would do. But I wouldn't expect to take CDC away from 
the Commerce Committee, who has had it a long experience in 
oversight on that.
    Ms. Slaughter. We heard that before today on Agriculture, 
that AFIS and other things have been retained in the 
Agriculture Department, which I believe sort of flies in the 
face of the idea of putting a humongous agency together in the 
first place. Do you believe that creating the agency was a bad 
move?
    Mr. Davis. I will give you my view. I think, I wish that we 
had permanent reorganization authority, which is a bill that we 
are going to be taking up later this year. That allows the 
executive branch to come in with how they think an agency ought 
to be run, reorganize it, and send it to Congress with an up or 
down vote without amendment. Presidents from 1932 to 1984 had 
that authority. We didn't have it in this case. So instead of a 
thoroughbred agency, since it has to go through Congress and 
all the jurisdictional fights, we ended up with a camel.
    And I think the way it is organized right now is going to 
be a continuing work in progress for many years. But I don't 
think the creation of a new committee helps that. I think we 
are probably better off dealing with the jurisdictions that 
have the expertise in these areas and letting the government 
committee take the lead in some of the aspects of bringing 
these areas together.
    Ms. Slaughter. Mr. Waxman.
    Mr. Waxman. Well, I voted against creating a new Department 
of Homeland Security. I didn't see that it made a lot of sense 
to take all these different functions, some of which had 
nothing to do with national security, and put them in one 
department, but not have intelligence in that. You have the FBI 
separate, you have the CIA in a separate agency. But I lost. I 
voted on the losing side of that fight. Now we have a 
department.
    Your question was an interesting one. Who would do the 
authorization bill? There is not going to be an authorization 
bill as such now that it is created. We don't have an 
authorization bill for the Department of Health and Human 
Services, we don't have an authorization for other cabinet 
departments. But there are different issues that come up. So we 
would, let us say, defer to the intelligence committee on some 
of the intelligence issues affecting Homeland Security. Our 
committee would defer to the Energy and Commerce Committee when 
it comes to those issues that are before that committee.
    But we have jurisdiction over, as Chairman Davis pointed 
out, all these different governmental functions and structure 
and civil service issues. And we would continue to look at that 
as well as our general oversight jurisdiction which covers 
everything and even duplicates at the present time the 
oversight that the standing committees have.
    So as I pointed out, we don't have oversight; the standing 
committees have oversight. And now we are going to create 
another committee that will have oversight jurisdiction.
    Ms. Slaughter. Well, I think what we want to do is take 
theirs away. Isn't it? From the other standing committees.
    Mr. Waxman. I think that would be a serious mistake.
    Ms. Slaughter. Well, I agree. We would probably be hand to 
hand combat, I would think.
    Mr. Davis. Well, on procurement and civil service issues, 
that would be precedential in this House, to give one agency 
exclusive jurisdiction over those areas for their agency, and I 
think it would ruin the civil service.
    Mr. Waxman. And we haven't done that for the military. 
There is an Armed Service Committee that shares jurisdiction 
with us on the civil service questions that affect the 
military. We had a bill last year that we all went to combat 
over and had disagreements. But it is important to have 
different committees that develop different expertise. When you 
have only one committee--I think that the point has been made 
over and over again. When you have only one committee, that 
committee tends to get to be quite comfortable with the 
bureaucracy, and you don't get that kind of oversight that you 
need when you have multiple committees looking at it from 
different perspectives. At least that is my point of view. We 
may have a disagreement. But I am here just to share with you 
my views.
    Ms. Slaughter. And it is what we want. And I agree with you 
that--it never occurred to me at the beginning of this that the 
intelligence agencies wouldn't be a part of it. It would seem 
to me that they would be the backbone of it.
    Mr. Waxman. You would have thought.
    Ms. Slaughter. And I was really quite struck with the fact 
that they did not care to join. And I do think that that 
weakens the whole Department. Nonetheless, we have it, and we 
do need to know what to do with it. Thank you both very much.
    Mr. Diaz-Balart. Ms. Dunn.
    Ms. Dunn. Thanks for being here. We are interested in 
getting your perception on how this should move. Who would you 
say, which committee would you say that should be the primary, 
the committee of primary jurisdiction over Homeland Security?
    Mr. Davis. I think, I mean, as in the Senate model, the 
Senate Government Affairs Committee has the primary 
jurisdiction. Now, when I say primary jurisdiction, we are 
talking about agency reorganization issues, issues that occur 
when you are taking 27 different agencies and 170,000 people, 
putting them together, keeping them to their mission, something 
that Chairman Cox mentioned earlier. That is what we do. Those 
are the kinds of governance issues that we do.
    When it comes to individual jurisdictional issues like the 
Center for Disease Control, Immigration, some of those issues, 
we would obviously defer to the committees on expertise.
    Mr. Waxman. Could you tell me who has primary jurisdiction 
over the Department of Health and Human Services under the 
House rules? I know that the Ways and Means Committee has a lot 
of say over the various aspects of that committee's 
jurisdiction, as does the Energy and Commerce Committee, and 
the Ag Committee. I don't know what would be--what benefit 
there would be in saying any which one of those committees 
should be the primary committee. They should be the--they 
should have jurisdiction over those issues where they had 
written into the rules as their overview on those policy issues 
and as it affects the Department of Health and Human Services, 
and that is how they interact.
    So I am not convinced that we need a single primary 
committee to be designated with primary jurisdiction.
    Ms. Dunn. There are some people who have told our committee 
in testimony, former speakers, for example, but also others 
including the Chairman and the Ranking Member of the House 
intel community, that this responsibility is of the primary 
importance, like the top responsibility now of the United 
States Congress. Do you believe that we can carry out this 
responsibility adequately with the committee system that we 
have now, and bring to it adequate focus to make sure that we 
are taking on the responsibilities that our constituents expect 
us to carry on their behalf, considering this is something that 
is really quite new in our lexicon since 9/11?
    Mr. Davis. Ms. Dunn, I would start in saying I think you 
would do a better job under the older system than the existing 
for this reason: You keep--the Intelligence Committee isn't 
woven into the new Homeland, Security Committee. That is a 
central function of the agency, to kind of correlate some of 
those areas. They have all the different intelligence agencies, 
but they have got to collate it and put it together.
    On issues pertaining to bioterrorism, those kind of issues, 
those are issues that you need to bring the CDC in some of 
those areas.
    Congress pays a lot of attention, they have held more 
hearings this year on those issues than they ordinarily would 
because of the bioterrorism effect and the homeland. It is good 
to have a lot of people engaged in this, not a select group. 
And I think there is a tendency when you assign a cabinet 
department to a committee to get a certain coziness up there on 
these issues that you don't get when you have a lot of other 
committees that can participate in the process.
    You are going to continue to have jurisdictional fights 
even as this is envisioned, but we have precedent for a lot of 
these fights at this point. This brings whole new areas of 
precedents. One of the biggest controversies for this committee 
right now is on its civil service aspects and its human capital 
issues. Are you going to give it to that committee, or does it 
stay with Government Reform who deals with this across 
government? Those are the kind of issues that I think still 
aren't addressed by setting up a new committee. And, in fact, I 
think you set up some needless clashes. I mean, that is just my 
reaction to it.
    Mr. Waxman. I certainly agree with that point of view. And 
I think we can do the job effectively with using the Senate 
model, which is, as we pointed out, to use the existing 
committees of jurisdiction, not to create a new one. If every 
time we have a new problem in this country we create a new 
committee and overlapping jurisdictions, it seems to me that 
there is no end to it. And I think we ought to decide what is 
the rational way to handle this thing without spending 
taxpayers' money.
    We have got to use that money--we have got to spend less 
money here so we can give more tax breaks to billionaires. And, 
therefore, I don't want us to waste that money on another 
standing committee called Homeland Security if it is not going 
to give us any more benefit in dealing with the oversight that 
Congress should be exercising. Of course, I say that tongue in 
cheek.
    Mr. Davis. I wanted to clarify that. I am not for 
protecting billionaires. Well, they all live in your district.
    Mr. Waxman. I also don't want the deficits that we are 
going to see with this attitude of let us just keep spending 
and keep borrowing.
    Ms. Dunn. You are staying right on message, Ranking Member. 
I think the comment that is obvious on your comment that why 
start a new committee for every problem that comes along. This 
is a unique problem and it is a serious problem, and it could 
very well be the most serious problem we have ever faced in the 
history of our Nation, and I think it is very important to have 
a strong response. And I would simply ask you, as a follow-up, 
which committee would be the coordinating committee of all the 
responsibilities? For example, as we try to establish inner 
communication among agencies, the sort of thing that is 
necessary that we felt we had a lack of under 9/11?
    Mr. Davis. That is under the purview of Government Reform. 
All government organizational issues come under the Government 
Reform Committee. That is traditionally what has happened. So 
on those kind of issues where you don't need specific expertise 
but really the expertise in governance, those are the issues we 
deal with every day because we have jurisdiction and oversight 
over every agency of government in calling attention to those 
kind of things.
    You don't necessarily make the problem better by throwing a 
committee at it. In some ways, you can make it worse. And that 
is--I mean, I guess if I say anything to you, we need to think 
very carefully about by adding another committee on here on top 
of everything else, are you discouraging other committees from 
having oversight, from taking an interest in this, taking an 
outside perspective, by putting it within a committee? I think 
this could work very well under the Senate model. And I usually 
don't say that, but I think in this particular case it works.
    Ms. Dunn. And I would say, Mr. Chairman, on the other hand 
I think it works far better when you have a committee of 
jurisdiction with focus on the problem being the committee in 
charge working with committees of other jurisdictions in 
combined efforts on authorization bills, for example. Thank 
you.
    Mr. Diaz-Balart. Thank you both very much.
    I believe we have on behalf of the Committee on 
Transportation and Infrastructure, Mr. Mica. Welcome. The 
ranking member Mr. Oberstar will be coming?
    Mr. Mica. I think he is on his way. But if you wanted, I 
could proceed.
    Mr. Diaz-Balart. Thank you for being here, and we welcome 
and look forward to your testimony.
    Mr. Mica. Well, thank you, Mr. Chairman and Ranking Member 
Slaughter and members of the committee.
    Mr. Diaz-Balart. Mr. Oberstar, please, welcome.

   STATEMENT OF THE HONORABLE JOHN MICA, A REPRESENTATIVE IN 
 CONGRESS FROM THE STATE OF FLORIDA, AND MEMBER, COMMITTEE ON 
               TRANSPORTATION AND INFRASTRUCTURE

    Mr. Mica. Mr. Oberstar and I are pleased to be here to 
share our views about the future of the Homeland Security 
Committee with you today.
    Last year, I did not believe a Homeland Security Committee 
was necessary for the House to use to specifically address 
terrorism. Not much has happened since that time to change my 
mind. Any time you combine 170,000 Federal employees and some 
22 agencies, it raises my concern and eyebrows.
    Some have argued that a separate committee focused solely 
on Homeland Security is necessary to address terrorism. This 
assumes that the standing committees are incapable or 
uninterested in oversight and producing effective legislation. 
It also presumes that a new committee with little subject 
matter, expertise, or institutional knowledge can produce 
better Homeland Security legislation. I am afraid this argument 
is flawed, and the evidence points to exact opposite 
conclusion.
    The standing committees have the--first of all, the 
standing committees do have the expertise to address terrorism. 
We had been focused on the terrorist threat long before the 
country woke up to terrorism on September 11th, and the 
standing committees have drafted almost all of the Homeland 
Security legislation. Several chairmen and ranking members have 
testified the House needs the standing committee's expertise to 
address terrorism. Their advice should not be taken lightly for 
they know their issues better than anyone.
    This isn't about turf, it is, in fact, about which 
committees and what organization can best prepare our country 
for terrorism.
    Members can't be experts on everything. We all know that. 
And that is why we have in Congress committees. And that type 
of expertise takes years and years and decades to develop. The 
Senate recognizes this fact, and it has not changed its 
existing committee structure.
    To use aviation as an example, I can safely say that nobody 
in the House knows more about aviation or aviation security 
than our subcommittee and its members. Just between the members 
that we have on the committee now, I will bet we have close to 
50 years experience with aviation issues, not to mention the 
expertise of a staff that has dealt with these issues and 
actually drafting most of the legislation that deals with 
terrorist threat in aviation and transportation.
    It should be no surprise that a thorough understanding of 
the aviation system is required to produce effective aviation 
security legislation. The aviation system is based on a careful 
balance of highly complex regulations, procedures, 
infrastructure, engineering. And this system in fact has 
produced the world's safest aviation industry. Preserving that 
balance is impossible without the expertise that comes from 
working on these issues for years.
    And I tell you, I have been on that subcommittee for 12 
years, I have had the honor to serve for 4 years as the Chair. 
I served under Mr. Oberstar when he chaired that subcommittee. 
And we may or not always agree, Mr. Oberstar and myself, but I 
am telling you that we know these subjects unlike anyone else 
in the House, and you lose that expertise if you move this 
jurisdiction away.
    The problem has never been a lack of focus or interest by 
the standing committees. Rather, the missing ingredient was a 
national consensus that terrorism should be a top priority. 
Congress as a whole reflected the national will and has been 
unable to make the tough choices terrorism required. And that, 
we know, is a part of our history, unfortunately, today.
    9/11 changed that, and within days or a few weeks the 
standing committees had legislation ready. Back in 1990, we 
mandated background checks for aviation personnel, began 
deploying bomb detection devices at our airport; we built FEMA, 
which helped New York and Washington respond to 9/11 and much 
of the rest of the country. We created TSA, fortified cockpit 
doors, armed pilots, put marshals back in the sky, developed a 
whole host of comprehensive approaches not only to aviation, 
but also to transportation security.
    We stabilized the aviation industry, passed the Maritime 
Security Act, and created port security grants.
    In a few days, we will introduce legislation that will 
protect airliners from another threat, and that is one of 
shoulder-launched fired missiles.
    The standing committees have always led the way on 
terrorism and will continue to do so. Legislative jurisdiction 
should not under any circumstances be wholly transferred from 
the standing committees to a permanent Homeland Security 
Committee. This would severely limit the House's ability to 
produce effective terrorism legislation.
    In closing, there is no substitute for expertise, 
institutional knowledge, and experience. You need all of that 
to get results. And the standing committees and their staffs 
with years and years of expertise again looking at systems 
rather than--and the whole problem that we face and challenges 
that we face rather than little parts of it is the type of and 
depth of knowledge and experience that we should have.
    I would like to turn now to Mr. Oberstar, and I am sure he 
has comments.

  PREPARED STATEMENT OF THE HONORABLE DON YOUNG, A REPRESENTATIVE IN 
     CONGRESS, FROM THE STATE OF ALASKA, AND CHAIRMAN, COMMITTE ON 
                   TRANSPORTATION AND INFRASTRUCTURE

    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to share my views about the future of the Select Homeland 
Security Committee with you.
    Some have argued that a separate standing committee, focused solely 
on homeland security, is necessary for the House to perform its 
oversight role on the new Department of Homeland Security. This assumes 
that the standing committees aren't up to this important task; that 
somehow the standing committees are either incapable or uninterested in 
oversight and producing effective homeland security legislation.Sec. t 
also presumes that a new committee, with little subject matter 
expertise or institutional knowledge can produce better legislation 
than the standing committees.
    This argument is flawed, and the evidence points to the exact 
opposite conclusion. An fact, only the standing committees have the 
expertise and institutional knowledge necessary to address terrorism. 
Other than the Homeland Security Act and its technical corrections 
bill, the standing committees have drafted every single piece of 
homeland security legislation. And we were focused on the terrorist 
threat long before the country woke up to terrorism on 9/11.
    The standing committees have always led the way on terrorism, and 
they still do. The Senate recognizes this fact, and has not changed its 
existing committee structure.
    As most of you know, I did not believe a Homeland Security 
Committee was necessary for the House to address the terrorist threat 
last year, and not much has happened since then to change my mind.
    Homeland security is an important issue and terrorism is a serious 
threat, but the standing committees are best prepared to address these 
threats. The standing committees have the Member expertise, 
institutional knowledge, and a proven track record of homeland security 
legislation.
    Member expertise and institutional knowledge are absolutely 
essential to producing effective legislation. Members can't be experts 
on everything. That's why we have committees. And that type of 
expertise takes years and even decades to develop.
    The homeland security role of the agencies that make up the 
department is not a separate and distinct function from their 
traditional missions; rather, it can only be effectively accomplished 
within the context of those missions.
    It should be no surprise that a thorough understanding of the 
aviation system is required to produce effective aviation security 
legislation, or that one needs to understand the pharmaceutical 
industry and our health care system to draft an effective bioterrorism 
bill. Only members with a thorough understanding of these traditional 
missions will be able to craft effective legislation that addresses the 
homeland security aspect of these agencies.
    To use aviation as an example, I can safely say that nobody in the 
House knows more about aviation. . .. or aviation security, than 
Subcommittee Chairman Mica and Ranking Member Oberstar. Collectively 
those two Members have close to fifty years experience with aviation.
    The U.S. aviation system is based on a careful balance of highly 
complex rules, regulations, procedures, infrastructure, and 
engineering. This system has produced the world's safest aviation 
industry. Preserving that balance is impossible without the expertise 
that comes from having dealt with these issues for many years, as the 
members of the Transportation Committee have.
    Aviation safety and security are closely linked, especially in such 
areas as air traffic control, aircraft maintenance, missile threats, 
passenger control, and aircraft operating procedures. Even minor policy 
changes can have wide-ranging negative impacts on other aspects of 
aviation.
    The point I'm making with aviation is true in other areas as well. 
The agencies' traditional and homeland security missions are 
intertwined, and you need to understand one to effectively address the 
other.
    While you may be able to draw a distinction between these missions 
in the House Rules, it doesn't exist on a Coast Guard cutter patrolling 
our coasts or on the street with first responders. In the real world, 
those missions are linked, and our policy in Washington should reflect 
that reality.
    In addition to having the expertise to address terrorism, the 
standing committees have focused on this threat for years.
    At this point, I would like to read part of a statement that was 
given by a colleague of mine on the House floor. The issue at hand was 
preparing our first responders for a terrorist attack.
    ``The pictures of that awful day are a sobering reminder of the new 
threats of evil that Americans face, but they also remind us of how 
grossly unprepared our Nation was and still is to respond to such a 
disaster.
    ``This bill will not prevent a terrorist attack. However, it will 
help us prepare for the inevitable and ensure that our emergency 
personnel have the right training and equipment to save lives.''
    Chairwoman Tillie Fowler of our Emergency Management Subcommittee 
made those remarks on July 25th, 2000. The House passed the 
Preparedness Against Terrorism Act that day, by unanimous voice vote, 
but it never made it out of the Senate.
    The standing committees have a long history of focusing on 
terrorism and crafting legislation to address it. The problem has never 
been a lack of focus or interest by the standing committees; rather, 
the missing ingredient was a national consensus that terrorism should 
be a top priority. And Congress, as a whole, reflected the national 
will and was unable to commit sufficient resources or make the tough 
policy choices terrorism required.
    9/11 changed that, and within days or a few weeks the standing 
committees had legislation ready. This was possible because the 
standing committees had worked on these issues for years. They knew 
what the major problems were and how to solve them.
    The Transportation Committee has a long and proven record of 
protecting the nation from terrorism. For your review, I have included 
a list of bills produced by our committee with my testimony. They range 
from the Aviation Security Act of 1989 to the Coast Guard and Maritime 
Transportation Authorization Act of 2004.
    Similarly, the other standing committees have produced a long list 
of bills protecting the country from terrorism.
    In short, the standing committees have the expertise and 
institutional knowledge, they're focused on the threat, and they have 
moved virtually all of the homeland security legislation.
    If the Rules Committee, the Leadership, and the House ultimately 
decide to have a permanent Homeland Security Committee, then so be it. 
It won't be the first time they've ignored my advice, but please don't 
ignore the expertise of the standing committees. The House and the 
nation need them to meet the challenge of terrorism.
    If the House must have a permanent committee, then a select 
committee with oversight jurisdiction could focus the House's oversight 
over the Department without diminishing its ability to produce 
effective legislation.
    If the House creates a permanent committee with legislative 
jurisdiction, then it must preserve the standing committees' 
jurisdiction to ensure their expertise is utilized in drafting homeland 
security legislation.
    While not ideal, shared jurisdiction is quite common and manageable 
in the House. The Parliamentarian has already testified that the 
Speaker has all the authority he needs to manage overlapping 
jurisdiction. In this case, the negative procedural aspects of shared 
jurisdiction are far outweighed by the substantive requirement to 
produce effective legislation.
    Likewise, the perceived burden of having DHS report to multiple 
committees is far outweighed by the need for congressional expertise 
and effective legislation. Most departments report to multiple 
committees without impact on their ability to fulfill their missions.
    Exclusive legislative jurisdiction should not be transferred from 
the standing committees to a permanent homeland security committee. 
This could severely limit the House's ability to effectively address 
terrorism through legislation.
    In closing, let me say that addressing terrorism is first and 
foremost a question of substance, not process. We must have the right 
Members and committees working on the problem, and then make sure the 
process enables them to get the job done.
    There is no substitute for expertise, institutional knowledge, and 
experience. You need them to get results, and the standing committees 
are the only place where that depth of knowledge and experience exists.
    The stakes are too high to cast them aside.
    Thank you.
    The following is a list of major terrorism legislation produced by 
the Committee on Transportation and Infrastructure:
    The Aviation Security Act of 1989
    The Aviation Security Act of 1990
    The Railroad and Transit Sabotage Prevention Act of 1995
    The Federal Protective Service Reform Act of 1999
    The Preparedness Against Terrorism Act of 2000
    The Airport Security Improvement Act of 2000
    The Air Transportation Safety and System Stabilization Act of 2001
    The Aviation and Transportation Security Act of 2001
    The Arming Pilots Against Terrorism Act of 2002
    The Extended Unemployment Assistance Act of 2002
    The Federal Property Protection Act of 2002
    Title 14 of the Homeland Security Act of 2002
    The Maritime Transportation Security Act of 2002
    The Dam Safety and Security Act of 2002
    The Wastewater Treatment Works Security Act of 2003
    Over-the-Road Bus Security and Safety Act of 2003
    Title 6 of the Century of Aviation Reauthorization Act of 2003
    The Coast Guard and Maritime Transportation Authorization Act of 
2004

    Mr. Diaz-Balart. Mr. Oberstar.

STATEMENT OF THE HONORABLE JAMES OBERSTAR, A REPRESENTATIVE IN 
   CONGRESS FROM THE STATE OF MINNESOTA, AND RANKING MEMBER, 
         COMMITTEE ON TRANSPORTATION AND INFRASTRUCUTE

    Mr. Oberstar. Thank you, Mr. Chairman. And I thank the 
Chair of the Aviation Subcommittee, Mr. Mica, for a splendid 
presentation. Chairman Young and I have concurred in the views 
just expressed and the views that I will express.
    As Chairman Mica said, I spent a great deal of time on 
aviation issues, and in my role as chair of the Investigations 
and Oversight Subcommittee held first hearings in the House in 
closed session, I would say, on aviation security in 1987 and 
1988, and in the aftermath of Pan Am 103, at the request of the 
Bush administration, introduced legislation, created a 
commission, a Presidential Commission on Aviation Security and 
Terrorism, on which I served and the ranking member of the full 
committee at the time, Congressman John Paul Hammersmith of 
Arkansas and Senators D'Amato and Lautenberg, as well as three 
public members appointed by the President.
    We followed the route of Pan Am 103, we talked to all the 
international security experts in the European Community and in 
the UK, and all the way through Scotland Yard to a constable at 
Lockerbie, and crafted legislation--also from our own national 
security interests. We crafted legislation that is the basic 
bill on aviation security that formed this Nation's view of 
matters, until the major transformation and the aftermath of 
September 11th.
    Regrettably, not all of the recommendations of the 
Commission were fully enforced and carried through by the 
various agencies of the Department of Transportation.
    The point is, it began with our committee, Aviation 
Security. And when September 11th struck, as Chairman Mica 
said, we took this whole issue to a much higher level where 
most of us members of the Pan Am 103 Commission wanted to go 
but couldn't because of various institutional resistance.
    The point is, you bring to bear the experience, the 
history, the knowledge, the understanding of multiplicity of 
security issues to bear on the issue before you as a member of 
the standing committee.
    In the aftermath of the aviation security bill, we worked 
together on our committee to craft the maritime security, which 
was called the port security bill. And we took many of the 
experiences from aviation and applied them to ports. Again, 
what was missing from the port security bill was a mechanism 
for funding the port security initiatives that were necessary, 
unlike aviation where we do have an aviation security fee that 
provides a steady stream of funding. Again, had our committee's 
experience and recommendations been followed, there would have 
been a port security fee applied and a revenue stream for ports 
to carry through.
    So, now your select committee is in the process of deciding 
where to go in the future; and with Chairman Mica, I urge you 
to consider this wealth of expertise and continuity of service 
and understanding of substantive issues in security and the 
interrelationship between safety matters and security. We drew 
considerably on aviation safety in crafting aviation security, 
layering redundancy, backup systems in order to develop a sound 
safety and security system.
    Our committee also has jurisdiction over the Coast Guard. 
The Coast Guard has been absorbed into the Department of 
Homeland Security despite the objections of Chairman Young and 
myself. We met with the President, appealed to him to keep the 
Coast Guard out of the Department of Homeland Security. Why? 
Because Coast Guard has responsibilities not directly related 
to security: Commercial safety inspections, licensing of 
mariners, registering vessels, maintaining buoys, navigation 
aids, recreation boating recalls, and search and rescue 
functions. We pointed out, who is going to delineate for the 
Coast Guard when a search and rescue mission morphs into or 
becomes diverted to a security mission? That is a matter that 
our committee needs to understand, needs to deal with, because 
we under the interrelationships. We have the staff, we have the 
institutional memory, we have the understanding to deal with 
those.
    FEMA is another one. FEMA deals with disasters of all 
kinds, both natural disasters and manmade such as September 
11th. We felt that FEMA should be kept separate, but if not, at 
least our committee's jurisdiction should prevail both with 
Coast Guard and with FEMA. We believe that we understand the 
interrelationship of various functions of the agencies of which 
we have jurisdiction and how best to coordinate security and 
safety and other mainline missions of the various agencies that 
have been subsumed into Homeland Security.
    Some security measures in aviation will have an adverse 
impact on travel times. Secretary Mineta has said he wants 
world class security with world class service. How to get 
there? I think our committee understands how to do that. We 
have contributed a great deal of time to the deliberation on 
these issues. And while we might start out with differing 
viewpoints, we generally come to a consensus position on the 
underlying legislation and then work to ensure that it is well 
carried out.
    So I urge this committee to keep in mind this body of 
expertise, that not only ours but other authorizing committees, 
standing committees have in matters such as the one you are 
considering and, more importantly, the interrelationship with 
other functions of these departments and agencies that are not 
security but may have relationship to security, and let us 
continue to attend to the needs and craft the legislation and 
shape the future missions of these agencies in a way that will 
be supportive of security but also respectful of the historic 
functions of say, Coast Guard, aviation, FEMA, and our maritime 
system. Thank you, Mr. Chairman.
    Mr. Diaz-Balart. Thank you both.
    Mr. Oberstar. And Ranking Member Slaughter.

         PREPARED STATEMENT OF THE HONORABLE JAMES L. OBERSTAR

    Mr. Chairman, Ranking Member Slaughter, and Members of the 
Committee, I'm pleased to have this opportunity to discuss with you how 
we should organize our Committee structure to deal with the new 
Department of Homeland Security (the Department).
    During my 29 years in Congress I have given high priority to 
security, particularly the security of our transportation system.
    In 1988, after the terrorist attack on Pam Am Flight 103, I 
authored legislation creating the President's Commission on Aviation 
Security and Terrorism. I was privileged to serve as a Member of that 
Commission. When the Commission completed its work, I introduced 
legislation embodying its recommendations, and these recommendations 
were the basis for the landmark Aviation Security Improvement Act of 
1990.
    Following the tragic events of Sept. 11, 2001, I was actively 
involved in developing the Aviation & Transportation Security Act of 
2001, which transferred security responsibilities from the airlines and 
private contractors to the Federal Government. I was actively involved 
in developing the Maritime Transportation Security Act of 2002, which 
established a new security system for vessels and facilities along the 
navigatable waters of the United States.
    Today's hearing focuses on the future role of the Select Committee 
on Homeland Security. Your Committee provided badly needed oversight as 
the new Department of Homeland Security began the difficult task of 
moving and integrating scores of government departments, with more than 
180,000 employees. The Select Committee did a commendable job of 
overseeing the process of organizing the new Department, but the 
decisions on policy should remain--as it currently does--with the 
Committees that have the history and expertise in these areas.
    Recently, there have been proposals to expand the jurisdiction of 
the Select Committee, to give it primary jurisdiction over all 
legislation affecting the Homeland Security Department and all of the 
agencies incorporated in the Department. I strongly oppose this change 
because I believe it would undermine our effectiveness in overseeing 
the Departments and its agencies.
    A first difficulty is that the agencies making up the Department 
have many responsibilities that are not related to security. I will 
focus on agencies within the Transportation and Infrastructure 
Committee's jurisdiction; I expect that the other Committees with 
jurisdiction over Homeland Security issues will do the same for their 
agencies.
    The Transportation and Infrastructure Committee (T&I Committee) has 
legislative responsibility over several agencies with both security and 
non-security functions that have been transferred to the Department of 
Homeland Security. For example, the Coast Guard has numerous 
responsibilities that are not directly related to security. The Coast 
Guard conducts commercial safety inspections; it licenses mariners; it 
has a system for registering vessels; it establishes and maintains 
buoys and other navigation aids, and it has responsibility for 
recreation boating recalls. The issues involving these responsibilities 
are complex, having evolved over many years. The T&I Committee has the 
Member expertise, the staff and the institutional memory to deal with 
these issues. I believe that the quality of Congressional oversight and 
legislation on these issues would be diminished if a new Committee was 
simply given responsibilities for all these issues. It could take years 
for the new Committee to develop the institutional background and 
expertise that currently resides in our Committee.
    The T&I Committee also has legislative responsibility over the 
Federal Emergency Management Agency (FEMA), which was transferred to 
the Department of Homeland Security and split in two. FEMA has the 
responsibility to prepare for and respond to disasters of all kinds--
both natural, such as hurricanes and floods, and manmade. Since FEMA's 
creation in 1979, the Transportation Committee has prepared and 
reported numerous pieces of legislation designed to further FEMA's all-
hazards mission. I am concerned that this history and experience would 
be lost if oversight of FEMA is permanently transferred to the Select 
Committee, and that, in a Committee focused on terrorism and security 
issues, FEMA's traditional, and critically important, mission of 
preparing for and responding to natural disasters may not receive the 
attention and oversight that they deserve.
    Our Committee is also the best equipped to deal with security 
issues affecting transportation. As I have already mentioned, our 
Committee developed the landmark Aviation Security Improvement Act of 
1990 (P.L. 101-604), which mandated background checks for airline and 
airport employees and the deployment of bomb detection equipment for 
baggage at our nation's airports. During the 1990's, our Committee 
continued to respond to the changing security needs through oversight 
and legislation. In the aftermath of the September 11, 2001, the T&I 
Committee drafted and marked-up the Aviation and Transportation 
Security Act of 2001 (ATSA). ATSA established a new Transportation 
Security Administration (TSA), Federalized the screening workforce, and 
required the screening of all checked baggage to protect against 
terrorist threats.
    While TSA was transferred to the newly created Department of 
Homeland Security, our Committee retained its jurisdiction over TSA's 
transportation security activities. Since September 11th, our Aviation 
Subcommittee has held 16 hearings focusing on all aspects of security, 
including the deployment and use of security technology, general 
aviation, checked baggage screening systems, the computer assisted 
passenger pre-screening system, flight deck officer program, defense 
systems against missiles, and the financial impact of security on the 
aviation industry. Clearly our Committee has the expertise and the 
commitment to deal with aviation and other transportation related 
security. It would take a new Committee years to develop the background 
and expertise necessary to effectively deal with these issues.
    Moreover, it is important to have a single Committee balance the 
needs of security with those of safety, and the efficiency of our 
transportation system. The safety and efficiency of our transportation 
system are the responsibility of the Department of Transportation and 
the Committee on Transportation and Infrastructure oversees these 
programs.
    To illustrate these interrelationships, some aviation security 
decisions have safety implications, and there is a need to balance 
possible security benefits against possible safety risks. For example, 
there may be safety risks if pilots are armed and fire shots which 
damage the aircraft. Similarly, if equipment is added to the body of 
aircraft to counteract missiles fired from the ground there may be an 
effect on aerodynamics and safety.
    There is also a need to balance security needs with the continued 
viability of our transportation system. Some security measures will add 
greatly to the time required for passengers to travel, or limit the 
ability of our transportation system to provide for the efficient 
movement of cargo. These needs must be balanced with security benefits 
and weighed against the costs of benefits and alternative measures. 
Aviation is an $800 billion sector of the U.S. national economy and the 
cornerstone upon which all other sectors rely to make economic 
progress. The opportunity, both in the U.S. and abroad, to travel for 
business has fostered a tremendous growth in electronics and aircraft 
manufacturing, communications, and tourism, which supports a $1.6 
billion sector worldwide.
    Much of our economy depends on a ``just in time'' delivery system 
using all modes of transportation. If security measures undermine the 
effectiveness of this system, factory lines may shut down and retail 
stores may find it difficult to obtain the goods that Americans need in 
their daily lives. The Transportation and Infrastructure Committee has 
a long history of dealing with the tradeoffs between safety, security 
and economics. Again, I am concerned that a new Committee would lack 
the background and expertise to most effectively deal with these 
issues, and that we could lose the expertise that has developed over 
the years, or in may case, the nearly three decades of working with 
these issues. It is not enough to say that Members with particular 
areas of expertise will have an opportunity to be heard on these 
issues. The most effective way to influence policy is to be part of the 
debate and discussion in the early stages of policy formation; simply 
voting yes or no when legislation makes it to the House floor is 
generally not sufficient participation to craft policy.
    Supporters of consolidating all jurisdiction over the Department in 
one congressional committee argue that it is inefficient and 
distracting for the Department to have to deal with several committees. 
These arguments ignore the fact that the system of Committees we have 
established in the House is not based on an exclusive one to one 
relationship between each Committee and a cabinet agency; rather our 
Committee system is based on subject matter such as, science, small 
business, government reform, international relations, or 
infrastructure. These issues are spread over a number of different 
cabinet agencies.
    In short, we have developed a system in which each cabinet agency 
is within the jurisdiction of several congressional committees. I have 
attached a chart to my testimony that lists which House Committees 
oversee the different cabinet agencies. It indicates that most 
departments are responsible for reporting to at least 10 congressional 
committees. A number of departments have different committees 
overseeing major portions of their responsibilities. Keeping the status 
quo for the Department of Homeland Security would not place the 
Department in a different position than other cabinet agencies.
    In conclusion, Mr. Chairman, Ms. Slaughter and Members of the 
Subcommittee, I strongly believe that congressional role in security 
will be most effective if we continue the Committee jurisdiction which 
is now in place.
    AGENCY:
    HOUSE COMMITTEES HAVING JURISDICTION:

    DEPARTMENT OF AGRICULTURE
    - Agriculture Committee
    - Resources Committee
    - Government Reform Committee
    - Financial Services Committee
    - International Relations Committee
    - Small Business Committee
    - Select Com. On Homeland Security
    - Budget Committee
    - Appropriations Committee

    DEPARTMENT OF COMMERCE
    - Energy & Commerce Committee
    - Financial Services Committee
    - Ways & Means Committee
    - Science Committee
    - Resources Committee
    - International Relations Committee
    - Government Reform Committee
    - Judiciary Committee
    - Transportation & Infrastructure Com.
    - Budget Committee
    - Appropriations Committee

    DEPARTMENT OF DEFENSE
    - Armed Services Committee
    - Veterans Affairs Committee
    - Judiciary Committee
    - Education & the Workforce Committee
    - Financial Services Committee
    - Government Reform Committee
    - Intelligence Committee
    - International Relations Committee
    - Transportation & Infrastructure Com.
    - Budget Committee
    - Appropriations Committee

    DEPARTMENT OF EDUCATION
    - Education & the Workforce Committee
    - Financial Services Committee
    - Ways & Means Committee
    - Government Reform Committee
    - Agriculture Committee
    - Resources Committee
    - Science Committee
    - House Administration Committee
    - Budget Committee
    - Appropriations Committee

    DEPARTMENT OF ENERGY
    - Energy & Commerce Committee
    - Science Committee
    - Resources Committee
    - Government Reform Committee
    - Small Business Committee
    - Ways & Means Committee
    - Financial Services Committee
    - International Relations Committee
    - Transportation & Infrastructure Com.
    - Budget Committee
    - Appropriations Committee

    DEPARTMENT OF HEALTH & HUMAN SERVICES
    - Energy & Commerce Committee
    - Ways & Means Committee
    - Government Reform Committee
    - Financial Services Committee
    - Energy & Commerce Committee
    - Science Committee
    - Resources Committee
    - Judiciary Committee
    - Select Com. on Homeland Security
    - Budget Committee
    - Appropriations Committee

    DEPARTMENT OF HOMELAND SECURITY
    - Select Com. On Homeland Security
    - Judiciary Committee
    - Transportation & Infrastructure Com.
    - Energy & Commerce Committee
    - Armed Services Committee
    - International Relations Committee
    - Science Committee
    - Financial Services Committee
    - Government Reform Committee
    - Education & the Workforce Committee
    - Intelligence Committee
    - Budget Committee
    - Appropriations Committee

    DEPARTMENT OF HOUSE AND URBAN DEVELOPMENT
    - Financial Services Committee
    - Small Business Committee
    - Government Reform Committee
    - Transportation & Infrastructure Com.
    - Agriculture Committee
    - Judiciary Committee
    - Budget Committee
    - Appropriations Committee

    DEPARTMENT OF INTERIOR
    - Resources Committee
    - Science Committee
    - Agriculture Committee
    - Energy & Commerce Committee
    - Resources Committee
    - Transportation & Infrastructure Com.
    - Government Reform Committee
    - Justice Committee
    - Budget Committee
    - Appropriations Committee

    DEPARTMENT OF LABOR
    - Education & the Workforce Committee
    - Ways & Means Committee
    - Small Business Committee
    - Financial Services Committee
    - International Relations Committee
    - Veterans Committee
    - Judiciary Committee
    - Government Reform Committee
    - Resources Committee
    - Transportation & Infrastructure Com.
    - Budget Committee
    -
    Appropriations Committee

    DEPARTMENT OF JUSTICE
    - Judiciary Committee
    - Select Com. On Homeland Security
    - Energy & Commerce Committee
    - Financial Services Committee
    - Small Business Committee
    - Ways & Means Committee
    - Education & the Workforce Committee
    - Resources Committee
    - Government Reform Committee
    - Science Committee
    - Transportation & Infrastructure Com.
    - Agriculture Committee
    - Intelligence Committee
    - International Relations Committee
    - Budget Committee
    - Appropriations Committee

    DEPARTMENT OF STATE
    - International Relations
    - Financial Services Committee
    - Intelligence Committee
    - Armed Services Committee
    - Resources Committee
    - Science Committee
    - Judiciary Committee
    - Transportation & Infrastructure Com.
    - Energy & Commerce Committee
    - Small Business Committee
    - Ways & Means Committee
    - Government Reform Committee
    - Select Com. on Homeland Security
    - Budget Committee
    - Appropriations Committee

    DEPARTMENT OF TRANSPORTATION
    - Transportation & Infrastructure Com.
    - Select Com. on Homeland Security
    - Science Committee
    - Small Business Committee
    - Government Reform Committee
    - International Relations Committee
    - Education & Labor Committee
    - Ways & Means Committee
    - Judiciary Committee
    - Resources Committee
    - Armed Services Committee
    - Budget Committee
    - Appropriations Committee

    DEPARTMENT OF TREASURY
    - Financial Services Committee
    - Ways & Means Committee
    - Government Reform Committee
    - Agriculture Committee
    - Education & the Workforce Committee
    - Intelligence Committee
    - Small Business Committee
    - Transportation & Infrastructure Com.
    - Veteran's Affairs Committee
    - International Relations Committee
    - Judiciary Committee
    - Select Com. on Homeland Security
    - Budget Committee
    - Appropriations Committee

    DEPARTMENT OF VETERAN's ADMINISTRATION
    - Veteran's Affairs Committee
    - Armed Services Committee
    - Financial Services Committee
    - Government Reform Committee
    - Budget Committee
    - Appropriations Committee
    * Resources used: Congressional Quarterly's Washington Information 
Directory, Agencies' Congressional Testimony and phone calls to 
Agencies' Congressional Affairs offices.

    Mr. Diaz-Balart. Mr. Mica, you made emphasis on aviation, 
of which you both have tremendous expertise in that area. The 
attacks of September 11th, 2001 revealed, among other things, a 
lack of integration between Federal agencies involved with 
aviation security and those involved with border and 
immigration issues. Could you educate us on what your committee 
has done to address the integration of aviation security with 
other relevant Homeland Security missions?
    Mr. Mica. Well, that is a good example, Mr. Chairman.
    The Homeland Security agency that--our department we 
created really doesn't do much to protect us. In fact, I think 
it has bogged the process down for the most part. It is at best 
an ineffective cumbersome additional layer of bureaucracy.
    Let me give you a good example. What say do you have over 
the State Department? None. Who issued the visas for the 
terrorists? The State Department. Who got the information--who 
should have had the information about bad guys and gotten it to 
the State Department employees who were issuing the visas? That 
would be the CIA. You don't have any say over the CIA, the 
State Department; you dragged in Secret Service, but you don't 
have the FBI included.
    What is the purpose of this Homeland Security committee? 
Shouldn't--and the Department? Shouldn't it be, first of all, 
prevention? And then, secondly, it should be coordination of 
all of the Homeland Security things that protect us. And I 
submit it doesn't do it.
    Just in the aviation area, it has created another layer of 
bureaucracy. I haven't been able to get a damned answer out of 
anybody in Homeland Security since they took over. In fact, now 
you have this game of Under Secretary or assistants to Tom 
Ridge, and then you have Ridge up here. Try to get something 
done with TSA, and it is almost impossible to get anyone to 
move because of the new layers of bureaucracy that we go 
through.
    So I am telling you that rather than improve the situation, 
I think it has complicated the situation and we are less safe 
as a result of the new bureaucracy and impediments that have 
been in place.
    If the committee is looking for something to do, look at 
coordinating some of these government activities.
    Mr. Oberstar. Let me supplement, if I may, the Chairman's 
response in two points. In the report of the Presidential 
Commission on Aviation Security and Terrorism, the Pan Am 103 
Commission, we recommended the establishment within the 
Executive Branch of a central entity whose job would be to 
coordinate intelligence gathered at home and abroad, and to 
disseminate that intelligence on aviation security matters to 
all relevant agencies. We also proposed the establishment 
within the Department of Transportation of an Assistant 
Secretariat for Aviation Security. That latter was objected to 
by the administration, so Mr. Hammersmith and I agreed on an 
advisor to the Secretary, an assistant to the Secretary For 
Aviation Security.
    Second, and we were way ahead. Had that recommendation been 
implemented, there would have been coordination of information 
from all of the relevant security and intelligence agencies in 
advance of September 11th, and the ability to evaluate and 
disseminate information properly.
    Secondly, in the transportation security bill that we wrote 
in our committee, we required at the--because that was our 
jurisdiction, Department of Transportation, coordination among 
all the modes of transportation for security purposes. It would 
be up to the--we anticipated it would be up to the, if there 
were a Department of Security, to coordinate with the 
intelligence agencies. But we foresaw that need, and we crafted 
the language to require coordination within the Department of 
all the modes on all aspects of transportation security so that 
there would be cross-fertilizing, if you will, one another.
    Mr. Mica. Might I just add something here. We crafted in 
the original TSA bill, we worked on this together, exactly what 
Mr. Oberstar said. We saw that you needed a coordination of 
information about bad guys and intelligence. That is one thing 
that was lacking. That was in the TSA bill. When you created 
the Homeland Security bill, it was transferred over there. So 
what we started was transferred over there. They have since 
created, I guess, an agency to do something on that. We had 
them in last week. They still don't have a watchlist, they 
still do not have a coordinated list that we asked for when we 
created the original TSA entity. And who is in charge of that? 
Are you in charge? Is Homeland Security in charge of that?
    You see, what we have created hasn't gotten us to where we 
should have been a year ago. It actually delayed the process, 
and now it is sort que pasa as far as who is responsible.
    Mr. Diaz-Balart. Mrs. Slaughter.
    Ms. Slaughter. I just have one question I would like to ask 
of both of you. If the legislative authority for DHS is given 
to a committee, standing committee, how would you deal with the 
authorization of, let us say, Coast Guard and FEMA which has 
both the DHS responsibilities as well as domestic 
responsibilities of other types?
    Mr. Mica. Again, I think you need to go back and look at 
the core of how we created Homeland Security. It should be for 
prevention, it should be for coordination. Coordination across 
the board. And then for oversight. I think those are the 
important missions. Leave the standing jurisdiction with the 
committees and their expertise, and your folks are--your folk's 
mission or the folks on this committee, if we have a committee, 
a select committee or whatever it is, standing committee, is a 
coordinating effort to see that things are moving forward, or 
at least some better oversight of what has been created and 
pushed into Homeland Security.
    Mr. Oberstar. I would supplement that comment and in 
support of it by saying that not all cabinet departments have a 
single authorizing committee over all the jurisdiction within 
that department. For example, within DOT in the National 
Highway Traffic Safety Administration where we do the roadway 
rules for road physical safety matters, the Energy and Commerce 
Committee has jurisdiction over the vehicle that goes on that 
roadway. And not all cabinet agencies have a single 
authorization bill for the entire department. We do a separate 
authorization within our Committee for FAA, a separate one for 
the Federal Motor Carrier Safety Administration, we are doing a 
separate authorization for the Federal Highway and Transit 
Administration. We do a separate authorization bill for 
pipeline safety and so on. I need not cite all of them.
    So in some cases there, as in the case of highway safety on 
vehicle side, we share that with the Energy and Commerce 
Committee with whom we work, we share some aspects of pipeline 
safety with the Energy and Commerce Committee with whom we work 
those matters out. So I think leaving the authorization process 
in the hands of the standing committees has worked very well. 
It also provides multiplicity of oversight.
    Ms. Slaughter. Thank you both.
    Mr. Diaz-Balart. Chairman Cox.
    Mr. Cox. Thank you.
    I want to congratulate both of you for giving very cogent 
testimony, and thank you for being here and for the work that 
went into preparing the testimony for the rules subcommittee. 
As you know, the Chairman of the subcommittee has done a lot of 
work over a period of a year and a half really examining this 
question from a big picture standpoint. And the contribution 
that you have made today I think is very, very helpful. And I 
agree with much of it.
    In particular, Chairman Mica, I agree with your dichotomy 
between the functional responsibility of the standing 
committees that have long existed in the House to deal with all 
the pre-9/11 real world, and the industries that are allocated 
committee by committee within their respective jurisdictions. 
We will hear from the chairman of the Ways and Means Committee 
shortly that he supports the creation of a permanent committee, 
provided that the jurisdiction of Ways and Means with respect 
to Customs, specifically the Customs missions as they relate to 
trade and revenue is preserved. And that makes sense if you 
have got a focus on Homeland Security, because Homeland 
Security is not about trade, except with a really expansive and 
I think dangerous definition.
    It is not about revenue. And that is what Ways and Means is 
all about. We may have a more difficult nut to crack with 
aviation simply because the mode of attack on 9/11 was 
airplanes, and as a result Congress rather rapidly passed what 
we thought was remedial legislation. But it may not provide the 
model for what we want to do everywhere. I mean, we may have 
learned some things about our response that we wish we could 
improve upon. And I would hope that it would be the 
responsibility, the continuing responsibility of the 
Transportation Infrastructure Committee to be responsible for 
those things.
    Specifically, I would hope that even though we deregulated 
aviation in 1978, as you know, it is heavily regulated, and I 
would hope it would be the continuing responsibility of the 
Committee on Transportation and Infrastructure to be 
responsible for regulation of that industry. I would hope that 
it would be the continuing responsibility of the Committee on 
Energy and Commerce to look after regulation of the nuclear 
industry and the chemical industry, and so on, all the way 
through the Congress, because that expertise has been developed 
over a long period of time and because it involves so much more 
than Homeland Security.
    So your formula is one that at least insofar as I 
understand your presentation of it agrees with mine, and that 
is, that you have got a Department of Homeland Security that is 
focused on prevention, protection, and response, and is not 
going to become the regulator of every aspect of American life; 
it is not going to become the regulator of every aspect of 
American commerce. But, as I have said, before other panels 
have testified today, I think there is a risk the Department 
could morph into those things.
    And that is one of the reasons that we want very, very 
strenuous oversight from the Congress that created it so 
recently, because if the Department, which surely is going to 
exist indefinitely, if the new cabinet department history 
suggests they don't go away, is going to grow. And if it is 
going to grow and last indefinitely, then it needs to stay 
focused, and it needs to stay focused on protecting Americans 
and our security and not get into all these other areas. And we 
will lose our competitiveness in all these industries if we 
regulate them not with a view to the big picture, which 
includes competition of global commerce, job creation, 
investment, in the case of transportation safety and all these 
other things.
    If we have on the blinders of security and that is all, and 
then we become--we, the Department of Homeland Security in this 
case, become the regulators of all these industries, then the 
regulation will suffer, the industries will suffer, the country 
will suffer, and it won't work. So I think that dichotomy makes 
a great deal of sense. And it is just as important that we 
circumscribe the mission of the Department of Homeland Security 
as it is that we respect the traditional jurisdictions of the 
committees. And I think they go hand in hand.
    But I would appreciate any further comment you want to make 
on that. I am just trying to, I guess, express my gratitude for 
and agreement with much of what you said.
    Mr. Oberstar. If the Chairman permit. Chairman Young was 
particularly insistent on addressing vigorously the Coast Guard 
matter, and it falls in line with what you have said, Chairman 
Cox. I would call your attention to the authorizing language 
for the U.S. Coast Guard. It is what I call an itinerant 
agency. It started out as the revenue cutter service in 1789, 
the oldest agency of the Federal Government. But the 
authorizing language says or refers to the agent in conferring 
power: The Secretary of the Department in which the Coast Guard 
resides. Every other authorization refers to the Secretary.
    FAA, we mean by that, the Secretary of Transportation. But 
the Coast Guard has moved around so many times. But when it has 
moved from an independent entity to the Naval Department, and 
then to the War Department and then to the Commerce Department, 
and to the Treasury Department, and then back to Commerce and 
then to the Department of Transportation, it has moved intact. 
Jurisdiction over its functions was not shared among committees 
of either the House or the Senate. And that is what Chairman 
Young wants to see, is this jurisdiction remains intact and as 
you suggested. So we can address all these other 
responsibilities of the Coast Guard in the context of security 
and weave security into the total role of the Coast Guard.
    Mr. Mica. If I may. There are some functional 
responsibilities that Homeland Security, the Department has 
inherited that they are responsible for, and that is important 
and I think your committee should look at some of those things.
    Let me say that I have great concern about the Homeland 
Security Committee and also the Department we created. It has 
huge gaps in it. For example, let me give you just two 
practical examples that I have worked on this week. Biometric 
standards. And Ms. Slaughter talked--we were talking about, you 
know, what happened before September 11th. We still do not have 
an acceptable biometrics standard that is acceptable by all 
agencies. I have 328 agencies that have various fire--carrying 
firearms on airplanes. I have no biometric identification 
standard. What is interesting, this week I found out State 
Department through their Visit U.S.A., is developing a 
biometric standard to be put in passports and visas.
    Who the hell is coordinating this stuff? We are 2 years 
out. We don't have an ID card for people who work at an airport 
because nobody will make or coordinate a decision. And I have 
got one agency hung out here making those kinds of decision. 
And I am thinking, well, if they adopt that and it doesn't go 
with this, somebody needs to be in charge of this stuff, folks.
    This morning I had a briefing with the CIA--I can't go into 
all the details, but we are concerned with the terrorist 
threat. They blow some more planes out of the sky. You ain't 
seen nothing compared to what happened at the economy on 9/11. 
And this is the kind of threat that we deal with. I don't deal 
as much with it as much with Mr. Oberstar as I do with the 
Ranking Member of the Aviation Subcommittee, but we talk about 
this all the time.
    As of this morning, when I talked to CIA, FBI still is out 
of the loop on a lot of the terrorist threat. I can't go into 
specifics here. Who the hell is coordinating this stuff? And I 
am just chairman of aviation, so I am looking at a little bit, 
and this one doesn't know what the other one is still doing.
    So you have this committee, if we have a select committee 
on a permanent committee, it has some important 
responsibilities of coordinating Federal agencies, some that 
were left out here, that we pieced this together. So you have 
an important responsibility. And then coordinating some of 
these things among--and there is turf among the committees and 
the jurisdictions that they have--in seeing that this all comes 
together. Without being expertise, putting together expertise 
that each committee, standing committee has and all of that.
    So coordination is important. It is lacking. And your 
jurisdiction, I am here to tell you, you are not looking at 
enough of the picture and Homeland Security I don't think is. 
Sorry. Frustrating.
    Mr. Diaz-Balart. Further questions?
    Mr. Cox. I appreciate that, and my red light is on. Thank 
you, Mr. Chairman.
    Mr. Diaz-Balart. Well, Mr. Mica has made a series of 
extraordinarily important points that are very helpful to us.
    Ms. Lofgren Thank you both for--
    Ms. Slaughter. Just one other question before you go.
    Mr. Diaz-Balart. Yes.
    Ms. Slaughter. Because I agree with you that the Agency is 
not working well. We don't have a threat assessment after all 
this time, and they are waiting for each State to make them own 
and go over them to make sure they are accurate. So it could be 
a year or more.
    But the one thing that is most troubling, I just got a 
notice that the governor of my State has managed to get some 
money from somewhere, 500,000 to give one of my small counties 
on the border that protects one of the--the only power system 
in the United States. And yet I think in your committee we 
can't get the grant money out for first responders. So can we 
make a complaint about that as well, and tell me where in the 
world that money is and what we plan to do about that?
    Mr. Oberstar. That goes back to my comments about FEMA, 
that I didn't think it was an appropriate step to take FEMA 
into the Department of Homeland Security because it would be 
buried in with a whole group of other agencies and its response 
to natural disasters confused without any clear delineation 
lines a responsibility for counterterrorism actions. And the 
funding has indeed gotten merged with the other programs. And I 
think if you look at the total funding for first responders, 
particularly firefighters, you will find that funding level is 
less than when we started because of the fundability of dollars 
within that department, and it has been moved around.
    Ms. Slaughter. Well, FEMA responds to national emergency 
and they pay money out, but for some reason, the money to these 
first responders, which has been paid out by them and that they 
longingly wait for reimbursement just doesn't come. And we were 
wondering if you could, and your committee seems to be where it 
is bottled up, what you can do about it.
    Mr. Oberstar. We can certainly work together with the 
majority to inquire into that matter.
    Ms. Slaughter. I can promise you that I don't think any of 
us go home to find anything more disconcerting than the fact 
that budgets are broken or the money that they have spent is 
more than they can afford and have no way to cover it. And we 
just really have to deal with that. That is as frustrating to 
me as the fact that we have no threat assessment, which makes 
no sense to me.
    Ms. Lofgren. Would the gentlelady yield for just--I don't 
have a question. I do think the question you have asked is an 
important one, and obviously no one committee has all the 
responsibility as collectively the government has fallen short 
and we need to fix it. I just wanted to note, if I could 
indulge the committee, that I have another committee meeting at 
5:00 over in the Capitol that I cannot avoid. And I see the 
Chairman of my other committee is here, and I want to assure 
the Chairman that I have read every word of his testimony and 
beg his forgiveness for having to leave.
    Thank you.
    Mr. Diaz-Balart. Thank you. Thank you both very much.
    It is our privilege to welcome the chairman of the 
Committee on the Judiciary, Mr. Sensenbrenner.

    Mr. Chairman, welcome. We look forward to your testimony. 
Of course your entire testimony will be part of the record, and 
we look forward to studying it. If you could perhaps, as we 
have been asking witnesses, to summarize your testimony in 5 
minutes.

       STATEMENT OF THE HONORABLE JAMES SENSENBRENNER, A 
  REPRESENTATIVE IN CONGRESS FROM THE STATE OF WISCONSIN, AND 
              CHAIRMAN, COMMITTEE ON THE JUDICIARY

    Mr. Sensenbrenner. I am very happy to summarize my 
testimony. But first let me explain the props that are in front 
of me.
    This is the work product of the Judiciary Committee since 
September 11th relative to Homeland Security Activities and 
other matters within the jurisdiction of the committee. We have 
this stack of hearings, this stack of legislative reports on 
bills that have become law, and this stack of oversight reports 
that were either done directly by the committee, by the General 
Accounting Office, or by the inspector generals of various 
agencies.
    The Judiciary Committee, I think, has an unprecedented work 
product in dealing with these issues that are within our 
jurisdiction.
    I am pleased to appear before the Subcommittee on Rules to 
testify on the topic you have under discussion. I believe that, 
given our track record--and you see the paper there, and a lot 
of hours were put into developing that paper--that the 
Judiciary Committee should retain its jurisdiction over all the 
matters it currently it has. While I am not opposed to a 
Committee on Homeland Security as such, I believe that the 
proponents of such a committee have the burden of proving that 
a distinct Homeland Security Committee is an overall benefit to 
Congress and to our country. To date, I do not believe that 
burden has been met.
    The Committee on the Judiciary has actively participated in 
the response to the 9/11 attacks. This is entirely appropriate 
because our jurisdiction includes ``the judiciary and judicial 
proceedings, civil and criminal,'' ``espionage and 
counterfeiting,'' ``civil liberties,'' ``immigration and 
naturalization,'' and ``subversive activities affecting the 
internal security of the United States.''
    I believe that the Judiciary Committee's record 
demonstrates that we are best able to meet that challenge in 
those areas that have been traditionally within our 
jurisdiction. We have the expertise, we have the staff, we have 
been active, and we have produced results.
    The creation of the Department of Homeland Security touches 
on the jurisdiction of the committee on the judiciary in three 
principal areas: Law enforcement agencies at DHS, Federal and 
State law enforcement training, and immigration. The committee 
has unique expertise in each of these areas, and it should 
continue to exercise jurisdiction over them.
    Mr. Sensenbrenner. The first aspect of the Homeland 
Security Act that implicates the jurisdiction of the Committee 
on the Judiciary is the transfer of law enforcement agencies 
and their training activities. The HSA transferred several 
criminal and law enforcement agencies to DHS--the Secret 
Service, the Immigration and Naturalization Service, the 
Customs Service, the Transportation Security Administration, 
the Federal Protective Service and the Coast Guard.
    The Committee on the Judiciary has general jurisdiction 
over the Secret Service and the successors to the INS. It has 
jurisdiction over the successors to the Customs Service, TSA, 
FPS, and the Coast Guard to the extent that these agencies 
enforce criminal law and exercise criminal law enforcement 
powers. The committee has jurisdiction over the functions of 
the former National Infrastructure Protection Center, the 
Domestic Energy Response Team and the law enforcement training 
activities of the Federal Law Enforcement Training Center and 
the Office of Domestic Preparedness.
    The Committee on the Judiciary has had jurisdiction over 
criminal law enforcement since 1880. This tradition largely 
derives from the jurisdiction over ``the judiciary and judicial 
proceedings, civil and criminal,'' and ``subversive activities 
affecting the internal security of the United States.'' The 
committee has played the lead role in the House in criminal law 
enforcement policy. We have an extensive record of legislative 
and oversight activity that is set forth at in full in my 
written statement. Our committee has the expertise and 
experience in those areas, and it simply cannot be matched by a 
new committee, with a short history and a new staff.
    There is more to law enforcement and training than just 
security. There is an important balancing to be done between 
security and civil liberties. It is dangerous to put that 
balancing task in a committee, the primary focus of which is 
security. I fear that civil liberties interest will be 
sacrificed.
    Finally, I believe that the Committee on the Judiciary 
should retain jurisdiction over the Department of Justice, its 
prosecutorial activities, and its primary law enforcement 
agencies, including the FBI. Jurisdiction over the law 
enforcement agencies in DHS should remain in the same committee 
as the DOJ law enforcement agencies. There should be one 
unified approach that takes into account the complex balancing 
act that must occur.
    Having some agencies under the jurisdiction of a committee 
that has traditionally carefully balanced civil liberties 
concerns with law enforcement concerns and having others under 
a committee that is focused solely on security is a 
prescription for disaster.
    The Committee on the Judiciary has had jurisdiction over 
immigration and naturalization since 1946. Since that time, the 
committee has played an integral role over immigration policy. 
It has essentially created modern immigration law. It has an 
extensive record of oversight and legislative activity that is 
set forth in great length in my written statement.
    As the record in my written statement shows, the Committee 
on the Judiciary has unparalleled experience and expertise in 
the immigration area and has demonstrated its ability to 
identify and remedy the vulnerabilities in our immigration 
system that expose our nation to risk. For decades it has done 
this work. Since 9/11, it has responded to the call to further 
strengthen our immigration policy.
    There is another reason why immigration jurisdiction should 
remain with the Committee on the Judiciary. Although countering 
the terrorist threat is of significant importance in 
implementing our immigration laws, it is certainly not the only 
issue. Rather, immigration involves much more than homeland 
security, reuniting families, providing needed workers for 
American businesses, offering havens to refugees, and deporting 
those aliens who have broken our laws.
    Security and legal immigration must be balanced. We must 
use our immigration enforcement powers to both protect our 
people from those who break our laws as well as to facilitate 
the admission of lawful entrants.
    Another complexity in immigration policy is that authority 
over immigration is spread across four departments--Homeland 
Security, Justice, State, and Labor. The Judiciary Committee 
currently has jurisdiction over each of those components as 
well as over other agencies of limited jurisdiction that are 
charged with carrying out our immigration laws.
    The variety of concerns involved here cries out for the 
experience and expertise of the committee that I chair. This 
committee has long had the responsibility of balancing 
immigration, law enforcement, terrorism, and civil rights 
issues involved. A committee narrowly focused on security with 
a much shorter history is not the best place to try to balance 
the many complex interests involved. Rather, the Judiciary 
Committee's experience in dealing with the various immigration 
components counsels in favor of its continued jurisdiction.
    I also want to address the argument that the DHS cannot 
function effectively if it must report to multiple committees.
    First, DHS reports to several committees now; and while 
there is always room for improvement, the committee operation 
is effectively functioning now.
    Secondly, every agency reports to at least four 
committees--a House authorizing committee, the House 
Appropriations Committee, a Senate authorizing committee and 
the Senate Appropriations Committee. Moreover, many existing 
agencies report to more than one authorizing committee in the 
House. All of these agencies are able to function effectively 
within these arrangements.
    Third, the Committee on the Judiciary and the Select 
Committee on Homeland Security have already shown an ability to 
work together effectively on projects of mutual interest. We 
have already had one joint hearing, and another one will be 
held tomorrow. We are currently working on first responder 
legislation. Regardless of how this matter is resolved, if 
there is a Committee on Homeland Security, either select or 
permanent, I expect this working relationship to continue.
    In short, the DHS is functioning effectively under the 
current committee system, and it can continue to do so in the 
future.
    However the question regarding the future of the House 
Homeland Security Committee is resolved, I emphatically believe 
that the Committee on the Judiciary should retain jurisdiction 
over all the matters it now has. This is what we have done. It 
ain't broke, and it doesn't need fixing. We have the experience 
and the expertise. Over the years, we have shown the ability to 
apply the unified, balanced approach that these issues require; 
and this successful formula should not be altered.
    Thank you.
    Mr. Diaz-Balart. Thank you very much, Mr. Chairman.

        PREPARED STATEMENT OF THE HONORABLE JAMES SENSENBRENNER

    Mr. Chairman, I am pleased to appear before the Subcommittee on 
Rules to testify concerning ``Homeland Security Jurisdiction: The 
Perspective of Committee Leaders.'' To state my position briefly, I 
believe that the Committee on the Judiciary should retain jurisdiction 
over all matters that it currently has. In addition, while I am not 
opposed to a Committee on Homeland Security as such, I believe that the 
proponents of such a committee have the burden of proof, and that 
burden has not yet been satisfied.
    Now let me explain that in more detail. As you know, Rule X sets 
forth the jurisdictional parameters of the various committees of the 
House. In general, I believe that Rule X is working well. However, the 
challenges brought on by the murderous terrorist attacks of September 
11, 2001 require us to reexamine all that we are doing, including the 
operation of Rule X, to ensure that we are doing all that we can to 
protect our national security.
    The Committee on the Judiciary has actively participated in the 
response to the 9/11 attacks and the new world that we face. That is 
entirely appropriate because our jurisdiction includes: ``the judiciary 
and judicial proceedings, civil and criminal;'' ``. . . espionage and 
counterfeiting;'' ``civil liberties;'' ``immigration and 
naturalization;'' and ``subversive activities affecting the internal 
security of the United States.'' See generally Clause 1(k) of Rule X. 
Among other things, the Committee was heavily involved in the passage 
of the USA PATRIOT Act and the Homeland Security Act. I believe that 
our record demonstrates that we are best able to continue to meet the 
challenge in those areas that have traditionally been within our 
jurisdiction. Let me now discuss that in more detail.

                 I. The Department of Homeland Security

    On November 25, 2002, President Bush signed the Homeland Security 
Act (``HSA'') creating the new Department of Homeland Security 
(``DHS'') by combining numerous existing agencies that deal with 
various aspects of homeland security. Pub. L. No. 107-296. Section 1503 
of the HSA provided that it is the sense of Congress that the House and 
the Senate should review their respective committee structures in light 
of the creation of the Department. In addition, Sec. 4(b)(3) of House 
Resolution 5 requires the Select Committee to conduct a study of the 
operation and implementation of the House Rules with regard to homeland 
security.
    The creation of DHS touches on the jurisdiction of the Committee on 
the Judiciary in three principal areas: immigration, law enforcement 
agencies at DHS, and federal and state law enforcement training both at 
the Federal Law Enforcement Training Center (``FLETC'') and through 
grants to state and local law enforcement administered by the Office 
for Domestic Preparedness (``ODP''). The Committee has unique expertise 
in each of these areas, and it should continue to exercise jurisdiction 
over them.

                            II. Immigration

    The Committee on the Judiciary has jurisdiction over ``immigration 
and naturalization'' under clause (1)(k)(8) of Rule X. The HSA 
transferred the functions of what had been the Immigration and 
Naturalization Service (``INS'') to DHS and divided those functions 
between what are now known as the Bureau of Customs and Border 
Protection (``CBP''), the Bureau of Immigration and Citizenship 
Enforcement (``ICE''), and the Bureau of Citizenship and Immigration 
Services (``CIS''). See HSA Sec. Sec. 401 et seq.

                               A. History

    Beginning in 1893, the House had a standing Committee on 
Immigration and Naturalization. That committee had general jurisdiction 
over immigration and naturalization matters, but between 1893 and 1906, 
it also shared some matters in this area with the Committee on the 
Judiciary. In the Legislative Reorganization Act of 1946, the Committee 
on Immigration and Naturalization was abolished, and its jurisdiction 
was transferred to the Committee on the Judiciary.
    Since that time, the Committee on the Judiciary has had exclusive 
jurisdiction over immigration and naturalization matters, and it has 
played an integral role in immigration policy. Specifically, the 
Committee has played a major role in a number of major immigration 
bills that have created and recreated modern immigration law: the 
Immigration and Nationality Act of 1952, the Immigration and 
Nationality Act Amendments of 1965, the Refugee Act of 1980, the 
Immigration Reform and Control Act of 1986, the Immigration Act of 
1990, and the Illegal Immigration Reform and Immigrant Responsibility 
Act of 1996.
    In addition, since 1946, it has held hundreds of legislative and 
oversight hearings on these matters. Indeed, the Committee's 
Subcommittee on Immigration, Border Security, and Claims recognized the 
threat posed by alien terrorists well before 9/11. Two particularly 
notable hearings that foreshadowed the attacks were entitled 
``Terrorist Threats to the United States'' on January 26, 2000, and 
``Law Enforcement Problems at the Border Between the United States and 
Canada, Focusing on the Issues of Drug Smuggling, Illegal Immigration, 
and Terrorism'' on April 14, 1999.

                        B. The Record Since 9/11

    Currently, the Committee deals with most immigration matters in its 
Subcommittee on Immigration, Border Security, and Claims. The 
Subcommittee's initial investigation of the September 11 attacks 
established that alien terrorists have studied our immigration system 
and they have identified and exploited weaknesses in that system in 
planning and carrying out their attacks. For that reason, the 
Subcommittee has focused special attention on the legislative, 
procedural, and technological vulnerabilities in our nation's 
immigration system, so that those vulnerabilities can be identified and 
remedied. The Subcommittee has also worked to ensure that our 
immigration enforcement officers have the resources and authority to 
protect the United States from those aliens who would come to our 
country to harm the American people.
    Since 9/11, the Subcommittee has conducted 35 hearings on 
immigration matters. Among the most important of these are hearings 
entitled: ``US VISIT: A Down Payment on Homeland Security'' on March 
18, 2004; ``Funding for Immigration in the President's 2005 Budget'' on 
March 11, 2004 and February 25, 2004; ``War on Terrorism: Immigration 
Enforcement Since September 11, 2001'' on May 8, 2003; ``Department of 
Homeland Security Transition: Bureau of Immigration and Customs 
Enforcement'' on April 10, 2003; ``The Immigration and Naturalization 
Service's Interactions with Hesham Mohamed Ali Hedayet'' on October 9, 
2002; ``The Role of Immigration in the Department of Homeland 
Security'' on June 27, 2002; ``The Risk to Homeland Security From 
Identity Fraud and Identity Theft'' on June 25, 2002; ``The INS's March 
2002 Notification of Approval of Change of Status for Pilot Training 
for Terrorist Hijackers Mohammed Atta and Marwan Al-Shehhi'' on March 
19, 2002; ``The Implications of Transnational Terrorism for the Visa 
Waiver Program'' on February 28, 2002; and ``Using Information 
Technology to Secure America's Borders'' on October 11, 2001.
    The Committee has also conducted effective oversight through other 
means. For example, a Committee oversight letter to the former INS 
requesting the immigration file of Hesham Hedayet, who killed two and 
wounded several others at Los Angeles International Airport on July 4, 
2002, revealed that the INS had failed to investigate the possible 
terrorist connections of this asylum applicant who claimed that he was 
suspected of terrorism in his home country. Committee requests brought 
this issue to the attention of the Attorney General, who ordered INS to 
review all existing asylum files ``to ascertain whether other 
individuals may be present in the United States who have admitted that 
they have been accused of terrorist activity or terrorist 
associations.'' Such a review had not been previously undertaken 
despite other aliens having been able to use the asylum system to plan 
and carry out terrorist attacks in the United States, including Ramzi 
Yousef, mastermind of the first World Trade Center bombing, and Mir 
Aimal Kansi, who killed two CIA employees outside CIA headquarters in 
Langley, Virginia.
    A Committee request for information about the INS's erroneous 
waiver into the United States of four Pakistani nationals, who were 
crewmen on a vessel that docked in Chesapeake, Virginia and who later 
absconded, led to the issuance of an order that all INS employees 
follow agency directives. The Committee's subsequent request for those 
directives helped spur the consolidation of those directives for the 
use of INS employees. Prior to this incident, those directives filled 
``roughly one-half dozen boxes . . . and several volumes of electronic 
materials.'' Today, most of this information has been consolidated and 
updated electronically and is available to employees of INS's 
successors at headquarters via CD-ROM and the intranet, and we 
understand that in the near future all internal directives will be 
accessible to all employees including those in the field.
    The Committee's investigation and requests for information into the 
activities of John Allen Muhammad and Lee Boyd Malvo, convicted in 
connection with sniper shootings in the Washington, D.C. area in 
October 2002, has revealed loopholes in the policies and procedures for 
readmitting U.S. citizens to the United States when they return from 
countries in the Western hemisphere--loopholes that could be exploited 
by alien terrorists and criminals. The Committee is evaluating possible 
legislative fixes to these problems.
    Committee oversight of the detention and release of alien criminals 
brought the problem of alien criminal recidivism to the attention of 
the INS. In working for the passage of Illegal Immigration Reform and 
Immigrant Responsibility Act of 1996, the Committee dramatically 
increased the number of criminal aliens detained and deported by the 
INS. The Committee's continued attention to the threat posed by alien 
criminals has contributed to a restructuring of staffing of the 
Institutional Removal Program, and a reassessment of the entire manner 
in which ICE identifies criminal aliens in the United States. When this 
restructuring is completed in 2005, ICE should be able to identify 
many, if not most, aliens in criminal detention in the United States.
    Nor has our oversight work been limited to simple letters to the 
agencies. We have also requested a wide variety of General Accounting 
Office and Inspector General investigations to support oversight on 
Homeland Security and Immigration topics.
    Committee hearings and oversight investigations in 2001 determined 
that one of the root causes of weak internal enforcement against 
immigration absconders was the breakdown of voluntary alien 
registration record updates at the INS. Voluntary status updates by 
registered aliens have been required by law since the Alien 
Registration Act of 1940 introduced the first national requirement that 
all aliens in the United States be registered with the government. It 
required registration, fingerprinting, and reports of changes of 
address, but fell into disuse in the 1990s.
    To confirm and document our findings, on April 10, 2002, we 
requested and received the following report from GAO: ``Homeland 
Security: INS Cannot Locate Many Aliens Because It Lacks Reliable 
Address Information'' dated November 2002. The report detailed INS's 
negligence with regard to address and status updates. With the report 
in hand, we scheduled a series of high level meetings with immigration 
officials in December, 2002 and in January, 2003. As a result, INS's 
successors at DHS agreed to reinvigorate their enforcement of the 
registration law, and told us that the GAO study provided valuable 
guidance that would be used both to address policy and to improve 
management of information technology to update and maintain alien 
registration address and status records.
    In 2001, I became deeply concerned after Committee hearings 
revealed indifferent oversight by the Department of Justice of INS's 
systems planning, procurement, and project management that led to 
failures in INS enforcement systems. I requested GAO to investigate 
DOJ's oversight of INS with regard to four specific systems used to 
track non-immigrant entry and exit information (Automated I-94 system), 
alien criminal records (ENFORCE), criminal alien fingerprints and 
photos (IDENT), and alien identity cards and Border Crossing Cards 
(ICPS).
    The resulting report, ``Information Technology: Justice Plans to 
Improve Oversight of Agency (INS) Projects'' dated November 2002, has 
been extremely helpful not only to continuing oversight by this 
Committee, but also to the appropriators as they evaluate costs and 
benefits and agency performance at DHS, where these immigration 
functions are now located.
    In 2002, Judiciary subcommittee hearings regarding identity theft 
and the ease with which the 9/11 terrorists were able to obtain 
drivers' licenses using fraudulent information led to our recognition 
that a key factor in confirming identity is whether the states employ 
information available from the Social Security Administration 
(``SSA''). After staff investigations determined weaknesses with the 
SSA process, I requested that the GAO investigate, resulting in the 
study ``Social Security Numbers: Improved SSN Verification and Exchange 
of States' Driver Records Would Enhance Identity Verification'' dated 
September 2003. The study led to three important recommendations that, 
if implemented by SSA, would lead to a reduction in driver's license 
fraud.
    The Committee's oversight of both law enforcement information 
sharing and compliance with the Privacy Act led me to request that the 
GAO investigate whether complaints by the federal and state law 
enforcement agencies regarding the SSA's lack of cooperation are valid. 
Because SSA did not have a clear or consistent policy, I asked GAO to 
describe SSA's disclosure policy for law enforcement and how it 
compares with the Privacy Act and the policies of other federal 
agencies and to evaluate SSA's actual sharing of information with law 
enforcement. The resulting study ``Disclosure Policy for Law 
Enforcement Allows Information Sharing, but SSA Needs to Ensure 
Consistent Application,'' dated September, 2003, included convincing 
evidence that SSA has not done enough to educate law enforcement 
agencies and its own employees about disclosure policies. More 
importantly, the SSA Commissioner, as a result of this study, agreed to 
update its policy manuals to clarify the rules for SSA law enforcement 
disclosures.
    We plan to continue to pursue oversight of the SSA's responsiveness 
to the conclusions of both of these reports because of the critical 
importance of SSA records with regard to prevention of immigration 
fraud and identity theft. The SSA's policies and practices are 
particularly important with regard to enforcement of employer laws 
barring employment of illegal immigrants. As part of our ongoing 
oversight into federal agencies' failure to enforce employer related 
immigration laws, on June 26, 2003 together with Representative Shaw of 
the House Subcommittee on Social Security, I requested a GAO report 
addressing SSA's management and policy practices for employers who 
employ large numbers of illegal aliens. The study is looking at SSA's 
records of erroneous or fraudulent W-2 and W-4 earnings statements 
submitted by employers, as reflected in the Suspense Files for Earnings 
associated with invalid Social Security Numbers.
    I also asked GAO to look at whether SSA has effective procedures to 
prevent aliens and identity thieves from fraudulently obtaining SSA 
cards. Ongoing meetings with the GAO investigative team indicate that 
there are numerous problems with SSA's policies that the Committee 
plans to examine in 2004 in the context of taking concrete steps to 
reduce illegal immigration and identity fraud--two issues that are 
intrinsically linked.
    Within the context of the Committee's oversight of problems with 
SSA benefits fraud, in 2003, I became concerned about the SSA's 
announced intention of concluding an Agreement with Mexico regarding 
``totalization,'' and requested the GAO to evaluate whether the SSA was 
accurately estimating the cost of the anticipated agreement. The GAO 
report, ``Social Security: Proposed Totalization Agreement with Mexico 
Presents Unique Challenges'' dated September, 2003, concluded that the 
SSA's estimates did not take into account the millions of Mexicans who 
have earned social security ``quarters'' working illegally in the 
United States. This Committee continues to conduct active oversight on 
the potential downstream effects of this Agreement, with regard to the 
potential it may have for increasing illegal immigration from Mexico 
once the totalization agreement provides assurance that illegal workers 
will receive Social Security benefits they are now denied. The 
Committee plans to continue to work with the House Subcommittee on 
Social Security to conduct active oversight of the Totalization 
Agreement practices of the SSA to prevent such agreements to become 
incentives for illegal immigration.
    Our plans for the remainder of the 108th Congress regarding 
immigration enforcement include following up on anticipated results 
from a variety of other pending requests to GAO. One such project 
addresses overall statistical information on the number of illegal 
aliens in the United States, from a request dated April 16, 2002. This 
request has already produced testimony addressing the significant 
number of illegal immigrants who enter this country legally, but then 
overstay their visas to remain here indefinitely. The GAO research team 
anticipates delivery of a report in the next several months addressing 
the visa overstay problem more completely.
    A request by Ranking Member Conyers and me to the GAO for an 
investigation regarding INS procedures for passenger transit and 
security at airports on July 12, 2002, led to a report which we used to 
meet with airport security officials regarding the need to improve the 
design of airports regarding the control of arriving international 
passengers. The report was not produced for public access because the 
security weakness disclosures might afford terrorists vital 
information.
    Members of the Committee became concerned about news accounts of 
the issuance of consular identification cards by several nations to 
their citizens residing illegally in the United States and the policy 
position of the U.S. Department of State that it was powerless to 
prevent the issuance of these cards. The House passed a provision that 
would require the Department of State to actually regulate the issuance 
of such cards by foreign countries.
    I requested that GAO gather information on the use of consular 
identification cards on April 29, 2003. The Committee plans to use this 
information to assist in legislative deliberations and in oversight of 
the Department of State. In particular, the Committee plans to examine 
whether the issuance of consular identity cards contributes to 
additional illegal immigration and whether reported loose practices by 
foreign nations may actually result in criminals who are not actually 
citizens of the issuing countries assuming false identities. Many 
States have revised their laws regarding the use of consular identity 
cards to bar the cards as valid identification for obtaining drivers' 
licenses, citing testimony by FBI and DHS officials at hearings 
conducted by Judiciary Subcommittees in 2003.
    Concerned about reports of state budgets being overburdened by the 
cost of illegal immigration, in December, 2002, I requested a GAO study 
of the state costs of educating illegal alien school children. That 
study's release is due within the next several months, and it will 
figure into this Committee's plans to examine the previously 
undisclosed costs of the federal government's failure to enforce 
immigration laws.
    The Committee has also requested the assistance of a number of the 
Offices of Inspector General (``OIG'') of federal agencies to address 
homeland security issues. For example, beginning in 2001, the Committee 
requested a series of briefings from the Inspector General of the SSA 
regarding: (1) how terrorists associated with the 9/11 attacks were 
able to obtain valid social security numbers that they then used to 
create fraudulent identities; (2) how the SSA could improve controls 
over Social Security numbers to guard against criminal and terrorist 
use of SSNs; (3) how the SSA could improve information sharing and 
prosecutorial cooperation with federal law enforcement, especially with 
regard to the increasing number of criminal organizations that obtain 
valid SSNs through fraud for resale to illegal aliens.
    Since the establishment of the DHS OIG in 2003, the Committee has 
requested a series of investigations of alleged mishandling of detained 
illegal aliens that led to the release of criminal aliens who went on 
to commit aggravated felonies, such as murder, rape and kidnapping. 
These DHS OIG investigations are now ongoing, some of which will lead 
to public reports. The Committee has also asked the DHS OIG to look 
into alleged mishandling of equipment pertaining to improved border 
security and into DHS's internal investigative units charged with 
identifying and prosecuting corruption by DHS employees.
    The Committee has generally had a particularly active relationship 
with the DOJ OIG, leading to investigations highly relevant to 
immigration, border security, and information sharing among federal 
agencies pertaining to terrorist watch lists. Among the more prominent 
of public reports that were generated as a result of Committee requests 
are:
    -- A series of reports addressing the lack of integration between 
the INS (now ICE) and FBI fingerprint systems, among which the most 
notable are: IDENT/IAFIS: The Batres Case and the Status of the 
Integration Project (March 2004) and The Rafael Resendez-Ramirez Case: 
A Review of the INS's Actions and the Operation of Its IDENT Automated 
Fingerprint Identification System (March 2000).
    -- A May 2002 report entitled, ``The Immigration and Naturalization 
Service's Contacts With Two September 11 Terrorists: A Review of the 
INS's Admissions of Mohamed Atta and Marwan Alshehhi, its Processing of 
their Change of Status Applications, and its Efforts to Track Foreign 
Students in the United States.''
    -- Follow up March, 2003, ``Followup Review on The Immigration And 
Naturalization Service's Efforts to Track Foreign Students in The 
United States Through The Student And Exchange Visitor Information 
System, (March 2003).
    -- ``INS's Use of Re-employed Annuitants'' (2002).
    -- A follow-up review on the visa waiver program--and a series of 
other INS programs that affect national security--addressing weaknesses 
in programs previously identified that could facilitate illegal entry 
of criminals and terrorists into the United States (December 2001).
    -- An Investigation of the Immigration and Naturalization Service's 
Citizenship USA Initiative (July 2000).
    In addition, since becoming Chairman of the Committee, I have made 
eight trips to border areas within the United States and our consular 
offices and embassies overseas to learn personally how our immigration 
laws are being implemented. These trips include: California, Michigan, 
Florida, Texas, the United Kingdom, France, Thailand, Mexico, Germany, 
Saudi Arabia, Kuwait, and Belgium.
    While the Committee has worked closely with the agencies over which 
it has oversight to craft responses to the vulnerabilities in our 
immigration laws and their implementation, there are limits to 
administrative action. For this reason, where necessary, the 
Subcommittee has drafted and worked to enact legislation to address the 
most serious immigration issues facing our country.
    For example, the USA PATRIOT Act was the initial response to the 9/
11 terrorist attacks, and it included a number of important tools to 
the federal government to combat alien terrorists. Before passage of 
the PATRIOT Act, there was no general prohibition against an alien 
contributing funds or other material support to a terrorist 
organization. The PATRIOT Act provides that an alien is inadmissible 
and deportable for contributing funds or other material support to an 
organization that has been designated as a terrorist organization by 
the Secretary of State, or for contributing to any non-designated 
terrorist organization, unless the alien can demonstrate that he did 
not know and should not reasonably have known that the funds or other 
material support or solicitation would further terrorist activity.
    The PATRIOT Act also provides a mechanism whereby the Attorney 
General can certify an alien as a suspected terrorist and detain him 
for up to seven days before placing him in removal proceedings or 
charging him with a crime. If no charges are filed by the end of this 
period, the alien must be released. Otherwise, the Attorney General 
shall maintain custody of the alien until the alien is removed from the 
U.S. or is found not to be inadmissible or deportable.
    The HSA included a version of the Committee's INS restructuring 
legislation. This legislation created a framework for handling the 
enormous task of keeping terrorists and criminals out while also 
treating legal aliens with the courtesy and respect they deserve.
    The INS restructuring legislation was no small effort. Rather, it 
was the culmination of years of work by the Committee. The Immigration 
and Naturalization Service had been a beleaguered bureaucracy for 
decades. Appropriators continually increased the INS's budget, hoping 
that additional resources were what was needed to solve the agency's 
shortcomings. Just in recent times, the INS's budget increased from 
$1.4 billion in fiscal year 1992 to $5.5 billion in fiscal year 2002. 
Notwithstanding this budgetary expansion, the INS's performance did not 
improve.
    The magnitude of the INS's problems was extraordinary--it had a 
backlog of millions of applications to be adjudicated, forcing aliens 
trying to play by the rules to wait in limbo for years. Millions of 
illegal aliens resided in the United States. Hundreds of thousands of 
criminal and deportable aliens ordered removed by immigration judges 
had absconded. Much of the INS's failure stemmed from the conflict 
between its enforcement and service missions.
    The Immigration Act of 1990 established the U.S. Commission on 
Immigration Reform to review and evaluate our immigration system. The 
Commission, chaired by the late Barbara Jordan, concluded that the INS 
suffered from mission overload. The Commission explained that the INS 
was required to give equal weight to more priorities than any one 
agency can handle: ``[i]mmigration law enforcement requires staffing, 
training, resources, and a work culture that differs from what is 
required for effective adjudication of benefits or labor standards 
regulation of U.S. businesses.'' The agency moved from one crisis to 
the next, with no coherent strategy of how to accomplish both missions 
successfully. Time and time again it attempted to cure itself with 
internal reorganizations that cured little and often made the patient 
worse.
    In 1995, the Judiciary Committee began to examine management 
problems in the INS and ``radical'' proposals to break apart and remake 
the agency. In February, 1995, the Immigration Subcommittee held a 
hearing on management practices at the INS. In May, 1998, the 
Subcommittee held a hearing examining alternative proposals to 
restructure the INS. In July, 1998, the Subcommittee for the first time 
approved legislation to break apart the enforcement and service 
functions of the INS.
    Representative Hal Rogers, then chairman of the Commerce, Justice, 
State Subcommittee of the Appropriations Committee, introduced this 
legislation. Mr. Rogers worked closely with Immigration Subcommittee 
Chairman Lamar Smith to fundamentally reform INS. The Committee's goal 
was finally achieved last Congress.
    I was scheduled to introduce the Barbara Jordan Immigration Reform 
and Accountability Act when September 11 intervened. However, after a 
delayed introduction, the House approved my legislation in April, 2002 
by an overwhelming margin. This bill would have broken the INS apart 
into a Bureau of Citizenship and Immigration Services and a Bureau of 
Immigration Enforcement, both within the Department of Justice. Then 
President Bush decided to seek creation of a Department of Homeland 
Security. When the HSA was sent to the President for signature in 
November, 2002, it included the bifurcation of immigration functions 
that the Committee had been seeking for so long--only now within the 
newly created department. The Committee is proud of this accomplishment 
and wants to assist the new immigration agencies in fulfilling their 
promise.
    The Committee was also instrumental in passing the Enhanced Border 
Security and Visa Entry Reform Act of 2002 which took several steps to 
tighten our border and visa policies including: requiring biometric 
identifiers (i.e., fingerprints, retinal scans, etc.) for visas; 
requiring biometric scanners at all U.S. points of entry; requiring DHS 
to implement an entry-exit tracking system; strengthening the reporting 
requirements for the foreign student tracking system; providing DHS and 
consular officials access to the databases of U.S. law enforcement and 
the intelligence community; authorizing an additional 200 immigration 
investigative personnel and 200 immigration inspectors for each of the 
next 5 years; and providing a pay raise and additional training for 
immigration personnel, including Border Patrol agents.
    Finally, the Committee reported H.R. 1954, to provide various 
immigration benefits to members of the Armed Forces fighting in Iraq 
and their families. A version of this legislation was incorporated in 
the Department of Defense authorization bill for FY 2004.
    Going forward, the Judiciary Committee's immigration oversight will 
continue to focus on making America safer. The terrorist threat against 
us is composed almost entirely of persons who came to the United States 
from abroad. We cannot ignore the link between our immigration system 
and our vulnerability to terrorism. It is not just a matter of fixing 
the student visa program or the tourist visa program. Every aspect of 
our immigration system has been used by foreign terrorists to gain 
access to, and a safe haven in, the United States. Let me cite a report 
issued by the Center for Immigration Studies that tracked how 48 
foreign-born militant Islamic terrorists, including the 9/11 hijackers, 
entered the U.S. over the last decade. The Center found that:
    [The terrorists] used almost every conceivable means of entering 
the country. They have come as students, tourists, and business 
visitors. They have also been [legal permanent residents] and 
naturalized U.S. citizens. They have snuck across the border illegally, 
arrived as stowaways on ships, used false passports, and have been 
granted amnesty. Terrorists have even used America's humanitarian 
tradition of welcoming those seeking asylum.
    The Committee will work continuously to ensure that no aspect of 
our immigration system can be used by terrorists to strike at America.
    The Committee will also strive to ensure that the great promise of 
a restructured immigration service is fulfilled. The Committee is 
concerned about the continuing poor manner in which legal immigrants 
are treated by CIS. The backlog of applications waiting to be 
adjudicated has exceeded the six million mark. This disrupts the lives 
and dreams of aliens who are playing by the rules and deserve to be 
treated better. Committee oversight will focus on righting this wrong.
    The Committee also will continue to apply stringent oversight to 
DHS's efforts to enforce our immigration laws. The Committee will 
continue its ongoing supervision of DHS initiatives to curtail 
immigration fraud, to ensure that all deportable criminal aliens are 
identified, detained, and removed, to secure our northern and southern 
borders from illegal aliens and alien terrorists, to prevent illegal 
aliens from finding employment in the U.S., and to ensure that aliens 
ordered removed are actually removed.
    More specifically, for the balance of the 108th Congress, a major 
activity will be oversight of DHS's compliance with the Border Security 
Act and the USA PATRIOT ACT. We plan hearings that address the complex 
and intertwined requirements to establish clear requirements for 
security upgrades to U.S. passports and visas, as well as to nations 
whose citizens may enter the country without visas under the Visa 
Waiver Program (``VWP'').
    The first of these hearings will examine the capability of VWP 
countries to meet two deadlines that become effective on October 26, 
2004: (1) the countries must issue tamper resistant machine readable 
passports after that date; and (2) their passports must contain a 
biometric identifier in a form that can read by U.S. inspectors. The 
Committee will also make an assessment of DHS's preparations for 
reading the new passports and for reading the new biometric, tamper 
resistant visas that the State Department is scheduled to begin issuing 
in advance of the deadlines.
    The Committee plans an additional hearing that will examine whether 
the Secretary of State and the Secretary of Homeland Security have met 
the requirements of the Border Security Act with regard to establishing 
a clear set of standards for machine readable travel documents based on 
the National Institute of Standards and Technology's research and 
recommendations. Further, the hearing will address what kind of notice 
should be provided to foreign countries who have publically state that 
they will try to comply with the U.S. deadlines.
    Another hearing planned for late in the 108th Congress will address 
DHS's deployment of identity card scanners at more than one hundred 
ports of entry to validate the identities of foreign travelers who 
present the border crossing cards, by testing the biometric photo and 
fingerprints stored on the card against the bearer. This important 
milestone, first set by the 1996 Act, was further specified in the 
Border Security Act. The DHS Executive Director of Border Security and 
Facilitation testified before the Subcommittee last week that CBP will 
deploy these scanners beginning in June, 2004, and will have inspectors 
trained in using them well before the October 26th deadline. The 
Committee will assess DHS's compliance with this deadline, and its 
effect on identifying imposters and protecting our country from 
criminals and terrorists attempting to use fraudulent information to 
enter the United States.
    Major oversight objectives planned by the Committee for the 
remainder of the 108th Congress and the 109th Congress are to examine 
the nexus between money laundering and the financing of large scale 
alien smuggling into the United States, as well as how money laundering 
here continues to fund terrorism throughout the world. Within that 
context, the Committee plans to address the organization of DHS's 
Office of Inspector General to ensure that the process of assembly of 
auditors and inspectors to compose this new office has not led to gaps 
in performance audits. Importantly, the components of the Treasury OIG 
which have traditionally audited the Secret Service with regard to 
money laundering and counterfeiting investigations were transferred to 
the DHS OIG. The Committee plans to assess whether the DHS OIG is 
performing its required role of assessing the performance of DHS money 
laundering investigators. This plan aligns with the GAO study request I 
made in December, 2003 to study the Department of Treasury's remaining 
money laundering enforcement team and its coordination with DHS's ICE. 
The GAO is tasked to identify faster and more effective means to bring 
Treasury's capabilities to bear in money laundering. This study will 
also address whether the Treasury is directing the Internal Revenue 
Service and other Treasury agencies to use the PATRIOT Act provisions 
to share information to pursue terrorist and alien smuggling 
organizations.
    In the 109th Congress, the Committee also plans to use information 
derived from a GAO study request I made in November, 2003, to look at 
Treasury's enforcement of money laundering prevention provisions of the 
PATRIOT Act. Although Treasury's role is often overlooked by others, it 
contributes both to DOJ and to DHS efforts to prevent terrorist acts 
here in the United States. It is the Treasury which has the predominant 
authority with regard to gathering and assessing Suspicious Activity 
Reports (SARs) provided by banks. We intend to examine whether Treasury 
is effective in telling banks what to look for with regard to potential 
terrorist or alien smuggling money laundering. We will also examine 
whether Treasury is providing useful sorting and filtering of the 
thousands of reports so that DOJ and DHS enforcement officers can take 
timely action to prosecute criminals and prevent terrorist acts.
    In the remainder of the 108th Congress and the 109th Congress, we 
intend to look intensively at whether the Internal Revenue Service is 
performing its mission to enforce immigration laws, including 
specifically INA provisions that apply to the IRS. To assess what the 
IRS is doing as a basis for this oversight, Rep. Hostettler, Chairman 
of the Immigration Subcommittee, requested that the GAO evaluate the 
IRS pilot penalty program for employers who are problem filers of wage 
reports. We want to know whether the IRS has the resources and the will 
to enforce employer penalties, or whether that function should be 
transferred through legislation to a more aggressive agency.
    In the remainder of the 108th Congress and the 109t h Congress, we 
will conduct active oversight into the cost of incarcerating alien 
criminals and the potential role of local law enforcement in assisting 
federal agencies with the prosecution of criminal aliens. To that end, 
I requested the GAO to prepare a detailed study of the number of 
criminal aliens incarcerated in federal and state correctional 
facilities, the types of crimes they committed and the costs of 
incarceration. This oversight is consistent with the Committee's 
concerns about unrecognized costs of illegal immigration and the need 
to bring more resources into coordination with DHS's mission of 
internal immigration law enforcement. We intend to use information from 
this study to hold one or more hearings on the scale of the criminal 
alien problem and what needs to be done about it through targeted 
legislation.

C. Jurisdiction over Immigration Should Remain In the Committee on the 
                               Judiciary

    As the foregoing record shows, the Committee on the Judiciary has 
unparalleled experience and expertise in the immigration area, and it 
has demonstrated its ability to identify and remedy the vulnerabilities 
in our immigration system that expose our nation to risk. For decades, 
it has done this work. Since 9/11, it has responded to the call to 
further strengthen our immigration policy.
    But there is another reason that immigration jurisdiction should 
remain with the Committee on the Judiciary. Although countering the 
terrorist threat is of significant importance in implementing our 
immigration laws, it is not the only issue. In fact, only a small 
fraction of aliens in the United States have any connection to 
terrorism. Rather, immigration involves much more than homeland 
security--reuniting families, providing needed workers for American 
businesses, offering haven to refugees, and deporting those aliens who 
have broken our laws. Lawful immigrants to the United States should not 
be viewed by the American people as a threat to be contained, and our 
country cannot afford to be viewed as an unwelcoming host to those who 
would come here lawfully to make a contribution to our way of life. 
Immigration is America's past, present, and future.
    Two projects in which the Committee has played a leading role 
illustrate this need for balance. In the mid-1990s, Committee members 
became concerned about the admission and presence of alien students in 
the United States. In 1996, the Committee worked to secure passage of a 
provision for a tracking system for such students during their stay in 
the United States. Administrative delays and competing interests slowed 
the development of that system.
    The Committee's foresight on this issue became all too clear 
following 9/11 when it was revealed that the pilot who flew American 
Airlines Flight 11 into the Pentagon was an alien student who failed to 
show up at school, and that two of the other pilots received visas to 
take their flight training in the United States. The Committee again 
pushed, through the PATRIOT Act, for full implementation of that 
system.
    Recognizing the possible delays that such a system could pose and 
the economic and academic value of foreign students to the United 
States, the Committee worked closely with INS, and then with DHS, as it 
implemented that program to ensure that the concerns of students and 
schools, as well as national security concerns, were considered during 
the design and deployment of the system. Committee staff met with 
school administrators and associations for feedback during the 
development of the system, now known as SEVIS. The Committee held two 
separate oversight hearings during the development and implementation 
of that system, to allow school officials and the Justice Department's 
Inspector General to confront government officials with their concerns 
and complaints about the system.
    Finally, the Committee pressed DHS to start collecting the fee 
required for funding of that system; the Department issued a proposed 
rule for collection of that fee in October 2003, and final regulation 
is pending. Once DHS starts collecting that fee, it will save the 
American people an estimated $50 million in enforcement costs that they 
currently pay. All in all, notwithstanding some bumps in the road, I 
believe that SEVIS has been a success and that this system has made the 
United States safer without imposing an onerous burden on either 
foreign students or American schools. The Judiciary Committee's 
balancing of the needs of both security and the needs of the students 
and the schools has played no small role in that success.
    Likewise, the Committee was concerned about tracking of non-
immigrant aliens in the United States. Section 110 of IIRIRA required 
the development of an entry-exit system that would track non-immigrants 
who overstayed their visas. Active oversight by the Committee following 
IIRIRA determined that virtually no progress was made to plan for 
needed improvements in legacy systems to improve entry inspections, and 
no progress at all was made to establish exit controls for travelers. 
This led to the Committee's initiative to establish the Data Management 
Improvement Act of 2000 (``DMIA''), which further amended section 110 
to require the basic system to collect electronic data on the arrival 
of aliens with the capability of matching that data with an alien's 
departure data. The DMIA did much more than establish the requirement--
it also required INS to establish a DMIA task force to include other 
federal government agencies, state and local government 
representatives, and private industry groups representing businesses. 
DMIA charged the Task Force with intensively studying the problems and 
issues related to establishing a comprehensive entry exit system and 
publishing the results. The Committee pursued aggressive oversight with 
the INS to get the Task Force established and operating, participating 
in meetings and site visits as the required DMIA work was undertaken.
    In late 2001, recognizing the continued delays by the Department of 
Justice, including INS, and the Department of State in sharing 
information and the failures to coordinate data between entry systems 
and visa systems, I drafted the Enhanced Border Security and Visa Entry 
Reform Act of 2002 to mandate improvements in data sharing, entry 
controls, and international travel documents. Working with other 
Members of the House and with the Senate, hard deadlines were 
established by which real change had to be completed.
    Since the Act became law, the Judiciary Committee has aggressively 
worked to ensure that all elements of the federal government were 
working together to meet the Act's requirements. The Committee's work 
entailed hundreds of hours of meetings pursuing the detailed plans, 
pilot programs, technology tests, and procurement actions necessary to 
get the job done. It included meetings with the National Institute of 
Standards and Technology team, coordinating with industry and 
government to establish practical standards for biometric identifiers 
in documents, and meeting with federal government delegates to the 
International Civil Aeronautics Machine Readable Travel Document groups 
to insure that there was parallel progress at the international level. 
Both in 2003 and 2004, the Committee hosted briefings for Congress by 
the DMIA task force, the most recent of which was a March 15, 2004 
presentation to which staff of the Select Committee on Homeland 
Security was invited.
    These two examples show the need for balance between security and 
facilitating legal immigration. It was to balance out immigration 
enforcement and services that the Committee proposed splitting those 
functions which had long been joined in the former INS. We must use our 
immigration enforcement powers to protect our people from those who 
break our laws. We must also, however, continually exert our best 
efforts to facilitate the admission of lawful entrants.
    Another complexity of immigration policy is that authority over 
immigration is spread across four departments--Homeland Security, 
Justice, State, and Labor. From the issuance of a visa to removal from 
the United States, an alien could interact with no fewer than nine 
components in those four departments. The Judiciary Committee currently 
has jurisdiction over each of those components, as well as over other 
agencies of limited jurisdiction that are charged with carrying out our 
immigration laws. Even with the formation of the Department of Homeland 
Security, the Attorney General's opinion with respect to all questions 
of law involving the Immigration and Nationality Act is controlling, 
and he has final authority over the decisions in our nation's 
immigration judiciary system.
    The variety of concerns involved in these many conflicting and 
overlapping interests cries out for the experience and expertise of the 
Committee on the Judiciary. This Committee has long had the 
responsibility for balancing the immigration, law enforcement, 
terrorism, and civil rights issues involved. A committee narrowly 
focused on security and with a much shorter history is not the best 
place to try to balance the many complex interests involved. Rather, 
the Judiciary Committee's experience in dealing with the various 
immigration components should tip the scales in favor of its continued 
jurisdiction.

                  III. Law Enforcement Agencies at DHS

    Another aspect of the HSA that implicates the jurisdiction of the 
Committee on the Judiciary is the transfer of law enforcement agencies. 
The HSA transferred several criminal law enforcement agencies to DHS: 
the Secret Service, the Immigration and Naturalization Service 
(``INS''), the Customs Service, the Transportation Security 
Administration (``TSA''), the Federal Protective Service (``FPS''), and 
the Coast Guard. The Committee on the Judiciary has general 
jurisdiction over the Secret Service and the successors to the INS. It 
has jurisdiction over the successors to the Customs Service, TSA, FPS, 
and the Coast Guard to the extent that these agencies enforce criminal 
law and exercise criminal law enforcement powers. The Committee also 
has jurisdiction over the functions of the former National 
Infrastructure Protection Center, which was formerly part of the FBI, 
and the Domestic Emergency Response Team, which formerly advised the 
FBI when there was an emergency.

                               A. History

    The Committee on the Judiciary has long had jurisdiction over 
criminal law enforcement. This tradition largely derives from the 
Committee's jurisdiction over ``the judiciary and judicial proceedings, 
civil and criminal'' under clause (1)(k)(1) of Rule X and ``subversive 
activities affecting the internal security of the United States'' under 
clause (1)(k)(18) of Rule X. The Committee has had jurisdiction over 
criminal law under the House Rules since 1880. It acquired jurisdiction 
over subversive activities when the Committee on Internal Security was 
abolished in 1975.
    In that period, the Committee has played the lead role in the House 
in criminal law enforcement policy. For example, the Committee was 
instrumental in passing the most important terrorism bill to become law 
before 9/11, the ``Antiterrorism and Effective Death Penalty Act of 
1996,'' which was Congress's response to the murderous terrorist attack 
on the federal building in Oklahoma City.
    Over the more than 100 years of its jurisdiction in this area, the 
Committee has held hundreds of legislative and oversight hearings on 
these matters. Indeed, the Committee's Subcommittee on Crime, 
Terrorism, and Homeland Security had begun considering the terrorist 
threat even before 9/11 holding hearings entitled: ``The Threat Posed 
by the Convergence of Organized Crime, Drug Trafficking, and 
Terrorism'' on December 13, 2000, ``Breaches of Security at Federal 
Agencies and Airports'' on May 25, 2000, ``Prohibition on Financial 
Transactions With Countries Supporting Terrorism Act of 1997'' on June 
10, 1997, and ``The FBI Investigation into the Khobar Towers Bombing in 
Dhahran, Saudi Arabia and the Foreign Investigative Activities of the 
FBI in General'' on February 12, 1997.

                        B. The Record Since 9/11

    Since 9/11, the Subcommittee on Crime, Terrorism, and Homeland 
Security has held 29 hearings on law enforcement matters. Among the 
most important of these are hearings entitled: ``Law Enforcement 
Efforts Within the Department of Homeland Security'' on February 3, 
2004, ``Homeland Security-the Balance Between Crisis and Consequence 
Management through Training and Assistance (Review of Legislative 
Proposals)'' on November 20, 2003, ``Terrorism and War-Time Hoaxes'' on 
July 10, 2003, ``The Proposal to Create a Department of Homeland 
Security,'' on July 9, 2002, ``The Risk to Homeland Security From 
Identity Fraud and Identity Theft'' on June 25, 2002, the 
``Antiterrorism Explosives Act of 2002'' on June 11, 2002, and the 
``Homeland Security Information Sharing Act'' on June 4, 2002, the 
``Cyber Security Enhancement Act'' on February 12, 2002, the 
``Implementation Legislation for the International Convention for the 
Suppression of Terrorist Bombings and the International Convention for 
the Suppression of the Financing of Terrorism'' on November 14, 2001, 
and the ``Anti-Hoax Terrorism Act of 2001'' on November 7, 2001.
    In addition to these hearings, the Judiciary Committee, in the 
spirit of cooperation, has held a joint hearing with the Select 
Committee on Homeland Security on the Terrorism Threat Integration 
Center (``TTIC'') on July 22, 2003, and jointly sent letters with post-
hearing questions to the relevant agencies on the implementation of 
TTIC. Tomorrow, on March 25, 2004, the Judiciary Committee and Homeland 
Security Committee will hold another joint hearing. This one will focus 
on the integration of terrorism watchlists at the Terrorism Screening 
Center.
    The Committee on the Judiciary has also conducted oversight through 
other means. It has sent two major oversight letters to the Attorney 
General on the implementation of the USA PATRIOT Act. These letters 
were aimed at ensuring that the Department of Justice maintains a 
proper balance between security and civil liberties in implementing the 
Act.
    The Committee has also closely monitored the activities of DHS 
recently sending letters to Directors of ICE and FPS regarding their 
law enforcement missions at the Department of Homeland Security. The 
Committee will soon send a letter to FLETC on its law enforcement 
mission. Additionally, it has sent a letter to the Federal 
Communications Commission and will soon send a letter to DHS regarding 
the Administration's efforts to ensure the ability of first responders 
to communicate with one another with interoperable equipment. I have 
also traveled to New York personally to observe the operations of the 
Secret Service there.
    In addition, the Committee has requested several GAO reports in 
this area including: ``Combating Terrorism: Funding Data Reported to 
Congress Should be Improved'' dated November 2002; ``Social Security 
Administration: Disclosure Policy for Law Enforcement Allows 
Information Sharing, But SSA Needs to Ensure Consistent Application'' 
dated September 2003; and ``Firearms Control: Federal Agencies Have 
Firearms Controls, But Could Strengthen Controls in Key Areas'' dated 
June 2003.
    The Subcommittee has played a central role in passing legislation 
in response to the 9/11 attacks. The Committee reported out the 
legislation that became the USA PATRIOT Act in a 36-0 bipartisan vote. 
That Act was Congress's initial response to the 9/11 attacks. It 
provides new tools for law enforcement and for improved information 
sharing among Federal agencies to address terrorist threats. It also 
authorizes the sharing of information between the intelligence and law 
enforcement communities and makes it easier to begin investigations of 
foreign intelligence subjects.
    The Subcommittee has also moved a variety of other legislative 
responses to the attacks. It reported implementation legislation for 
the International Convention for the Suppression of Terrorist Bombings 
and the International Convention for the Suppression of the Financing 
of Terrorism that became law on June 25, 2002. This legislation helped 
to implement treaties the U.S. and dozens of others countries have 
signed to suppress terrorist bombings and the financing of terrorism.
    Several other pieces of legislation developed by the Subcommittee 
were incorporated into the HSA. They include: the Cybersecurity 
Enhancement Act of 2002 that enhanced protections against cyber attacks 
by terrorists; the Homeland Security Information Sharing Act that 
enhanced intelligence and law enforcement information sharing among 
federal, state, and local governments to help protect against terrorist 
attacks; and the Anti-Terrorism Explosives Act of 2002 that places 
common sense requirements on those purchasing, transporting, or using 
explosive materials. The Committee is continuing this work with the 
Anti-Hoax Terrorism Act and legislation to adequately fund first 
responders.
    Some additional oversight efforts in the law enforcement area that 
the Judiciary Committee plans to pursue in the near future include 
border corruption, financing of terrorism activities, transportation 
security, and background checks for security personnel and others that 
affect the national security or public safety.
    First, the Committee will be looking at corruption of government 
officials on the border. The Committee is concerned by reports of 
bribes of officials who allow contraband and persons to be smuggled 
into the United States. The Committee has already sent oversight 
requests in this area and plans to a review this problem further. 
Second, the Committee will be holding hearings on how terrorists are 
financing their activities, what law enforcement is doing to stop that 
financing, and whether law enforcement needs further legislative 
support. Third, the Committee is reviewing transportation security and 
container security issues, e.g., H.R. 4008, the ``Anti-Terrorism 
Protection of Mass Transportation and Railroad Carriers Act of 2004,'' 
was referred solely to the Judiciary Committee. This legislation would 
increase penalties for terrorism against mass transportation and 
railroads and enhance law enforcement tools to combat and prevent such 
attacks. Fourth, the Judiciary is examining the various laws 
authorizing criminal history background checks and new legislation to 
provide such background checks for private security guards.

                   C. Criminal Law Enforcement at DHS

    The Committee on the Judiciary has long been the authorizing 
committee for the Secret Service. Indeed, the Committee reported the 
first modern authorization of the Secret Service in 1951. Pub. L. No. 
82-79. It has remained the authorizing committee for the Secret Service 
since that time.
    The HSA provided for the Secret Service to become a separate agency 
within DHS--i.e., it is not within any of the directorates of DHS. 
See--1703 of the HSA. It has two missions: law enforcement, 
particularly with respect to counterfeiting, a matter within the 
Committee on the Judiciary's jurisdiction, and the protection of the 
President, the Vice President, their immediate family members, and 
others.
    The HSA also established the Border and Transportation Security 
Directorate (``BTS''), and it is responsible for maintaining the 
security of our nation's borders and transportation systems. BTS is 
comprised of law enforcement and other employees from the former INS, 
the former Customs Service, TSA, FPS, and the Coast Guard.
    CBP consists of elements of the former INS and the former Customs 
Service. In addition to its immigration responsibilities, CBP plays a 
critical role in confronting the law enforcement challenges facing our 
nation. CBP's Interdiction and Security (Outbound) enforces criminal 
export laws and regulations that prevent weapons of mass destruction 
from falling into the hands of terrorists. As part of this 
responsibility, the agency interdicts illicit proceeds from narcotics 
and other criminal activities in the form of unreported and smuggled 
currency.
    Another new agency within BTS is ICE, which is the largest 
investigative arm of DHS. It also includes elements of the former INS 
and the former Customs Service. Assistant Secretary Michael J. Garcia, 
then Acting Assistant Secretary for ICE stated that ``[t]hrough this 
reorganization, ICE is building a foundation to become one of the 
world's preeminent law enforcement agencies--one that provides 
unparalleled investigation, interdiction, and security services to the 
public and to our partners at DHS.'' Department of Homeland Security 
announcement entitled ICE Announces Agency Reorganization Plan dated 
May 16, 2003. Outside of its immigration role, the responsibilities of 
ICE range from law enforcement intelligence work to investigating child 
pornography.
    TSA is also part of BTS. TSA's primary mission is to provide for 
the security of the civil aviation system, including all domestic cargo 
and passenger air transportation, as well as the civil aviation 
infrastructure. TSA has authority to receive, assess, and distribute 
intelligence information and assess threats to transportation 
facilities. 49 U.S.C. Sec. 114(f).
    TSA's budget request described part of its mission as ensuring that 
it builds a strong enforcement presence on-site at the nation's 
commercial airports. TSA negotiates long-term agreements with state and 
local enforcement agencies to provide uniformed officers at passenger 
security checkpoints.
    TSA includes the National Explosives Detection Canine Team Program 
to provide local law enforcement officers with the right equipment, 
technical assistance, and partial reimbursement costs for security. It 
also supports Federal Flight Deck Officer training for pilots at FLETC 
to train pilots on the use of firearms.
    FPS is responsible for law enforcement protection of federal 
employees and property. According to its web page, the mission of FPS 
is ``to provide law enforcement and security services to over one 
million tenants and daily visitors to all federally owned and leased 
facilities nationwide. FPS's protection services focus directly on the 
interior security of the nation and the reduction of crimes and 
potential threats in federal facilities throughout the nation.''
    The Coast Guard is also a law enforcement agency with a mission 
divided into four major roles--maritime law enforcement, maritime 
safety, marine environmental protection, and national defense. The 
Coast Guard's law enforcement functions include maritime narcotics 
enforcement. See 46 U.S.C. App. Sec. 1903, 14 U.S.C. Sec. 89, 16 U.S.C. 
Sec. 2409.
    At a February 3, 2004 hearing before the Judiciary Committee's 
Subcommittee on Crime, Terrorism, and Homeland Security, Admiral Thomas 
Collins testified that the Coast Guard has extensive regulatory and law 
enforcement authorities. He further stated that Maritime Safety and 
Security Teams of the Coast Guard have provided critical port security, 
deterrence, and response capability. These efforts include the use of 
canines and divers to detect narcotics and explosives hidden on board 
vessels. Interdiction of narcotics is a primary law enforcement mission 
of the Coast Guard both directly and through law enforcement 
partnerships.
    The National Infrastructure Protection Center (``NIPC'') was 
created in May of 1998 through Presidential Decision Directive 63 as an 
interagency center housed at the FBI Headquarters. At the FBI, NIPC 
served as the focal point for the governments efforts to warn of, and 
respond to, cyber threats. NIPC was also part of the FBI's 
Counterterrorism Program the mission of which was to detect, deter, 
prevent, and swiftly respond to terrorist actions that threatened U.S. 
national interests at home or abroad. Briefing Book of General 
Information on the FBI, (2000) at 84. The FBI used NIPC to assist in 
the coordination of ongoing computer crime investigations and 
identification of threats against the nation's critical infrastructure. 
The HSA transferred NIPC to the Department of Homeland Security and it 
was placed into the Information Analysis and Infrastructure Protection 
Division (``IAIP''). The functions of NIPC have been assumed into 
various components of IAIP.
    The HSA transferred the Domestic Emergency Support Team (``DEST'') 
from the Department of Justice to the Department of Homeland Security 
where it is now referred to as the Domestic Emergency Response Team. 
DEST was an interagency team responsible for providing the FBI, the 
lead Federal agency for crisis management, with expert advice and 
support concerning the U.S. Government's capabilities in resolving the 
terrorist threat or incident. When such a threat or incident occurred, 
this rapidly deployable interagency team was activated to provide 
crisis and consequence management assistance, technical or scientific 
advice, and contingency planning guidance tailored to situations 
involving chemical, biological, or nuclear weapons. The DEST was 
managed by the FBI's Critical Incident Response Group. Its mission was 
to provide expert advice and assistance to the FBI On-Scene Commander 
related to the capabilities of various federal agencies depending on 
the type of terrorist attack. This task force was not an office and did 
not have assets or resources. Its sole responsibility was to advise the 
FBI during the response to an attack.
    In short, the Committee on the Judiciary has general jurisdiction 
over the Secret Service and the successors to INS (ICE, CBP, and CIS). 
It has jurisdiction over the successors to the Customs Service, TSA, 
FPS, and the Coast Guard to the extent that they enforce criminal laws 
and exercise criminal law enforcement authorities. It also has 
jurisdiction over the functions of the former NIPC and the former DEST.

D. Jurisdiction over the Law Enforcement Agencies at DHS Should Remain 
                   in the Committee on the Judiciary

    The Committee on the Judiciary has a long and vast history of 
jurisdiction over law enforcement agencies. It has the expertise and 
the experience in these areas. That expertise and experience simply 
cannot be matched by a new committee with a short history.
    As with immigration, there is more to law enforcement than just 
security. There is important balancing to be done between security 
interests and civil liberties interests. Indeed, during consideration 
of the HSA itself, the Committee reported several civil liberties 
provisions, including heightened whistleblower protections, a more 
independent Inspector General at DHS, and the creation of a privacy 
officer to ensure against the unauthorized disclosure or dissemination 
of personally-identifiable information. The Committee on the Judiciary 
has been at this balancing task for years. It is dangerous to put that 
balancing task in a committee the primary focus of which is security. I 
fear that civil liberties interests would be sacrificed.
    Finally, I believe that under any scenario, the Committee on the 
Judiciary will retain jurisdiction over the Department of Justice and 
its primary law enforcement agencies, the Federal Bureau of 
Investigation, the Drug Enforcement Administration, and the Bureau of 
Alcohol, Tobacco, Firearms, and Explosives. In addition, the Committee 
on the Judiciary will retain jurisdiction over the various 
prosecutorial activities of the Department of Justice. Jurisdiction 
over the law enforcement agencies in DHS should remain in the same 
committee as the DOJ law enforcement agencies. There should be one 
unified approach that takes into account the complex balancing that 
must occur. Having some agencies under the jurisdiction of a committee 
that has traditionally carefully balanced civil liberties concerns with 
law enforcement concerns and having others under a committee that is 
focused solely on security is a prescription for disaster. Jurisdiction 
should be based on function--not agency carrying out the function.

                  IV. Law Enforcement Training at DHS

    The HSA transferred two major law enforcement training programs to 
DHS: FLETC and ODP.

                               A. History

    The Committee on the Judiciarys history of jurisdiction over law 
enforcement training derives from the same sources and has the same 
history as its jurisdiction over law enforcement agencies. See III.A, 
above. Before 9/11, the Subcommittee on Crime, Terrorism and Homeland 
Security had considered the predecessors to ODP within broader 
oversight hearings on May 15, 2001 and July 22, 1999.

                        B. The Record Since 9/11

    As noted above, since 9/11, the Subcommittee on Crime, Terrorism, 
and Homeland Security has held 29 hearings on law enforcement matters. 
Several of these have included discussion of law enforcement training. 
A three-part hearing on the effectiveness of the Office of Justice 
Programs, which then included ODP, occurred on March 5, 7, and 14, 
2002. More recently, the Subcommittee has conducted hearings on ``Law 
Enforcement Efforts Within the Department of Homeland Security'' on 
February 3, 2004, and ``Homeland Security-the Balance Between Crisis 
and Consequence Management through Training and Assistance (Review of 
Legislative Proposals)'' on November 20, 2003, both of which dealt with 
law enforcement training. I have traveled personally to Vermont to 
observe the training of law enforcement agents there.
    Due to press reports of mismanagement of first responder grants, on 
January 21, 2004, the Committee on Judiciary sent letters to the 
Secretary of the Department of Homeland Security and the Inspector 
General of the Department of Homeland Security requesting a review. It 
appears that this letter has been effective. According to a FCW.com 
March 9, 2004 article, ``Officials from the Homeland Security 
Department's Office of Domestic Preparedness are putting in place 
several policies to oversee and enforce how state and local agencies 
are spending their federal funding, according to an ODP official.''
     Right now, the Committee on the Judiciary is working with this 
Committee on Chairman Cox's first responder funding bill, H.R. 3266. We 
are not in total agreement on all of the issues, but we have reached 
agreement on many of our differences and we will continue to work 
cooperatively to produce a good bill in this critical area.
    Additionally, the Committee is reviewing all law enforcement 
training, including homeland security training, provided by all Federal 
law enforcement agencies. The Committee is also examining the training 
and authority of public and private uniform security officers 
protecting Federal buildings and critical infrastructure. As part of 
this review, the Committee has written oversight letters to FLETC and 
FPS.

             C. The Federal Law Enforcement Training Center

    According to the FLETC web page, the stated mission of FLETC is 
``to serve as the Federal government's leader for and provider of 
world-class law enforcement training. We prepare new and experienced 
law enforcement professionals to fulfill their responsibilities in a 
safe manner and at the highest level of proficiency. We also ensure 
that training is provided in the most cost-effective manner by taking 
advantage of economies of scale available only from a consolidated law 
enforcement training organization.''

                D. The Office for Domestic Preparedness

    Until passage of the HSA, the Office for Domestic Preparedness was 
an office within the Department of Justice responsible for establishing 
domestic preparedness programs and activities to assist state and local 
governments to prepare for, and respond to, terrorist incidents, 
including attacks involving weapons of mass destruction. The Judiciary 
Committee, through the enactment of the USA PATRIOT Act, authorized the 
Office (formerly the Office for State and Local Domestic Preparedness 
Support of the Office of Justice Programs) in the Department of 
Justice. The Committee on Judiciary changed the name of this office to 
the Office for Domestic Preparedness, in the ``21st Century Department 
of Justice Appropriations Authorization Act'' and further authorized 
the ODP to assist states and localities.

 E. Jurisdiction over Law Enforcement Training at DHS Should Remain in 
                     the Committee on the Judiciary

    The Committee on the Judiciary should retain jurisdiction over law 
enforcement training for much the same reasons that it should retain 
jurisdiction over law enforcement agencies. It has the experience and 
expertise in this area. Training, like other law enforcement 
activities, requires a careful balancing of interests that a committee 
focused solely on security is not likely to handle well. Other law 
enforcement agencies will remain with the Committee on the Judiciary 
under any scenario, and the training of those agencies, as well as the 
DHS agencies, should remain under one committee that can provide a 
unified, balanced approach.
    With respect to ODP, under any scenario, the vast majority of 
grants to state and local law enforcement agencies will be made through 
the Office of Justice Programs and that Office will remain with the 
Committee on the Judiciary. It makes no sense to split off one 
grantmaking office, ODP, and give it to another committee. Again, we 
need a balanced, unified approach in this area.

   V. DHS Can Function Effectively While Reporting to More Than One 
                       Committee of Jurisdiction

    Some argue that DHS cannot function effectively if it must report 
to multiple committees. I disagree for a variety of reasons. First, DHS 
reports to several committees now, and while there is always room for 
improvement, it is functioning effectively now.
    Second, every agency reports to at least four committees: a House 
authorizing committee, a House appropriations committee, a Senate 
authorizing committee, and a Senate appropriations committee. Despite 
this, most of our agencies function effectively. Moreover, many 
existing agencies report to more than one authorizing committee now. 
For example, the Secret Service and the Bureau of Alcohol, Tobacco, 
Firearms, and Explosives always reported to the Committee on the 
Judiciary when they were at the Department of Treasury while the rest 
of the Department generally reported to the Committee on Ways and 
Means. The Federal Trade Commission reports to the Committee on Energy 
and Commerce for its consumer protection mission, but to the Committee 
on the Judiciary for its antitrust mission. The Commerce Department 
reports to the Committees on Energy and Commerce, Science, Resources, 
and the Judiciary. The Energy Department reports to the Committees on 
Energy and Commerce, Science, and Armed Services. All of these agencies 
are able to function effectively within these arrangements.
    Third, as outlined above, the Committee on the Judiciary and the 
Select Committee on Homeland Security have already shown an ability to 
work together effectively on projects of mutual interest. We have 
already had one joint hearing, and another one will be held tomorrow. 
We are currently working together on first responder legislation. 
Regardless of how this matter is resolved, if there is a Committee on 
Homeland Security, either select or permanent, I expect this working 
relationship to continue. In short, DHS is functioning effectively 
under the current committee system, and it can continue to do so in the 
future.

                             VI. CONCLUSION

    I believe that the proponents of a Committee on Homeland Security, 
select or permanent, in future Congresses have the burden of proof, and 
to date, they have not carried it. However that question is resolved, I 
emphatically believe that with the Committee on the Judiciary should 
retain jurisdiction over all the matters that it now has. We have the 
experience and the expertise. Over the years, we have shown the ability 
to apply the unified, balanced approach that these issues require. For 
those reasons, I believe we should retain our jurisdiction over these 
matters.

    Mr. Diaz-Balart. Mr. Chairman, in your testimony you talk 
about what you consider to be Federal law enforcement agencies, 
the Legacy agencies of Customs and INS now, and the Customs and 
Border Protection and the immigration and enforcement--the 
citizenship and the immigration services, the Legacy agencies 
and the TSA and the FPS, which is the Federal Protective 
Service and the Coast Guard.
    However, the Department of Homeland Security and its 
agencies are not just solely law enforcement agencies. Rather, 
as the act itself describes, these agencies must work to 
prevent terrorist attacks and reduce the Nation's vulnerability 
to terrorism. These agencies have a much broader mission than 
just law enforcement.
    Are you arguing that, for example, on the Customs, Border 
Protection and the ICE are actually law enforcement agencies 
and therefore you should have sole jurisdiction over those 
agencies because you have jurisdiction over the Federal law 
enforcement?
    Mr. Sensenbrenner. Certain functions of the Customs Service 
have always been under the jurisdiction of the Judiciary 
Committee, and certain functions have not. My testimony argues 
in favor of keeping the existing arrangement as it is. We on 
the Judiciary Committee don't want to deal with the enforcement 
of the tax laws or the tariff laws. The Ways and Means 
Committee has had jurisdiction over that. But in terms of the 
actual arrest of people who are smuggling, Judiciary has had 
jurisdiction and done oversight over that, and I think it 
should remain that way.
    Similarly, we have had general jurisdiction over the INS 
and its successor agencies.
    I don't think you can separate some enforcement functions 
from some service functions. The people who check passports at 
the ports of entry don't actually enforce a law until they 
think that somebody is trying to break the immigration laws. On 
the other hand, what types of visas there are that are stamped 
in those passports and presented to immigration inspectors at 
the ports of entry, is a part of the immigration jurisdiction 
that has nothing to do with law enforcement. It has something 
to do with terrorism.
    But to put whether or not applicants for visas ought to be 
interviewed and put that in one committee while putting the 
underlying law on who qualifies for a visa in another committee 
would make no sense. In terms of doing the oversight, too many 
cooks will spoil the broth.
    Mr. Diaz-Balart. Ms. Slaughter.
    Ms. Slaughter. Mr. Sensenbrenner, I don't have any 
questions. Thank you. I appreciate your testimony. It was most 
enlightening. Thank you.
    Mr. Diaz-Balart. Chairman Cox.
    Mr. Cox. Thank you. I wanted to be sure to be here so I 
could on the public record thank the chairman of the Judiciary 
Committee for the extraordinary working relationship that the 
Judiciary Committee has established with the Select Committee 
during the 108th Congress. I agree with the representation that 
you have laid before this subcommittee about the volume and 
quality of work that the Judiciary Committee has done and about 
the importance of maintaining the Judiciary Committee's central 
roles in each of these areas of expertise, because so much of 
it is irreplaceable and simply couldn't be replicated from 
scratch or otherwise we would attempt to do so.
    Prior to your arriving, I had the opportunity to make a 
point with other chairmen about my concern, first for the 
importance of the mission of the Department of Homeland 
Security, which is protecting us all from annihilation at the 
hands of terrorists, but, derivative of that, the importance of 
keeping the Department of Homeland Security focused on its 
mission. I believe there is an opportunity for the Department 
of Homeland Security to be distracted from that mission by 
either expanding its current role beyond what it already is 
with respect to many parts of our social life in America, or by 
essentially taking on other functions that follow from Congress 
having put more in the Department, perhaps, than was necessary 
strictly for purposes of fighting terrorism.
    So I think that defining the mission of the Department and 
specifically defining homeland security, something Chairman 
Goss mentioned in his testimony, is just as important as our 
allocation of responsibility within the Congress.
    To the extent that we lose sight of the essential mission 
of homeland security in the Department, we are going to create 
even more overlap and conflicts among standing committees of 
jurisdiction here in the Congress.
    Conversely, if we have a good, clear, sharp focus in the 
Department of Homeland Security, what we are trying to 
accomplish there, the basis for creating that new Department, 
then we will have fewer conflicts as we try to oversee that 
Department here in the Congress.
    I also want to congratulate the Judiciary Committee and 
your leadership of it, Mr. Sensenbrenner, for your emphasis on 
the importance of and authorization process for the Department 
of Justice. It is one of the major responsibilities of 
Judiciary, and it is one of the reasons I think that a homeland 
security committee could meet the burden that you place before 
it of helping make the country safer and of keeping the 
Department of Homeland Security focused on its mission.
    I think there needs to be a committee whose primary 
responsibility it is to look after what is the biggest 
reorganization of our Federal Government since the creation of 
the Department of Defense, but I take very, very seriously and 
understand very clearly the caveats that you have laid out 
about duplication of jurisdiction. You are absolutely right 
that every committee has--pardon me--every Cabinet department 
has at least four committees that it has to report to. The 
problem that we have with Homeland Security is that number is 
up to 88, and it needs some simplification.
    I think that what we could best benefit from at this point, 
in addition to your testimony, which has been very clear and 
helpful, is perhaps the help of the professional staff, unless 
you care to answer it off the cuff, on a question of the 
Homeland Security Act itself. Because at least in this Congress 
that lies within the oversight of jurisdiction of this Select 
Committee. I would ask specifically which things that have been 
tentatively placed by the Congress within the jurisdiction of 
the Department of Homeland Security do you think should be 
excised, if any, and if you are so inclined, are there things 
that were left out of the Homeland Security Department thank 
you ought to have gone in?
    Mr. Sensenbrenner. Well, let me say, first of all, Mr. 
Chairman, that I appreciate your comments about the work the 
Judiciary Committee has done. And it is not just the chairman. 
It is all the members of the committee and the staff.
    To answer your question specifically about whether we need 
to make changes in the Homeland Security Department creation 
act, I think it is too early to say. It has been a major 
reorganization of government agencies. I think the Department 
has been slower in getting up and running than all of us had 
hoped when it was created.
    The best example, I think, is the fiasco of the first 
responder grants. There is over $5 billion in the pipeline and 
our first responders are waiting to get that money to do what 
that money is supposed to do in terms of training and equipment 
and making us better able to respond to a terrorist strike.
    I don't think that there is a problem in the law on this. I 
think there is a problem in the implementation of the law, and 
this is perhaps where the Homeland Security Committee can do a 
good job in doing oversight and getting on the back of those 
who have caused this backlog and to get the money flowing as 
the Congress intended it to do.
    As you know, I do believe that authorization bills ought to 
be passed. The DOJ authorization bill that the President signed 
in November of 2002 after being passed by a voice vote in both 
Houses was the first DOJ reauthorization in 23 years. We have 
another one out of the committee, and I hope to have that on 
the floor relatively soon. We have still got some rough edges 
to negotiate out, but I intend to continue doing this.
    Finally, I was present for the tail end of the testimony of 
the representatives from the Transportation and Infrastructure 
Committee where they talked about biometrics in travel 
documents, specifically U.S. passports and visas. That was a 
part of the Visa and Border Security Act which the Judiciary 
Committee wrote, which was unanimously passed in both Houses 
and signed by the President May of 2002. The State Department 
was given some deadlines on this. They don't like them, and we 
will be hearing from the Secretary of State and I believe 
Secretary Ridge after the Easter break on why they need more 
time to get this done.
    I can tell you that with the U.S. VISIT program, with the 
pictures and the fingerprint scans, within the first month when 
visa holders were required to do that, there were 30 people 
against whom criminal warrants were pending that tried to get 
into the United States using forged travel documents that were 
apprehended, and 6 of those 30 were wanted for murder. So the 
Visa and Border Security Act I think is not only making our 
borders more secure, but finding some people that law 
enforcement has been looking for for a while.
    Mr. Cox. Thank you, Mr. Chairman.
    Mr. Diaz-Balart. Thank you.
    Chairman Sensenbrenner, as always, your testimony has been 
very impressive.
    Mr. Sensenbrenner. Thank you.
    Mr. Diaz-Balart. I want to add my commendation to the work 
of your committee, because it is not only evident but it is 
well known and it is important, and so I simply wanted to add 
my commendation.
    Mr. Sensenbrenner. Thank you.
    Ms. Slaughter. No comment. I am going to ask Zoe Lofgren, 
Mr. Sensenbrenner, if she has bet all the props.
    Mr. Sensenbrenner. Well, I will put on the record that I 
have. But even though I presided over most of that or made the 
request, these reports in particular, Representative Slaughter, 
have really given the bureaucracy their marching orders on 
where things are wrong and how to correct them. No executive 
branch agency likes oversight being done, regardless of who is 
the President, who is the Secretary, and who is in Congress, 
but I think the framers made our oversight functions as 
important as giving us the power of the purse, because if the 
agencies don't spend the money we give them, wisely and 
appropriately, then egg is on our face as well as theirs.
    Mr. Diaz-Balart. Thank you very much. We are waiting for 
the chairman of the Ways and Means committee.
    Mr. Diaz-Balart. Welcome the chairman of the Ways and Means 
committee, Mr. omas, my good friend. Thank you for being here 
this afternoon, and we look forward to your testimony.
    Mr. Thomas. Thank you, Mr.Chairman. I would ask unanimous 
consent that my written testimony be made a part of the record.
    Mr. Diaz-Balart. Without objection, so ordered.

STATEMENT OF THE HONORABLE WILLIAM M. THOMAS, A REPRESENTATIVE 
    IN CONGRESS FROM THE STATE OF CALIFORNIA, AND CHAIRMAN, 
                  COMMITTEE ON WAYS AND MEANS

    Mr. Thomas. Just briefly to comment on the question in 
front of us. Many of us are on committees. I have the privilege 
of chairing the Ways and Means committee, which is the oldest 
committee. One of the first functions established by the 
government, as you might guess, was the Customs Service to be 
able to raise revenue to run the country.
    As the economy of the world has gotten more complex, the 
job of Customs has become more complex. I find it rather 
interesting at this point in the country's history that we have 
gone through--oh, just pick it up from the Civil War period--
the Civil War, Spanish American war, World War I, World War II, 
the Korean War, the Vietnamese war, and no one ever thought of 
the restructuring as we are talking about doing today.
    I agree that the threat to national security is somewhat 
unique versus those earlier historical periods, but these sorts 
of threats--not to diminish the threat--tend to be cyclical or 
periodic, and I am a little concerned that we are talking about 
a fundamental restructuring not only of the committees of 
jurisdiction perhaps, because all we do is monitor what the 
executive branch does to a very great extent, but the way in 
which duties that have been developed over two centuries would 
be mixed and handled.
    I will say that we were as cooperative as I think we could 
have been in trying to merge the commercial concerns that run 
through the executive department of the Treasury with the 
genuine concern that our border security was threatened because 
you had a number of different individuals performing distinct 
and different duties at the border without overall 
coordination.
    What has occurred in terms of the coordination of 
activities at the border I think was overdue, and it probably 
took a crisis such as this to require the rethinking and the 
integration of those border duties.
    I just have to tell you that the period in which we have 
negotiated with the homeland security structure has been one 
that I fully anticipated. That is, when your primary title is 
security, you make decisions differently than beings who are in 
the process of attempting to facilitate commercial intercourse 
and have been doing it for several hundred years. The question 
of whether or not a potential threat to, say, a port or an 
airport would require it to be shut down oftentimes is on the 
teeter-totter between public security and freedom. Those people 
who have security in their title hastily move to make sure that 
the place is secure.
    You will recall around the Capitol that if we had no 
movement whatsoever, our security would be much higher. In 
discussing with the Sergeant At Arms and others, I said, well, 
gee, if we were never here, we would be even more secure, so 
that if we weren't here and we did nothing, we would have 
maximum security. The problem is we wouldn't get much done.
    So this relationship is one that will always be in need of 
observation, oversight and adjustment.
    We had a period where seniors in this country had a number 
of needs that weren't being met. We had some Federal programs 
for them, but many of their real needs weren't being met. The 
House in its wisdom created a committee called the Committee on 
Aging. It had no legislative jurisdiction, but it had the 
ability to focus concerns about a distinct group, seniors, so 
that the committees of jurisdiction could carry out changes in 
the law in a more coordinated way through the general 
observations of the Committee on Aging; and I think the 
Committee on Homeland Security would be a similar structure if 
it were to work most successfully.
    The idea of focusing on security and having that as your 
primary concern, not even necessarily having the ability to 
legislate in the area but the ability to coordinate those 
efforts with those committees of jurisdiction, I think would 
make some sense.
    You are always going to have a bit of edge and conflict 
where security wants to trump the legitimate other functions, 
but having an understanding and a need to continue to 
coordinate is I think a very useful and necessary role that the 
Committee on Homeland Security could perform. I don't know that 
you necessarily have to have a jurisdictional structure. I 
don't know that you necessarily have to have the legislative 
capability. What you need is the focus on a problem by virtue 
of the committee's name ``Homeland Security'' and the need to 
maintain coordination among those other committees of 
jurisdiction.
    So I come down on the side of I think it was overdue. I 
think what we have done was a useful and needed step. I would 
be very concerned if we created a Committee of Homeland 
Security and gave them control from a security point of view of 
all of the key points of commerce, not just on our borders but 
internally, because I know the decision that would be made more 
often than not, the answer would be to stop, slow down, shut 
down commerce that is necessary.
    So the function could be one of coordination, of concern, 
of observation, of assistance, but I would be strongly opposed 
to a committee that was created with jurisdiction in ways that 
would interfere with a structure that has been successful 
through a number of other threats to our security and has 
worked marvelously in coordinating those activities over the 
last 200 years of the Customs office and duty and service.
    Mr. Diaz-Balart. Thank you, Mr. Chairman.

PREPARED STATEMENT OF THE HONORABLE WILLIAM M. THOMAS TESTIMONY OF BILL 
                                 THOMAS

     Chairman Diaz-Balart, Ranking Member Slaughter, and Subcommittee 
members, thank you for inviting me to testify on the role of the Select 
Committee.
    The Committee on Ways & Means has oversight responsibilities over 
all functions relating to customs and customs administration, including 
tariffs and import fees, classification, valuation, special rules for 
imports, and special tariff provisions and procedures. These functions 
cover most of the Bureau of Customs and Border Protection (CBP) and a 
substantial part of the Bureau of Immigration and Customs Enforcement 
(ICE) of the Department of Homeland Security (DHS).
     The oversight of the Committee on Ways & Means has a long history. 
The Customs Service was the first agency of the federal government to 
be created over 220 years ago to collect revenue and to ensure that 
imports flow smoothly across the border. Today, Customs collects more 
than $20 billion in revenue each year.
     Over the years, Customs has taken on many other functions because 
of its unique border presence. Fighting against illegal drugs, 
transshipped t-shirts, and Rolex knockoffs are just a few of these 
other functions. In the wake of the terrorist attacks on the United 
States, the role of Customs in guarding our borders against chemical, 
biological, and conventional weapons has become more prominent.
     While I supported the creation of the new Department, I was 
concerned that this move could damage the critical trade function of 
Customs. To address those concerns, I worked with many of you, Mr. 
Rangel, the Administration, and the Senate to transfer customs 
functions to the new department but, at the same time, to maintain 
statutory revenue authority within Treasury and to prohibit 
consolidation, discontinuation, or diminishing of customs functions, 
resources, or staffing.
     It is my understanding that this arrangement has functioned fairly 
smoothly, but I believe that continued oversight by the Committee on 
Ways & Means is necessary to constantly reinforce the importance of 
trade functions. Consider this example: At a recent briefing, the 
Bureau of Customs and Border Protection presented us with its mission 
statement. The first three bullet points were entirely devoted to 
security. Trade concerns were not mentioned until the fourth point, and 
even there, the focus was on enforcing laws rather than facilitating 
trade, stating ``We steadfastly enforce the laws of the United States 
while fostering our nation's economic security through lawful 
international trade and travel.''
     I know it is only natural that when a Department's central mission 
is homeland security, the agencies of that Department will be judged on 
their ability to support that central mission and will shift their 
focus accordingly. However, with international trade comprising nearly 
25% of our gross domestic product, CBP's mission to move goods across 
the border in a smooth, efficient, and predictable manner cannot be 
accorded a mere minor role--instead, it is a vital part of our economic 
strength and viability. For that reason, continued active oversight by 
Ways & Means is essential.
    Oversight by Ways & Means is also important for reasons of 
competency. The tremendous range of functions that the border agency 
performs requires enormous technical expertise not only of the customs 
officials themselves, but also within Ways & Means. Relying on our 
expertise, we have exercised considerable oversight on customs matters 
since the Customs Service was incorporated into DHS, such as:
    <bullet> Coordination with the Administration to draft an Executive 
Order giving the Homeland Security Department general authority over 
Customs revenue functions but allowing the Treasury Department to 
retain final authority over regulations concerning Customs revenue 
functions, and the authority to review, modify, or revoke specified 
determinations or rulings.
    <bullet> Markup and passage of the Miscellaneous Trade and 
Technical Corrections Act, legislation which makes significant changes 
to certain Customs rules.
    <bullet> Passage of legislation to temporarily extend customs user 
fees, and examination of whether the level of such fees is commensurate 
with the level of services provided. Tracking the user fees in the new 
Department to ensure that they are used for commercial functions is 
required by our World Trade Organization obligations.
    <bullet> Passage of legislation addressing textile transshipment, 
including allocation of funding for 70 new positions, travel, training, 
and outreach, and a GAO audit of textile transshipment monitoring.
    <bullet> Oversight of highly technical customs classification 
decisions, based on the over 800-page Harmonized Tariff Schedule.
    <bullet>  Oversight of the development of the Automated Commercial 
Environment, which is designed to fully automate the process of moving 
goods across the border, a massive undertaking that will not be 
completed until 2007. The General Accounting Office has issued over a 
dozen reports on various aspects of this system.
    <bullet> Finally, the Committee plans to hold a hearing on Customs-
related issues in the spring in preparation for our legislation to 
reauthorize Customs functions.
     The Select Committee on Homeland Security has been a useful 
coordinator of the efforts and oversight of the many committees that 
have some role in the Department of Homeland Security and can continue 
to play an important coordinating role with respect to the work of 
these committees. However, oversight over the customs functions 
performed by the Bureau of Customs and Border Protection and the Bureau 
of Immigration and Customs Enforcement should remain with Ways and 
Means as the Committee with jurisdiction over the underlying laws. 
Accordingly, I support making the Select Committee permanent only if we 
are assured that the ability of Ways & Means to carry out its customs 
oversight functions would not be jeopardized. The focus of the Select 
Committee on Homeland Security has, quite appropriately, been on 
security issues and not the perhaps more mundane, but still critical, 
trade and revenue functions. We provide that expertise and oversight.

    Mr. Diaz-Balart. You say in your written testimony that you 
also appreciate--you state that you would support a permanent 
Committee on Homeland Security as long as the Ways and Means 
Committee could retain the facility to carry out its Customs 
functions.
    I guess what I would seek from you is a clarification on 
what you consider Customs oversight functions and what--if you 
could give us some specificity, some specific roles that you 
would envision for a permanent homeland security committee in 
those areas.
    Mr. Thomas. Well, obviously, if I envision a permanent 
homeland security committee but not with the jurisdiction of 
Ways and Means, and every other committee that had jurisdiction 
asserted the same thing, what you would create would be a 
committee that had the theme, much like the Committee on Aging, 
of homeland security. That would be their focus, and they would 
be working on coordinating to make sure that things worked.
    I would be very concerned if you created a committee of 
homeland security with jurisdiction and you provided the 
Customs duties to that committee, moving them out from under 
Treasury, in which the committee makes a decision and has the 
total capability of making a decision of shutting down a port 
because there was a telephone call and the port was shut down 
for 4 days and the argument was that it was for national 
security. It would have a devastating effect on the economy of 
this country if that were the way in which decisions were to be 
made.
    So I am very concerned about losing the knowledge and the 
ability in a continually growing, complicated area of 
intercourse. It is not bright-lighted. It is not a big area, 
but, boy, is it necessary to function smoothly as the world's 
largest importer and the world's largest exporter. The point at 
which those activities occur have to be allowed to go forward 
in a very smooth and efficient manner, with the full 
understanding of the concerns of security today different than 
previously, that we are more than willing to take into 
consideration on a negotiated basis with Treasury retaining the 
structure that it has, with the ability to consult and make 
adjustments. That is where we are today. That arrangement seems 
reasonable to me.
    But if the option of a permanent committee on homeland 
security is to take jurisdiction from other committees and put 
it together under the rubric of security and expect, for 
example, the Customs fees and duty collection function to 
continue would be rather naive. They would be submitted to 
security restrictions which I think would make it virtually 
impossible for them to do their historic job.
    Mr. Diaz-Balart. Ms. Slaughter.
    Ms. Slaughter. Mr. Thomas, I have no questions, but thank 
you very much for very interesting testimony. I appreciate both 
hearing it and reading it. Thank you very much.
    Mr. Thomas. Thank you.
    Mr. Diaz-Balart. Thank you, Chairman Thomas. Thank you very 
much.
    The hearing record will remain open for 10 days to allow 
for additional testimony and questions. I thank all of the 
members who sat through the questions, of course all those who 
testified, and at this point we hereby are ending--I hereby end 
this hearing.
    [Whereupon, at 5:35 p.m., the subcommittee was adjourned.]

                     ADDITIONAL PREPARED STATEMENTS

 THE HONORABLE SHERWOOD BOEHLERT, CHAIRMAN, OF THE COMMITTEE ON SCIENCE

Mr. Chairman and Members of the Subcommittee:
    I appreciate the opportunity to testify before you today. The 
Science Committee played a central role in the creation of the 
Department of Homeland Security (DHS), and we have vigorously exercised 
our oversight since its creation.
    The Science Committee contributed to every title of the Homeland 
Act, but we are especially proud of having created the Science and 
Technology Directorate--an entity that was missing from the President's 
original proposal--and most of the language in Title III came directly 
from the legislation reported by our Committee. We also wrote the 
language in Title III creating the Homeland Security Advanced Research 
Projects Agency, which was added after the House passed its initial 
version of the bill.
    We have actively overseen the new Department, paying special 
attention to the Science and Technology Directorate, cybersecurity, 
programs for firefighters and visas for scientists. Some of our 
Committee staff are dedicated almost exclusively to overseeing the 
Department, and we have had numerous hearings on, and including, the 
Department. For example, at our annual full Committee hearing that 
looks at proposed R&D spending across the Federal Government, Under 
Secretary Chuck McQueary is one of our witnesses.
    We have worked closely with Chairman Thornberry's subcommittee on 
your Select Committee, and our staffs have frequently met jointly with 
Homeland officials. We have discussed holding joint hearings.
    So it is without any animosity and with the utmost respect for the 
Select Committee that I turn to the primary questions you have posed to 
me. And I hope no one will take any offense at the directness of my 
answers.
    I do not believe the House needs a committee devoted exclusively to 
Homeland Security. In fact, I believe that such a committee is likely 
to prove counter-productive. Let me explain why.
    First, I think that Republicans are rightly proud that we reduced 
the size of House staffs and the number of Committees when we became 
the majority. Since 1995, we've recognized the need for some increases, 
but creating a new Committee would be a wholesale reversal. At a time 
of budget deficits and spending freezes, this seems unwise.
    It seems especially unwise because there is no demonstrated need 
for a permanent committee. There are two opposing sets of arguments for 
such a committee--the first is that the existing committees won't give 
homeland security the attention it deserves, and the second is that the 
existing committees will pay too much attention, thereby tying down the 
new Department, like Gulliver, with 88 Lilliputian subcommittees.
    Both of these seem plausible in theory--even though they're 
contradictory--but neither has proven to be the case in fact. Standing 
Committees, like ours, have exercised rigorous oversight without having 
tied down the Department with conflicting demands. Moreover, there are 
ways to deal with ``turf issues'' without creating a new Committee, 
which I'll get to in a moment or so.
    But the main reason not to create a permanent Homeland Committee is 
that it will impede, not assist, proper Congressional oversight. How 
could that be? Well, in at least two ways.
    First, homeland security is not a single task, but a collection of 
tasks--and each task needs to be looked at in the context of how the 
Federal Government as a whole is carrying out that job. For example, we 
can't evaluate what the Homeland Department is doing in science and 
technology without a full understanding of what the Federal Government 
as a whole is doing in that area. The same is true for transportation, 
emergency response, cybersecurity, indeed for each and every 
responsibility of the Department--and even more so for DHS 
responsibilities unrelated to its homeland mandate. The only way to 
properly oversee DHS is through the standing Committees that have the 
government-wide purview and expertise to assess the Department's work 
in context.
    Second, it's an unfortunate fact of institutional life that 
Committees can tend to become captives of the agencies they oversee. 
This would be especially unfortunate in the case of DHS, which we gave 
unusual latitude in the Homeland Act. A Committee whose entire 
existence depends on a single Department is more likely to become a 
captive of that Department. Congress is much more likely to rigorously 
exercise its oversight of DHS if we do so through a variety of 
Committees, none of whose existence depends solely on DHS.
    But then how to prevent a hopeless proliferation of Committees 
pestering DHS? There are many options, but I would suggest giving 
primary legislative jurisdiction over each directorate of DHS to the 
appropriate standing Committee and having the Committee on Government 
Reform exercise its traditional jurisdiction across the agency.
    Such a system would be clear and would save DHS from Congressional 
chaos--while still subjecting the Department to strong oversight by 
Committees with broad expertise in the department's functions. There 
may be other ways to achieve that goal, but a permanent Homeland 
committee is not one of them.
    Let me close by saying that I know that any testimony by any 
chairman against a new Committee can be dismissed as petty turf 
fighting. I hope the arguments I've made today make clear that 
protecting turf is not my motivation.
    And I would point out that with term limits, testifying on the 
basis of turf is especially pointless. Chairs only have their turf for 
a relatively short period of time; we're talking here about changing 
Congress for years to come.
    Finally, I would say that in the writing of the Homeland Act and in 
overseeing the DHS, the House has been remarkably, even 
uncharacteristically, free of turf battles. That's a tribute to the 
Committees and especially to the Leadership. I think a sensible system 
of DHS oversight can continue that peaceable and collegial situation. A 
new permanent Committee is more likely to create turf battles than 
prevent them.
    I urge this Subcommittee to take these arguments seriously. I would 
be happy to answer any questions.

 THE HONORABLE BART GORDON, RANKING MEMBER, OF THE COMMITTEE ON SCIENCE

    Thank you for inviting me to testify regarding changes to Rule X 
and the future of the Select Committee. The growing pains of the 
Department have been echoed to a lesser degree by some of the 
experiences of the Select Committee. That is understandable. Growing a 
Committee from scratch is an appreciably difficult task. I think that 
Chairman Cox and Ranking Member Turner have done an excellent job at 
their core task of keeping track of the progress the new Department has 
made in establishing itself and carrying out the terms of the law 
creating the Department. All of the Members and staff of the Select 
Committee are to be congratulated.
    Now we begin to wrestle with the tough question of how we go 
forward as an institution. It seems to me that the core rationale for 
the creation of the Select Committee--oversight of the messy and 
tumultuous process of bringing a new department into being--is eroding 
by the day. Beyond that core rationale, there seems to be one central 
argument for keeping the Select Committee: it will enhance the 
efficiency of the workings of the House. I believe that claim is based 
on a faulty understanding of the House, its Committee structure and 
operations. In fact, I think the effect of maintaining the Select 
Committee would have a generally deleterious effect on the House for 
reasons that I will elaborate upon.
    My testimony is informed by having been a Member of Congress for 
twenty years, and from sitting on two Committees that share 
jurisdiction with the Homeland Security Committee. I can say from 
experience that the Homeland Security-related jurisdiction of both the 
Commerce Committee and the Science Committee, where I have the honor of 
being the Ranking Minority Member, can be more than adequately covered 
by those Standing Committees.
    In fact, both Committees have been active in tending to their 
oversight responsibilities related to Homeland Security. I believe they 
would be even more active in the future were the Select Committee not 
in place.
    The jurisdiction of the Science Committee involves the work of the 
Under Secretary for Research and Development. The creation of that 
office, and the entire R&D title of the organic act, was the product of 
the Committee on Science. Those provisions were not in the original 
proposal that came from the White House, but were added by my Committee 
under the leadership of Chairman Boehlert. Mr. Armey and Ms. Pelosi 
both endorsed retaining those elements in the final bill. It is hard to 
imagine a more fundamental argument for jurisdiction, or competence to 
cover it, than the fact that we created the organic language based on 
our own Committee's expertise in the area.
    The core logic for creating the Select Committee was the need for 
specific, on-going attention to the Executive as the new Department was 
brought together. That process is well underway now so the logic for 
the Select Committee begins to slip away. The standing Committees are 
more than capable of handling, as they have continued to oversee, the 
activities of this newest established Department.
    But one also hears that even with the Department becoming 
established, the need for the Select Committee continues. The core 
claim is that the Select Committee will enhance the efficiency of the 
House. This is a curious claim. There is only one condition under which 
maintaining the Select Committee might enhance our efficiency--that 
being that all other standing Committees be stripped of their 
legislative and oversight jurisdiction over Homeland Security. I will 
return to why such a step would be a folly, but will first address what 
inefficiencies attach to keeping the Select Committee without stripping 
all other Committees of their jurisdiction.
    The first flavor of an efficiency argument is that having the 
Select Committee will enhance the House's ability to handle authorizing 
legislation. This is an ill-considered argument. Simply designating a 
lead Committee from among the standing Committees is a perfectly 
reasonable solution. That is the solution the Senate settled upon. The 
Senate's reaction to the creation of the Department was to designate 
the Government Affairs Committee as the lead for handling legislation 
related to the Department, but standing Committees retained their 
discrete expertise and responsibilities. Any legislation coming out of 
the House that hopes to survive the Senate process will have to take 
that into account.
    Further, the underlying premise of those who worry about the need 
for a lead Committee is that we will move reauthorizations for the 
entire Department all in one move. The huge, multi-function, multi-
Committee bill that created the agency is unlikely to be repeated in 
future authorizations for a variety of reasons, not least of which will 
be the need to give somewhat more frequent legal guidance to this 
emerging agency and the difficulty of negotiating such a huge package 
either through the House Committee process or, just as importantly, the 
Senate Committees of jurisdiction.
    My own suspicion is that the authorizations we move will be more 
along functional or sub-agency lines. The current standing Committee's 
with their legislative jurisdictions will be more than adequate for 
handling such legislation. I can imagine an R&D authorization that 
could move as a stand-alone bill; or a customs piece or an immigration 
service piece; or a coast guard authorization. Such targeted 
authorizations seem a far more reasonable expectation for future 
legislation than an Omnibus authorization.
    If we do need to do a more sweeping authorization, the Speaker has 
plenty of tools to deal with the current overlapping jurisdictions. In 
such an event, it would be easy enough to adopt the Senate model and 
designate one Committee as the lead and let other Committees get 
referrals as their jurisdiction is engaged. This is how we handle all 
major pieces of authorization. Frankly, unless Rule X is amended to 
strip all the Standing Committees of their legislative responsibilities 
for the functions that have been rolled into the new Department, this 
is what would happen if the Select Committee was made permanent and 
given legislative authority. Such a step would add one more Committee 
to the mix for referrals--the very opposite of the stated goal of 
achieving efficiencies.
    Another argument for the need to have a Select Committee rests on 
the claim that such a Committee will streamline the oversight process 
on the Hill. This is usually attached to some claim that the Department 
has to answer to dozens upon dozens of Committees and Subcommittees of 
the House and Senate. It always baffles me, absent stripping the 
Standing Committees of their jurisdictions, how adding a Committee and 
its requisite Subcommittees would do anything but inflate the number of 
Committees with jurisdiction; a counterintuitive outcome to the claim 
that the Select Committee represents an efficiency enhancement.
    Further, the notion that an agency answers to multiple Committees 
as an unnecessary burden on both the Executive and Congress always 
confuses me. The Science Committee in the House shares jurisdiction 
with at least 8 other House Committees on Energy Department issues. 
Other Committees, such as International Relations or the Permanent 
Select Committee on Intelligence may also have reason to take testimony 
from the Department of Energy. There is a similar array of Committees 
in the Senate with some claim on the Department. Yet in his over 3 
years in office, Secretary Abraham has only come to the Hill 27 times 
since his confirmation hearing. I can only recall the Secretary 
appearing before the Science Committee on one occasion, and on that 
occasion he was testifying in support of the President's energy 
initiative. It doesn't seem to me as if these multiple, overlapping 
jurisdictions are creating an unnecessary burden on the leadership of 
the Department of Energy, nor do I expect it would for the Department 
of Homeland Security.
    Let me return to the one method by which retaining the Select 
Committee could lead to a streamlining of work for the House, that is: 
through a complete re-writing of Rule X to center all legislative and 
oversight responsibility in the hands of this one Committee. I don't 
believe anyone is advocating this, and the problems with such a step 
are probably manifest to all. However, I seriously believe that is the 
only way to gain any ``efficiency''.
    If we strip the standing Committees of their legislative and 
oversight responsibilities efficiency will be purchased at the price of 
sacrificing our existing expertise. That expertise resides in the 
Standing Committees. The Department was not made of whole cloth. It is 
instead largely a bundle of pre-existing agencies and programs brought 
together because they broadly share in the mission of protecting our 
borders. The Committees of the House have generally overseen those 
programs from Administration to Administration stretching back over 
long years. Expertise on the programs at the Department of Homeland 
Security resides today in the same Committees that helped in the 
creation of that Department, and it would be foolhardy to diminish 
their role in the future work of the Department.
    The whole philosophy of organizing the House into Committees of 
jurisdiction rests upon a belief that the activities of the Executive, 
and the challenges to our nation, are so diverse that we must develop 
very specific expertise to be an effective partner and watchdog of the 
Executive. Members serve on just a few Committees in their tenure in 
the House, no matter how long, and the professional staffs of those 
Committees largely stay on with each change in Chairman or Ranking 
Member because the institutional knowledge that resides in the staff is 
indispensable to the House in carrying out our Constitutional 
functions. To strip standing Committees of their jurisdiction in 
pursuit of some chimera of efficiency would undercut the source of 
strength that resides in the Committee structure.
    There is another, more philosophical objection to the pursuit of 
efficiency by the House. In the debate surrounding the proposed 
Constitution, the Federalists clearly viewed efficiency, energy, action 
as an attribute to be attached to the Executive. However, the 
legislature was to be a deliberative body designed to examine, 
challenge, consider.
    In Federalist #70, Alexander Hamilton directly addresses these 
differing natures. As to the legislature, he wrote, ``(P)romptitude of 
decision is oftener an evil than a benefit. The differences of opinion, 
and the jarring of parties in that department of the government, though 
they may sometimes obstruct salutary plans, yet often promote 
deliberation and circumspection, and serve to check excesses in the 
majority (The Federalist Papers, edited by Clinton Rossiter, p. 427).''
    It is against the nature of the House, against the intent for how 
we should conduct business, that we pursue ``efficiency'' as an over-
riding goal in how we organize our business. I would argue that clear 
lines of legislative jurisdiction for the Standing Committees, and 
clear guidance from the Speaker, will be more than adequate efficiency 
when it comes to moving legislation. When it comes to oversight, I 
think a little obscurity is a good thing to create a sense of 
competition among the Committees in examining the workings of the 
Department, challenging the claims that come up to us and in asking 
hard questions. More oversight is better than less oversight, and you 
purchase that through the ``inefficiency'' of multiple Committees 
having a stake in the Department's operation.
    This last observation opens the door to the possibility that a 
Select Committee for Homeland Security limited to oversight alone might 
be an enhancement of the powers of the House. After all, it would add 
one more Committee into the mix that could watch the Executive in this 
very important area. I truly believe that the current array of Standing 
Committees is more than adequate to create an environment for 
aggressive oversight if Congress is of a mind to engage in that duty. 
If Congress is not interested in carrying out that function, no number 
of Committees, no matter how large, will be sufficient to spur the work 
forward.
    I thank the Subcommittee for considering my testimony and your 
time.

 THE HONORABLE HENRY J. HYDE, CHAIRMAN, AND THE HONORABLE TOM LANTOS, 
      RANKING MEMBER, OF THE COMMITTEE ON INTERNATIONAL RELATIONS

    Thank you Mr. Chairman. We appreciate your accepting this statement 
for consideration by the Subcommittee on Rules.
    Mr. Chairman, as you know, the legislation creating the Department 
of Homeland Security has created a major reorganization of the U.S. 
Government. When that legislation came before the Committee on 
International Relations, however, the Committee had only a relatively 
small aspect of that reorganization: the relationship between the 
Department of State and the Secretary of Homeland Security.
    Mr. Chairman, the immigration function, prior to the creation of 
the Department of Homeland Security, was shared between the Department 
of State's consular service and the Department of Justice's Immigration 
and Naturalization Service. The Committee on International Relations 
was regularly involved in overseeing the activities of the Consular 
Affairs Bureau at the Department of State and providing authorities and 
authorization of its activities, such as the application of visa policy 
implementation of programs related to international abductions of U.S. 
children and the implementation of the Hague Convention on Inter-
Country Adoption.
    The International Relations Committee was also involved in 
decisions regarding the designation by the Secretary of State of 
Foreign Terrorist Organizations (FTO5), a provision contained in the 
Immigration and Nationality Act (INA), and the impact of such 
designations on other areas of international affairs legislation, such 
as prohibitions on dual-use exports to FTOs and on U.S. assistance. In 
addition, there are a number of other immigration-related authorities 
committed to the Secretary of State by the 1NA. The Committee conducted 
oversight over virtually all these areas. In this context we worked 
closely with the Judiciary Committee on these matters, particularly 
where there was joint jurisdiction.
    The ``Homeland Security Act of 2002'' continues to provide for 
substantial authority within the Department of State. Under that Act, 
the Secretary of Homeland Security has authority over visa policy, has 
the authority to refuse visas, and can develop training programs for 
consular officers. In addition, the ``Homeland Security Act of 2002'' 
maintained certain immigration authorities exclusively under the 
Secretary of State and kept the Bureau of Consular Affairs and all 
overseas consular officers in the Department of State.
    In this context, the Committee on International Relations maintains 
a significant interest in the continued oversight of these activities. 
In addition to any number of briefings and hearings in these areas 
since the enactment of that statute, the Committee has exercised 
legislative jurisdiction over a number of consular issues, particularly 
through the ``Foreign Relations Authorization Act for Fiscal Years 2004 
and 2005.'' We continue to have an abiding interest and expertise in 
all the issues that we described above relating to the Department of 
State.
    We would oppose any effort to transfer jurisdiction over the Bureau 
of Consular Affairs or the Committee's role in the Secretary's 
authority over immigration activities to any other committee, whether 
it to be a new standing committee on homeland security or to any other 
standing committee.Assuming that such a transfer does not happen, when 
it comes to the question of amending Rule X of the House to create such 
a standing committee, the Committee on International Relations could 
undoubtedly adapt to such a new situation. If such a committee is 
created and includes jurisdiction over the immigration function, we are 
sure that the Committee could work with a new standing committee in a 
way similar to how it works with the Judiciary Committee. If such a 
committee was created through an amendment to Rule X, we would also 
strongly recommend that, in order to clarify the relationship between 
the two committees, the jurisdiction of the Committee on International 
Relations should be clarified by specifically adding ``the Department 
of State'' to the matters for which the Committee on International 
Relations is responsible.
    We are cognizant of the many competing concerns which must be 
weighed in the course of this study of the future of the Select 
Committee on Homeland Security. The primary consideration should be to 
establish the most efficient oversight, investigative, and legislative 
processes. However, we would be remiss if we did not raise some 
concerns regarding the creation of a new standing committee on the 
basis of efficiency. There is, of course, logic in centralizing all 
oversight of the new Department in one committee, an effort which would 
have obvious benefits. We need to recognize, however, that currently 
the several committees that have jurisdiction over the Department of 
Homeland Security have a wide range of highly-skilled and experienced 
members and staff who have developed real expertise in the particular 
areas under their jurisdiction, including immigration, customs, safety 
of life at sea and other functions which now reside in Department.
    The creation of a standing committee with new members and staff 
risks losing this valuable expertise. Indeed, over the short or medium 
term, the creation of a single standing committee may actually reduce 
the ability of the House to properly oversee this new Department just 
as it continues to face the normal challenges from the reorganization. 
One option that the Committee may want to consider is postponing the 
decision to create a new standing committee on homeland security until 
the beginning of the 0th Congress, giving the current structure two 
more years to help oversee the Department as it works through these 
challenges. In any case, careful consideration must be given to finding 
ways to preserve the current expertise if the creation of a new 
standing committee is to be given serious consideration.
    Thank you, Mr. Chairman.

  THE HONORABLE MICHAEL G. OXLEY, CHAIRMAN, AND THE HONORABLE BARNEY 
     FRANK, RANKING MEMBER, OF THE COMMITTEE ON FINANCIAL SERVICES

                     U.S. House of Representatives

                    Committee on Financial Services

                          Washington, DC 20515

March 22, 2004

The Honorable Lincoln Diaz-Balart, Chairman
The Honorable Louise Slaughter, Ranking Member
Subcommittee on Rules
Committee on Homeland Security
2244 Rayburn House Office Building
Washington, D.C. 20515

Dear Chairman Diaz-Balart and Ranking Member Slaughter:

    Thank you for your recent invitation to appear before the 
Subcommittee on Rules on the effect of the Rules of the House on 
consideration of homeland security matters. While we will not be 
appearing before the Subcommittee, we have enclosed our joint written 
statement on the subject, and would appreciate it being made a part of 
the hearing record.
    Again, we appreciate the invitation to testify, and look forward to 
working with you as the Subcommittee continues its work. Should you or 
your staff have any questions, please contact either of us, or Mr. Hugh 
Halpern of the Majority staff at extension 5-7502, or Mr. Jaime 
Lizarraga of the Minority staff at extension 5-4247.

Yours truly,

MICHAEL G. OXLEY
Chairman

BARNEY FRANK
Ranking Member

JOINT STATEMENT OF CHAIRMAN MICHAEL G. OXLEY AND RANKING MEMBER BARNEY 
  FRANK BEFORE THE SUBCOMMITTEE ON RULES SELECT COMMITTEE ON HOMELAND 
                                SECURITY

                             March 24, 2004

    Chairman Diaz-Balart, Ranking Member Slaughter, and Members of the 
Subcommittee, we appreciate this opportunity to offer our views on the 
future of the Select Committee on Homeland Security. Our comments for 
the Subcommittee will not address the issue of whether the Select 
Committee should be added to the list of permanent standing committees 
of the House in the 109th Congress or beyond; rather, they will lay out 
the important work done by the Committee on Financial Services in the 
post-9/11 era, and express our view that any changes to Rule X should 
permit our committee to continue our work on those issues.

                  THE COMMITTEE ON FINANCIAL SERVICES

    Established in the 107th Congress, the Committee on Financial 
Services represents the latest effort on the part of the House to 
rationalize Rule X with the evolution of the modern economy. With the 
passage of Gramm-Leach-Bliley and the ongoing modernization of the 
financial services industry, the House recognized the need to merge the 
jurisdiction of the old Committee on Banking and Financial Services 
with jurisdiction over securities and exchanges and insurance 
previously exercised by the Committee on Commerce. This combination was 
intended to better reflect the realities of the marketplace, and we 
believe that our track record demonstrates the wisdom of that decision.
    In the 3 short years since the Committee came into existence, we 
have been forced to respond to a series of crises which threatened the 
economic well-being of the Nation. The Committee was only 9 months old 
when Manhattan was attacked on September 11, 2001. Yet the Committee's 
oversight and coordination played an important role in ensuring that 
banks never closed, the money supply was safe, and the capital markets 
reopened within days of the attacks, despite many of those markets 
being based within blocks of Ground Zero.
    In the weeks following the attacks, the Committee authored 
legislation to assist the Department of the Treasury and law 
enforcement to track and shut off the sources of terrorist financing 
and to provide a temporary Federal backstop to ensure that businesses 
could continue to get insurance coverage for acts of terrorism. The 
most recent piece of financial services legislation responding to the 
September 11 attacks was enacted last year, ensuring that payments can 
continue unimpeded, even if the transportation system is crippled.
    At the same time, the Committee was forced to respond to a crisis 
in confidence created by a series of corporate scandals, further 
undermining the resilience of our capital markets. The Committee 
responded on several fronts, culminating in enactment of the Sarbanes 
Oxley Act, and recent work to address abuses found in the mutual fund 
industry.
    All of these activities occurred outside of the Homeland Security 
Act and the Department of Homeland Security (DHS), yet no one would 
argue that they were any less important to the long-term security of 
the Nation, or that they should have occurred in any other venue.

            CREATION OF THE DEPARTMENT OF HOMELAND SECURITY

    During the consideration of the legislation to create DHS, Chairman 
Armey of the first Select Committee solicited the views of the 
committees of jurisdiction. Chairman Oxley and then-Ranking Member 
LaFalce submitted their views on HR. 5005, the Homeland Security Act of 
2002 (see attachment). In that letter, they identified several agencies 
either within the jurisdiction of the Committee on Financial services 
or which have important roles with regard to matters within the 
Committee's jurisdiction. While the attached letter discusses the 
programs in more detail, they are briefly described below.
Federal Emergency Management Agency
    The Federal Emergency Management Agency (FEMA) administers 3 
programs which fall under the jurisdiction of the Committee on 
Financial Services: (1) the National Flood Insurance Program, (2) the 
Emergency Food and Shelter Program, and (3) the Defense Production Act 
(DPA). The first 2 programs fall within the Committee's jurisdiction 
over public and private housing (ci. 1(g)(8), Rule X), and the 
Committee is explicitly given jurisdiction over defense production (cl. 
1(g)(2), Rule X).
    While each of these programs is related to FEMA's core mission of 
preparation, response, and prevention of disasters, they are relatively 
small elements of the agency's portfolio. For instance, the Emergency 
Food and Shelter Program places FEMA in a coordination role with 
charitable third-parties to ensure that food and shelter resources can 
be dispatched where they are needed most. Similarly, FEMA's role under 
the Defense Production Act is to coordinate Federal agencies' decisions 
regarding transportation services and the availability of civil defense 
resources in times of national emergency, while other agencies such as 
the Department of Commerce and the Department of Defense implement 
other aspects of the DPA. The National Flood Insurance Program (NFIP), 
while wholly administered by FEMA, is a program which permits 
homeowners to purchase flood insurance, a product private insurers 
refuse to provide due to problems with the traditional economics of 
insurance underwriting when applied to flooding. Unlike much of the 
post disaster aid provided by FEMA, NFIP is a premium-supported system, 
with the full faith and credit of the United States providing the 
ultimate backstop. The program's primary purpose is to ensure that home 
buyers can obtain the insurance demanded by lenders when the property 
is located within a flood plain.
United States Secret Service
    While the Secret Service and its activities do not fall directly 
within the jurisdiction of the Committee on Financial Services, it's 
origins in the Department of the Treasury and mission have led to its 
historic close working relationship with this Committee, its 
predecessors, and other financial regulatory agencies. Since the Secret 
Service's founding in 1865, it has been the primary protector of the 
Nation's currency, and has developed extensive expertise in the 
protection of the Nation's payments system. This mission was expanded 
with the passage of the Omnibus Crime Control Act (Public Law 98-473) 
which gave the Service jurisdiction over crimes involving credit cards, 
identity theft, and computer crime. This jurisdiction was expanded 
again in 1994 when the Service was given additional jurisdiction to 
investigate fraud against financial institutions.

 RECENT ACTIVITY IN THE COMMITTEE ON FINANCIAL SERVICES INVOLVING DHS 
                                  FEMA

FEMA Programs
    The transfer of FEMA to DHS has not affected the legislative or 
oversight activities of the Committee on Financial Services. During the 
last session of the 108th Congress, the Committee reauthorized the 
Defense Production Act. On March 19, 2003, a witness from DHS appeared 
alongside witnesses from the Department of Commerce and the Department 
of Defense at a hearing on reauthorization of the DPA. The Committee 
reported legislation reauthorizing the DPA on April 2, 2003 (H.R. 1280; 
H. Rept. 108-56). The DPA was reauthorized through September 30, 2008 
with enactment of the companion legislation from the Senate (S. 1608; 
Public Law 108-195).
    Similarly, the Committee reported legislation reforming and 
reauthorizing the National Flood Insurance Program. The Flood Insurance 
Reform Act of 2003 (H.R. 253; H. Rept. 108-266) passed the House on 
November 20, 2003 by a record vote of 352 yeas and 62 nays, and is 
currently pending in the Senate. The Committee has also had to shepherd 
a number of short-term extensions of the program in the 108th Congress 
(See H.R. 11, H.J. Res. 2, H.R. 2555, 5. 1768).
Secret Service
    While the Committee has not reported legislation giving new 
responsibilities to the United States Secret Service since its transfer 
to the Department of Homeland Security, the Committee continues to 
enjoy a close working relationship with the Secret Service as it 
oversees the safety and security of the Nation's currency. The Secret 
Service worked closely with the Treasury Department's Bureau of 
Engraving and Printing (BEP) in the design of the new $20 bill released 
last year, and is continuing its work with the redesign of the $50 and 
$100 bills, scheduled for release in 2004 and early 2005. With the 
Secret Service on the front lines of the battle against currency 
counterfeiting, their expertise is essential in the BEP's efforts to 
design currency which thwarts counterfeiters using increasingly 
sophisticated and readily-available technology.

   OTHER HOMELAND SECURITY-RELATED ACTIVITIES IN THE 107TH AND 108TH 
                               CONGRESSES

    One of the primary lessons of the post-9/11 era is that ``homeland 
security'' is not a monolithic concept. DHS was designed to be multi-
disciplinary, incorporating elements to address border and 
transportation security, emergency preparedness and response, and 
critical infrastructure protection. Yet, while DHS is one of the lead 
agencies in the Nation's fight against terrorism, it does not carry out 
that fight alone.
    One of the key elements in stopping terrorist attacks before they 
begin and catching the perpetrators in their aftermath is tracking 
terrorist financing. The Committee has engaged in vigorous oversight of 
the Department of the Treasury, the lead agency in this effort, as well 
as all of the other financial regulators to ensure that terrorist 
financing activities cannot escape detection, and that our financial 
system is not abused by terrorists.
    Similarly, while DHS is the coordinating agency in the protection 
of the Nation's critical infrastructure, the Department of the Treasury 
and the other financial regulators, including the Federal Reserve, the 
Securities and Exchange Commission, the FDIC, and others, have the day-
to-day responsibility for securing the payments system and capital 
markets against all manner of attack. The rapid recovery of the capital 
markets and limited disruption of the banking and payments system was 
one of the great success stories from the events of September 11.
    The Committee on Financial Services has pursued a legislative and 
oversight agenda intended to reinforce those elements in the tracking 
of terrorist financing and protection of our critical financial 
infrastructure, while seeking improvement in those areas where 
weaknesses have been found. What follows is a brief description of the 
Committee's activities in this regard.
Money Laundering and Tracking Terrorist Financing
    What began as an effort to track the activities of drug traffickers 
and organized crime has evolved into one of the most essential tools in 
the war on terrorism. The Committee and its predecessors have held a 
long-standing interest in the matter, and it has been the subject of 
legislative and oversight activities since the early-1980's.
    Jurisdictionally, money laundering and terrorist financing 
enforcement efforts fall into two categories: (1) criminal enforcement 
provisions, which fall within the jurisdiction of the Committee on the 
Judiciary, and (2) coordination and regulation of activities at 
financial institutions, securities firms, and other financial 
intermediaries to track and reduce money laundering, which fall within 
the jurisdiction of the Committee on Financial Services.
    The Department of the Treasury has long been the central 
coordinating authority in the effort to track and disrupt the money 
flows to terrorists and criminals. Since the establishment of the 
Committee on Financial Services in the 107th Congress, it has held a 
number of hearings on the subject, including:
    <bullet> Internet gambling and its use as a money laundering 
conduit (7/11/2001);
    <bullet> The design and security of the Nation's currency (7/24/
2001);
    <bullet> Dismantling the financial infrastructure of global 
terrorism (10/3/2001);
    <bullet> Preventing identity theft by terrorists and criminals (11/
8/200 1);
    <bullet> Oversight of the USA PATRIOT Act and investigating 
patterns of terrorist financing (2/12/2002; 9/19/2002);
    <bullet> Recovering monetary assets stolen by dictators (5/9/2002);
    <bullet> Progress since 9/11 in tracking terrorist financing (3/11/
2003);
    <bullet> Freezing, seizing, and repatriating funds stolen by Saddam 
to Iraq (5/14/2003; 3/18/2004); and,
    <bullet> The Hamas asset freeze and other efforts to curtain 
terrorist financing (9/24/2003);
    Additionally, the subject of terrorist financing and efforts to 
curtain money laundering are often the subject of questions during 
Chairman Greenspan's twice-yearly appearances on the state of monetary 
policy and the economy, as well as during routine oversight hearings on 
the other financial regulators.
    Legislatively, the Committee has also been active in efforts to 
curtain money laundering. The most substantial effort in this regard 
was the Financial Anti-Terrorism Act of 2001 (H.R. 3004, 107th 
Congress), enacted as title III of the USA PATRIOT Act (Public law 107-
56). This measure contained a wide-variety of provisions addressing 
activities commonly associated with money laundering. It gave the 
Treasury Department important new authorities to reduce the traditional 
avenues of terrorist financing, such as hawala and other informal 
money-transfer systems which operate outside of the traditional banking 
system.
    Additionally, the Act strengthened already existing elements with 
the Treasury Department to ensure that they were suited to the job of 
tracking terrorist financing. Most notably, the Financial Crimes 
Enforcement Network (FinCEN) was elevated from an office to a bureau 
within the Treasury, and it was given significant new standing and 
resources. FinCEN draws on the expertise of a number of different 
agencies to serve as an ``early warning'' system for terrorist 
financing, attempting to discover efforts by criminals and terrorists 
to move money through the system before it can be used to finance 
criminal acts. The Committee continues to closely monitor FinCEN's 
progress, and is actively engaged in making its efforts successful.
    Similarly, the Office of Foreign Assets Control (OFAC) is an entity 
within the Treasury Department which receives regular scrutiny from the 
Committee. OFAC's mission is to freeze, seize and assist in the 
repatriation of foreign assets found in the U.S. banking system. OFAC 
and FinCEN, when taken together, are the frontline organizations in the 
Nation's battle against money laundering, representing the 
consolidation of expertise on the matter.Critical Infrastructure of the 
Nation's Financial System
    One of the lessons arising from the events of September 11 was the 
importance of protecting the critical infrastructure of the Nation's 
financial system. The planes which hit the World Trade Center were a 
direct attack on the Nation's capital markets. The New York and 
American stock exchanges were temporarily shut down after the attacks, 
and a number of large market-makers, clearing operations, and other 
financial intermediaries were actually located within the towers 
themselves. However, the New York Stock Exchange was only closed for 4 
business days, and the market infrastructure demonstrated an astounding 
degree of resilience given the magnitude of the destruction.
    Much of the credit goes to preparations made by the financial 
services sector in their effort to avoid problems associated with the 
Y2K bug. During those efforts, many of the exchanges, firms, and 
financial institutions took the opportunity to build redundancy and 
backup systems, and perfect their disaster recovery procedures. Those 
efforts were invaluable in ensuring that the quick recovery of the 
markets.
    However, those same events revealed other weaknesses in the system 
which the Committee continues to pursue. While critical infrastructure 
protection has many common elements across industries, such as the need 
to protect important telecommunications or transportation arteries, the 
financial services sector has demonstrated that if other assets 
peculiar to that industry aren't protected, the results can be 
disastrous. By way of example, after the completion of a sales 
transaction for equities, the transaction goes through a ``clearing'' 
process which can take up to 5 days. If the records of those 
transactions are lost during the clearing process, literally billions 
of dollars could disappear from the economy in the blink of an eye. In 
the event of an emergency, the markets and their associated sales and 
clearing systems must be shut down in an orderly process so as to 
minimize the potential economic effects of a catastrophic failure.
    Through a pattern of cooperation with the financial regulators and 
their regulated firms, the Committee has had a record of successful 
identification of problem areas, and efforts are under way to address 
those flaws. For instance, on February 12, 2003, the Subcommittee on 
Capital Markets, Insurance, and Government Sponsored Enterprises held a 
hearing entitled ``Recovery and Renewal: Protecting the Capital Markets 
Against Terrorism Post 9/11.'' This hearing featured the testimony from 
the General Accounting Office (GAO) highlighting their work on the 
financial services critical infrastructure issue, entitled ``Potential 
Terrorist Attacks: More Actions Needed to Better Prepare Critical 
Financial Markets'' (GAO as well as other testimony from the Securities 
and Exchange Commission, the New York Stock Exchange, NASDAQ, and the 
Bond Market Association. The Committee's efforts to address problem 
areas is ongoing both in public and non-public oversight efforts. 
Through the work of this study and the Committee's other work on the 
subject, it is apparent that a high level of expertise in the operation 
of the markets is necessary to protect its unique infrastructure.

                  RECOMMENDATIONS FOR THE SUBCOMMITTEE

    Most of the preceding material described the Committee's 
interaction with DHS on those programs within its jurisdiction and the 
Committee's other activities which might be characterized as 
``related'' to homeland security. However, as you can see from those 
descriptions, our work has focused on the aspects of homeland security 
which are financial in nature, and essential to the proper functioning 
of the financial services sector.
    In general, should the House decide to add the Homeland Security 
Committee to the roster of standing committees of the House, we believe 
that those matters that currently fall within the Financial Services 
Committee's Rule X jurisdiction are distinct enough so as to avoid any 
interference with the current or future work of the Homeland Security 
Committee. The Committee on Financial Services and its predecessors 
have a demonstrated expertise in the increasingly complex financial 
services sector which we should be permitted to continue to exercise.
    Specifically, should the House decide to reorganize Rule X to 
better define the Homeland Security jurisdiction in the House, we 
recommend:

    1. Programs administered by FEMA which currently fall within the 
jurisdiction of the Committee on Financial Services should remain 
within its jurisdiction. Those programs include the Defense Production 
Act (which FEMA shares with the Departments of Defense and Commerce), 
the Emergency Food and Shelter Program, and the National Flood 
Insurance Program. All of these programs are directly related to the 
core jurisdiction of the Committee on Financial Services, in either the 
areas of housing or defense production, price controls, or industrial 
policy. The Committee's legislative efforts on these matters have not 
been impeded by the transfer of FEMA to DHS. Similarly, other 
committees have always been FEMA's authorizing committees, and their 
efforts have similarly been unimpeded.

    2. Jurisdiction over money laundering and terrorist financing 
should remain with the Committee on Financial Services. Despite the 
importance of money laundering and terrorist financing regulation to 
the efforts to protect the homeland, those programs are closely related 
to the regular operations of financial institutions and similar firms. 
The Department of the Treasury continues to be the lead agency in 
tracking, freezing, seizing, and repatriating illegal financial assets, 
and the Committee on Financial Services should maintain its traditional 
role in overseeing those operations.

    3. Any grant of critical infrastructure protection to a Committee 
on Homeland Security should only be ``general'' While there is a role 
for a committee to play in formulating overall critical infrastructure 
protection policy, the oversight of specific sectors should remain with 
the committees of jurisdiction. This is similar to the grant of 
jurisdiction over insurance to the Committee on Financial Services, 
where the Financial Services Committee is granted jurisdiction over 
``insurance, generally'', while other committees have jurisdiction over 
health insurance, crop insurance, and other similar matters. In the 
case of the Committee on Financial Services, oversight of the critical 
infrastructure efforts specific to the financial services sector should 
remain with the Committee on Financial Services.

    We hope that you have found these explanations and recommendations 
helpful in your deliberations. We stand ready to assist the 
Subcommittee and the Select Committee further should you require our 
assistance.

                               ATTACHMENT

                     U.S. House of Representatives

                    Committee on Financial Services

                          Washington, DC 20515

July 11, 2002

The Honorable Richard K. Armey, Chairman
Select Committee on Homeland Security
U.S. House of Representatives
Washington, DC 20515

Dear Chairman Armey:

    The terrorist attacks of September 11 demonstrated the need for 
improved security and prevention measures to combat acts of violence 
against U.S. citizens. The Financial Services Committee has contributed 
to the fight against terrorism by cutting off funding for organizations 
that finance terrorist activities and strengthening existing money 
laundering laws through the USA PATRIOT Act (P.L. 107-56). 
Additionally, the Committee has sought to prevent catastrophic economic 
losses from such attacks through the passage of the Terrorist Risk 
Protection Act (H.R. 3210).
    The Financial Services Committee has done an extensive review of 
its jurisdiction as it relates to the President's proposal to create a 
Department of Homeland Security (H.R. 5005). The Committee strongly 
supports the efforts of the President and the Select Committee on 
Homeland Security to create a new executive department that will 
coordinate resources in an effort to prevent attacks on the United 
States.
    While the Committee will not mark up H.R. 5005, it would like to 
identify its jurisdiction over this legislation and reserve its right 
to consider the issues within our jurisdiction in the future. The 
Committee believes that it is in the best position to continue 
oversight of these programs, regardless of what executive department 
they are located.
    The following represents our views about how the programs within 
our jurisdiction will integrate into the new Department of Homeland 
Security:

                  FEDERAL EMERGENCY MANAGEMENT AGENCY

    The Committee has jurisdiction over three programs within the 
Federal Emergency Management Agency (FEMA) that would become the 
responsibility of the new department created through H.R. 5005. These 
programs are: the National Flood Insurance Programs, the Defense 
Production Act and the Emergency Food and Shelter Program. FEMA's 
mission is to prevent, prepare for, respond to, and recover from 
disasters of all types. The, Committee believes that the expertise of 
FEMA in consequence management is critical to the function of the 
proposed Office of Homeland Security

    National Flood Insurance Program--The National Flood Insurance Act 
of 1968 (42 USC 4001 et seq.) created the National Flood Insurance 
Program (NFIP) and authorized the Director of FEMA to administer the 
Federal Insurance Administration (FIA). The FLA provided insurance 
protection for properties which are vulnerable to floods, but not 
insured by the private sector. Prior to passage of this act, insurance 
companies generally did not offer coverage for flood disasters because 
of the high risks involved. The legislation as amended in 1973 and 1994 
authorized the FIA and Mitigation Directorate to administer the NFIP. 
In 2001, the FJA and the Mitigation Directorate were brought together 
into a single organization, the Federal Insurance and Mitigation 
Administration (FIMA).
    FIMA has expertise in risk assessment, mitigation or loss 
prevention and insurance. Efforts such as resident education and flood 
mapping enable FEMA to reach out to residents in flood prone regions 
and protect against preventable losses. These services work in 
conjunction with the NFIP and have proven successful in building 
relationships in regions where floods are a threat to property and 
lives. The Committee understands that FIMA's risk assessment programs 
are now being designed to assist local communities to identify and 
address their vulnerabilities from natural and man-made disasters.The 
Committee views FEMA's efforts to prevent and mitigate damage from 
floods as critical to the protection of lives and property. The 
Committee further believes that it is important that the NFIP and the 
FIMA to work together efficiently in the prevention of losses from 
floods and from other disasters and for that reason should for the time 
being remain within FEMA as it is transferred to the Department of 
Homeland Security. FEMA's programs may be reviewed by the Committee in 
the future in an effort to improve their operation and to ensure that 
users are properly served.

    The Defense Production Act--The goal of the Defense Production Act 
of 1950 (50 USC App. 2062) (DPA) is to ensure that the United States 
has the ability to mobilize industrial and other civilian resources in 
support of national defense an civil emergency preparedness maintain 
military readiness when there is a threat to national security. The DPA 
is essential to the protection of the United States in so far as it 
uses economic tools to provide uninterrupted supplies of industrial 
resources in times of military crisis and civil emergency.
    The DPA authorizes FEMA to coordinate Federal agencies' decisions 
concerning the provision of transportation services, the priority 
availability of civil defense resources, materials, services and 
facilities to ensure the dispersal of such resources in the interest of 
national defense. The DPA was reauthorized by the Financial Services 
Committee in 2001 for two years (F.L. 107-47).
    The Committee believes the DPA is an important mechanism for the 
protection of the United States and should be located in the new 
Department of Homeland Security. Through the President's proposal, the 
DPA will be very important to mobilize national defense and civil 
emergency preparedness resources in the event of a terrorist attack or 
in an effort to ensure that there is adequate preparation to prevent 
such an attack.
    T2The Emergency Food and Shelter Program--The Emergency Food and 
Shelter Program (EFSP) (P.L. 100-77) is governed by a national board 
consisting of several charitable organizations and is chaired by FEMA. 
The goal of this program is to allocate Federal funds for the provision 
of food and shelter. The national board awards funds to jurisdictions 
based upon a formula. Further, a small portion of the overall award is 
allocated by formula to state set-aside committees which then allocate 
funds to jurisdictions based upon the criteria they feel is most 
appropriate. The EFSP seeks to ensure that allocations are quickly made 
to neediest areas of the country, that the public and private sectors 
cooperate, and that decisions are made at the local level. In 2001, 
$140 million in aid was distributed through this program.
    It can be argued that the operation of food and shelter programs 
has little to do with the protection of the United States from 
terrorist activities. However, the EFSP is a critical program which 
supplies food and shelter to needy people in emergency situations, and 
to ensure that the program remains effective and functional, the 
Committee recommends that it remain within FEMA at this time. The 
President's 2003 budget proposal calls for the EFSP to be moved from 
FEMA to the Department of Housing and Urban Development. This could be 
an effective allocation of Federal resources to aid those in need, and 
the Committee may examine the viability of such a move in the future.

                      UNITED STATES SECRET SERVICE

    The Committee commends the President for his proposal to move the 
United States Secret Service (USSS) to the new Department and maintain 
it as a ``distinct entity'' outside the four major jurisdictional 
cylinders established under the new Secretary. The Committee believes 
that the long dual-role history of the Service--investigative and 
protective--combined with its more recently developed expertise in 
preventing and investigating cyber crimes and its core mission of 
protecting the financial system of the United States, make the USSS 
uniquely suited to draw from and augment the work of the other 
component agencies of the new Department.
    Since its founding in 1865 as the first investigative arm of the 
United States government and the protector of the integrity of U.S. 
currency, the Service has been the primary guardian of the country's 
financial services--banks, currency and payment systems. The added 
mission of personal protection, dating to 1901 following the 
assassination of President William McKinley, built on the Service's 
expertise at preventing crimes. That mission statement was expanded 
again in 1984 with passage of the Omnibus Crime Control Act (P.L. 98-
473), adding jurisdiction over new crimes involving identity theft, 
access devices such as credit cards, and computer crimes. In 1994, 
further jurisdiction was added, recognizing USSS expertise 
investigating fraud against financial institutions. Today, the Secret 
Service has over 6,000 employees, an annual budget of just over $1 
billion and 125 field offices across the United States and around the 
world.

    Infrastructure Protection-- Springing from the Service's personal-
protection role is the unique and important duty to protect critical 
infrastructures of the United States. The Committee believes this role 
should become an enhanced portion of the Service's duties at the new 
Department.
    The events of September 11 reinforce lessons the Committee learned 
in efforts to protect against financial-system and infrastructure 
failures due to the Year 2000 problem: that in an increasingly 
computerized and inter-connected world, the failure of a seemingly 
innocuous system can cause panic, deaths or economic calamity. Recent 
news stories indicating that Al Qaeda operatives have been probing the 
cyber security of U.S. power systems and dams as well as banks and 
defense systems show that the lesson has not been lost on terrorists, 
either. A serious compromise of these electronic networks could wreak 
havoc on our economy, law enforcement, military, health care, 
transportation and emergency services.

    Cyber Crime--Cyber criminals have devised sophisticated programs 
and techniques to defraud both consumers and private industry through 
electronic means. In response, the Secret Service has developed new 
tools to combat the growing areas of cyber terrorism, financial crime 
and computer fraud. These techniques include the widely respected 
Electronic Crimes Special Agent Program and the series of task forces 
modeled on the New York Electronic Crimes Task Force that are now under 
development. The former program provides specialized training to select 
agents in all areas of electronic crimes, qualifying those personnel as 
experts in the forensic examination of electronic evidence. The USA 
PATRIOT Act, to which the Committee contributed a major title, 
authorized the Secret Service to establish a nationwide network of 
cyber crime task forces, based on the New York model that uses an 
innovative approach allowing local, state and national law enforcement 
agencies to combine their resources and experience with those of 
prosecutors, the private sector and academic institutions to deter 
electronic crimes of all sorts. In recent months, the Service has 
launched similar task forces across the country. The Committee strongly 
supports these efforts and believes they can be instrumental in 
preventing crimes that could disrupt the financial systems of the 
United States.

    Anti-Counterfeiting--The Service's original mission in 1865 was to 
block the counterfeiting of the newly issued national currency, and 
while the mission does not today have the profile of protecting the 
President, it remains a core function. Indeed, the USSS anti-
counterfeiting efforts may be even more important today than they were 
a century ago, as the U.S. dollar is the reserve currency of the world, 
is the official currency of a number of countries, and is the default 
currency of many more. The public's faith in the integrity of the 
dollar is at the heart of the stability of the U.S. economy.
    Thus, the Committee believes that the Service's efforts to combat 
counterfeiting deserve continued and enhanced emphasis. Recent 
discoveries in Colombia of credible counterfeits of the new U.S. one-
dollar coin and in both Colombia and in areas of Eastern Europe of 
counterfeit plants producing or ready to produce both U.S. banknotes 
and the new Euro banknotes indicate the magnitude of the problem. The 
Committee believes that the continued growth of counterfeiting by 
personal computer in the U.S. eventually will be mirrored overseas, 
where counterfeiting still mostly is done on presses and is thus 
somewhat easier to interdict. Also, the Committee believes that the 
establishment of more overseas field offices so that agents can gather 
and act on information first-hand--rather than relying on other Federal 
law agencies or other countries' law-enforcement--will increase the 
ability to stop counterfeiting.
    Given the demonstrated nexus between counterfeiting, drug-running, 
arms-smuggling and terrorism, the Committee strongly believes that 
trying to staff anti-counterfeiting and other anti-crime and threat-
assessment efforts for all of Central and South America and the 
Caribbean (except Colombia) from a single office in Miami is simply not 
practical anymore.
    The Committee further believes that the Service's recent agreement 
with Europol to jointly police against counterfeiting is an important 
move and a model for other law enforcement that should be encouraged. 
The Committee stands ready to enhance other anti-counterfeiting law, as 
appropriate.

    Financial Crimes--The Service's pedigree as the only Federal 
investigative unit until some of its agents were detailed to help form 
the Federal Bureau of Investigation in 1907, and its position within 
the Department of the Treasury, naturally led to a good relationship 
with the financial services industry and successes in stopping 
financial crimes. In the 1 980's, with the advent of relatively new 
technologies such as computers and credit cards came a wave of an 
entirely new sort of bank and financial fraud, and the 1984 Act created 
three new criminal statutes--Title 18, Sections 1028, 1029 and 1030--to 
deal with fraud in conjunction with identity documents, access device 
fraud arid computer crimes, giving the Service major new authorities 
and clear jurisdiction. The USA PATRIOT Act cemented the Service's 
jurisdiction over Sections 1030 and 1344. The Committee believes that 
the Service's role in these areas, as well as the assessment of threats 
against financial services companies and the protection of that 
infrastructure--communications, power, etc.--vital to those companies, 
is invaluable and should be emphasized.

    Monetary Security--While the President's legislative proposal for 
the new Department does not suggest consolidating the Treasury 
Department's monetary security forces into the new Department, the 
Committee believes that this could be an important step that should be 
closely examined. Currently the United States Mint and the Bureau of 
Engraving and Printing (BEP) maintain separate security forces that 
over the years have had varying degrees of success. The Committee feels 
that transferring this mission to the Secret Service in the new 
Department would have important benefits both to the security of the 
facilities that produce the country's currency and coins, and also to 
the security of U.S. gold reserves held at Fort Knox, currently under 
the supervision of the Mint. Noting that the BEP currently relies on 
the USSS heavily for consultations on its security arrangements, the 
Committee further believes that moving this mission to the Service may 
allow the currency- production arms of the Treasury to concentrate on 
what they do best and allow the Service to train its newest agents in a 
different form of protection detail, ultimately enhancing their 
abilities.
    The Financial Services Committee strongly supports the efforts of 
the President and the Select Committee on Homeland Security to protect 
our citizens from terrorist attacks. While the Committee waives its 
referral of H.R. 5005, its Members stand ready to assist in the 
structuring of the envisioned Department of Homeland Security if such 
assistance is requested.

Yours truly,

MICHAEL G. OXLEY
Chairman

BARNEY FRANK
Ranking Member

THE HONORABLE CHARLES B. RANGEL, AND RANKING MEMBER OF THE COMMITTEE ON 
                             WAYS AND MEANS

    Chairman Diaz-Balart and Ranking Member Slaughter, I appreciate the 
invitation to present my formal views to Members of the Subcommittee on 
Rules regarding the Select Committee on Homeland Security (``the Select 
Committee''). Establishment of the Select Committee for the 1 08 
Congress was necessary to insure effective oversight and coordination 
in the creation of the Department of Homeland Security (DHS). Without 
question, the Committee played a valuable role in implementing the 
Homeland Security Act of 2002, monitoring the activities of the DHS, 
and providing a meaningful Congressional forum for discussion of our 
homeland security activities, problems, and concerns.
    On the issue that is the subject of this hearing, the future of the 
Select Committee, I believe that there could be a continued role for 
the Select Committee to play, particularly with regard to coordinating 
the oversight and authorization activities of the various House 
committees that retain primary jurisdiction over elements of the 
Department of Homeland Security. That said, I do believe that the 
Committee on Ways and Means continues to have an important role in 
directly overseeing the customs activities of DHS, and in particular, 
the Customs and Border Protection (CBP) division. Much of the customs 
work done at CBP directly relates to revenue measures (e.g., collection 
of duties and implementation of U.S. trade laws, including laws related 
to U.S. trade agreements).
    My current view is consistent with the position I took during 
passage of the Homeland Security Act of 2002. There I expressed strong 
reservations about the movement of the former U.S. Customs Service 
(USCS), which dealt with the movement of people, goods and cargo across 
our borders, from the Department of the Treasury to the new Department 
of Homeland Security.
    My reservations stemmed, in large part, from the simple fact that 
the USCS played a unique role among all of the border agencies. USCS 
had a two-fold mandate--it was an enforcement agency and trade 
facilitation agency. On the enforcement side, USCS policed the borders 
to prevent the entry of contraband (drugs, hazardous materials, 
terrorist implements, etc). On the trade facilitation side, USCS 
processed imports, collected duties, produced trade statistics, 
determined classification of products, and monitored and prevented the 
illegal transshipment of goods.
    During the debate over the creation of the Department of Homeland 
Security, I wanted to make clear, if the USCS were moved from Treasury, 
that whatever reconstituted agency emerged would not be dominated by a 
focus on enforcement activities to the detriment of trade facilitation. 
The compromise eventually adopted in the Committee on Ways and Means, 
which preserved certain core trade positions from USCS at Treasury, 
attempted to address part of that concern, albeit imperfectly. I say 
imperfectly because many elements of the USCS were still moved to DHS, 
even though they are involved in what I view as essentially trade 
facilitation activities.
    As you know, the Committee on Ways and Means' jurisdiction on 
trade- related issues includes ``customs and customs administration . . 
.procedures which relate to customs operations affecting exports and 
imports. . .budget authorizations for the U.S. Customs Service. . . .'' 
Given the continued trade focus of aspects of the CBP, the Committee on 
Ways and Means should continue to have primary jurisdiction over the 
trade facilitation aspects of the agency. Committee on Ways and Means 
oversight is necessary to ensure that trade facilitation does not 
become a secondary function of the CBP but rather continues as a tier-
one priority along with border security and enforcement, as it was 
under the former USCS.
    The trade-related nature of many of CBP's activities is evident 
from many of the primary projects CBP is pursuing as part of its core 
operations.
    First, take the Customs-Trade Partnership Against Terrorism (C-
TPAT) which is a partnership between the Federal Government and 
industry. Under the program, participating companies agree to adopt 
``best practices'' to improve the security of their shipments from the 
factory floor to the foreign loading docks to the U.S. border points of 
entry. Those companies meeting security standards are then given a fast 
lane through border crossings and sea ports.
    C-TPAT obviously serves two purposes. First, it helps CBP ensure 
that incoming cargo to the United States contains legitimate trade and 
has not been compromised by terrorists or smugglers of contraband. 
Second, and equally important, C-TPAT faciliates trade. It allows 
companies importing goods into the United States to get those goods 
processed in a timely, efficient manner. In this era of just-in-time 
delivery, this is crucial to the survival of any company.
    Second, take the Automated Commercial Environment (ACE) which is 
the new trade processing system that will enable CBP to track, control, 
and process all commercial goods imported into and exported out of the 
United States. ACE was developed to replace the former USCS's existing, 
outdated automation system, which could not handle the massive increase 
in the volume of United States trade. A recent U.S. General Accounting 
Office study reported that the benefits of ACE include ``speeding the 
flow of legitimate commerce into and out of the United States . . . and 
providing a single interface between the trade community and the 
Federal Government for trade data.''
    Third, consider how the CBP's core mission is described in the 
President's fiscal year 2005 budget justification materials: ``CBP . . 
. implements and enforces the international trade agreements, such as 
the North American Free Trade Agreement . . ., the African Growth and 
Opportunity Act . . ., the Andean Trade Act, and the Caribbean Basin 
Initiative. In some instances, CBP officials are involved in trade 
negotiations on trade agreements. Other issues that CBP is involved in 
are the enforcement of the Trade Act of 1930 This can include taking 
enforcement action for any forced child labor or anti-dumping 
countervailing violations Also in support of domestic industry, CBP 
enforces . . . laws pertaining to intellectual property rights . . . . 
CBP administers and enforces any quotas on specific products such as 
textiles.''
    Finally, consider that in fiscal year 2003, CBP processed 26.1 
million import entries, valued at over $1.2 trillion, and collected 
$24.7 billion in duties and fees.
    I understand that CBP has other responsibilities. After all, the 
agency is not just comprised of the former USCS. It has immigration 
inspectors from the former Immigration and Naturalization Service, 
agricultural border inspectors from the Agriculture Department, and the 
entire Border Patrol. The total number of employees in CBP is 40,000. 
The Ways and Means Committee, of course, does not have jurisdiction, 
nor would I argue we should have, over these other elements of CBP. 
Other standing Committees have the requisite expertise to handle such 
matters.
    As I indicated from the outset, I do believe that the Select 
Committee could have a role to play in coordinating the activities of 
the standing committees of jurisdiction and in providing technical 
support on a bipartisan basis. Further, continued oversight of DHS 
priorities and decisions will undoubtedly create balanced, ``good 
government'' analyses that will benefit all Members of the Congress.
    In conclusion, I want to again support the efforts of the Select 
Committee on Homeland Security. It is only with our commitment and 
cooperation that, together, we can fight international terrorism and 
protect our borders at home.

  THE HONORABLE C.W. BILL YOUNG, CHAIRMAN OF THE SUBCOMMITTEE ON RULES

    Ladies and Gentlemen of the Subcommittee on Rules, I am pleased to 
share with you today my observations and reflections of the House 
Committee on Appropriations' oversight structure for homeland security 
programs and activities. These observations are based upon my 
experience of reorganizing the House Committee on Appropriations last 
year. I believe that the House Committee on Appropriations is the only 
committee of the House that has permanently reorganized in the wake of 
the tragic events of September 11, 2001, and the establishment of the 
Department of Homeland Security. Doing so was no small task. In fact, 
the last reorganization of the Committee on Appropriations was some 3 
decades ago and is indicative of the difficulty in proposing and 
implementing change in this institution.
    The Committee was guided by several principles in developing and 
implementing its reorganization plan: firstly, the committee needed to 
provide a structure of oversight to the Department of Homeland 
Security. The department itself lacked an institutional structure; it 
was a conglomeration of several disparate agencies. Secondly, we had to 
create a subcommittee that was comprised of members and staff that had 
the credibility and tenacity to provide effective oversight over a 
nascent department with arguably some of our government's most 
important programs. We had to move quickly, without regard to political 
turf, and we had to move unilaterally. I would like to expound on each 
of these points briefly.
    The imperative for the Committee (and the department presumably) 
from the outset was to provide a structure for the legacy agencies to 
coalesce into a single department with a coordinated, unified mission. 
The vast number of agencies, accounts and programs that were 
transferred to the new Department of Homeland Security cut across the 
majority of our thirteen subcommittees. Clearly, it would not be 
physically possible for the Secretary of the Department of Homeland 
Security to testify before each of seven appropriations subcommittees, 
an equal number of authorizing committees, and to organize a new 
department, and most importantly, to improve our nation's security. And 
just as the Secretary could not focus on his new job at hand and 
testify and report to several different subcommittees, the Committee 
would find it equally difficult to provide consistent oversight and 
appropriate funding levels if the myriad of the department's programs 
and activities were scattered across seven subcommittees. It was 
obvious to me early that we needed to reorganize--to provide a 
structure to ourselves and for the new agency that we were to oversee 
and fund.
    Like national defense, homeland security should be above political 
infighting. To that end, we decided that the new subcommittee should be 
an ``exclusive'' subcommittee, comprised of members with previous 
oversight experience of the programs of the new department and had who 
proven themselves to be thoughtful, deliberative and above the 
political fray. We felt that these traits were important for the 
members to serve on this subcommittee since, in the absence of a single 
permanent committee with exclusive jurisdiction of homeland security 
programs, this subcommittee would be the sole committee providing 
continuing oversight without regard to inter-authorizing committee 
jurisdictional concerns. Just as it was important to ensure that the 
members of the subcommittee had oversight experience, we drew from the 
senior committee personnel to staff the new subcommittee. The staff has 
extensive program management, administrative and legislative 
experience. Members and senior staff were moved from our old 
transportation, energy and water, and treasury/postal subcommittees. 
Doing so ensured effective oversight and a structure to produce a 
bipartisan bill in a timely manner.
    Lastly, the decision was made to act decisively and unilaterally. I 
briefed the chairmen of the affected subcommittees and my leadership of 
the planned reorganization. I selected the new chairman. And I acted. 
Broad discussion with stakeholders would have proven fatal to a 
reorganization that had to be in place quickly to ensure our 
government's newest department was up and running quickly with proper 
and effective management controls in place and robust and continuing 
oversight conducted by the Appropriations Committee. Within a few short 
weeks, the Senate replicated the House Committee on Appropriations' 
reorganization.
    I hope that my experience in reorganizing the Committee on 
Appropriations proves useful to you as you consider the appropriate 
authorizing structure of the programs of the Department of Homeland 
Security.

                                 <all>

</pre></body></html>
